<html>
<title> - DEVELOPMENT IN LINCOLN COUNTY, NEBRASKA; DESIGNATE WILDERNESS IN OREGON; AND REFORESTATION OF APPROPRIATE FOREST COVER ON FOREST LAND</title>
<body><pre>[Senate Hearing 108-737]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-737
   DEVELOPMENT IN LINCOLN COUNTY, NEBRASKA; DESIGNATE WILDERNESS IN 
  OREGON; AND REFORESTATION OF APPROPRIATE FOREST COVER ON FOREST LAND

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   on

                                S. 2532

  TO ESTABLISH WILDERNESS AREAS, PROMOTE CONSERVATION, IMPROVE PUBLIC 
 LAND, AND PROVIDE FOR THE HIGH QUALITY DEVELOPMENT IN LINCOLN COUNTY, 
                                 NEVADA

                                S. 2709

TO PROVIDE FOR THE REFORESTATION OF APPROPRIATE FOREST COVER ON FOREST 
       LAND DERIVED FROM THE PUBLIC DOMAIN, AND FOR OTHER PRPOSES

                                S. 2723

TO DESIGNATE CERTAIN LAND IN THE STATE OF OREGON AS WILDERNESS, AND FOR 
                             OTHER PURPOSES

                               __________

                           SEPTEMBER 14, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
97-600                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington
                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                  CONRAD BURNS, Montana, Vice Chairmaa
GORDON SMITH, Oregon                 RON WYDEN, Oregon
JON KYL, Arizona                     DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            EVAN BAYH, Indiana
                                     DIANNE FEINSTEIN, California

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                 Dick Bouts, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Craig, Hon. Larry E., U.S. Senator from Idaho....................     1
DiStefano, Chris, Board Member, International Mountain Bicycling 
  Association....................................................    42
Ensign, Hon. John, U.S. Senator from Nevada......................     7
Gibbons, Hon. James A., U.S. Representative from Nevada..........    25
Hafen, Spencer W., County Commissioner, Lincoln County, NV.......    73
Hiatt, John, Conservation Chairman, Red Rock Audubon Society, Las 
  Vegas, NV......................................................    56
Malone, Linda, Mayor, City of Sandy, OR..........................    47
Mulroy, Patricia, General Manager, Southern Nevada Water 
  Authority......................................................    64
Newton, Michael, Professor Emeritus, Department of Forest 
  Science, Oregon State University...............................    31
Pillard, Ellen, Chair of Sierra Club's Toiyabe Chapter in Nevada.    70
Porter, Hon. Jon, U.S. Representative from Nevada................    93
Reid, Hon. Harry, U.S. Senator from Nevada.......................     3
Rey, Mark, Under Secretary, Natural Resources and Environment, 
  Department of Agriculture......................................    18
Smith, Hon. Gordon, U.S. Senator from Oregon.....................     2
Spadaro, Jason, President, SDS Lumber Co., Bingen, WA............    35
Ward, Jay, Conservation Director, Oregon Natural Resources 
  Council, Portland, OR..........................................    49
Watson, Rebecca W., Assistant Secretary for Land and Minerals 
  Management, Department of the Interior.........................    13
Wyden, Hon. Ron, U.S. Senator from Oregon........................    11

                                APPENDIX

Additional material submitted for the record.....................    77

 
   DEVELOPMENT IN LINCOLN COUNTY, NEBRASKA; DESIGNATE WILDERNESS IN 
  OREGON; AND REFORESTATION OF APPROPRIATE FOREST COVER ON FOREST LAND

                              ----------                              


                      TUESDAY, SEPTEMBER 14, 2004

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:48 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Larry E. 
Craig presiding.

  OPENING STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR FROM 
                             IDAHO

    Senator Craig. Good afternoon, ladies and gentlemen. Let us 
apologize for running a bit late. We've had votes that got 
scheduled at the last minute, as we're in the final days of 
this session--or, I should say, before recess and/or 
adjournment in or around the 8th of October.
    But I want to welcome everyone to this hearing of the 
Public Lands and Forests Subcommittee of Energy and Natural 
Resources. I especially want to welcome Senator Reid--who will 
be arriving soon--and Senator Ensign, who are here to give 
testimony today on S. 2532, the Lincoln County Conservation, 
Recreation, and Development Act of 2004. I know this is a very 
important piece of legislation to the city of Las Vegas.
    I want to welcome our ranking member, who is yet to arrive, 
but I know he is en route, we chatted a few moments ago--Ron 
Wyden, of Oregon--as well as his colleague, my colleague, 
Senator Gordon Smith, who is with us, of Oregon. We will hear 
testimony on S. 2709, the National Reforestation Act of 2004, 
and S. 2723, the Lewis and Clark Hood Mountain Wilderness Act 
of 2004.
    Given the number of acres that have burned in the West in 
the last decade, I believe that what Senator Smith is doing is 
a great service by introducing S. 2709. And who couldn't help 
but get excited about a wilderness bill named after Lewis and 
Clark. They're into the Dakotas at this moment. They have 
stopped their movement westward for the year, and they're 
beginning to build a winter camp. And so we hope the Indians in 
that general area will be peaceful for the balance of winter 
and early spring before they head out again. The Lewis and 
Clark and the Mount Hood areas--of course, these mountains 
guard the great city of Portland, Oregon.
    I see we have two public panels of witnesses to testify on 
these three bills, and I want to welcome all of you and thank 
you for taking the time to come and testify on these bills.
    Last, but not least, I certainly want to welcome Under 
Secretary Mark Rey and Assistant Secretary Rebecca Watson back 
yet one more time this year before our committee to give 
testimony on these key pieces of legislation.
    I will keep my remarks very short.
    In the case of S. 2532 and S. 2723, I see wilderness bills 
that include provisions not normally addressed in this type of 
legislation. I want the sponsors to know that I believe that 
introducing such bills makes it more difficult to resolve these 
kinds of proposals in our Committee. In my view, wilderness 
legislation proposals that stay within the four squares, if you 
will, of the 1964 Wilderness Act are proposals that move most 
quickly. But we will work through this effort with the 
committee and with the principals involved here to attempt to 
resolve the collection of issues I see there.
    In the case of S. 2709, I think it is important 
legislation, and I want to thank Senator Smith for its 
introduction. I am concerned that it could be interpreted to 
require the Forest Service to have to plant trees in 
wildernesses or other areas withdrawn from active management. 
But I will be happy to work with the Senator to clarify the 
limits of the requirements to plant after fires and other 
natural events that deforest our public lands.
    We have a very full hearing. I will be enforcing the 5-
minute rule--or, I should say, my colleague Gordon Smith will 
be enforcing the 5-minute rule so that we can get the testimony 
out of the way and have an opportunity to ask questions of 
those who are here to give testimony.
    I'm going to have to leave in a few moments to a full 
appropriations markup on a couple of key pieces of legislation, 
one of them that involves your budget, Rebecca, and one of them 
that involves your budget, Mark. And so I suspect you would 
want me there, rather than here, and that is where I'll be.
    Anyway, we want to thank you very much for attending today. 
And Representative Gibbons, of Nevada, will also be here.
    Now, let me turn to my colleague Gordon Smith for any 
opening statements he wants to make. And in so doing, I'm going 
to transition the gavel to you, if you want to assume this 
position.
    Again, thank you all for attending today.

         STATEMENT OF HON. GORDON SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith [presiding]. Thank you very much, Mr. 
Chairman.
    And let me say, at the outset, on the Lewis and Clark Mount 
Hood Wilderness Act of 2004, this is a piece of legislation 
that my colleague Ron Wyden has introduced, and I am working 
with him in good faith on this. I am not opposed to this 
legislation, but I feel it important to raise concerns that I 
have with him as we work towards a resolution.
    And I will be candid, there are three areas where I have 
some concern. And, for the record, let me state this, but, as a 
predicate, make it clear that something that both I and Senator 
Wyden value a great deal is a constructive working relationship 
together for Oregon's sake. And as we work together on this 
piece of legislation, that relationship will not be put in 
jeopardy.
    And do we want to hear from Senator Reid now?
    Senator Craig. Go ahead and make your opening statement.
    Senator Smith. Senator Reid, are you in a hurry? Because I 
would interrupt my statement for you.
    Senator Reid. The honest fact is, Senator Cochran is 
waiting for me on the Senate floor. We're trying to finish this 
bill.
    Senator Smith. I would actually prefer to make my statement 
with Senator Wyden here.
    Senator Reid. He will be here. I just saw him check into 
the men's bathroom.
    [Laughter.]
    Senator Smith. He's getting up there, it may be awhile, I 
don't know.
    [Laughter.]
    Senator Smith. Then, Senator Reid, let us--I'm going to 
withhold on my opening remarks, then, and we will turn to your 
opening comments.

          STATEMENT OF HON. HARRY REID, U.S. SENATOR 
                          FROM NEVADA

    Senator Reid. Senator Craig, if I could just say, I really 
appreciate very much you and Senator Wyden and others arranging 
this hearing. I appreciate it very much.
    Let me say, this bill is very important, and it does 
something I think could be a model for what goes on around the 
country.
    Nevada is a unique State. It is the most urban State in 
America. People don't realize that. Ninety percent of the 
people live in the metropolitan Reno/Las Vegas areas. Only 10 
percent of the people live outside of those two metropolitan 
areas. But the 10 percent are just as important as the rest of 
the people within the State.
    This bill involves Clark County, the most populous county 
in the State of Nevada. We don't know how many people are 
there, but approximately two million people in Clark County. 
Lincoln County is adjacent to Clark County--in fact, in 1908, 
they were split. At one time, Lincoln County was the largest 
county, area-wise, in the entire country. But today it's a 
county that has about 5,000 people in the whole county. It's a 
large county, still, area-wise.
    Ninety-nine percent of Lincoln County is owned by the 
Federal Government. They have no tax base to do anything. They 
are desperate for some way to build schools. The last school 
was condemned, and the State legislature, in spite of Nevada 
really believing in local control of schools, had to pay for 
the building of a new school, because it had been condemned. 
This is a bill that Senator Ensign and the entire congressional 
delegation from Nevada, believes is a win for both Lincoln and 
Clark Counties. It will help Clark County with many of its 
problems, and it will help Lincoln County with their problems.
    Senator Ensign and I did a bill for southern Nevada which 
we think is a model for this. It takes care of the very 
difficult problems we have dealing with wilderness, which is so 
contentious on a lot of occasions. But even though Senator 
Ensign and I have different views on what should happen with 
wilderness, this was a compromise, the southern Nevada lands 
bill, the same as with the Lincoln County lands bill. It's a 
very good bill, because Senator Ensign and I are both unhappy 
with the situation and I think that's a good sign that the bill 
is good. And we have really worked hard to compromise. We think 
we have something that is good for the most populous county and 
one of the least populous counties in the entire state of 
Nevada.
    And we appreciate very much this subcommittee moving this 
as quickly as you can. It is very important to both Clark and 
Lincoln Counties that we move this legislation.
    Senator Smith. Thank you, Senator Reid. We will heed your 
advice. And even Senator Wyden and I could learn something from 
the example you're setting there, I'm sure.
    Senator Reid. I will say this to everyone here assembled. 
Senator Smith/Senator Wyden really did set a good example for 
Senator Ensign and I. I think you have been a model of how two 
Senators with opposite political persuasions can get along for 
the good of the State, and we've watched you very closely. And 
Senator Ensign and I have tried to model our performance after 
the two of you.
    Senator Smith. Thank you very much.
    Senator Wyden. Without turning this into a bouquet-tossing 
contest, let me say, in addition to a thank you for those kind 
words, Senator Reid, I have looked at the bill that you and 
Senator Ensign have put together. I think it is an excellent 
bill, and I intend to work with Senators Smith and Craig and 
all of our colleagues here to see if we can move it just as 
quickly as possible. It's a fine bill.
    Senator Reid. Thank you.
    Senator Smith. Thank you.
    Senator Ensign or Congressman Gibbons aren't here yet. I 
don't see them. Why don't I, in the interest of time--we've 
started, Ron, and I was just indicating that, on your Mount 
Hood Wilderness bill, that this was not a bill I opposed, but a 
bill that you and I are working on, and in good faith. And I 
was going to raise three areas of concern that I have that we 
are working on. And I can let you go first, if you would 
prefer.
    Senator Wyden. No, whatever is your pleasure. I thank you, 
as usual, for your thoughtfulness. And we are, in fact, going 
to work very closely together with this, as on all matters for 
our State.
    Senator Smith. Let me, then, discuss openly some of my 
concerns about wilderness on Mount Hood, about my willingness 
to proceed on this bill.
    Wilderness, I think, as everyone here knows, is the most 
rigid land-management designation that is available to the U.S. 
Congress. In fact, this one is very close to our largest 
metropolitan area. And my concern is that we would do this and 
find some unintended consequence that affects the lives and the 
livelihoods of lots and lots of people living in and around 
that mountain.
    So what I'm trying to do is focus on what are the real 
risks to that area, that mountain and its resources, and what 
are the right solutions?
    One of the things that may be suggested as a problem is 
timber harvest on Mount Hood. The people of Portland don't want 
to see timber harvests close to them. I understand that. And 
yet I also want to say that the threat of timber harvesting on 
Mount Hood is negligible anymore. And I have a chart that I 
think would be helpful for the people viewing this to see so 
you will understand what has happened long ago, in terms of 
timber harvests on Mount Hood.
    And maybe you can show the folks. I've seen it.
    This is what's happened to timber harvests over a number of 
years. So this designation should not be seen about protecting 
trees. The trees around Mount Hood are not going to be 
harvested; and that's on the basis of current law, not 
additional law.
    Secondly, or rather as part of this first concern, part of 
the land that is included in Senator Wyden's proposal are what 
are known as matrix lands, those lands which are still managed 
for the President Clinton's Northwest Forest Plan. And so one 
of my concerns is, if we're taking matrix off of this land, 
shouldn't we place matrix on some other place that is of less 
environmental concern to people? And my feeling is that we 
should, because right now, with all that the Bush 
administration is doing, even they are only meeting 22 percent 
of what President Clinton promised, in terms of sustainable 
harvest, in the State of Oregon. So we're a long way from 
meeting the commitments that President Clinton made, even as 
administered by President Bush. So my view is, let's figure out 
where to put some of the matrix lands when we take it away from 
this.
    Secondly, I know Senator Wyden has made a great effort to 
include the concerns of mountain-bikers, snowmobiles, and 
recreational groups. I would also throw in there the elderly, 
the disabled, people who are used to going to Mount Hood and 
want to continue going. And I'm concerned that they continue to 
have the ability to recreate without leaving the state of 
Oregon for these kinds of activities.
    This legislation, as proposed, impacts roughly 460 miles of 
snowmobile trails, and I'm interested to find out what we are 
doing to provide for this interest, because I know there are 
lots of people that like to snowmobile up there. And I am 
concerned about what impact this may have on the Mount Hood ski 
bowl, as well.
    So my third and final concern on the bill is how it 
overlays with existing environmental laws, such as the Clinton 
Northwest Forest Plan and the Columbia River Gorge National 
Scenic Act. These things need to be going in the same direction 
and not at cross purposes. I know Congressmen Walden and 
Blumenauer are holding meetings on this, and are trying to work 
on that side of the Hill to a resolution of these concerns.
    So those are my three areas of inquiry on the bill, and 
Senator Wyden and I will work on those together in good faith.
    My final comment is about S. 2709. This is a bill that 
concerns me greatly because of some of the things that are 
happening with respect to the Healthy Forest Initiative, its 
ability to proceed, the ability to get salvage off in a timely 
manner, and all that goes into obstructing efforts to manage 
the land in a way that grows trees and that ultimately leaves 
our environment something other than just a charcoal moonscape.
    And I am aware that, right now, on the Biscuit Fire, there 
are lawsuits enjoining anything from going forward. And I am 
concerned about that, because I think that time is of the 
essence, and opportunity is lost, and, as I view it, the 
environment is none the better.
    I have a couple of charts, if we could put those up. The 
first one is the Forest Service Reforestation and Timber Stand 
Improvement Report. This here shows us that overall funding 
for, and the actual reforestation, is decreasing, while the 
reforestation backlog has reached an all-time high. Nearly one 
million acres.
    There's another chart here. There's a stark difference 
between reforestation on Federal land and private land. This 
chart shows two areas within 100 feet of one another, both 
burned in the 1994 Hull Mountain Fire in southern Oregon. On 
the right is BLM land. On the left is Boise Cascade. The 
pictures speak more eloquently than I can speak to them.
    Federal law already requires that clear-cuts on Federal 
land be replanted within 5 years of harvest to assure the 
return to forest cover. That makes sense, since harvest removes 
the seed material for the next forest. What doesn't make sense 
is that there is no similar requirement after fires. 
Catastrophic wildfires have a far worse impact on the land and 
the water than even a Canadian-style clear-cut. These fires 
remove the seed source from the land, sterilize the soil, and 
lead to serious erosion that takes out roads, clogs fish-
bearing streams, and pollutes municipal watersheds.
    My legislation would simply trigger the same reforestation 
requirement for high-intensity forest fires--the same standard 
as we have for clear-cuts. It also triples the amount of 
funding going into the Reforestation Trust Fund from 30 million 
to 90 million, and authorizes cooperation with land-grant 
colleges like Oregon State University on rehabilitation 
projects.
    The real issue here is that Americans want green forests, 
not blackened ones. And if radical environmental groups and the 
Federal courts don't understand that, then the Congress needs 
to etch it clearly into the stone of Federal law.
    There is no better example of the need for statutory change 
than what is happening right now on the Biscuit Fire Recovery 
Project. The 2002 Biscuit Fire in Oregon was the Nation's 
largest in 2002 and in my State's history. After 2 years of 
analysis, the Forest Service announced a modest plan to salvage 
dead wood that covers a mere 5 percent of the burned area and 
reforest a total of 6 percent of the burn. But even this 
scaled-down rehabilitation plan is now being challenged by 
appeals and litigation. Forty percent of the value of the dead 
wood is already gone, because of bugs and blue stain. Between 
the rot and the risk of court-ordered delays, salvage sales may 
not even get sold. That means no funds will be generated for 
reforestation and replanting, and the Siskiyou National Forest 
will revert to brush fields and charcoal for the next hundred 
years. Court-ordered mediation is set to begin this week, yet 
environmental groups have secured an injunction in the Ninth 
Circuit, as I've indicated, on a third of the Biscuit Project, 
and more lawsuits may be filed.
    I cannot allow this to happen on my watch if I can do 
something about it, and I want to send a simple message to 
those involved in the Biscuit litigation. If mediation this 
week fails, and the Biscuit recovery gets tied into a judicial 
slipknot, I will advance legislation as a solution. I've 
introduced that solution as an amendment to my reforestation 
bill under consideration today, but, if needed, I will find an 
appropriate vehicle to attach it to in this session.
    The form of this should not be a surprise to anyone. It is 
the same form used by Senator Daschle, who recently faced a 
similar situation in South Dakota.
    My amendment protects all three records of decision for the 
Biscuit Fire Rehabilitation Project from judicial review and 
administrative appeal. It also includes a 63,000-acre 
wilderness designation that has been recommended by the Forest 
Service.
    Lastly, the amendment prohibits the Government from paying 
for the attorneys fees of anyone involved in the litigation, 
whether that be environmentalists, the timber industry, or a 
state. There is ample precedent for this action, even beyond 
South Dakota.
    In 1988, Congress passed language shielding the recovery 
project for the Silver Fire from judicial review. Ironically, 
the Biscuit Fire re-burned the same areas as the Silver Fire. 
And as recently as last year, Congress passed language allowing 
the recovery of forest fires in the Kootenai National Forest in 
Montana.
    This is an emergency situation, and we need to get the dead 
wood out and the new seedlings in on the ground as soon as we 
possibly can.
    That is my statement.
    Senator Wyden, would you like to go now?
    Senator Wyden. I think, Mr. Chairman--I see Senator Ensign, 
and we already tried to pass the Reid-Ensign bill in your 
absence, when Senator Reid was here. I think, Mr. Chairman, I 
would like to be courteous to Senator Ensign and let him go. 
And then when he's done, I could talk a bit about Mount Hood. 
But I want to welcome our colleague, and I think he has got a 
fine bill, and I already indicated I want to see it passed as 
quickly as possible.

          STATEMENT OF HON. JOHN ENSIGN, U.S. SENATOR 
                          FROM NEVADA

    Senator Ensign. I appreciate that, Senator Wyden.
    Thank you, Mr. Chairman, for allowing us to testify today. 
I will keep my comments very brief.
    Thanks, Senator Reid and Congressman Gibbons, for helping 
us with this legislation. It's really been a great bipartisan 
effort, and the entire Nevada delegation supports our 
legislation.
    I worked, when I was in the House of Representatives, on a 
piece of legislation for Clark County called the Southern 
Nevada Public Lands Management Act. That piece of legislation, 
at the time, was opposed. It took two different Congresses to 
get that through. All of the stakeholders were at the table--
environmental groups, the Federal Government, State 
governments, local developers, recreationalists--everybody was 
at the table when we were drafting this legislation. And it 
came down to, nobody was totally happy with the bill, but 
everybody said, ``Okay, we'll go forward with it.'' When you're 
dealing with these lands bills, there's a lot of different 
interests you have to keep track of and try to satisfy.
    Looking back on that legislation now, it has been model 
legislation, especially in States that have so much land owned 
by the Federal Government like in the State of Nevada.
    Senator Reid and I worked on another piece of legislation 
called the Clark County lands bill, where we used the previous 
legislation as a model and went even further. We designated 
Sloan Canyon as a place with petroglyphs, protected that. We 
designated some wilderness areas, took other places that were 
not wilderness off the table. And we provided for some economic 
opportunities and did a lot of things for the environment. And, 
once again, nobody was real happy about the legislation, but 
everybody, at the end of the day, looks back retrospectively at 
the legislation and says, ``That was a great piece of 
legislation.''
    Well, today we're talking about Lincoln County, which is a 
very large county, very sparsely populated county. 98 percent 
of the land there is owned by the Federal Government. They have 
very little opportunity for economic development. And they're 
landlocked. What the legislation does today is, it opens up 
87,000 acres. Some people say that sounds like a lot, but when 
you're talking about a county that is larger than a lot of the 
Northeastern States, it is really not a lot of land.
    We are designating 770,000 acres as wilderness. Some people 
wanted two million. Once again, some people didn't want any. So 
this was a compromise.
    The legislation allows for recreation, tourism, economic 
development, environmental protection. And, overall, I think it 
is going to be a very positive piece of legislation for the 
people in Lincoln County, as well as the people further down 
south, in Clark County.
    Senator Reid, Congressman Gibbons and I just did a townhall 
meeting up in Lincoln County on this piece of legislation. 
People turned out in pretty good numbers. It was nice to see 
the citizens participate in the process. There were people that 
weren't real happy with some pieces of the legislation, as we 
knew, that they would object to certain pieces. We have worked 
out almost all of the concerns locally. I think people are 
really excited about the legislation, and I'm looking forward, 
with your support, to getting this thing to the floor and 
getting it into law this year, because I think, once again, it 
will further the model of what we did in Clark County. We are 
trying to do this similar legislation in every county in the 
State. As you know, there is nothing more controversial than 
dealing with wilderness issues. And when you can do what we 
have done in this legislation and the Clark County Lands Bill, 
I think that eventually it could be even the model legislation 
that a lot of other Western States can use. If we can continue 
to prove success with it in bringing all of the various groups 
together, I think it will go a long way toward solving some of 
this controversial work that we have left to do in most of the 
western states.
    So thank you, again, for allowing me to testify. I'd be 
happy to answer questions, and I would ask consent that my full 
statement be made a part of the record.
    [The prepared statement of Senator Ensign follows:]

    Prepared Statement of Hon. John Ensign, U.S. Senator From Nevada

    Mr. Chairman, Senator Wyden, thank you very much for holding a 
hearing today on S. 2532, the Lincoln County Conservation, Recreation, 
and Development Act of 2004. As the sponsor of S. 2532, I am grateful 
for your including this important bill on your busy hearing calendar as 
the 108th Congress winds down for the year.
    S. 2532, and its companion in the House of Representatives, H.R. 
4593, have the bipartisan support of Nevada's entire congressional 
delegation. These identical bills are carefully crafted compromises. I 
can speak for my Nevada colleagues when I say that there are things in 
these bills that each of us does not like. So is the nature of 
compromises. On whole, the Lincoln County Conservation, Recreation, and 
Development Act of 2004 is a good piece of legislation and it should be 
passed.
    Lincoln County, Nevada, is a sparsely populated county north of Las 
Vegas and metropolitan Clark County. The county's nearly 4,000 
residents are hard working people. They want to increase economic 
development opportunities and the chance for their children and future 
generations to stay in Lincoln County. I do not believe this is too 
much to ask. However, the staggering amount of federally-controlled 
land in Lincoln County--98 percent--simply does not allow for economic 
development. This bill seeks modest changes to the land ownership 
pattern to allow Lincoln County to grow and increase its tax base, and 
gives residents the most basic of tools to prosper. We accomplish these 
goals through land disposal, tourism development, parks expansion, 
wilderness designation, and potential water resource development.
    The Lincoln County Conservation, Recreation, and Development Act of 
2004 is modeled on an innovative law that I co-authored as a member of 
the House of Representatives with former Senator Richard Bryan. That 
measure, the Southern Nevada Public Land Management Act of 1998 
(SNPLMA), is widely regarded as a huge success. A successor law I wrote 
with Senator Reid and Congressman Gibbons, the Clark County Protection 
of Lands and Natural Resources Act, followed SNPLMA in 2002.
    These southern Nevada bills can and should be replicated in every 
county in Nevada. Many other western states with large public land 
holdings may benefit from this model as well. The premise is simple: 
not all land is suitable for public ownership, and other public lands 
are suitable for increased protection. We required the auction of non-
suitable federal lands to accommodate growth around Las Vegas, with the 
proceeds going to support parks, trails, infrastructure, and education.
    Conversely, we settled long-standing wilderness disputes by 
designating dozens of permanent wilderness areas, releasing wilderness 
study areas to multiple use, and creating conservation areas. Years of 
fierce disagreements between developers, land use advocates, 
governments, environmentalists, conservationists, and utility providers 
were settled. Bringing together people from diverse interests has 
actually proved to be a very healthy exercise in southern Nevada; it 
has fostered better cooperation that will benefit generations to come.

                                SUMMARY

Title I--Land Disposals
    S. 2532 directs the Secretary of the Interior to sell up to 87,005 
acres of federal land adjacent to the communities of Alamo, Panaca, 
Pioche, and Rachel, among others, over ten years. Of the 87,005 acres, 
the Secretary may exclude 10,000 acres from sale if the lands are not 
suitable for disposal due to environmental or cultural reasons. We 
included this flexibility to ensure that only public lands suitable for 
disposal are developed. The proceeds from the land sales are directed 
to the Bureau of Land Management, Lincoln County economic development, 
and Nevada's State Education Fund.

Title II--Wilderness
    S. 2532 designates 769, 611 acres of permanent wilderness in 
Lincoln County, while releasing 245,516 acres from wilderness study 
status. Two areas that were not studied for wilderness values (Big Rock 
Wilderness and Mt. Irish) are designated, and I believe they are worthy 
of the wilderness qualities envisioned in the Wilderness Act. In all, 
14 separate wilderness designations are in this bill.
    Lincoln County has stunning natural areas and I support the 
wilderness compromise in this measure. While I know that many citizens 
in Lincoln County would prefer no wilderness or less wilderness, the 
wilderness acreage designated in S. 2532 is much less than the two 
million acres of wilderness proposed by some advocates.
    Concerning cherry stems, our guiding principle has been to ensure 
that legitimate existing routes in wilderness areas are excluded from 
the boundaries. We will not close existing routes in wilderness areas.

Title III--Utility Corridors and Rights-of-Way
    S. 2532 designates utility corridors in Lincoln County for the 
Southern Nevada Water Authority and the Lincoln County Water District. 
Subject to compliance with the National Environmental Policy Act (NEPA) 
and decisions from Nevada's state water engineer, these utility 
corridors may be used for the transmission of water to Clark County and 
for in-county water resource development. Over a decade ago, the Las 
Vegas Valley Water District filed for water rights in basins in Lincoln 
County. Those filings will be adjudicated under state water law.
    The unprecedented drought in the West has accelerated the need for 
southern Nevada to develop its own in-state water resources, just as 
the other states using the Colorado River have done. Nevada receives a 
very small allocation from the Colorado River--300,000 acre feet--that 
was legislated when Nevada's population was sparse. Metropolitan Las 
Vegas relies on the Colorado River for over 90 percent of its water 
needs, a very high percentage from a single source. Today, southern 
Nevada is home to almost two million people. I believe we are acting 
responsibly to at least plan for southern Nevada's and Lincoln County's 
future water needs while ensuring that an Environmental Impact 
Statement and NEPA compliance are required before any action is taken. 
I would support our state water engineer's decision on potential water 
transfers from Lincoln County.
    S. 2532 relocates a BLM right-of-way that was reserved in a land 
trade in the late 1980s. The right of way traverses private land in 
Lincoln and Clark Counties that is slated for development. The 
Secretary will receive fair market value for the relocation and a 
private party will pay all relocation costs associated with the 
relocation.

Title IV--Silver State OHV Trail
    I am particularly pleased with the provisions in this bill that 
will establish a 260-mile off-highway vehicle trail through Lincoln 
County on existing roads and trails. As the population continues to 
increase in the Las Vegas metropolitan area, there is a great need for 
off-road recreation opportunities in close proximity. By establishing 
appropriate and challenging routes for off-road vehicle enthusiasts to 
enjoy, we can protect important environmental and cultural resources 
from being inadvertently destroyed. The potential for Lincoln County to 
increase tourism is bolstered by the establishment of the Silver State 
OHV Trail. Stakeholders will have a lengthy and open opportunity to 
devise a plan for the management of the trail.

Title V--Park Conveyances
    S. 2532 sets aside federal land for parks and natural areas for the 
state of Nevada and Lincoln County. These conveyances will expand 
existing state parks managed by the state, set aside new parks for the 
county, providing additional recreation, tourism, and economic 
development opportunities.

Title VI--Jurisdiction Transfer
    S. 2532 expands the Desert National Wildlife Refuge and reverts 
DNWR lands to BLM status.

                               CONCLUSION

    Nevada's congressional delegation has worked very hard to achieve a 
workable consensus on the Lincoln County Conservation, Recreation, and 
Development Act of 2004. Every interested party involved in the 
development of this legislation can point to something objectionable in 
this measure. Since the bill is a compromise, not everyone will be 100 
percent satisfied. Senator Reid, Congressman Gibbons, and I held a town 
meeting to discuss S. 2532/H.R. 4593 in Panaca on August 27th, 2004. 
Over 100 Lincoln County residents attended the meeting. Not one 
resident raised objections to the utility corridor provisions in Title 
III.
    In the end, S. 2532 represents a major step forward for the 
economic development of Lincoln County, wilderness protection for 
sensitive lands, and is a prudent planning tool to explore Nevada's 
future in-state water resource needs.
    Thank you, Mr. Chairman and Senator Wyden, for holding this hearing 
today. I look forward to working with you and your staff to address any 
concerns you might have.

    Senator Smith. Thank you, Senator Ensign.
    As Senator Wyden said, you can do bipartisan legislation. 
We did it on Steens Mountain, and it worked reasonably well.
    Senator Ensign. By the way, our family vacations up in 
Black Butte every year, and I visited the Biscuit Fire, and, 
you're right it is unbelievable, the moonscape at some of the 
areas up there, and that is just such an incredibly gorgeous 
area that I hope that you are able to resolve some of the 
problems. And especially as an Oregon State graduate, I really 
support some of your efforts in doing that.
    Senator Smith. Thank you, Senator Ensign. In fact, I had 
one of my colleagues in our conference who asked me about the 
Biscuit Fire, and I told him the interesting feature about it 
was that it was bigger than his entire State. That's how big it 
was.
    Senator Ensign. I was there in Black Butte the day it 
started. We saw the flames start just--literally just as we 
were leaving that day. It was a devastating impact. 
Unbelievable.
    Thank you.
    Senator Smith. Thank you for your testimony. We look 
forward to moving your bill.
    Senator Wyden.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman. And, Mr. Chairman, 
I thank you and Senator Craig for holding this hearing. And I 
thank you, Mr. Chairman, for your kind comments about my 
legislation.
    I do want to make some comments about the bill, but I 
particularly want to welcome Linda Malone, who is the mayor of 
Sandy. You talk about multitasking, the mayor of Sandy, Linda 
Malone, brings new meaning to the concept. She works in the 
Post Office. She's the mother to a couple of wonderful young 
people, who are proud, who wear the uniform. They serve us in 
Baghdad. And she is the mayor. And I don't know where you get 
all the hours in the day, but I'm so pleased you're here, and 
want to note, for the record, that the Sandy City Council has 
unanimously endorsed the legislation for a small rural 
community that historically might have had reservations about a 
concept like this. I think the fact that they have unanimously 
been in support of the legislation is an indication that the 
time for this bill has come.
    This is, of course, a momentous year for wilderness in our 
State. It marks the 40th anniversary of the 1964 Wilderness 
Act. It has been 20 years since we've had new wilderness in our 
State. And it's especially appropriate, in my view, that we act 
now, because we have, of course, this year the bicentennial of 
the single most important exploratory committee ever launched 
by the Federal Government, and that was the Lewis and Clark 
expedition.
    Now, I just went out once more to see the areas that I 
propose in this bill for wilderness under the legislation, and 
I think, at this point, we feel we have gotten it right. And I 
want to take just a minute to, sort of, describe the process, 
because I feel very strongly, and I know Senator Smith does, as 
well, that you don't just run around in Washington, D.C., and 
talk about wilderness legislation and act as if it's a 
foreordained act in the beltway and everybody is supposed to 
accept it out in the country.
    What I did in the case of this legislation, after first 
putting out a draft bill, is, I held two open public meetings 
in Portland and in Hood River. We gave a chance for everybody 
who wanted to, to come and speak at those forums. Since then, 
I've been meeting with community groups. I met with more than a 
hundred community groups--local governments, members of our 
congressional delegation, our governor, the Bush 
administration. And the final bill tried to incorporate the 
major concerns that people had that I thought would move us 
towards being able to pass a bipartisan bill.
    For example, it was very clear at the public forums that 
there was great concern about recreational issues, and 
particularly various forms of non-wilderness-dependent 
recreation. So we spent, after a considerable amount of 
discussion coming up with a Mount Hood pedalers demonstration, 
or Hood-PBX, which is a 13,000 acre area that would receive 
similar protection as wilderness, but would not be designated 
wilderness. It would require a report to the Congress at the 
end of the 10-year existence of the environmental and economic 
effects of the project on surrounding areas.
    We also create a Mount Hood National Forest Southside 
Winter Recreation Area that stretches between Timberline Lodge 
and Government Camp and around Trillium Lake, Summit Meadows 
and Multopor Mountain.
    That was our effort to strike a balance, Senator Smith. He 
knows I share his concern about the rights of older people. I 
know of no senior group that is opposed to the legislation. 
And, in fact, I think the work that we have been able to do 
with other members of our delegation, in terms of expanding 
access to Timberline ADA improvements and others to Timberline, 
will mean more seniors will be coming up there. As a result of 
what we're doing, in terms of Timberline and these recreational 
provisions, I think, will mean that we will have more seniors 
coming to Mount Hood than we have had in the past, with this 
legislation.
    Senator Smith is very right to raise questions with respect 
to forestry and forest health. We have added, as a result of 
the input that was given, a forest-thinning program, not in 
wilderness, that will cover around 62,000 acres over 10 years, 
that would improve forest health and provide some commercial 
timber. My sense is--and, again, Senator Smith and I go through 
this all the time--that this provision probably pleases nobody; 
it probably doesn't please anybody in any segment of this 
debate, whether they be environmentalist or timber-industry 
people and the like, and maybe that's why I think it is a 
balanced approach. But we can have that discussion, as well.
    Third, we have heard concerns about safety from wildfire, 
and fire-safety buffer zones were added to protect Cascades 
Locks Government Camp in Rowena. Next, we added a Commission on 
Urban Forests, because we have heard from groups and 
individuals that there is more and more interest in dealing 
with forestry policy as it relates to urban areas.
    My understanding is--and I'm going to ask a question of Mr. 
Rey about this--that they're working on something that sounds 
quite constructive to me, as well. And I think that there are 
ways that we can coordinate what we're doing in this piece of 
legislation with what the administration is talking about.
    Finally, I think that Senator Smith, when he said, ``Are we 
protecting Mount Hood for the people or from the people,'' I 
think he asked a good question. And the answer is, I think 
we're trying to do both. I think we're trying to protect Mount 
Hood for the people. And I think we also know there is a real 
question about whether we may love it to death, as some folks 
have said. My hope is that, in all of the areas that Senator 
Smith has mentioned, that we can work together. Congressman 
Walden and Congressman Blumenauer have held a number of forums 
on this. And I think--as we've been able to do as a delegation 
so often, that we can come together.
    I want to, again, say thank you to you, Senator Smith, 
because you've made it clear you want to work through all of 
these various issues, and want to work with me to get this 
done. I'm anxious to do that with you, as well.
    I look forward to our witnesses and, again, thank the mayor 
for taking time to wear one of her hats this afternoon, of 
which she juggles all of her responsibilities well. I welcome 
her today.
    Senator Smith. Thank you, Senator Wyden.
    For the information of those attending today's hearing, 
there are three stacked votes scheduled at 3:45, so we're 
hoping to get at least, before that break occurs, Secretary Rey 
and Rebecca Watson, Assistant Secretary of Land and Minerals 
Management, to get your testimony on the record. So please come 
forward.
    Why don't we start with you, Secretary Rey?
    Mr. Rey. She actually has her book opened.
    Senator Smith. All right, we'll start with Rebecca Watson, 
then.

 STATEMENT OF REBECCA W. WATSON, ASSISTANT SECRETARY FOR LAND 
      AND MINERALS MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Ms. Watson. Good afternoon. Thank you for inviting me to 
testify on S. 2532, the Lincoln County Conservation Recreation 
and Development Act.
    I think this bill is a testament to the vision, 
perseverance and spirit of cooperation of the citizens of 
Nevada, its delegation, in addressing the Wilderness Study Area 
logjam in their state. I think Senators Ensign, Reid, and 
Representative Gibbons are to be commended for their 
leadership.
    This administration is pleased to support the bill with the 
amendments that we have described in our testimony. This month, 
America celebrates the 40th anniversary of the Wilderness Act. 
This milestone provides us the opportunity to reflect on the 
continuing importance in the 21st century of this uniquely 
American idea and to recognize the value of wilderness 
designation as a critical tool to ensure long-term protection 
of our country's natural landscapes.
    This Saturday, I will celebrate the 40th anniversary of the 
Wilderness Act by joining Nevadans at Sloan Canyon, mentioned 
by both the Senators this afternoon, outside of Henderson to 
clean up the area as a citizens stewardship initiative for 
National Public Lands Day.
    Sloan Canyon is an incredible urban area, wilderness area, 
preserving amazing petroglyphs that were designated in the 
earlier Clark County Conservation Act of 2002. Fifteen-thousand 
acres of this natural conservation area are designated 
wilderness, the North McCullough Wilderness Area. As we look 
forward to the 21st century, the demographics of the western 
landscape will continue to change and to challenge our vision 
of the West. This area, Sloan Canyon, is right next door to 
Henderson and Las Vegas. And I had the opportunity to fly over 
this area before I went down in to the canyon, and the 
juxtaposition of the most rapidly growing place in the United 
States of America and this area of petroglyphs and wilderness 
is amazing. But that's the way the modern West is going.
    So I think it is important that we keep in mind that 
resource development and conservation can and should be 
complementing goals for Federal lands, as demonstrated by the 
Clark County Conservation Act.
    Similarly, today's S. 2532 exemplifies how Congress can 
work with local communities, users, developers, and 
conservationists in legislation to advance the stewardship and 
management of public lands, and resolve long-running 
contentious issues.
    It's been 25 years since the Bureau of Land Management 
inventoried public lands for wilderness characteristics. And 
it's been 11 years since President George W. H. Bush concurred 
with the Secretary of the Interior's recommendations to 
Congress regarding the suitability of lands to be designated 
wilderness. Title 2 of S. 2532 seeks to resolve longstanding 
issues of wilderness designation by designating nearly 770,000 
acres of public land as wilderness and releasing 246,000 acres 
of public lands from wilderness study-area status.
    It was developed with broad-based public involvement. These 
folks have worked with their neighbors to develop this 
proposal, and we do hope that what Nevada has done can be a 
model for other states and regions to take similar actions on 
their wilderness study areas.
    In addition to the wilderness designation, S. 2532 also 
addresses a number of other public management issues in Lincoln 
County, Nevada, including the creation of land disposal areas 
near communities, totaling 87,000 acres, the establishment of 
utility corridors, the transfer of public lands for State and 
county parks, and the creation of a 260-mile OHV trail.
    In conclusion, Interior supports the purposes of this bill 
and will continue to work with Congress to address the 
technical issues raised in our written testimony.
    Thank you, and I will be happy to answer any questions.
    [The prepared statement of Ms. Watson follows:]
 Prepared Statement of Rebecca W. Watson, Assistant Secretary for Land 
          and Minerals Management, Department of the Interior
    Thank you for inviting me to testify on S. 2532, the Lincoln County 
Conservation, Recreation and Development Act. This bill is a testament 
to the hard work and perseverance of the Nevada Congressional 
delegation and their constituents. We wish to acknowledge Senators 
Ensign and Reid along with Congressman Gibbons and the rest of the 
delegation, for their work to resolve the Wilderness Study Area (WSA) 
logjam in Nevada and address a number of other lands related issues. 
The Department of the Interior supports the purposes of this 
legislation and, with amendments, would support S. 2532.
    Lincoln County, Nevada, covers over 10,000 square miles, and with a 
population of 4,200, Lincoln County is the epitome of the wide open 
spaces which for centuries has fueled the imagination of what the West 
was and is. Nearly 98% of Lincoln County is owned by the Federal 
Government (over 80% is BLM-managed) which is why public land policies 
are so important to the people of Lincoln County.

                        TITLE I--LAND DISPOSALS

    Title I of S. 2532 provides for the potential disposal of close to 
100,000 acres of public lands out of BLM management and into private 
ownership through two different mechanisms. We support this general 
proposal, but we are opposed to certain specific provisions. Section 
103 of S. 2532 provides that 50% of the proceeds would go into a 
special account available to the Secretary and that 45% would be 
directed to the county for economic development purposes, while 5% 
would be directed to the state's education funds. The Administration 
opposes this distribution, believing that, at a minimum, 85% of the 
proceeds derived from sales should be retained by the Federal 
government. We note that the BLM will incur considerable administrative 
costs to prepare for these lands sales in Lincoln County.
    The Lincoln County Land Act (LCLA) directed the BLM to offer for 
sale approximately 13,500 acres of land in southeastern Lincoln County. 
The law further directed that 85% of the proceeds from those sales be 
dedicated to a special account available to the Secretary for a range 
of uses primarily in Lincoln County including processing lands actions, 
developing habitat conservation plans, protecting and managing 
archaeological resources, and the acquisition of environmentally-
sensitive land in Nevada outside of Clark County. In addition, 5% of 
the proceeds are dedicated to the general education fund of the State 
of Nevada and 10% to Lincoln County for its budgetary needs.
    In October of 2001, the BLM offered for sale three parcels of land 
totaling 6,478 acres under LCLA area. Since that time, the sale of 
lands has halted by litigation and a planned sale for this August has 
been postponed because of continuing legal action. Most recently, the 
Federal District Court on March 22, 2004, determined that the BLM was 
obliged to complete an Environmental Impact Statement (EIS) rather than 
an Environmental Assessment (EA).
    S. 2532 directs the BLM to sell the same lands within 75 days of 
enactment. Seventy-five days is not a sufficient length of time in 
which to do the environmental work necessary under NEPA and other 
necessary environmental clearances. Congress should specify its intent 
regarding NEPA and the other environmental work associated with these 
transfers.
    The bill designates eight separate disposal areas around or near 
the towns of Hiko, Ash Springs, Rachel, Alamo, Carp, Crestline, 
Caliente, Panaca, and Pioche. Similar to the Southern Nevada Public 
Lands Management Act (SNPLMA), the BLM would work cooperatively with 
local communities to determine the selection and timing for offering 
the 87,000 acres for competitive sale within the disposal boundaries.
    The BLM would comply with the National Environmental Policy Act 
(NEPA) and could exempt up to 10,000 acres from the disposal boundaries 
if it determines that the lands were most appropriate to stay in 
Federal ownership to protect wildlife habitat or cultural resources. 
Most of the lands within the disposal boundaries have been identified 
by the BLM for disposal through our land use planning process or are 
expected to be identified for disposal in upcoming land use plan 
revisions. We therefore do not object to the creation of these disposal 
areas.
    Finally, we have a number of technical amendments to recommend to 
Title I. For example, section 102(f) requires direct sale through 
competitive bidding in all cases, while there may be isolated cases 
under which a modified competitive sale or a direct sale could be more 
appropriate. Likewise, section 102(h)(1) requires the BLM to ``convey'' 
lands when we believe the intention is to ``offer for sale'' lands. We 
look forward to the opportunity to submit amendments and work with the 
sponsors and the Committee on these and other technical matters.

                          TITLE II--WILDERNESS

    The BLM currently manages 989,273 acres of Wilderness Study Areas 
(WSA) in Lincoln County. Title II seeks to bring resolution to the WSA 
issue in Lincoln County by designating nearly 770,000 acres of public 
land as wilderness and releasing nearly 246,000 acres of public lands 
from WSA status. (All of the existing WSAs in Lincoln County are 
addressed and resolved in this legislation with the exception of Mt. 
Grafton and South Egans Range both of which extend across the border 
into White Pine County.) Senators Ensign and Reid and the entire 
delegation have worked with communities to reach agreement on these 
designations. We hope that this cooperative approach can be a model for 
other states and regions to take similar actions. Congress has the sole 
authority to designate lands to be managed as wilderness and the Nevada 
Congressional delegation has shown on more than one occasion that 
sometimes controversial issues can be resolved in a collaborative 
bipartisan fashion. We strongly support this cooperative approach.
    The bill would release 245,516 acres of BLM-managed lands in 
Lincoln County from WSA status and interim protection of their 
wilderness values under section 603(c) of the Federal Land Policy and 
Management Act (FLPMA). The entire 36,000 acre Table Mountain WSA, the 
Evergreen A, B, and C, as well as portions of 14 other WSAs are 
included in this release. Release will return these lands to non-
wilderness multiple use.
    The lands identified in the bill for designation are noted for 
their unspoiled Great Basin mountains, deep rugged canyons, high 
deserts, forested ranges, geologic treasures, and abundance of 
biological diversity. Cold winters and warm summers characterize this 
area whose wildness cannot be overstated. Each of the 14 wilderness 
areas designated by this bill has unique features and fascinating 
stories.
    In the southernmost part of the county are the three high desert 
proposed wilderness areas the Delamar Mountains, Meadow Valley Range, 
and the Mormon Mountains. True Mohave Desert, these three are 
characterized by big canyon washes, high limestone peaks, and dramatic 
geologic features. Colorful cliffs and dramatic crags are home to 
bighorn sheep, raptors, and recreationists seeking a remote and wild 
experience.
    ``Canyon Country'' best describes the Clover Mountains and Tunnel 
Springs. Narrow twisting canyons formed by rushing water over colorful 
volcanic rocks define these areas. Rare perennial high desert streams 
dot the area. Outstanding photographic opportunities exist through 
these areas. Tunnel Spring straddles the Utah/Nevada border but the 
legislation only addresses the Nevada portion.
    The western half of Lincoln County is home to six of the bill's 
proposed wilderness areas covering a wide range of elevations, but 
characterized throughout by mountainous terrain. High mountain peaks, 
to 9,800 feet in the Far South Egans, typify these areas that straddle 
the Mohave Desert in the lower elevations to the Great Basin in the 
higher elevations. These mountainous areas include South Pahroc Range, 
Worthington Mountains, Weepah Springs, Far South Egans, Mt. Irish, and 
Big Rocks. Although the latter two are not BLM WSAs and were not 
studied by the BLM for suitability as wilderness, a preliminary review 
suggests that there are no significant encumbrances which would impair 
their wilderness characteristics.
    For those areas in the bill not identified as WSAs, and for the 
areas in the bill that were determined by the BLM to be non-suitable 
for wilderness, we note that Congress has plenary authority over the 
disposition of public lands. If Congress ultimately approves the bill, 
we do not see any additional management impediments to their inclusion.
    The northern part of the county contains the densely-forested areas 
of Fortification Range, Parsnip Peak, and White Rock Range. Typical 
Great Basin areas, they include high meadows, pinyon-juniper forests, 
and dense aspen and fir stands. Wildlife abounds, ranging from mule 
deer and antelope to mountain lions and raptors.
    The BLM supports the efforts of the Nevada delegation to arrive at 
boundaries through consensus and compromise. We would like the 
opportunity to work with the sponsors and the Committee on technical 
issues including minor boundary adjustments, cherry stem road 
realignments, and map clarifications.

             TITLE III--UTILITY CORRIDORS AND RIGHTS-OF-WAY

    Section 301 of S. 2532 establishes two half-mile wide utility 
corridors in Lincoln County for the benefit of the Southern Nevada 
Water Authority and the Lincoln County Water District (256 miles and 
192 miles long respectively). The bill establishes corridors and the 
Secretary is to subsequently grant use of the corridors to these 
entities following compliance with NEPA. We support the idea of 
expediting that establishment of the utility corridors to facilitate 
development and to minimize disruption of the resources We have some 
concerns with specific provisions in this section and look forward to 
submitting amendments and working with the Committee to address these 
concerns and to ensure that the intent of the legislation is fulfilled.
    The proposed utility corridors are specifically delineated on the 
June 14, 2004, Lincoln County Map. We are concerned that a rigid 
adherence to a specific line may not be in the best interest of the 
protection of cultural resources, habitat, and other resource uses. 
Rather we would prefer that the lines on the maps be guidelines and 
that the BLM establish the actual utility corridors through a public 
process which would allow both the BLM's expertise and the public's 
interest to be considered.
    Additionally, we believe that designating the utility corridors for 
a specific entity's use may not be in the public interest. Rather, we 
would prefer that the utility corridors simply be identified. In this 
way, any entity wishing to use them could apply for a right-of-way 
through the BLM's regular process. We are also particularly concerned 
that the bill language seems to suggest that in addition to being 
issued in perpetuity and rent-free, the rights-of-way would be 
completed by the BLM without cost-recovery for the NEPA and other 
necessary environmental work. Typically, the Federal government is 
reimbursed by commercial enterprises seeking rights-of-way for the cost 
of completing related NEPA and environmental work. In the case of the 
extensive rights-of-way proposed in this bill, we anticipate the cost 
of completing the work required by NEPA would be well in excess of $1 
million. We would like to work with the Committee on amendments that 
provide clarification.
    Finally, there are a number of technical issues that need to be 
addressed in this section. For example, we would like to clarify that 
the utility corridors would only be established on public lands, not on 
private lands. Also, in several places the half-mile wide corridor runs 
directly through areas which are established for disposal in Title I. 
Section 301 withdraws the lands within the corridor from disposal, thus 
negating the provisions in Title I. We would like the opportunity to 
work on amendments with the sponsors and the Committee on this and 
other, more technical issues. In addition, we note that the U.S. 
Geological Survey is directed by this title to conduct a study on 
water-related issues in White Pine County. The Department supports a 
study that would evaluate the regional significance of groundwater 
development in both White Pine and Lincoln Counties.
    The second part of this title proposes to relocate a utility 
corridor in southern Lincoln and northern Clark counties. The lands on 
which the existing right-of-way corridor is located were patented by 
the BLM to the Aerojet General Corporation in 1988. Aerojet General has 
since reconveyed those lands to a third party. The original transfer 
was subject to a Federal reservation for the utility corridor. The 
value of those lands encumbered by the utility corridor's Federal 
reservation (approximately 10,000 acres out of a total 50,000 acres) 
was reduced by approximately $9.50 per acre due to the Federal 
reservation. We believe that the Federal government should be fairly 
compensated for the removal of the Federal reservation, based on the 
1988 value reduction of the lands transferred to Aerojet General 
adjusted to an appropriate index. In addition, there are a number of 
technical issues we would like to address in this section through 
amendments to the bill for clarity.

                    TITLE IV--SILVER STATE OHV TRAIL

    Title IV would establish a 260-mile off-highway vehicle (OHV) trail 
throughout Lincoln County on existing BLM roads and trails. We believe 
this trail can be a significant draw for tourism in Lincoln County as 
well as allowing the residents of Lincoln County yet another way to 
experience and enjoy their public lands. We encourage the sponsors and 
the Committee to consider giving the BLM additional flexibility to 
modify the trail's path if resource conditions require it. In addition, 
we recommend that the timing of the management plan be extended from 2 
to 3 years to insure full public involvement and comment. Otherwise, we 
support this title.

                       TITLE V--PARK CONVEYANCES

    Under this title, S. 2532 proposes to transfer nearly 5,000 acres 
of BLM-managed lands to the State for inclusion in the state park 
system and over 14,000 acres to the county for similar purposes. As a 
matter of policy, the BLM looks for opportunities to work cooperatively 
with local communities on local recreational needs. Through the 
Recreation and Public Purposes Act (R&PP) the BLM regularly transfers 
lands to state and local governments for a variety of parks, recreation 
and other purposes. In the case of recreational uses, such as state and 
county parks, the BLM can transfer those lands without charge.
    We would prefer to use the R&PP Act in these cases. However, if the 
delegation desires to expedite the process, we would request some 
flexibility in the provisions of this title. Specifically, while the 
three additions to existing state parks appear reasonable and may be 
completed easily, we are less certain of some of the county park 
transfers. Some of the lands specifically identified for transfer do 
not have recreational values that we are aware of and, in fact, some of 
the identified lands include possible hazardous materials from 
abandoned mine sites. If the language of the bill were modified to 
authorize the transfer of a range of acres to both the State and the 
county with the agreement that the BLM and local government work 
cooperatively to achieve these transfers, we believe that all parties 
would be better served. In addition, there are technical issues we 
would like to address in this title including map references and the 
reversionary clauses.

                    TITLE VI--JURISDICTION TRANSFER

    Under the Clark County Conservation of Public Land and Natural 
Resources Act of 2002 (Public Law 107-282) nearly 50,000 acres of BLM-
managed lands were transferred to the Fish & Wildlife Service (FWS) on 
the eastern edge of the Desert National Wildlife Range. Title VI 
proposes to transfer back to the BLM approximately 8,382 acres of land 
including some of those lands transferred in 2000. In return 8,503 
acres of BLM-managed land north of the Desert Wildlife Range will be 
transferred to the FWS. This would add a Joshua Tree forest that would 
connect two existing refuges.
    This transfer of lands is proposed to provide an approximately 1/2 
mile wide area to the west of State Highway 93 for a utility corridor 
and rights-of-way. This will accommodate the relocation of the utility 
corridor as provided in Title III of this bill. We have no objection to 
this provision as it allows the BLM to ensure a corridor for future 
utility needs in the fast growing Las Vegas area.

                               CONCLUSION

    S. 2532 is a complex and wide-ranging piece of legislation. The 
Department of the Interior supports the purposes of this legislation. 
We commend the delegation on its hard work. We look forward to working 
with the Nevada delegation and the Committee on the changes we have 
recommended so that we can fully support S. 2532.

    Senator Smith. Thank you very much. I have no questions for 
you.
    Senator Wyden, do you have any?
    Senator Wyden. No.
    Senator Smith. What we will do, if you don't mind, we will 
leave the record open if any of our Nevada colleagues have 
questions that they could submit to you in writing.
    Thank you.
    Secretary Rey.

 STATEMENT OF MARK REY, UNDER SECRETARY, NATURAL RESOURCES AND 
             ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Rey. Thank you. And thank you for the opportunity to 
appear before you today in order to provide the Department's 
views on S. 2709 and S. 2723. I will summarize my prepared 
statement on both measures.
    S. 2709 authorizes an increase in the annual transfers to 
the Reforestation Trust Fund from $30 million per year to $90 
million per year. While we support the objectives of S. 2709 to 
emphasize prompt reforestation in areas affected by fires and 
other disturbance events, we cannot support the bill, because 
we generally do not support expanded spending through a 
mandatory account within the Treasury. Rather, we believe that 
post-fire restoration efforts similar to fire suppression in 
burned-area emergency rehabilitation are prudently budgeted for 
through discretionary funds, subject to annual review by the 
Congress during the appropriations process.
    S. 2723 would direct numerous aspects of management of the 
Mount Hood National Forest in Northeast Oregon. While we agree 
with some of the concepts and provisions embodied in S. 2723, 
we also have some concerns with several aspects of the 
legislation. Because the bill covers a wide variety of topics, 
I will try to address brief comments to each title 
individually.
    With respect to title 1, USDA could support some additional 
designation of wilderness within the Mount Hood National 
Forest. I will submit, for the hearing record, a map that 
depicts somewhat in excess of 40,000 acres of wilderness that 
the Department would support. We're concerned, however, about 
the effects of the proposed legislation described in title 1 
and depicted in the July 2004 map that would have on the 
overall management of many programs of both the Mount Hood 
National Forest and the Columbia Gorge National Scenic Area.
    I think our concerns are three in number, and elaborated on 
for each of the proposed wilderness additions.
    First, the areas proposed as wilderness would limit the 
existing array of developed and dispersed recreation 
activities, as well as create difficulties in meeting total 
recreation demand.
    Second, we're concerned that the wilderness character of 
much of the proposed wilderness, as depicted on the map, would 
be significantly and negatively impacted by existing rights and 
structures.
    And, third, the small shape and size of some of the 
proposed wilderness additions would be impacted by adjacent 
activities, which would limit the free play of natural 
processes expected to occur in wilderness, as well as the 
opportunities for solitude or primitive and unconfined 
recreation, the hallmark of the wilderness experience.
    With regard to title 2, it would amend the Wild and Scenic 
Rivers Act by adding portions of the Hood River, the Zig Zag 
River, Eagle Creek and Fifteenmile Creek, and the Department is 
generally not opposed to most of these additions, and we deal 
with each individually in our prepared statement.
    Title 3 would establish a National Commission on Urban 
Forests. In 1993, the Forest Service established the Urban 
National Forest Coalition and, further, the National Urban and 
Community Forestry Advisory Council has been established in 
previous legislation and appointed by the Secretary of 
Agriculture. The Department believes that either of these two 
existing entities could effectively perform the 
responsibilities enumerated in this title without the creation 
of a third body.
    Title 4 would require the Secretary to identify a Mount 
Hood National Forest Southside Winter Recreation Area. The 
Department is not opposed to that area.
    Title 5 would establish the Mount Hood Pedaler's 
Demonstration Experiment Area. We believe that there is 
adequate opportunity within the Mount Hood National Forest for 
mountain biking at the present time.
    Title 6 would authorize the Secretary to provide funds to 
counties to bury power lines within our adjacent-to-wilderness 
areas on the Mount Hood National Forest. Maintenance of both 
buried and overhead power lines require vehicle access, 
occasionally access by heavy construction equipment, which 
would be inconsistent with wilderness values.
    Title 7 proposes a land exchange between Clackamas County, 
Oregon, and the Federal Government. We do not object to the 
exchange, but would like the opportunity to work with the 
committee on amendments to clarify a number of issues raised by 
the exchange.
    Title 8 would require a prescriptive forest-health thinning 
program for plantation second-growth stands to produce timber 
for primary and secondary wood products and restore biological 
diversity and structural complexity to young managed stands for 
a period of 10 years. Thinning treatments under this title 
could occur only in plantation second-growth stands, as defined 
by the bill, but previous harvests removed more than 90 percent 
of the overstory of the original stand and that are more than 
five acres in size. The Mount Hood National Forest has a number 
of young natural stands that have arisen following wildfire 
where no harvesting occurred following the burn, but they have 
since reestablished forests. Similarly, we have areas where 
young stands in need of treatment have been established with 
less than 90 percent of the overstory removed by the initial 
harvest operation, particularly where trees were left to meet 
wildlife objectives for snag retention. Each of these 
categories of young stands would be excluded from treatment 
under this section.
    The title also imposes a new definition of ``old growth'' 
that appears to be inconsistent with the existing biological 
definitions for late successional forests common to the Mount 
Hood National Forest and elsewhere in the region. The proposed 
definition focuses solely on age, ignoring other important 
ecological attributes of old growth, such as canopy layers, 
presence of snags and presence of coarse, woody debris. The 
proposed legislation would further classify any stand not 
previously managed as old growth regardless of age. The 
proposed legislation would prohibit treatment of these areas to 
protect old growth, regardless of whether old growth values 
were present.
    For example, I have a picture of a stand on the Clackamas 
Ranger District of 80-year-old trees that encompasses about a 
thousand acres that resulted from a burn. Under the definition, 
perhaps in an unintentional fashion, this would be considered 
old growth, because the stand has never been previously 
managed. And, as you can see by the picture, those are 
relatively small trees, not very large and not very old.
    That concludes my prepared statement. I would be happy to 
answer any questions the Committee has.
    [The prepared statement of Mr. Rey follows:]

Prepared Statement of Mark Rey, Under Secretary, Natural Resources and 
                 Environment, Department of Agriculture

    Mr. Chairman: Thank you for the opportunity to appear before you 
today in order to provide the Department's views on S. 2709, the 
``National Forest Restoration Act of 2004'' and S. 2723, the ``Lewis 
and Clark Mt. Hood Wilderness Act''.

          S. 2709, THE ``NATIONAL REFORESTATION ACT OF 2004''

    S. 2709 authorizes an increase in the annual transfers to the 
Reforestation Trust Fund from $30 million per year to $90 million per 
year. The bill also authorizes these funds be used in areas in need of 
reforestation that have been moderately or highly affected by fire or 
severely affected by a non-fire natural disturbance event, and 
establishes timeframes for completing reforestation treatments 
following these events. Finally, S. 2709 authorizes the Secretary to 
obligate up to 10 percent of the annual expenditures from the Fund to 
enter into cooperative agreements with colleges and universities to 
conduct research to promote or enhance reforestation.
    While USDA supports the objective of S. 2709 to emphasize prompt 
reforestation in areas affected by fires and other disturbance events, 
we can not support the bill because. we generally do not support 
expanded spending through a mandatory account within the Treasury. 
Rather, we believe that post-fire restoration efforts, similar to fire 
suppression and burned area emergency rehabilitation, are prudently 
budgeted for through discretionary funds subject to annual review by 
the Congress during the appropriations process. We are also concerned 
the bill would limit our flexibility to utilize the Reforestation Trust 
Fund for the same types of reforestation activities currently 
authorized.
    USDA also does not support language in Section 5 which allows the 
Secretary to obligate up to 10 % of the sums expended from the 
Reforestation Trust Fund to enter into cooperative agreements with 
colleges and universities to conduct research to promote or enhance 
reforestation because it is overly restrictive. We believe that Federal 
and private research organizations also have significant capacity to 
conduct this type of research. These organizations, when partnering 
with colleges and universities, can jointly contribute to increases in 
effectiveness and efficiency of reforestation efforts. The Forest 
Service Research and Development branch funded over $31 million for 
cooperative research with colleges and universities in Fiscal Year 
2003. We would like to work with the Committee to built and expand upon 
this base to include a variety of partners with research expertise.

        S. 2723, THE ``LEWIS AND CLARK MT. HOOD WILDERNESS ACT''

    S. 2723 would direct numerous aspects of management of the Mt. Hood 
National Forest in northwest Oregon. The bill's provisions include 
designations of wilderness areas, wild and scenic rivers, and other 
special areas, and specific directions to carry out a thinning program 
to promote forest health. The bill also would establish a national 
commission and direct a land exchange involving the Bureau of Land 
Management.
    While we agree with some of the concepts and provision embodied in 
S. 2723, we also have concerns with some aspects of the legislation. 
Because this bill covers a variety of topics, I will address my 
comments to each title individually.
    Title I would designate additions to four existing wilderness 
areas, Mount Hood, Mark O. Hatfield, Badger Creek and Salmon-
Huckleberry, as components of the National Wilderness Preservation 
System that would be known as the Lewis and Clark Mt. Hood Wilderness 
Areas. USDA can support some designation of additional Wilderness 
within the Mt. Hood National Forest. We are concerned, however, about 
the effects the proposed legislation described in Title I, as depicted 
in the July 2004 map, would have on the overall management of many of 
the programs on both the Mt. Hood NF and the CRGNSA.
    We also would need to clarify whether the bill would require the 
CRGNSA Act to be amended. The CRGNSA is co-managed by the Forest 
Service and the Columbia River Gorge Commission. After a 3-year effort 
and over 60 public meetings, the CRGNSA Management Plan has been 
revised, and it appears to us that this legislation, without 
clarification, could cause us to reopen that plan for public review and 
comment.
    Let me speak to some of our overall concerns with the proposed 
legislation, then point out some specifics about each proposed 
wilderness addition.
    First, the areas proposed as wilderness would limit the existing 
array of developed and dispersed recreation activities as well as 
create difficulties in meeting total recreation demand by forcing 
displacement of non-wilderness users to fewer acres of non-wilderness 
land.
    Second, we are concerned that the wilderness character of much of 
the proposed wilderness as depicted on the map would be significantly 
and negatively impacted by existing rights and structures. These areas 
are close to I-84 and Highways 35 and 26, which are heavily used for 
both developed and dispersed recreation activities, including 
campgrounds, ski areas, and snowmobile areas. Additionally, there are 
existing rights that must be protected in the proposed wilderness, 
including access to private lands, water rights, power lines, an 
electronic site, tribal rights, and grazing allotments.
    Third, the small size and shapes of some of the proposed wilderness 
additions would be impacted by adjacent activities which would limit 
the free play of natural processes expected to occur in wilderness. The 
opportunities for solitude or primitive and unconfined recreation, a 
hallmark of the wilderness experience, would be diminished. Unlike most 
existing wilderness, much of the wilderness proposed in this 
legislation would be entirely dominated by impacts from external, 
adjacent activities.
    Now I will address briefly each of the proposed wilderness 
additions.

                 MARK O. HATFIELD WILDERNESS ADDITIONS

    The northern boundary of the proposed additions to the Mark O. 
Hatfield Wilderness is very close to the Historic Columbia River 
Highway and appears to barely skirt adjacent power lines and 
developments at Multnomah Falls, Wahkeena Falls, Oneonta Gorge, and 
Horsetail Falls. Nonconforming structures in the proposed addition 
include the Multnomah Falls observation platform and Sherrard View 
Point. Recreation and others uses would be affected: several miles of 
designated mountain bike trails would be closed; directional signs 
would be removed; existing paved and surfaced trails would have to be 
restored to native surfacing. The area would continue to be heavily 
used and allocation systems would be considered to meet wilderness 
standards. The proposed project to restore the unique pine-oak 
ecosystem and reduce hazardous fuels within the McCall Point addition 
and stream habitat enhancement projects in Herman Creek would be 
inconsistent with meeting wilderness purposes and would not occur if 
these lands were designated.

                    MOUNT HOOD WILDERNESS ADDITIONS

    There are a number of activities inconsistent with wilderness 
purposes that take place in the proposed Mt. Hood wilderness additions. 
The Tilly Jane addition would affect motorized winter access to the 
Cloud Cap Inn historic site and appears to include a number of 
nonconforming structures. Vegetative and other management needed to 
protect these historic structures would be discontinued, as well as, 
existing use by large organized groups. The addition would foreclose 
the opportunity to expand ski areas by including approximately 4,000 
acres of land currently designated for winter recreation in the Mt. 
Hood Land Management Plan as new wilderness, including 1,200 acres in 
the Cooper Spur Ski area. Wilderness designation would conflict with 
motorized use which is needed to access the powerline that serves the 
Mt. Hood Meadows Ski area and to existing and proposed fish habitat 
restoration projects adjacent to the Zigzag River.

                SALMON-HUCKLEBERRY WILDERNESS ADDITIONS

    The proposed Mirror Lake addition contains nonconforming structures 
such as bridges and staircases, which provides for user safety on the 
most popular trail on the Mt. Hood National Forest. Other proposed 
additions to the Salmon-Huckleberry Wilderness include parking for 
recreation residences and a water tank supporting a community water 
system. The proposed Roaring River addition includes a power line for 
the Three Lynx hydroelectric project.
    Existing recreation activities that would be precluded are mountain 
biking, snowmobiling, and four-wheel driving. An existing developed 
campground appears to be included in the proposal and would need to be 
removed. Fire lookouts would not be available for public rental. 
Existing recreation at areas such as Mirror Lake and Twin Lakes 
commonly includes groups larger than the 12 person group size limit in 
existing wilderness on the Mt.Hood National Forest. The existing high 
level of use may require a use allocation system to meet wilderness 
standards. The permitted commercial mountain bike operations would be 
terminated. Present vegetative management for huckleberry enhancement 
as per agreement with the Confederated Tribes of Warm Springs would be 
precluded in wilderness.

                   BADGER CREEK WILDERNESS ADDITIONS

    The proposed Eightmile Meadow and Mill Creek additions are part of 
the City of Dalles municipal watershed. The proposed Lower White River 
Addition includes a grazing allotment, and the proposed Bonney Butte 
addition includes a permitted hawk banding station that attracts large 
groups to watch migrating hawks.
    The Department believes these existing rights and uses are needed 
to support a wide array of resource protections as well as valued and 
important goods and services to the public. We do not support the 
changes that would be required if these areas were to be designated 
Wildlerness. We have identified areas that USDA considers suitable for 
consideration as wilderness designation. We would like to work with the 
Committee, the delegation and the people who use these forests on 
amendments that reflect more appropriate boundaries for wilderness 
designations.
    Title I also would require the Forest Service to construct 
defensible fuel safety zones between the wilderness boundary and two 
adjacent communities. Community Wildfire Protection Plans are underway 
for several communities adjacent to Mt. Hood and CRGNSA and we would 
like to work within the framework of these plans to incorporate the 
bills directions and communities to help implement these plan 
decisions.
    Title II would amend the Wild and Scenic Rivers Act by adding 
portions of the Hood River, the Zig Zag River, Eagle Creek and 
Fifteenmile Creek. The Department is generally not opposed to most of 
these additions. We want to point out that the Middle Fork of the Hood 
River, the Zig Zag River and Eagle Creek were identified in the Forest 
plan as eligible for Wild and Scenic River designation, but suitability 
was never determined.
    Fifteenmile Creek was not evaluated for Wild and Scenic River 
designation in the Forest Plan. Habitat restoration work conducted 
along about four miles of this stream is likely to effect a designation 
as a wild segment of a Wild and Scenic River, but the river could be 
eligible and suitable for designation as either a scenic or recreation 
river depending on the results of an evaluation.
    Mr. Chairman, if the Committee desires we would offer to complete 
additional screening for these recommended stream sections and provide 
a final report of the results back to the Committee prior to enactment.
    We do not support inclusion of the East Fork of the Hood River 
which was evaluated for Wild and Scenic River suitability in the Mt. 
Hood Land and Resource Management Plan, as amended by the Northwest 
Forest Plan. It was found not suitable due to issues related to Mt.Hood 
Meadows Ski Area, particularly regarding road maintenance (plowing, 
sanding, de-icing) and operation of the ski area's sewage treatment 
plant.
    Title III would establish a National Commission on Urban Forests. 
In 1993, the Forest Service established the Urban National Forest 
Coalition (UNFC), a working group composed of Forest Supervisors of 
urban national forests, as well as Forest Service Research and 
Development, and State and Private Forestry. The coalition has the 
ability to outreach among universities and communities to identify and 
work to resolve common issues affecting the management of urban 
National Forests.
    Furthermore, the National Urban and Community Forestry Advisory 
Council is composed of 15 members appointed by the Secretary of 
Agriculture. The primary function of the Council has been to make 
recommendations to the Secretary regarding cost-share grants for urban 
and community forestry projects. But, the Council is also charged under 
Section 9(g) of the Cooperative Forestry Assistance Act to make 
recommendations to the Secretary and to the Congress for improving the 
status of the Nation's urban and community forests. The Department 
believes that these two existing entities could effectively perform the 
responsibilities enumerated in this title and does not support the 
establishment a third national organization as called for in the bill.
    Title IV would require the Secretary to identify a Mt. Hood 
National Forest Southside Winter Recreation Area. USDA is not opposed 
to specially designated recreation areas on the Mt. Hood NF. Management 
Area A11 of the Forest plan is already designated as Winter Recreation 
Area. We would like to work with the Committee on amendments to assure 
the area defined in Title IV is compatible with current and planned 
uses including mechanized and motorized access.
    Title V would establish the Mt. Hood Pedaler's Demonstration 
Experiment Area that, while not designated as wilderness, would be 
managed in accordance with the Wilderness Act, with the exception that 
mountain bikes would be allowed to operate on designated trails within 
the area. The Department does not support of the establishment of the 
Mountain Biking Pilot Project. We believe there are other alternatives 
to better meet mountain biking needs for the forest and would like to 
work with the Committee on amendments that would address this issue. 
Moreover, we oppose the funding mechanism proposed for this area. For 
example, our experience with the Recreation Fee Demonstration program 
has shown that public support is directly associated with the 
reinvestment of fees where they are collected and not shifted to other 
areas.
    Title VI would authorize the Secretary to provide funds to counties 
to bury power lines within or adjacent to wilderness areas on the Mt. 
Hood NF. It is unclear what power lines are intended here, but cost, 
technology and environmental impacts may prohibit this type of 
activity. Regardless, maintenance of both buried and overhead power 
lines requires vehicle access, occasionally access by heavy 
construction equipment. While we agree with the sponsor that power 
lines may be visually inconsistent with wilderness, preserving 
wilderness character and attributes would also be difficult with the 
access and motorized equipment use necessary for maintenance of buried 
lines. We would like to work with the Committee on amendments to 
resolve this issue.
    Title VI also would authorize funds for counties to replace 4 
culverts on wild and scenic river segments. We are concerned by the 
apparent waiver of Section 7(a) of the Wild and Scenic Rivers Act for 
the replacement of culverts in Section 602 and 603 of this title as 
well as Section 902 in Title IX. Limiting the ability of the Forest 
Service to evaluate a culvert or bridge as a water resources project 
may limit the protection intended in the Wild and Scenic Rivers Act. We 
would like to clarify this with the Committee.
    Title VII of S. 2723 proposes a land exchange between Clackamas 
County, Oregon and the Federal government. It is our understanding that 
the intent is to complete this exchange with the Bureau of Land 
Management (BLM). The BLM would like the opportunity to work with the 
sponsor and the Committee on amendments to clarify a number of issues 
related to this proposed exchange. First, the legislation needs to 
specify which acres of Federal land and Clackamas County lands are 
intended for the exchange. If the lands intended for this proposed 
exchange are BLM ``O&C'' lands, under the Oregon and California 
Revested Lands Sustained Yield Management Act (Public Law 75-405) this 
could complicate any proposed exchanged and we urge the sponsors to 
consider these implications. Furthermore, it is important that the 
lands involved in any exchange be of equal value and be subject to the 
Uniform Appraisal Standards for Federal Land Acquisition. Finally, the 
BLM would like the opportunity to develop a map to accurately portray 
this proposed exchange.
    Title VIII would require a highly prescriptive forest health 
thinning program for plantation second growth stands to produce timber 
for primary and secondary wood products, and restore biological 
diversity and structural complexity to young managed stands for a 
period of ten years. The bill would define ``old growth'' as groves and 
trees that are at least 120 years old or previously unmanaged. This 
bill would mandate targets for pre-commercial thinning and commercial 
Westside matrix thinning. Additionally, the bill would prescribe forest 
treatments for Eastside thinning.
    USDA supports active forest management, where appropriate, under 
standards and guidelines established in the Mt. Hood Forest plan as 
amended by the Northwest Forest Plan, subject to available 
appropriations. Our existing statutes, including the Healthy Forest 
Restoration Act recently enacted with the leadership of this committee, 
provide us adequate authority to provide treatment where it is needed, 
and the Department is strongly opposed to the provisions contained in 
Title VIII.
    Thinning treatments under section 801 could occur only in 
plantation second growth stands, as defined by the bill, where previous 
harvest removed more than 90 percent of the overstory of the original 
stand and that are more than 5 acres in size. The Mount Hood National 
Forest has young natural stands that have arisen following wildfire, 
where no harvesting occurred following the burn, but forested stands 
have since been established in these areas. Similarly, the Forest has 
areas where young stands in need of treatment have been established 
where less than 90 percent of the overstory was removed by the harvest 
operation, particularly where trees were left to meet wildlife 
objectives for snag retention, as well as small areas less than 5 acres 
in size that would benefit from a thinning treatment. Each of these 
categories of young stands would be excluded from treatment under this 
section.
    Section 801(b) of S. 2723 imposes a new definition of old growth 
that appears to be inconsistent with existing biological definitions 
for the late successional forests common to the Mt. Hood National 
Forest and elsewhere in the bioregion. The proposed definition focuses 
solely on age, ignoring other important ecological attributes of old-
growth such as canopy layers, presence of snags, and presence of coarse 
woody debris.
    The proposed legislation would classify any stand not previously 
managed as ``old growth'' regardless of age. The proposed legislation 
would prohibit treatment of these areas under the auspices of 
protecting `old growth,' regardless of whether old-growth values were 
present. For example, on the Clackamas River District, 80-year old 
stands encompassing about 1,000 acres that resulted from a burn (not a 
timber sale) would be considered old-growth under the legislation 
because they have not been previously managed.
    Section 801(c) would establish new criteria for selecting 
contractors, giving preference to local contractors. The Department 
supports job creation in the communities surrounding Mt. Hood. This 
language would appear to limit competition, and narrow opportunities, 
in the existing small business community, which includes minority and 
women-owned businesses, but which lies beyond the state. In the case of 
timber sale contracts, ``local'' sale purchasers are very limited due 
to the mill closures which occurred in the past decade. Bidders now 
come from all over Oregon and Washington and purchase logs that may go 
to 3 or 4 different mills for processing. The Department believes 
language submitted in Section 313 of the President's FY 2005 Budget 
provides a better approach, and ensures a suitable balance between 
local preference and appropriate open and fair competition.
    Section 802 requires the Mount Hood National Forest to complete 
5,000 acres of pre-commercial thinning annually for the next decade. 
Section 803 requires thinning 1,200 acres in lands defined as 
``matrix'' under the Northwest Forest Plan. We believe forest managers 
should retain the flexibility to set priorities to accomplish Forest 
plan objectives in an annual program of work and, therefore, do not 
support the statutory establishment of these activities.
    Section 804 provides for thinning areas on the Eastside of the Mt. 
Hood National Forest to move stands into `the natural range of 
variability'. It prohibits the removal of all large and old trees, but 
does not specify the criteria for determining trees that would qualify 
as either `large' or `old'. Such restrictions may make it impossible, 
under this section, to remove larger or older trees that are infected 
with diseases, such as root rots or heavy mistletoe infestations, and 
thus preclude the overriding objective of improving forest health. 
Furthermore, requirements for the retention of all size classes would 
conflict with objectives of the Healthy Forest Restoration Act. Title 
IX contains several miscellaneous sections, three of which (901, 903, 
904) cover previous existing rights. We suggest again that compromised 
wilderness character could be avoided by changing the wilderness 
boundaries to exclude ongoing uses.
    Section 905 would authorize the retention of certain fees collected 
on the Mt. Hood NF. USDA supports revenue retention for special use 
fees agency-wide, but not on a forest by forest basis.
    Mr. Chairman, this concludes my testimony. I would be glad to 
answer any questions from you or the rest of the Committee members.

    Senator Smith. Secretary Rey, the way I understood your 
comment on the reforestation bill, you support the statutory 
language, but not the budgetary approach.
    Mr. Rey. That is correct.
    Senator Smith. Before we go to further questions, 
Congressman Gibbons has joined us, and, as a courtesy to him, I 
think we should hear him, and then we'll go back.
    Welcome, Congressman.

 STATEMENT OF HON. JAMES A. GIBBONS, U.S. REPRESENTATIVE FROM 
                             NEVADA

    Mr. Gibbons. Thank you very much.
    Senator Smith. Your colleagues have preceded you, and spoke 
glowingly of this legislation.
    Mr. Gibbons. Senator Smith, I will try to keep my comments 
short, and I do appreciate your understanding of the schedule 
we all have to meet here in this body. And I want to, again, 
thank you for holding this important hearing on the Lincoln 
County Conservation, Recreation, and Development Act.
    And let me also add my thanks to Senator Reid and Senator 
Ensign for their leadership in the Senate on this important 
piece of legislation. I'm sure that those Senators have said 
everything that needs to be said about this piece of 
legislation, but it hasn't been said by all of us. And I want 
to add my two cents, just to make sure that we have covered all 
of our bases.
    I do want to say that this bill has been cosponsored and 
supported by the entire Nevada delegation. The title clearly 
spells out what S. 2532 is, for conservation, recreation, and 
development.
    And, first, regarding conservation, the amount of 
wilderness proposed by this legislation is 100,000 acres, 
greater than the State of Rhode Island. Second, in addition to 
the extensive conservation efforts, this bill will provide 
recreational opportunities through the designation of an off-
highway vehicle trail, the creation of county parks, and the 
expansion of three State parks. And, third, the development 
measures include the lands for disposal and the creation of 
utility corridors, all reasonable and necessary for planning 
and growth in Lincoln County.
    Mr. Chairman, Lincoln County is over 98 percent managed, 
regulated, and controlled by the Federal Government. Imagine 
funding all the county needs in a county the size of many 
States, with the needs of hospitals, schools, and roads and 
emergency medical services, police, fire, and libraries, with 
only 2 percent of the geographic area as a taxable base. While 
some will argue that the amount of land this bill proposes to 
privatize is excessive, in fact it will only increase the 
private-land percentage from 2 percent to less than 3 percent, 
a very modest increase, even in my opinion.
    Another challenge facing Lincoln County is a significant 
amount of land designated as wilderness study areas. There are 
16 wilderness study areas within Lincoln County boundaries. 
This legislation will resolve 14 of those areas in a move to 
end the 20-year era of BLM management of these areas as de 
facto wilderness.
    Finally, I can confidently say that the creation of the 
bill is the product of a public process, and all interested 
parties had the opportunity to express their opinion. I firmly 
believe that this bill establishes good policy. And I say this 
not because I am 100 percent in agreement with every individual 
provision. In fact, if you were looking at this bill, there are 
a lot of people who dislike it. If you are someone who wants a 
lot more wilderness area, you're going to dislike this bill. If 
you're someone who wants far less wilderness are, you're going 
to dislike this bill. But I say this because every individual 
provision in this legislation is part of a larger effort to 
develop, in the spirit of compromise, a good, sound land policy 
for this county.
    So I urge the Senate to move forward on this important 
piece of legislation. And, Senators, I thank you for your time 
and your indulgence, and I would be happy to answer any 
questions from my standpoint.
    Senator Smith. Congressman, I have one question. Did I 
understand you correctly that you were actually releasing 
wilderness study areas to create a wilderness?
    Mr. Gibbons. We are creating 100,000 more acres of 
wilderness area. In other words, recommended by the BLM.
    Senator Smith. Are you releasing study area?
    Mr. Gibbons. We're releasing some of the wilderness study 
areas that didn't qualify, that had been identified years ago 
as wilderness study areas, but did not make the qualification 
standards required for wilderness areas.
    Senator Smith. I tried to do that on some of the Steen's 
thing in exchange for some other areas to become wilderness, 
that didn't become wilderness, in exchange for getting of study 
areas that would never--are going to become study, and there 
was tremendous opposition to that.
    Mr. Gibbons. There always is.
    Senator Smith. Have you found that the national 
environmental groups are opposed to this?
    Mr. Gibbons. Yes.
    Senator Smith. Their position hasn't changed, then.
    Mr. Gibbons. No, their position has not changed. This is a 
collaborative effort between the local county officials, State 
officials, Federal officials, local environmental 
organizations, who know and understand and have walked the 
area. It was a tremendous piece of work between all interested 
parties. And, yes, everyone isn't happy with this bill, but 
then probably no bill would make everybody happy.
    Senator Smith. Thank you very much, Congressman.
    Senator Wyden, do you have a question?
    Senator Wyden. No, thank you.
    Senator Smith. Thank you.
    Secretary Rey, as to the Mount Hood Wilderness bill, as I 
understand it, there are approximately 40,000 acres in this 
proposal that are classified as matrix under the Clinton 
Northwest Forest Plan. If this legislation becomes law, does 
the Forest Service have sufficient authority to redesignate 
matrix in areas elsewhere in the region to meet the harvest 
goals of the Northwest Forest Plan?
    Mr. Rey. We have the authority to do that. We would have to 
go through a plan revision process, which, in turn, would have 
to be subject to consultation with the Fish and Wildlife 
Service so that they could evaluate the effect on any 
threatened or endangered species. So it would be a lengthy 
process. It is not something we would do, or could do, in 
probably anything short of 2 or 3 years.
    Senator Smith. You mentioned in your testimony the 
wilderness designation could affect large parties who wanted to 
use the wilderness, such as Boy Scouts, who may want to go to 
Mirror Lake or something like that. How would you anticipate 
managing such a thing? Would it be done on a raffle system?
    Mr. Rey. If we found that we needed to limit--well, first 
of all, if the areas that are currently used for recreation 
purposes that are not allowed in wilderness are designated as 
wilderness, we would have to limit the use completely for those 
areas--mountain-biking, for instance, and other more developed 
forms of recreation. Then once we've limited the recreation use 
that is not appropriate to wilderness, the next question would 
be, Are we still getting too much wilderness use for the 
carrying capacity of the land? And there are places where we do 
limit use to keep numbers down to maintain a wilderness 
experience. But most of the concerns that we've expressed in 
areas where there are existing other recreation uses are not 
necessarily the amount of use, but the appropriateness of the 
type of use in an area that would now be designated as 
wilderness.
    Senator Smith. Can you describe the difference between 
motorized recreation that would, I believe, be disallowed in a 
wilderness designation, versus what you have now in the OHV 
management policy?
    Mr. Rey. What we're trying to do with off-highway-vehicle 
management policy is to develop areas where OHV use can be done 
without diminishing resource values. Those are all non-
wilderness areas. There are no wilderness areas where we allow 
off-highway-vehicle use to occur. The restriction for use in 
wilderness areas is any mechanized use. It doesn't have to be 
motorized, but mechanized is the restriction.
    Senator Smith. So there are off-highway-vehicle uses, but 
not motorized in wilderness, currently?
    Mr. Rey. No. There are no mechanized uses in wilderness, 
currently.
    Senator Smith. I was very encouraged to hear the Forest 
Service is supportive of additional wilderness area, where 
Senator Wyden is proposing--probably not as much as he's 
proposed, but a good portion of it. How much a percentage are 
you saying you support of his proposal?
    Mr. Rey. I think the proposal is about 186,000 acres, or 
thereabouts, and we've identified somewhat in excess of 40,000 
acres that we believe meets the definition of wilderness use 
and could be added to the wilderness areas under Mount Hood, on 
the Mount Hood.
    Senator Smith. Most of the areas in the bill's proposal are 
currently inventoried roadless areas. If Congress does not act 
on this legislation, can you describe the process that would 
determine how those areas are to be managed?
    Mr. Rey. I think about 93,000, or just about half of the 
area that is proposed for wilderness, is inventoried roadless 
area. If new legislation is not enacted, those areas would be 
managed in accordance with the Mount Hood Forest Plan, as 
amended by either the Northwest Forest Plan or the Columbia 
Gorge National Scenic Area Plan. Most of them would probably 
remain roadless.
    Senator Smith. When I asked you about the reforestation 
bill, you didn't like the budgetary approach, but you liked the 
statutory language. Do you like it because it helps you defend 
reforestation projects in court? Why would the Forest 
Department like it?
    Mr. Rey. Well, I don't think it speaks to the issue of 
court action. I think what we embrace is a shared concern over 
the increasing size of the reforestation backlog, and we're 
willing to look at a variety of options to address it, as long 
as we can find some that are consistent with the President's 
budget.
    Senator Smith. The concern I have about your reticence to 
use new funds created by this bill to cooperate with land-grant 
colleges of forestry on post-fire rehabilitation would be that, 
with no financial assistance from the Forest Service--a group 
of forestry scientists from Oregon State University wrote a 
document regarding the risks of delay and of doing nothing 
after the Biscuit Fire. One of those scientists, Professor Mike 
Newton, is a witness today. And can you describe the role that 
the Forest Service played in the analysis of the Biscuit Fire 
Rehabilitation Project?
    Mr. Rey. We looked at the report by the university, or 
Oregon State University, and that included some alternatives in 
the Biscuit fire-recovery proposal that were modeled after some 
of the recommendations that we made--or that they made, I'm 
sorry.
    Senator Smith. The Forest Service is currently held up in 
court over the Biscuit Fire Rehabilitation Project, one of the 
largest reforestation efforts in modern memory. In terms of 
reforestation, how is this project different from the 
reforestation of the Tillamook Burns of the 1930's and 1940's?
    Mr. Rey. In terms of what we are proposing to do, I don't 
know that it is dramatically different. What we had in our 
Biscuit Fire Recovery Proposal is an integrated proposal that 
involves a significant amount of reforestation in areas where 
we think reforestation is going to benefit ecological values. I 
guess the difference is that, depending on the court action, we 
may not get to implement the proposal, unlike the Tillamook 
Burn, which was fully recovered as a consequence of the efforts 
that were undertaken at that time.
    Senator Smith. The Tillamook Burn today is a pretty vibrant 
forest, and very healthy. You hate to see the Biscuit not have 
that same kind of benefit, that same kind of effort.
    Anyway, thank you.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    I was following Mr. Rey's comments on the size of--the 
amount of wilderness in my legislation. It reminded me a little 
bit of Dustin Hoffman, in Tootsie, that wonderful line where he 
says, ``I can be tall or I can be short,'' because you just 
indicated that you thought the legislation that I wrote had too 
much wilderness, but, at the top of page 3 of your testimony, 
it says that areas in my wilderness legislation are too small 
and that opportunities for solitude or primitive and unconfined 
recreation, a hallmark of the wilderness experience, would be 
diminished. So hopefully we can sort that out, and I won't 
spend time belaboring that.
    What I would like to do is see if we can correct some of 
the misconceptions about how wilderness is managed, and get 
your answers to a few questions to clear up some of the 
misconceptions.
    First is, there is a common belief that a wilderness 
designation means there is no possibility for active management 
to curtail the possibility of wildfires or disease outbreaks. 
Now, the way I read section 2324(1), Management of Insects and 
Disease, that's not correct, in that the Forest Service can set 
prescribed fires and conduct other forms of hazardous-fuels-
reduction, disease-reduction projects in wilderness areas. Is 
that correct?
    Mr. Rey. That's the section of your bill?
    Senator Wyden. No, what I want to do is correct the 
misconception. The misconception right now is, there's no 
possibility for active management to curtail wildfires or 
disease outbreaks under current law in a wilderness area. And I 
just read you the section of the rules that indicate otherwise, 
that the Forest Service can set prescribed fires and conduct 
other forms of hazardous fuels reduction projects.
    Mr. Rey. Okay. I don't think that's our misconception.
    Senator Wyden. I'm just talking about the wilderness 
conception. I want to make sure we understand exactly what you 
can do in wilderness areas. The first thing Senator Smith and I 
hear whenever anything comes up is, ``Oh, my goodness, if you 
have a wilderness area, there's no way you can manage it to 
curtail the possibility of wildfire or disease outbreak.'' I 
just read you the rule that says otherwise.
    Mr. Rey. That is correct.
    Senator Wyden. The second misconception involves whether 
mechanized equipment can be used to fight fires in wilderness 
areas. Again, 2326 indicates that, yes, you can use mechanized 
equipment to fight fires in wilderness areas.
    Mr. Rey. That is also not a misconception. That is correct.
    Senator Wyden. The third misconception--not yours, but one 
that I heard continually--is one that involves whether 
mechanized equipment is available to do search and rescue in 
wilderness areas. Our understanding--again, from 2326--is, yes, 
you can use mechanized equipment for search and rescue. Is that 
correct?
    Mr. Rey. That is also correct.
    Senator Wyden. It's a common misunderstanding that the only 
areas suitable for wilderness are those that are pristine, 
never touched by man. But the Forest Service regulations 
clearly state that the word ``untrammeled'' in the Wilderness 
Act refers to areas where the natural ecosystem is not 
disturbed by man's intrusion. Isn't it correct that structures, 
fences, campgrounds, and the like have been grandfathered into 
many existing wilderness areas?
    Mr. Rey. That is correct. And if we were to designate some 
of the areas with those sorts of facilities in this bill, if 
you wanted to retain them, we would grandfather them in this 
bill, as well.
    Senator Wyden. Now, there's concern by the administration 
and others that a wilderness area in the gorge would be 
inconsistent with the Gorge Act and might lead to the gorge 
being out of compliance with the EPA relative to the Clean Air 
Act. What is, in your judgment with respect to this situation 
as it relates to the bill, as drafted? If you would like to get 
back to us in writing on that, that will be fine.
    Mr. Rey. I think that is one where we have some material in 
our testimony. I have not heard a concern relative to EPA, but 
we do lay out where we think there would be potentially some 
conflicts with the Columbia Gorge Scenic Area Act, and we can 
elaborate on that for the record.
    I think our biggest concern here is that the gorge is an 
area with a substantial amount of recreation use, and unless 
some of those uses are grandfathered in this bill, we would 
have to back into the Columbia Gorge legislation and reevaluate 
how we manage recreation use in the gorge.
    Senator Wyden. Now, I understood from your testimony that 
you have questions about whether the thinning program is 
necessary. Would you like me to remove the thinning provisions 
that I put in, from my legislation?
    Mr. Rey. No, I don't think removal is necessary. There are 
some changes we would like to see, but I think we can work 
through those changes.
    Senator Wyden. Okay. Now, the bill creates a local 
contracting preference so as to try to keep jobs associated 
with the area in Clackamas and Hood River Counties. Do you feel 
that you can support that local-contracting preference with 
respect to Mount Hood work, the contracts on Mount Hood?
    Mr. Rey. I think our concern is that the language, as it is 
drafted, may be too restrictive in narrowing opportunities, and 
that we have language submitted in section 313 of the 
President's fiscal year 2005 budget which we think provides a 
better balance between local preference and appropriate and 
fair and open competition.
    The big question when you deal with local preference is 
always, Is there enough local capacity to do the kind of work 
that needs to be done? And if there's not, and you write the 
local-preference requirements too strictly, you, sort of, 
diminish the opportunity to get the work done.
    Senator Wyden. Well, we will work with you on that. I can 
just tell you--Senator Smith knows--there is just a ton of 
economic hurt out there. Our State unemployment went up again 
last week 7.4 percent. The areas that I tried to target in this 
legislation with the local-contracting preference--Clackamas 
and Hood River--have a lot of folks out of work. But your 
comment, with respect to flexibility is a reasonable one.
    And I know we have got a vote on, Mr. Chairman, and you let 
me know how you want to juggle this.
    I just want to say to Mr. Rey and the administration, we're 
anxious to work with you. We're going to work with all the 
stakeholders. As I say, what I've tried to do since the 
original legislation is to incorporate all of the concerns we 
heard from the folks in the area. But none of this is the last 
word, and we're anxious to work cooperatively with you and get 
it done.
    I thank you, Mr. Chairman.
    Senator Smith. Senator Wyden, what I would propose is, we 
go vote. They're going to strictly adhere to these times. 
There's probably 5 minutes left on the current vote, so we'll 
go do that, and then the others are 2, 10 minutes apart. And so 
roughly a half an hour, 40 minutes, we can be back and take up 
the second panel.
    Do you have any further questions of this panel?
    Senator Wyden. No.
    Senator Smith. Ms. Watson, there's two questions that 
Senator Craig was to have me ask, we'll submit those to you in 
writing.
    Thank you both for being part of our first panel.
    [Recess.]
    Senator Smith. Ladies and gentlemen, we'll reconvene this 
Senate hearing.
    Senator Wyden has suggested we start, and we want everyone 
to have the opportunity to say your piece on these bills.
    And so, with that, we will turn to our second panel--we'll 
start with Mr. Mike Newton, professor emeritus, Forest Service, 
Oregon State University; and then Mr. Jason Spadaro, president 
of SDS Lumber; Ms. Linda Malone, mayor, City of Sandy--nice to 
have you here, Linda; Mr. Chris DiStefano, International 
Mountain Bikers Association, Lake Oswego, Oregon; and Mr. Jay 
Ward, conservation director, Oregon Natural Resources Council, 
Portland, Oregon.
    So, Professor Newton, thank you for being here. We will 
hear from you first.

STATEMENT OF MICHAEL NEWTON, PROFESSOR EMERITUS, DEPARTMENT OF 
            FOREST SCIENCE, OREGON STATE UNIVERSITY

    Mr. Newton. Thank you. Good afternoon, Mr. Chairman, 
members of the Committee.
    My name is Michael Newton. I have been engaged as a full-
time leader of reforestation, vegetation, watershed, and 
habitat management research for 45 years at Oregon State 
University. This work includes studies on fire-prone forest in 
southwestern Oregon since 1962, since 1962. I was a member of 
the OSU team that wrote the Biscuit report and related 
publications. Copies of these reports are submitted for your 
consideration, Mr. Chairman.
    I also draw from experience with the Tillamook Burn, the 
rehabilitation of which was paid for by a bond issue voted on 
by the people of Oregon, as well as by the salvage of dead 
trees. Sixty percent of the Tillamook, now a State forest, is 
being proposed as a wilderness area, thanks to rehabilitation 
work. The Biscuit and other recent fires are on much harsher 
sites than the Tillamook. They risk becoming chronic brush 
fields as a result of inadequate action, too late, with 
inadequate technology.
    My testimony dwells briefly on three major issues on S. 
2709, which addresses them all, and I support the bill 
strongly. The photos I've brought will help illustrate my 
points.
    The first one I would like to put up on the easel here is a 
composite. I'm bragging a little bit here a little bit; I took 
this picture of the Tillamook Burn myself in 1957, and it was 6 
years after the last fire, and that's the way it looked with no 
planting. Tillamook does not have nearly as much of a brush 
problem as the Biscuit Fire, so there it shows not very much 
brush.
    The upper-right quadrant showing the Biscuit Fire is a 
half-million acres, more or less, that was pretty much 
completely denuded, and the entire understory on much of that 
is occupied by sprouting brush right now. Weeds are moving in 
very rapidly.
    In the lower-left quadrant, you see 10-year-old view of the 
whole mountain burn, which you saw a little bit earlier, but 
I've added a little information. The private land that is so 
nicely reforested represents a cost of $400 an acre, and the 
Federal land has a cost of $1,200 an acre to get to a not-
nearly-as-far-advanced condition toward mature forest.
    Senator Smith. That assumes if you proceeded to do this 
now, it would cost that much more, versus $400 an acre?
    Mr. Newton. If you had to pursue a successful large 
reforestation program with the tools the Forest Service has, it 
would cost you $1,200.
    Senator Smith. Today?
    Mr. Newton. Today.
    And the lower right is a view of 37-year-old plantation 
that I planted on just average ground. This gives you an 
illustration of how close or how fast latent successional 
development occurs. Immediate rehabilitation is, in fact, at 
the core of all of these successes.
    The first point I want to make is that funding is needed to 
provide staff and other infrastructure for large restoration 
projects and to support the underlying research.
    A second point I want to make is that reducing the time, 
land, and associated costs, associated with commencement of 
restoration work will critically--is critical, and that 
capacity does not exist today.
    Third is that research to provide state-of-the-art rehab 
technology and evaluation of its impacts when applied over 
large areas is fundamental to both success and getting approval 
of these major rehab programs.
    To elaborate on the funding, the draft of S. 2709 proposes 
to invest up to 10 percent of the restoration budget in 
research. I suggest that wording specify an average of 10 
percent for level funding for programs and adaptive research, 
and outreach in both Federal research installations and at 
universities in a cooperative venture. I suggest that some of 
these funds be used to establish centers of excellence in 
forest restoration capable of conducting research adapted to 
large-scale, and evaluating its impacts on habitats and 
watersheds.
    A second major item for funding that is essential is, on 
Federal-land administration, in particular, large-scale 
restoration work requires special training and expertise in 
ecology and management of the forest and each subregion's 
climate and forest conditions. Local experience, expertise, 
seed supplies, and propagation facilities need to be kept 
current. That is expensive.
    Avoidance of delay in launching restoration efforts is 
crucial. You've made that point, Mr. Chairman, and I certainly 
underscore that. Delays attributable to administrative rules 
and court action limit expedient Federal action when speed is 
of the essence.
    I propose wording that broadens the use of emergency 
exemptions or related procedures to facilitate onset of work 
quickly; moreover, that following a major deforestation event, 
a draft plan for restoration actions be required within three 
months, with no more than one month additional available for 
review and appeals.
    I propose maintenance of current exigency plans in case of 
fire in fire-prone districts so that their plan's ready to roll 
in case a fire takes off, and also provision for availability 
of all legal tools used by state and private organizations, 
which are so effectively working on rehab programs on their own 
lands.
    Senator Smith. Professor, can I ask you a question? I want 
to be fair. And I will ask the ONRC representative, Mr. Ward, 
the same. Maybe I'm missing something. What is the 
environmental value that is served by doing nothing and letting 
this just turn into brush? And will it eventually come back 
into forest? And if so, how long does it take?
    Mr. Newton. Well, thank you for asking that question. 
Rehabilitation and restoration of the species that will become 
a mature forest is something everybody is in favor of. If the 
goal is maintenance of habitat for late successional wildlife 
species, you can get there much more quickly on purpose than 
you can by accident. And deliberate regeneration and 
restoration of that forest will save anywhere from decades to 
centuries in reaching that goal. So I think that's probably the 
key issue. And on Matrix lands, of course, the revenue from 
timber and salvage will pay for that.
    Senator Smith. It's not an exaggeration to say a hundred 
years, then, to get back to where you could be, to even begin 
to get to where, for example, the Tillamook Burn has been for 
some time?
    Mr. Newton. I would say on a Biscuit-like area, yes, a 
hundred years. It is not going to look like the Tillamook does 
at age 50, a hundred years from now.
    Senator Smith. That is what I've always understood, and 
that's why I've never really understood the virulence of the 
opposition to trying to manage the land.
    Mr. Newton. Yes.
    Well, my final point is on research programs--they are 
needed--that provide methodology for restorations of large 
areas with variable levels of damage toward a mature forest 
condition. We don't use aerial seeding now, because we don't 
have the underlying technology, but it was successfully used in 
the Tillamook.
    The Federal agencies do not have the weed-control tools 
that State and private people have. The impacts of their use on 
a large scale needs study, and the outcomes of those studies 
need to be available to public and private owners.
    The impacts of restoration work on watersheds and on 
wildlife habitat need to be done, and nobody is now doing that 
kind of work on the scale that is needed to deal with these 
catastrophic fires.
    And a final point is that I think we need to make clear 
where salvage of dead timber is appropriate or not appropriate 
to the management goals for a range of forest conditions.
    Mr. Chairman, I will not elaborate further on details at 
this point, but I do invite questions, at your discretion.
    [The prepared statement of Mr. Newton follows:]

Prepared Statement of Michael Newton, Professor Emeritus, Department of 
                Forest Science, Oregon State University

    Good afternoon, Mr. Chairman, and members of the subcommittee, my 
name is Michael Newton. I have been engaged full time in research on 
reforestation, ecology and management of forest vegetation, watersheds 
and habitat for 45 years at Oregon State University. This research has 
been concentrated in the Pacific Northwest, but includes studies in the 
Southeast, New England, Alaska and California; I have been conducting 
research on fire-prone lands in southwest Oregon since 1962. I have 
published about 275 technical and scientific papers on these subjects 
over the years. I appreciate the chance to share a few thoughts with 
you. Where management plan direction calls for forest to be the 
predominant vegetative cover on lands transformed by intense fires, my 
work makes clear that reforestation cannot be accomplished at 
reasonable cost unless it is done promptly. And the new seedlings must 
be adequately protected from weed competition, animal damage, and 
excessive drought and heat. Problem avoidance is the key to success. 
This means promptness of action.
    Research over the past 23 years has developed practical methods 
that quadruple the growth rates of conifers when established 
immediately after severe events. Immediate reforestation is more 
reliable than delayed planting or reliance on natural regeneration, 
especially where tree seed sources are destroyed as in intense fires. 
Aerial seeding, abandoned for years on private land, is still the only 
approach possible with huge expanses of burned-over land, but it also 
requires immediate action. It may be done at a fraction of the cost of 
planting seedlings, and succeed in inaccessible areas. Where planting 
is possible, seedlings protected from competing cover reach maturity 
far more quickly than those not protected. Use of safe, common weed 
killers is much more effective and safer to humans than manual methods 
of weed control, and can be accomplished on a large scale at a fourth 
of the cost. Prompt reforestation and seedling protection restores 
mature-forest habitat more quickly and, where wood production is a 
management goal, produces harvestable timber sooner to meet America's 
demand for housing. Tree size and habitat goals may be reached fifty to 
a hundred years or more before forests initiated by untended natural 
regeneration.
    Our federal agencies are now unable to pursue a number of these 
principles because of appeals and litigation, resulting in costly 
delays and ineffective investments when work is finally undertaken. My 
environmental research suggests that such delays do not enhance 
environmental values or provide safety to humans, wildlife or 
watersheds, and they may cause harm by requiring extensive remedial 
actions.
    This bill has a laudable purpose, and its wording provides for a 
positive influence on federal forest lands that presently suffer from 
lack of reforestation and maintenance activity. It is therefore worthy 
of support, and I believe that it can solve some currently serious 
problems. Several thoughts are offered to make this bill even more 
effective:
    Removal of some fire-killed trees often called salvage logging--
weed control, use of prescribed fire, and control of unwanted fires are 
crucial practices in obtaining and sustaining forest regeneration. 
These practices are frequently appealed, then challenged in court with 
two results: management costs are driven much higher than warranted and 
years of delay in time-sensitive actions kill the effectiveness of 
reforestation efforts. The Forest Service and BLM have invested some 
$40 million in cooperative research programs (FIR and COPE) to enhance 
management, and are unable to use much of the information now because 
of obstacles to prudent management created by groups unwilling to let 
federal managers follow the directions in their management plans. 
Freedom from appeal or litigation is essential for timely action in 
virtually all reforestation following intense fires. I suggest wording 
that exempts such time-dependent emergency measures from judicial 
review.
    Federal agencies need the same freedom as all other forest managers 
to use all management tools, such as fire, weed killers, salvage 
logging, planting seedlings and aerial seeding combined with rodent 
control where legal within the states where action is needed.
    Federal agencies would benefit from a rule that requires the 
completion of an operating plan for reforestation no more than three 
months after a severe event with no more than a month for technical 
review. This would support the purpose of timely salvage and 
establishment of reforestation in the year following such disturbance 
before sites are occupied by competing vegetation as is commonly 
practiced on private, state and tribal lands.
    Federal agencies would benefit from a requirement to maintain 
silviculture and reforestation staff, and seedling production 
infrastructure, capable of responding to a reforestation challenge with 
current scientific approaches. Where the draft bill proposes to invest 
up to 10% of its budget in cooperative research and outreach programs 
with colleges and universities, I suggest that wording be amended to 
specify investment of an average of ten percent of this allocation in 
adaptive research and outreach programs, and that a portion of this be 
used to support an eastern and a western center of excellence within 
forestry colleges with established leadership in this field. This would 
provide continuity and focus for continual learning to meet needs for 
information and technologies to deal with rehabilitation. I envision 
such programs as joint ventures with federal research agencies. Their 
information products would be suitable for public and private use in 
meeting land management objectives. Adaptive research and outreach 
programs, coupled with clear legislative direction to enable and 
expedite timely responses following severe disturbance events, will 
greatly increase the efficiency and effectiveness in achieving 
rehabilitation goals on the enormous scale faced by the agencies.

    Senator Smith. Thank you very much, professor. Your 
testimony is very enlightening and appreciated.
    Jason, nice to see you, and the mike is now yours.

STATEMENT OF JASON SPADARO, PRESIDENT, SDS LUMBER CO., BINGEN, 
                               WA

    Mr. Spadaro. Mr. Chairman, thank you.
    My name is Jason Spadaro. I'm president of SDS Lumber 
Company. We are an independent forest-products company in 
Bingen, Washington, in the Columbia Gorge, in the shadow of 
Mount Hood. Our operations include managing 60,000 acres of 
timberland on a sustainable-yield basis, as well as lumber, 
plywood, chip facilities, and a biomass energy plant. SDS 
Lumber has 316 employees, 69 of which are residents of Hood 
River County, where the proposed wilderness is located.
    My background includes a bachelor of science degree in 
forest management, and I have over 15 years experience in 
managing our company's timberlands.
    The following comments on the Lewis and Clark Mount Hood 
Wilderness are on behalf of my company and the American Forest 
Resource Council. They can be summarized in three key areas. 
First is fiber supply and economic impacts. A second health is 
forest health and wildfire risks. And a third is the 
appropriateness of these lands for wilderness designation.
    I have more specific comments in written testimony 
submitted for the record.
    The first point, fiber supply and economics. As we all 
know, low interest rates and housing activity has propelled the 
U.S. economy for the last 2 years. The U.S. Census Bureau 
recently announced a seasonally adjusted annual rate of 1.65 
million housing starts for the year. As a result, the demand 
for lumber, plywood, and other wood-based products is at 
historic levels. The supply of this fiber is in a period of 
historic high demand that's currently being satisfied by 
private lands and foreign production. A dependable supply of 
wood fiber from our Nation's public forests would not only 
generate revenue to the Treasury and encourage domestic 
investment in processing, but it would also lessen our Nation's 
dependency on foreign production.
    The designation of Federal lands under S. 2723 as 
wilderness is taking us in the wrong direction, as it would 
permanently remove nearly 180,000 acres of public forestland 
from consideration for timber harvest. Our Nation's demand for 
wood-based building products would remain unchanged, however. 
The real effect would be to increase our Nation's dependency on 
foreign production of wood-based building products and 
essentially export family-wage jobs in the forest-products 
industry to foreign lands. Additionally, this will increase 
demand for timber harvested in regions of the globe with 
substandard environmental protections.
    The Mount Hood National Forest consists of 1.1 million 
acres of some of the most productive forest conditions in the 
world. Under the Northwest Forest Plan crafted by the Clinton 
administration, the Mount Hood is allowed to harvest and sell 
approximately 60 million board-feet, but only a fraction of 
that has actually been sold.
    I should also add that SDS Lumber Company historically has 
depended upon the Mount Hood National Forest and the Gifford 
Pinchot as part of our timber supply. And currently, public-
sourced, Federally-owned public timber represents less than 1 
percent of our annual fiber needs.
    Harvest of the 60 million board-feet allowable is to occur 
on 183,000 acres of Matrix lands that represent 16 percent of 
the total land base. The wilderness designation proposed would 
remove 22 percent of these Matrix land designations and further 
reduce the allowable sale quantity.
    From the forest-products industry's perspective, we can 
afford no further loss of Matrix lands from harvest 
consideration.
    To the second point, forest health and wildfire risks. The 
lack of forest management on the part of the Forest Service has 
allowed many parts of our national forests in the West to 
become overstocked and unhealthy. In the past 5 years, nearly 
26 million acres of Federal lands have burned, costing 
taxpayers nearly 5.8 billion in fire-suppression costs.
    A recent fire east of Hood River, the Panorama Fire, on 
August 2, 2004, could easily have exploded into a scenic and 
environmental catastrophe if not for the rapid response of 
local fire districts and the Oregon Department of Forestry. 
Unfortunately, many of the tools that were used to fight this 
fire would not be available in wilderness. Wilderness 
designations, as you know, precludes the use of mechanical 
devices when fighting fire, and let-burn policies apply to many 
wilderness areas. As a result, wilderness fires have a higher 
potential to be severe and catastrophic in nature. For this 
reason alone, wilderness designations should be used very 
cautiously.
    The proposed Mount Hood Lewis and Clark Wilderness includes 
lands in the foothills of Mount Hood, near or adjacent to 
existing communities, and lands in the Columbia River Gorge 
with significant wind patterns and known fire risks associated 
with the railroad and highways. Designating these areas as 
wilderness in light of their risks could be viewed as 
irresponsible.
    S. 2723 suggests water quality and scenic vistas will be 
assured to communities as a result of wilderness designation. 
In reality, forest disturbance is a constant and a natural part 
of the forest ecosystem. In absence of forest-management 
techniques that mimic natural disturbance, such as selective or 
even-age harvest, nature will take its course and renew the 
forest. It is not a question of ``if'' wilderness burn; rather, 
it's a question of ``when'' wilderness will burn. The eventual 
occurrence of wildfire should be of concern to communities that 
depend upon these watersheds and of particular concern to 
Congress in a national scenic area, that we take due diligence 
to protect wildfire.
    S. 2723 attempts to provide some measure of protection for 
specific communities in Cascade Locks and Government Camp by 
allowing fire-safe community zones. In reality, forest fires 
occur at a landscape level often without regard for the well-
intended defensible spaces. Communities may feel more secure 
with a defensible perimeter, but unless the fundamental risks 
are addressed across the entire landscape, they are unlikely to 
provide measurable benefit.
    Designation of nearly 180,000 acres of new wilderness 
appears contrary to the intentions of Congress and the 
President in reducing the risk of wildfire with passage of the 
Healthy Forest Restoration Act.
    To the third point, inappropriate use of wilderness 
designation. S. 2723 proposes to extend wilderness designation 
to a type and character of land never before associated with 
wilderness. Existing improvements such as a Columbia River 
Historic Highway are not consistent with the wilderness 
experience. To designate these lands would create a lower 
standard for the definition of wilderness that was not 
envisioned in the Wilderness Act, in my opinion.
    The precedent erodes the basic definition of wilderness, 
and all the special exceptions would create inconsistency and 
public confusion as to allowable uses between one wilderness 
and another.
    In summary, I thank the committee for the opportunity to 
comment. It should be obvious from my concerns that I share 
with you a great personal interest in forest management and the 
responsible stewardship of our Nation's resources. 
Unfortunately for colleagues of mine in the forestry 
profession, the management of our public resources has become 
increasingly politicized, and our national forests continue to 
be caught in this tug of war between preservation and 
utilization. While we debate, our forests become increasingly 
unhealthy and vulnerable to fire due to lack of sound forest 
management. I strongly believe the answer is found in the 
multiple-use philosophy of the greatest good for the greatest 
number. Proposals that permanently exclude forest management 
through designation as wilderness are not in the public 
interest. There is an appropriate place for wilderness, and 
myself and staff members of AFRC look forward to working with 
Senator Wyden and others to identify opportunities for 
wilderness that make economic--make sense economically and 
ecologically.
    Thank you.
    [The prepared statement of Mr. Spadaro follows:]

    Prepared Statement of Jason Spadaro, President, SDS Lumber Co., 
                               Bingen, WA

    My name is Jason Spadaro, I am President of SDS Lumber Company, an 
independent forest products company located in Bingen, Washington in 
the Columbia River Gorge and in the shadow of Mount Hood. The 
integrated operations of SDS Lumber Company include both forestlands 
and production facilities for lumber, veneer, plywood, pulp chips and 
biomass energy. SDS Lumber Company is the largest employer in the area 
with 316 employees--69 of these employees are residents of Hood River 
County, Oregon where much of the proposed wilderness is located.
    The following comments on the Lewis and Clark Mount Hood Wilderness 
Act of 2004 (S. 2723) are on behalf of my company and the American 
Forest Resource Council (AFRC). The AFRC represents nearly 80 forest 
product businesses and forest landowners in twelve states. Its mission 
is to create a favorable operating environment for the forest products 
industry, ensure a reliable timber supply from public and private 
lands, and promote sustainable management of forests by improving 
federal laws, regulations, policies and decisions that determine or 
influence the management of all lands.

                  1. FIBER SUPPLY AND ECONOMIC IMPACTS

    SDS Lumber Company owns approximately 60,000 acres of forestland in 
the Columbia River Gorge. These SDS forestlands are managed under a 
sustainable yield philosophy and provide approximately 25% of the 
annual wood fiber needed for our manufacturing operations. The 
remaining 75% of our annual needs were historically sourced from the 
Gifford Pinchot National Forest and the Mount Hood National Forest. 
Currently we receive less than 1% of our annual fiber needs from 
National Forest lands due to the absence of any significant federal 
timber sales program on either of these forests. Instead, SDS relies on 
private land, Hood River County and State of Washington timber sales 
programs for its fiber supply.
    Consistent fiber supply continues to be a very important issue for 
the forest products industry of the Pacific Northwest. As recent as 10 
years ago, the Mount Hood National Forest was an important fiber supply 
to at least eight operating forest products manufacturers. Today, the 
number of mills operating in this same area is reduced to four, but the 
importance of a stable timber supply from the Mount Hood National 
Forest has not diminished. In the absence of federal timber sales 
programs, over the past decade the forest products industry has come to 
rely heavily on private lands in Oregon and Washington for its 
necessary wood fiber. Never before has the demand for wood fiber been 
focused so heavily on the private sector of forestland ownership in the 
United States.
    Low interest rates and resulting strong housing activity has 
propelled the U.S. economy away from recession over the past two years. 
On August 17, 2004 the U.S. Census Bureau announced single-family 
housing starts at a seasonally adjusted annual rate of 1.65 million 
units. As a result, domestic demand for lumber, panel and wood products 
is at historic levels. The supply of wood fiber for wood based building 
products in this period of historic demand is currently being satisfied 
by private lands and foreign production. A dependable supply of wood 
fiber from our nation's public forest lands would not only encourage 
domestic investment in processing facilities, reversing the trend of 
mill closures and job losses, but also lessen our nation's dependency 
on foreign production of wood based building materials.
    The designation of federal lands under S. 2723 as wilderness will 
permanently remove 177,800 acres of public forest lands from 
consideration for timber harvest, further reducing the potential of our 
nation's public forest lands to contribute to domestic demand for wood 
based building products. However, our nation's demand for wood-based 
building products will remain unchanged. The real effect of S. 2723 
will be to increase our nation's dependency on foreign production of 
wood-based building products and essentially export family wage jobs in 
the forest products industry to foreign lands. Additionally, this 
increase in demand for foreign production will increase demand for 
timber harvested in areas of the globe with substandard environmental 
protections, potentially contributing to global environmental 
degradation.
    The Mount Hood National Forest consists of 1.1 million acres of 
some of the most prolific forest growth conditions in the world. The 
2002 Monitoring Report of the Mount Hood National Forest reports annual 
forest growth to exceed annual harvest by a factor of 13 to 1 and 
annual forest mortality to exceed annual harvest by a factor of 8 to 1. 
Under the Northwest Forest Plan crafted by the Clinton Administration, 
the Mount Hood National Forest is allowed to harvest and sell 
approximately 60 million board feet of wood fiber per year but only a 
fraction of this has actually occurred. This harvest is limited to 
about 183,000 acres, or 16% of the total land base, designated 
``Matrix'' land where timber harvest is permissible. The proposed 
Wilderness designations would remove 22% of this Matrix land 
designation and further reduce the allowable quantity of wood fiber for 
sale to approximately 50 million board feet per year. From the forest 
products industry perspective, we can afford no further loss of Matrix 
lands or lands available for harvest consideration.
    The proposed Lewis and Clark Mount Hood Wilderness will result in a 
permanent prohibition on active forest management over 177,800 acres, 
including 41,000 acres nearly one-quarter of the Matrix lands. 
Wilderness designations that preclude active management do not serve 
the public interest. If we desire the multiple benefits that our 
forests are capable of providing in wildlife habitat, water quality, 
scenic beauty and economic benefit, we must open the door to actively 
managing our forests to achieve these outcomes not lock the door. S. 
2723 will discourage necessary investment in domestic processing of 
wood-based building products, weaken the Northwest forest products 
industry and national economy, eliminate family wage jobs in the forest 
products sector, increase our dependency on foreign production of 
building materials and encourage environmentally damaging timber 
harvests in other regions of the globe.

                   2. FOREST HEALTH & WILDFIRE RISKS

    Approximately 10,000 acres of SDS Lumber Company's forestlands are 
located in Hood River and Wasco Counties, some in close proximity to 
the federal lands proposed for federal wilderness designation under S. 
2723. As previously stated, we manage our timberlands under a 
sustainable yield intensive forestry philosophy. As a direct result of 
our active management, SDS forestlands carry a greater volume per acre 
of standing timber today than has existed over the past 60 years. Our 
intensive forest management tools include reforestation, even aged 
harvest, selective harvest, road construction, controlled burning, 
insect control and fire hazard reduction. As further testimony to the 
effectiveness of active forest management, the largest wildfire to ever 
occur on SDS Lumber Company lands in our 58 year history was the 2002 
Sheldon Ridge fire near Mosier, Oregon occurring as a result of 
lightning. The Sheldon Ridge fire burned a total of 11,000 acres but 
only roughly 300 acres of SDS forests burned due to aggressive fire 
suppression efforts and the healthy condition of our forests. All of 
our burned timber was salvaged and delivered for processing within the 
12 months following the fire, contributing approximately $3 million in 
value to our economy in lumber, plywood, paper products and energy.
    In stark contrast, a lack of forest management on the part of the 
U.S. Forest Service has allowed many parts of our national forests in 
the west, particularly those in eastern Oregon and Washington, to 
become overstocked, unhealthy, ravaged by disease and insects and at 
high risk of catastrophic wildfire. In the past five years, nearly 26 
million acres of Federal lands have burned throughout the western 
United States, costing taxpayers nearly 5.8 billion dollars in fire 
suppression costs. In Oregon alone, we have lost all or parts of the 
Mill Creek Wilderness, Canyons, Strawberry Mountain, Monument Rock, 
Glacier Rock, North Fork John Day, Kalmiopsis-Rogue-Siskiyou 
Wilderness, and a host of others.
    A recent fire east of Hood River (Panorama fire, August 2, 2004) in 
the Columbia River Gorge could easily have exploded into a scenic and 
environmental catastrophe if not for the rapid response of local fire 
districts and the Oregon Department of Forestry. Helicopters, fire 
retardant bombers, bulldozers, water tank vehicles and firefighters 
saved countless trees from being reduced to ashes. Unfortunately, these 
tools are not available for use when fire occurs in wilderness. 
Wilderness designation precludes the use of mechanical devices when 
fighting fire and ``let burn'' policies apply to most wildernesses. As 
a result, wilderness fires have a higher potential to be severe and 
catastrophically devastating. For this reason alone, wilderness 
designations should be approached cautiously. The proposed Mount Hood 
Lewis and Clark Wilderness haphazardly includes lands in the foothills 
of Mount Hood nearby or adjacent to existing communities, lands in the 
Columbia River Gorge subject to significant wind patterns and near 
known fire hazards such as the Union-Pacific Railroad and Interstate 
84, and lands in the eastern reaches of the Mount Hood National Forest 
with documented forest health problems and high fire risks (fire 
condition class 3 according to the U.S. Forest Service). Designating 
these areas as wilderness would be nothing short of irresponsible.
    S. 2723 suggests that water quality and scenic vistas will be 
assured to communities as a result of wilderness designation. In 
reality, forest disturbance is a constant and a natural part of the 
forest ecosystem. In the absence of forest management techniques that 
mimic natural disturbance, such as selective or even aged timber 
harvests that create forest openings and regeneration, nature will take 
its course and renew the forests in its manner. It is not a question of 
if wilderness will burn, instead it is a question of when wilderness 
will burn. With the eventual occurrence of wildfire in wilderness and 
the likelihood of those fires being more severe, the impacts to water 
quality and scenery are more likely to be devastating. This is of 
particular concern to the vast portions of the Columbia River Gorge 
proposed for wilderness designation in an area that was designated by 
Congress in 1986 as a National Scenic Area (Public Law 99-663, Nov. 17, 
1986).
    S. 2723 attempts to provide some measure of protection for two 
specific communities that would be located adjacent to proposed 
wilderness (Cascade Locks and Government Camp) through the creation of 
``Fire Safe Community Zones''. Shaded fuel breaks, thinning, individual 
tree selection and vegetation management are listed as employable 
techniques. In reality, forest fires occur at a landscape level, 
meaning that fire moves across entire landscapes from one fire prone 
area to another often without regard for well intended defensible 
spaces. Communities may feel more secure with a defensible perimeter 
but unless the fundamental fire risks are reduced across the entire 
landscape, they are unlikely to provide measurable benefit. A recent 
example of this is the Cache Mountain Fire in 2002 that burned 4,200 
acres and traveled nearly four miles before burning down two homes in 
Central Oregon.
    The designation of 177,800 acres of new wilderness under S. 2723 
appears contrary to the intentions of Congress and the President in 
reducing the risk of wildfire on federal lands with passage of The 
Health Forests Restoration Act of 2003 (16 U.S.C. 6501). Less than one 
year after Congress and the President recognized the importance of 
actively managing public forest resources for the reduction of wildfire 
risk, some of these same lands that are candidate for treatment and 
fire hazard reduction under the HFRA are now proposed for wilderness.

             3. INAPPROPRIATE USE OF WILDERNESS DESIGNATION

    S. 2723 proposes to extend Wilderness designation to a type and 
character of land never before associated with Wilderness. There are 
existing improvements and land uses within or adjacent to portions of 
the proposed wilderness including forest roads, the Historic Columbia 
River Highway, cabins, campgrounds, snowparks and parking areas. In 
addition there are obvious indicators of past management activity that 
are not consistent with a wilderness experience. Lands containing or 
being situated near existing improvements or lands with obvious 
indicators of management activity should not be candidates for 
Wilderness designation. To do so creates a lower standard for the 
definition of wilderness that, in my interpretation, was not envisioned 
in the Wilderness Act and is erosive of its intended purpose.
    Because of the non-traditional nature of lands proposed for 
wilderness under S. 2723, the Bill requires a number of special 
exceptions. These special exceptions include allowances for 
continuation of existing rights and withdrawals, experimentation with a 
mountain biking pilot project, the occurrence of power line and 
communication facilities and state highways within the proposed 
wilderness. Again, this precedent erodes the basic definition of 
wilderness and all of these special exceptions would create 
inconsistency and public confusion as to allowable uses between one 
Wilderness and another. The proposal to designate these lands as 
wilderness constitutes an inappropriate use of the wilderness 
designation.

                 4. COLUMBIA GORGE NATIONAL SCENIC AREA

    In the 1980's, alternatives were explored to provide protection for 
the unique resource of the Columbia River Gorge. Among alternatives 
considered was inclusion of the Columbia River Gorge in the National 
Park System. Given the nature of existing and historical development 
activity in the Columbia Gorge, including populated areas, the presence 
of urban and industrial activities, private land uses, railroad 
traffic, interstate vehicle traffic, marine traffic, and historical 
motorized and non-motorized recreational activities, National Park 
status was determined to not fit the Columbia River Gorge. Instead, 
Congress created the unique designation of a National Scenic Area for 
the Columbia Gorge in 1986. In recognition of these existing multiple 
uses, the Columbia River Gorge National Scenic Area Act (CRGNSA) 
specified dual objectives of protecting scenic, cultural, recreational 
and natural resources along with supporting economic development of the 
Columbia River Gorge, particularly in designated urban areas.
    In the CRGNSA, Congress designated Special Management Areas (SMA), 
General Management Areas (GMA) and Urban Exempt Areas. The SMA zone 
identified lands of significant scenic, cultural or recreational value 
for a higher standard of protection while still allowing for existing 
and potential economic development. Examples of current SMA forest 
regulations that balance the dual objectives of the Scenic Area range 
from outright prohibition on timber harvest to a maximum of 5 acre 
harvest openings in visible areas.
    S. 2723 proposes to designate more than 36,000 acres of SMA as 
wilderness in the Columbia River Gorge. Wilderness designation is 
inconsistent with the dual objectives of Congress in the CRGNSA by 
eliminating any opportunity for economic development and will result in 
elimination and restriction of historical recreation uses. Further, 
wilderness designation in the Columbia Gorge for scenic and cultural 
values is unnecessary as the CRGNSA already provides scenic, cultural 
and recreational protection through the National Scenic Area Management 
Plan.
    The Columbia River Gorge experiences strong wind patterns as a 
result of its geography. As a result, the Columbia River Gorge has 
historically been an area of high fire frequency. Directly across the 
Columbia River from the proposed wilderness in the CRGNSA are portions 
of the historic Yacolt burn that consumed 238,000 acres of forestland 
in Washington in 1902. Within the past three years the Panorama, 
Sheldon Ridge and Cascade Locks fires have occurred within the CRGNSA. 
Approximately ten years ago, the Multnomah Falls fire occurred within 
the very area currently proposed for wilderness designation. Had any of 
these fires occurred within wilderness, fire suppression efforts would 
have been severely restricted and the potential for a catastrophic 
fire, with devastating impacts to scenic, cultural and natural 
resources greatly increased. Wilderness designation within the Columbia 
River Gorge is simply an irresponsible use of the Wilderness Act due to 
these elevated risks.

                           5. CLASS I AIRSHED

    Crater Lake National Park and the 11 Oregon wilderness areas 
created in 1977, including the Mount Hood Wilderness, are designated 
with Class I airshed status. In response, the State of Oregon 
Department of Environmental Quality has assembled a Visibility Advisory 
Committee to make recommendations to achieve compliance with Class I 
designation. Here follows the overview from the Committee's July 2001 
``Recommendations for Improvement to the Oregon Visibility Protection 
Plan'':

          ``The Oregon Visibility Protection Plan was adopted in 1986 
        to protect Crater Lake National Park and 11 national wilderness 
        areas from air pollution that degrades the visual experience in 
        these scenic Class I areas. The Plan was developed to comply 
        with the Environmental Protection Agency's Phase I visibility 
        program addressing human-caused sources that can be identified 
        as causing direct impacts (i.e., reasonably attributable) in 
        Class I areas. The current Plan contains both seasonal and 
        annual control strategies to reduce and prevent visibility 
        impairment in Oregon's Class I areas. The primary components of 
        the Plan include: (1) a seasonal strategy focused on large area 
        sources such as forest slash burning and agricultural field 
        burning during the summer Visibility Protection Period when the 
        vast majority of Class I area visitation occurs; (2) a year-
        round strategy which includes preventing significant visibility 
        impacts in Class I areas from new and modified major stationary 
        sources using the State's New Source Review permitting program, 
        and reliance on other measures such as controls on existing 
        industrial sources, residential woodstoves, and motor vehicles 
        to reduce pollution in populated areas; and (3) a visibility 
        monitoring strategy that includes utilizing data from State and 
        Federal agencies' monitoring sites in or adjacent to Oregon's 
        Class I areas.''

    As this overview indicates, Oregon DEQ has developed regulations to 
prevent visibility impacts to the Mount Hood Wilderness from 
agricultural and forestry practices, existing and new industrial 
sources, and woodstoves and motor vehicles in populated areas. The 
proposed expansions of the Mount Hood Wilderness would carry Class I 
designation but none of the other wilderness expansions would carry 
Class I designation unless ordered by Congress. The proposed Mount Hood 
Wilderness expansion includes locations near existing populated areas 
and in low elevations foothills, nearer to agricultural and private 
forestry activities, industrial and residential activities and vehicle 
traffic. The regulatory effects of expansion of this Class I airshed 
designation must be evaluated. The economic impacts of regulations that 
will be required to protect Class I airshed should be of great concern 
not only to nearby industrial, residential, agricultural and forestry 
activities, but also to Portland metropolitan sources of industrial, 
residential and vehicular emissions that have an effect on regional air 
quality and haze.

                     6. MOUNT HOOD FOREST THINNING

    Title VII of S. 2723 proposes to allow modest economic utilization 
of the Mount Hood National Forest's public resources through forest 
thinning. While I agree that thinning is a forest management tool that 
should be used, S. 2723 fails by restricting forest thinning to only 
second growth, plantation stands. This restriction is not logical and 
raises a number of questions. Why are overstocked ``plantation'' 
forests the only stands that should be managed? What about overstocked 
naturally regenerated stands? Such stands may exist nearby or in 
adjacency. Don't these forests need treatment as well? If thinning is 
to be an effective forest management tool to achieve the desired 
objectives it should not be restricted in application on the landscape.
    Of even greater concern, however, is the definition and prohibition 
on harvesting old growth under S. 2723. This Bill proposes to define 
old growth as any individual tree greater than 120 years of age, or any 
stand of trees that has never been managed. This is a definition of old 
growth that is not scientifically supported. Particularly on eastside 
forests, stands of 120 years often are small diameter and do not 
exhibit the ecological components that define an ``old growth forest'' 
and these stands are in need thinning, selective harvest or even-aged 
harvest to improve forest health. Including ``unmanaged'' stands within 
the definition of old growth is illogical. Is a 40 year old forest that 
has never been managed and naturally regenerated after a forest fire 
``old growth''?
    With all due respect to the author's intention of allowing some 
form of active forest management, S. 2723 is attempting to legislate 
what, how and where public forest managers do their job. Existing 
National Forest Land and Resource Management Plans, the Northwest 
Forest Plan and Forest Service personnel should be trusted as more 
capable than Congress to determine how and where forest thinning and 
other management activities occur.
    I thank the Committee for the opportunity to comment on S. 2723, 
The Lewis and Clark Mount Hood Wilderness Act of 2004. It should be 
obvious from my comments that I share with many of you a great personal 
interest in forest management and the responsible stewardship of our 
nation's forest resources. Unfortunately for colleagues of mine in the 
profession of forestry, the management of our public forest resources 
has become increasingly politicized and our national forests continue 
to be caught in this tug-of-war between preservation and utilization. 
While we debate, our forests become increasingly unhealthy and 
vulnerable to fire due to lack of sound forest management. I strongly 
believe the answer is found in the multiple-use management philosophy 
of management to achieve the ``greatest good for greatest number''. 
Proposals such as S. 2723 that permanently exclude forest management 
through vast designations of wilderness, including lands of 
questionable wilderness character, are not in the public interest.
    There is an appropriate place for Wilderness and myself and staff 
members of the American Forest Resource Council look forward to working 
with Senator Wyden and others to identify opportunities for wilderness 
that make sense economically and ecologically.

    Senator Smith. Thank you very much.
    We'll next hear from Chris DiStefano, International 
Mountain Bikers Association.

   STATEMENT OF CHRIS DiSTEFANO, BOARD MEMBER, INTERNATIONAL 
                 MOUNTAIN BICYCLING ASSOCIATION

    Mr. DiStefano. Thank you, members of the committee.
    On behalf of the International Mountain Bicycle Association 
and the local bicycling clubs around the Mount Hood National 
Forest. Thank you for the opportunity to offer comments on the 
Lewis and Clark Mount Hood Wilderness Act of 2004.
    My name is Chris DiStefano, and I live in Portland, Oregon, 
along with my wife and two sons. I also serve on the board of 
directors for the International Mountain Bicycling Association, 
also known as IMBA. IMBA was founded in 1988, and leads the 
national and worldwide bicycling communities in mountain biking 
through a network of 32,000 members with more than 550 
affiliated clubs, including 19 in Oregon. Of those 19, we have 
three major clubs in Oregon that have been working on this bill 
in conjunction with the sponsors and others. The Portland 
United Mountain Pedalers represents cyclists around Portland. 
The Columbia Area Mountain Bicycling Association represents 
cyclists around Hood River. And the Central Oregon Trails 
Alliance represents cyclists around Bend, Oregon.
    Before addressing the specifics of the legislation, I would 
like to take a moment to describe a vision for you that 
captures the essence of mountain bikers and why we support wild 
places.
    All experienced trail users, including hikers, equestrians, 
runners, mountain bikers, prefer narrow, single-track trails. 
For cyclists, it's the favored experience, much like skiing in 
fresh powder or playing a legendary golf course. Most trail 
users want to experience a close connection to nature. Single-
track provides this better than roads, because it blends in 
with the surrounding environment, disturbs much less ground and 
is easier to maintain.
    As bicyclists, we generally support protection of 
undeveloped public lands to preserve this experience, but 
wilderness designation prohibits bicycling. On the one hand, 
the mountain-bike community can be environmentally conscious 
and support preservation and conservation of wildlands, while, 
on the other, mountain bikers do not want to lose access to 
trails ridden for years without conflicts. Consequently, 
bicyclists seek modifications on wilderness proposals that will 
protect the land while continuing to allow this quiet, low-
impact, muscle-powered recreation on significant trails.
    In economic terms, this bill affects a significant number 
of local companies, including manufacturers, distributors, 
bicycle dealers, and tourism-related businesses. A perfect 
example is Chris King Precision Components, which produces 
high-performance mountain-bike components with more than 60 
employees and $5 million in annual revenues. Chris King 
recently relocated its corporate headquarters and operations to 
Portland because of the strong mountain-bike community, the 
local support for the sport, availability of local trails, and 
incredible natural environment.
    IMBA believes that bicycle access is a legitimate primitive 
form of recreation that should be treated no differently than 
other forms of muscle-powered recreation, such as hiking, 
horseback riding, skiing, and climbing. There is significant 
scientific evidence and a full generation of experience showing 
that the actual impact of mountain bikes is comparable to 
hikers, who are allowed in wilderness. Congress can help us 
overcome this debate by supporting the approach outlined in the 
proposed Mount Hood Wilderness bill. As we look at the Mount 
Hood Pedalers Demonstration Experiment Area, or Hood-PDX, IMBA 
generally supports the intent, because our members value 
protecting pristine lands from development in S. 2723. 
Consequently, IMBA believes that the proposed Mount Hood 
Pedalers Demonstration Experiment Area in title 5 of the bill 
is a positive step forward in public land policy regarding 
wilderness, as it protects the land while allowing bicycling. 
This pilot project is an excellent example of a creative 
solution to a public-policy problem.
    The Hood-PDX Demonstration Program takes a page from our 
toolkit approach, and its demonstration program will allow 
reliable information based on solid research and actual 
experience to govern decisions about whether to allow bikes in 
future wilderness areas designated by Congress.
    While IMBA is encouraged by this approach, we have several 
concerns regarding the actual area of the pilot project: 
monitoring, reporting, and termination requirements, and the 
funding provisions. These are detailed in my written testimony. 
We hope these issues can be addressed as the bill receives 
further review.
    Regarding title 1 of the bill, IMBA could support some of 
the areas of the bill for wilderness, including lands west of 
Tom, Dick, and Harry Mountain, lands around Devil's Peak, lands 
around Draw Creek and Abbot Burn, lands east of the Badger 
Creek Wilderness. IMBA's analysis of title 1 of the bill, 
however, found that all of the areas under consideration 
conflict, to some degree, with bicycling. We're including a 
list of all trail opportunities that will be lost to bicycling 
due to the bill, which may total more than 214 miles.
    Wilderness is not the only way to protect the remaining un-
designated, undeveloped lands. IMBA and mountain-bike advocates 
support a toolkit approach to addressing the wilderness issue. 
For these areas, IMBA seeks boundary adjustments, alternative 
land protection such as wild and scenic rivers, trail 
corridors--would allow bicyclists continued access--or the 
expansion of the Hood-PDX area to include more trails. 
Alternative designation areas must have strong, irrevocable 
legislative language to protect lands from development. I have 
provided, in my written testimony, an example of the type of 
legislative language we believe would ensure bicycle access and 
affords substantially the same protection as a wilderness 
designation.
    In sum, IMBA believes, and I believe, mountain biking is a 
healthy, non-motorized outdoor activity with minimum 
environmental impact and a positive economic impact for Oregon. 
IMBA urges the committee to amend this legislation to allow 
continued mountain-bike access on lands around Mount Hood while 
taking steps to protect the land from development. We hope this 
support will include the Hood-PDX Demonstration Project, 
increased funding and support for trail planning and 
development, and the use of boundary adjustments and 
alternative designations to accommodate existing mountain-bike 
access in this area.
    I thank you very much for the opportunity to speak today, 
and I welcome your questions.
    [The prepared statement of Mr. DiStefano follows:]

  Prepared Statement of Chris DiStefano, Board Member, International 
                      Mountain Bikers Association

    On behalf of the International Mountain Bicycling Association 
(IMBA) and local bicycling clubs around the state of Oregon and Mount 
Hood National Forest, I write to offer comments on S. 2723, the Lewis 
and Clark Mount Hood Wilderness Act of 2004. Before addressing the 
specifics of the legislation, I would like to take a moment to describe 
a vision for you that captures the essence of mountain bikers and why 
we support wild places.
    One mountain biker from Colorado put it this way, ``Mountain biking 
on singletrack is like skiing in fresh powder, or matching the hatch 
while fly fishing, or playing golf at Pebble Beach.''
    All experienced trail users prefer narrower, singletrack trails. 
Cyclists are no different. Bike riding on narrow, natural surface 
trails is as old as the bicycle. In its beginning, all bicycling was 
essentially mountain biking because bicycles predate paved roads. In 
many historic photographs from the late 19th-century, people are shown 
riding bicycles on dirt paths. During World War II the Swiss Army 
outfitted some units with bicycles to travel more quickly on narrow 
trails through mountainous terrain. Most trail users want to experience 
a close connection to Nature. Singletrack provides this better than 
roads because it blends into the surrounding environment, disturbs much 
less ground, and is easier to maintain. On singletrack, trees and 
shrubs envelope you in a tunnel of green and the curve of the land 
guides the direction of your travel. The experience just isn't the same 
when you are walking or pedaling on an open, wide road. When one is 
moving slowly on singletrack, you feel the wind, you smell the flowers, 
and you feel connected to the natural world.
    To preserve this experience, bicyclists generally support 
protection of undeveloped public lands but Wilderness designation 
prohibits bicycling. Bicyclists therefore must seek modifications of 
Wilderness proposals that will protect the land while continuing to 
allow this quiet, low-impact, muscle-powered recreation on significant 
trails.
    The International Mountain Bicycling Association (IMBA), founded in 
1988, leads the national and worldwide mountain bicycling communities 
through a network of 32,000 individual members and more than 550 
affiliated clubs, including 19 in Oregon. Three major clubs in Oregon 
have been working on this bill in conjunction with the sponsors and 
others: the Portland United Mountain Pedalers (PUMP) represents 
cyclists around Portland, the Columbia Area Mountain Bicycling 
Association (CAMBA) represents cyclists around Hood River and the 
Central Oregon Trails Alliance (COTA) represents cyclists around Bend. 
IMBA teaches sustainable trailbuilding techniques and has become a 
leader in trail design, construction, and maintenance; and encourages 
responsible riding, volunteer trailwork, and cooperation among trail 
user groups and land managers. Nationwide, IMBA members and affiliated 
clubs conduct close to 1,000,000 hours of trailwork annually and are 
some of the best assistants to federal, state, and local land managers.
    IMBA generally supports the intent of S. 2723 because our members 
value protecting pristine lands from development. Bicyclists love to 
ride remote backcountry areas on narrow trails just like hikers and 
equestrians and feel conflicted when Wilderness is proposed that 
affects significant biking trails. On the one hand, they want to 
protect the areas they ride, but on the other, they don't want to lose 
access to the trails they have ridden for almost two decades. 
Consequently, IMBA believes that the proposed Mount Hood Pedaler's 
Demonstration Experiment Area (Hood-PDX) is a positive step forward in 
public land policy regarding Wilderness as it protects the land while 
allowing bicycling.
    While IMBA is encouraged by this approach, we have several concerns 
regarding the actual area of the pilot project, monitoring, reporting 
and termination requirements and the funding provisions, as detailed in 
the attached materials.* In brief, we urge the committee to give this 
pilot project favorable consideration provided that the bill is amended 
to include lands near Bonnie Butte and Badger Creek Grasshopper Point. 
In addition, we urge that that the Hood-PDX lands revert to their 
original status upon termination, and that funds are provided to 
implement and monitor the project. This pilot project is an excellent 
example of public officials attempting to `think outside the box' to 
craft creative solutions to major public policy problems. In light of 
Oregon's innovative thinking on such issues as recycling, health care, 
and public access to lands, it comes as no surprise that Oregon public 
servants would once again be leading the nation and demonstrating how 
states truly are the laboratories of democracy.
---------------------------------------------------------------------------
    * The attachments have been retained in subcommittee files.
---------------------------------------------------------------------------
    In addition, IMBA supports the existing Wilderness designations and 
some of the Forest Service closures. IMBA could support some of the 
areas of S. 2723 for Wilderness, including the area west of Tom, Dick 
and Harry Mountain, the area around Devil's Peak and Veda Lake, lands 
around Draw Creek and Abbot Burn, and lands east of the Badger Creek 
Wilderness.
    IMBA has analyzed Title I of the bill, however, and found that all 
of the areas under consideration conflict to some degree with 
bicycling. At stake in S. 2723 are fabulous riding routes such as the 
Larch Mountain Trail in the Columbia River Gorge National Scenic Area 
in Multnomah County, the Palmateer Meadows and Bonney Meadows trails in 
Wasco County, the Wacoma Ridge Trail in Hood River County, and the 
Sandy River Trail in Clackamas County. We are including a list of all 
trail opportunities that will be lost to bicycling due to S. 2723, 
which total more than 214 miles.
    Wilderness is not the only way to protect the remaining 
undesignated, undeveloped lands. For these areas, IMBA suggests 
boundary adjustments, alternative designations (Wild and Scenic Rivers, 
National Conservation Areas, National Scenic Areas and National 
Protection Areas), trail corridors or expansion of the Hood-PDX area to 
include more trails. Please find attached sample legislative language 
for the type of alternative designation we think would ensure bicycle 
access and afford the same protection as a Wilderness.
    The trail closures proposed in this bill would further exacerbate a 
situation where much of the Mount Hood National Forest has already been 
closed to bicycling. A significant portion of the forest has been 
designated Wilderness. In addition, many trails leading into or just 
running near the existing Wilderness areas have been closed by the USDA 
Forest Service. For example, the agency closed the Hunchback Mountain 
and McIntyre Ridge trails to bicycling, even though they are almost 
entirely out of the Wilderness. In a more positive approach the agency 
would have worked with bicyclists to reroute the very few trail 
segments that cross a very short distance into the Salmon-Huckleberry 
Wilderness. In addition, while Hood-PDX is a positive development 
overall, the specified areas are far too few and too small to encompass 
the large number of bicycling trails threatened by this bill. Most of 
the mountain bike riding would be severely compromised. If these are 
trails are not accommodated in the bill in some fashion, then Hood-PDX 
may attract increased attention from mountain bikers, leading to 
overuse over time that may exacerbate ecological damage and hamper 
efforts to accurately assess impacts. The possible negative impacts to 
mountain biking and the land if this occurs are not in the interest of 
anyone who cares about Mount Hood.
    A related issue is that the true extent of the closures is not 
fully presented. We believe that the Forest Service is not aware of all 
the trails on the Mount Hood National Forest. Furthermore, the maps 
accompanying this bill are inadequate for clear public analysis. Drawn 
in black and white and scaled too small, the maps obscure or do not 
depict critical topographic features and many of the trails at issue. 
Therefore, IMBA has tried to map all the routes and submits the 
attached map and trail list to indicate the scope of trail closures 
entailed by this bill. The committee and the public need to have maps 
that clearly display relevant geographic features and impacted trails.
    We also note that the boundaries of the proposed Wilderness areas 
are highly convoluted. To IMBA, this is another indicator of the 
inappropriateness of Wilderness as the tool for protecting these lands. 
With a more flexible designation, regular and meaningful boundaries 
could be created, and Congress could determine the allowable activities 
within the protected lands.
    IMBA believes that bicycle access is a legitimate, primitive form 
of recreation that should be allowed in new Wilderness areas subject to 
ongoing administrative discretion of local federal land managers. The 
current interpretation of the Wilderness Act prohibits mountain 
bicycling by treating it differently than other forms of muscle-powered 
recreation, such as hiking, horseback riding, skiing, and climbing. In 
the 1980's land managers became concerned about the growing popularity 
of bicycles on trails and chose a simple but excessive solution--
banning bikes. Now there is significant scientific evidence and a full 
generation of experience showing that the actual impact of mountain 
bikes is comparable to hikers who are allowed in Wilderness. IMBA 
agrees with the notion that rather than tell people they are going to 
be restricted from using our nation's public lands, the solution lies 
in providing more opportunities for them to enjoy our great places. 
Mountain biking is a healthy, non-motorized outdoor activity that has 
minimal adverse environmental impact. Congress can overcome this 
misguided conflict by supporting the approach outlined in the proposed 
Mount Hood Wilderness bill. IMBA will continue to work with the 
sponsors of S. 2723 to accommodate bicycling in the Mount Hood National 
Forest.
    Finally, closure of trails to bicycling affects a significant 
number of local companies including manufacturers, distributors, 
bicycle dealers, and tourism-related businesses. A good example is 
Chris King Precision Components, which produces high performance 
mountain bike components with more than 60 employees and $5 million in 
annual revenues. Chris King recently relocated its corporate 
headquarters and operations from California to Portland, Oregon because 
of the strong mountain bike community, local support for the sport, 
availability of local trails, and incredible natural environment.
    Overall, bicycling and mountain bike tourism is very important to 
the local and state economy. Tourism in Oregon is a $6.1 billion 
industry--one of the state's top five industries--generating $230 
million annually in local and state tax revenues. Overall, more than 39 
million Americans participated in singletrack bicycling in 2003, 
according to the Outdoor Industry Association. Almost seven million 
were `enthusiasts' of singletrack riding, heading out into America's 
beautiful backcountry whenever they can. In Oregon, mountain biking is 
a popular sport with close to 400,000 people participating last year 
(Outdoor Industry Foundation). According to the National Sporting Goods 
Association 2002 Participation Study, mountain bikers are predominantly 
college graduates and affluent (64 percent have a household income of 
$50,000 or higher). Further, consumers spent $854 million on mountain 
bikes in 2002, according to NSGA.
    In sum, IMBA believes that mountain biking is a healthy, non-
motorized outdoor activity with minimal environmental damage and a 
positive economic impact for Oregon. IMBA urges the committee to amend 
this legislation to allow continued mountain bike access on lands 
around Mount Hood, while taking steps to protect the land from 
development. We hope this support will include the Hood-PDX 
demonstration project, increased funding and support for trail planning 
and development, and the use of boundary adjustments and alternative 
designations to accommodate existing mountain bike access in the area. 
We also hope this support will include the designation of new 
Wilderness areas in order to protect critical pristine lands on Mount 
Hood.
    Thank you for the opportunity to submit comments on this important 
legislation. We look forward to working with you and the sponsors of S. 
2723.

    Senator Smith. Thank you very much.
    Madam Mayor, thank you.

      STATEMENT OF LINDA MALONE, MAYOR, CITY OF SANDY, OR

    Mayor Malone. Thank you, Mr. Chairman and distinguished 
member of the Committee.
    My name is Linda Malone, and I'm very pleased to appear 
before you today, two of my favorite Senators, to speak in 
favor of S. 2723.
    I'm the mayor of Sandy, Oregon. And when this Lewis and 
Clark Wilderness Act of 2004 came about, it had the full 
support of our Council. The city I represent, as you--I had a 
picture in my testimony that I sent in--is situated at the edge 
of the Mount Hood National Forest. The sign that welcomes you 
as you enter my city announces that we are the gateway to Mount 
Hood. As a city and as a community, we're committed to doing 
all that we can to see that this area is preserved.
    Our City Council has previously sent a formal letter, 
endorsing and supporting this bill, to our congressional 
delegation. The letter was signed by all seven members of our 
City Council. And, interestingly enough, we do have one of our 
City Council members who is the land manager for Longview 
Fiber. He also signed the letter. Longview Fiber basically is 
in our watershed, actually in the middle of where we draw our 
water. It was also signed by the Youth Council, high-school 
students that sit with us during the school year and 
participate fully in the discussion with our Council. And I 
think it's especially significant that these young people 
signed this letter, because the Lewis and Clark Wilderness Act 
truly reflects a commitment to preserving the quality of our 
natural resources for generations to come. Sandy has a direct 
in this bill, also, as a further protection of our drinking 
water.
    The city of Sandy's current water supply comes from two 
sources, Brownell Springs and Alder Creek. We also have water 
rights on the Salmon River, which will supply our future water 
needs. The water is very pure, and we would like to keep it 
that way.
    We have a good working relationship with the Federal agency 
responsible for managing the forest, and we've entered into a 
memorandum of understanding with the Bureau of Land Management 
that provides some protection of our Alder Creek Watershed. 
This act would further strengthen that protection.
    Thanks to the growing importance of our visitor-based 
economy, our city also directly benefits from the pristine 
nature of the national forest. True wilderness, unfortunately, 
is a vanishing asset in the world and something that makes our 
area a real attraction.
    We realize that the wilderness designation does limit a few 
recreational activities. I would like to commend Senator Wyden 
for his acknowledgment of this and recognizing it by including 
over 120 miles of mountain-bike trails within this wilderness 
designation.
    In all fairness, common sense--and I know that sometimes 
that doesn't apply on all governmental levels, but common sense 
should be applied to the implementation of protective measures. 
I don't know if applying common sense is something that is 
easily done within the parameters of government.
    Senator Wyden. This is a logic-free zone in Washington.
    [Laughter.]
    Mayor Malone. Walking around and seeing the different 
measures put up, I can fully understand that logic sometimes 
does take leave of itself here. That said, it's a beautiful 
city.
    And the fact that, even with this additional wilderness 
protection, there will still be plenty of other areas for the 
forest available for motorboating, mountain-biking, 
snowmobiling, and all the other activities that visitors to our 
city, and, indeed, my citizens, enjoy.
    Additionally, within the area proposed for wilderness 
designation, a variety of activities--not only the area that is 
proposed, but the 180-some acres--180,000-some acres that 
already exist--the variety of activities that are already 
permitted--hiking, horseback riding, birdwatching, canoeing, 
kayaking, hunting, fishing--those are already permitted within 
wilderness areas, and there are a lot of people within my city 
and people that visit and spend money in my city who would like 
to do those things in the peace and solitude of a wilderness-
designated area.
    A generation ago, Sandy was a sawmill town, so it is not 
with any--it is not lightly that we take a position like this, 
because we have evolved from a former sawmill town. We 
currently have one sawmill left--Oja Lumber. My house sits on a 
place which I was--just discovered recently the reason our 
backyard is so mucky is, it used to be a millpond.
    And if you go around town, there's an oldtimer in town, 
called Phil Joneswright, who write a book called ``Eighty Years 
in the Same Neighborhood.'' And I'm sure he could take you on a 
tour around town and show you where all the 12 or 13 old 
millponds used to be and where the old mills used to be in 
town.
    That is a time that has gone. We are now a town that is 
primarily based on visitors, tourists, and accessing--the fact 
that we are the gateway to Mount Hood. It's--other than Highway 
84, we're the only access point--logical access point over to 
the mountain and to that precious resource.
    We strongly support well-managed private timberland, and we 
have intentionally limited our own urban expansion to protect 
this resource. We also recognize the importance of well-managed 
public lands as a source of timber.
    But, again, even with this additional wilderness 
designation, Oregon will continue to have an abundance of 
public lands that can be logged. As Senator Smith said, and in 
the diagram that you showed prior to the hearing, or during 
your part of the testimony, timber-cutting is very limited in 
this area, anyway. So the argument that you have to have it for 
timber-cutting would belie that chart that you showed that--
it's not being used for timber-cutting now. So that, I think, 
is less than, I think, the significance of having it preserved 
as a wilderness.
    And to close, at the end of the day, I can easily see that 
we would live to regret not doing as much as we can, but 
looking back and saying, ``I wish we had done more.'' I can't 
see us regretting not doing as much as we possibly can at this 
time.
    And, again, I would like to thank Senator Smith and Senator 
Wyden, and especially, Senator Wyden, for your leadership 
you've demonstrated in seeking compromise and in striving to 
protect a valuable national treasure. I hope you will be able 
to get the support that is necessary to make this a reality, to 
have this measure pass. And I would like to thank you for 
working together with our other Senator, Senator Smith, who 
we've had the pleasure of talking with in the past in different 
candidate forums. But I hope the two of you can work together 
in the Senate, which is, by my 30-year-old definition of high-
school government, where the visionary things happen is in the 
Senate--the longrange planning, the stuff of the future. And 
then once you've set your course, to include the House and make 
something that will least for the future, and that we can look 
back on generations from now, when I have grandkids growing up 
in Oregon, and say, ``I'm sure glad that I was a part--or had 
some say in having that happen.'' I think we will all be proud 
of that in the future.
    Thank you. And I urge your support.
    Senator Smith. Thank you very much, Linda.
    Jay Ward, it's good to see you.

 STATEMENT OF JAY WARD, CONSERVATION DIRECTOR, OREGON NATURAL 
                RESOURCES COUNCIL, PORTLAND, OR

    Mr. Ward. Good seeing you, Mr. Chairman.
    Thank you and Senator Wyden for the opportunity to testify 
regarding S. 2723, the Lewis and Clark Mount Hood Wilderness 
Act.
    My name is Jay Ward, and I serve as the conservation 
director of the Oregon Natural Resources Council, whose 6,000 
members are dedicated to keeping Oregon a special place to 
live, work, and raise a family. With my testimony today, I also 
speak for the Oregon Wild Forest Coalition, whose member 
organizations represent tens of thousands of Oregonians who are 
working to protect Oregonians rich natural legacy for future 
generations to use and enjoy. You will receive additional 
testimony from many of them.
    It is my great privilege to appear before both of Oregon's 
esteemed Senators on so popular a matter as protecting Oregon's 
scenic icons, Mount Hood and the Columbia River Gorge.
    I would like to start by addressing just a few of the many 
reasons that we believe the 177,000 acres of public land listed 
in S. 2723 are worthy of Federal wilderness designation.
    For the existing wilderness areas around Mount Hood are 
some of the most visited public lands in Oregon. Oregonians and 
our guests from around the world continue to seek out the 
dispersed recreational experience that only wilderness offers, 
but find it increasingly challenging to do so. According to the 
Forest Service, the existing Mount Hood wilderness areas 
attract twice as many visitors as previously thought.
    Millions of Americans use and enjoy wilderness, Mr. 
Chairman, and they're saying so with their feet and their 
travel dollars, for wilderness beneficiaries are not just hardy 
backpackers or mountain climbers; indeed, thousands of 
motorists on Highway 26 also enjoy scenic views of the Salmon 
Huckleberry wilderness areas. They drive to the mountain. In 
fact, the Salmon Huckleberry wilderness was protected just 20 
years by Senator Hatfield in the Oregon Wilderness Act of 1984.
    But as great as that bill was, it omitted some astounding 
wilderness-quality forest. Fortunately, Mr. Chairman, you and 
the Senate now have the ability to remedy that situation.
    I would like to address each of the wilderness additions 
proposed in S. 2723, starting with the Salmon Huckleberry.
    Building on Senator Hatfield's legacy, S. 2723 proposes to 
protect the Roaring River roadless area, some of the most 
important salmon and trout streams in the Mount Hood National 
Forest. Wildlife in the area include bald eagle, osprey, 
badger, mink, and the elusive fisher. The lower segments of 
Roaring River provide winter range for Roosevelt elk and black-
tailed deer, and are home to coho and spring chinook salmon, 
winter and summer steelhead, cutthroat and rainbow trout. The 
nearby Alder Creek addition shelters part of the drinking-water 
supply for the residents of Sandy, Oregon, while the Eagle 
Creek additions contribute drinking water to the cities of 
Oregon City, West Linn, and Lake Oswego.
    The Mount Hood wilderness additions. Few landscapes of 
Oregon offer the range of outdoor recreation opportunities as 
Mount Hood, from the developed alpine ski areas of Timberline, 
Multopor, and Mount Hood Meadows, to the historic back-country 
trails of the Tilly-Jane roadless area. Mount Hood is literally 
Oregon's showcase destination.
    Roadless areas like Bonney Butte are famous for the raptors 
they host each fall. In fact, right now, the months of 
September/October, you can see up to 4500 migrant hawks, as 
well as golden eagles, from the Bonney Butte area.
    A friend of mine who hunts there tells me that the lower 
White River area is a great place for wild turkeys, and the 
Lost Lake roadless area on the north side of Mount Hood has 
long been immortalized by Oregon's renowned photographer Ray 
Atkeson, and contains the proposal's largest old-growth trees.
    The Badger Creek wilderness additions. The Fifteenmile 
Creek roadless area includes the healthiest stand of old-growth 
ponderosa pine on the entire Mount Hood National Forest, and 
has been identified during the ice-bump process as a key salmon 
stronghold. The old-growth forest surrounding Boulder Lake 
shelters the elusive wolverine as well as trophy-class elk. 
Protecting these Lower Badger Creek roadless areas as 
wilderness will facilitate foraging and population dispersal 
for these magnificent creatures. This is pretty important, as 
elk are especially significant to roads and vehicular traffic.
    And the Mark O. Hatfield wilderness additions. One hundred 
and ninety-nine years ago next month, Lewis and Clark first 
glimpsed the Columbia River Gorge and what we now call the Mark 
O. Hatfield Wilderness Additions. The uplands of the gorge were 
too high for Lewis and Clark to see, but they did observe what 
is believed to be the highest concentration of waterfalls in 
North America.
    While these lands enjoy some administrative safeguards 
under the Columbia Gorge National Scenic Area Management Plan, 
only congressional wilderness designation will guarantee their 
protection for future generations.
    Mr. Chairman, I'd like to finish by thanking Senator Wyden 
for bringing this bill before the committee. As is often the 
case, there are elements of the bill, such as titles 5 and 8, 
that the local and national environmental organizations feel 
need serious improvement. We look forward to working with 
Senator Wyden, Senator Smith, and all the stakeholders to do 
just that, because protecting these lands and the animal 
communities that they shelter is not just a good idea; it's a 
great one. And by protecting these communities, you will enrich 
the human communities, as well. That is why the city of Sandy 
and the City Council of Portland and over 50 businesses 
surrounding the mountain support protecting these lands.
    In closing, Mr. Chairman, I would like to quote Lyndon 
Johnson, who, 40 years ago this month, signed the original 
Wilderness Act. He said, and I quote, ``If future generations 
are to remember us with gratitude rather than contempt, we must 
leave them more than the miracles of technology. We must leave 
them a glimpse of the world as it was in the beginning, not 
just after we got through with it.''
    Mr. Chairman, Senator Wyden, wilderness is that glimpse of 
the world, and, like President Johnson's quote, future 
generations of Americans will remember those who protect it.
    Thank you. I'd be happy to answer any questions.
    [The prepared statement of Mr. Ward follows:]

 Prepared Statement of Jay Ward, Conservation Director, Oregon Natural 
                    Resources Council, Portland, OR

    Mr. Chairman, esteemed members of the committee, I appreciate the 
opportunity to address you regarding Senate Bill 2723, the Lewis and 
Clark-Mount Hood Wilderness Act of 2004. My name is Jay Ward and I 
serve as the Conservation Director of the Oregon Natural Resources 
Council, an Oregon-based conservation organization whose 6000 plus 
members are dedicated to keeping Oregon a special place to live, work 
and raise a family.
    It is my great privilege to appear before you Mr. Chairman and both 
of Oregon's esteemed senators on so popular a matter as protecting 
Oregon's scenic icons, Mount Hood and the Columbia River Gorge, 
especially during this, the bicentennial commemoration of Lewis and 
Clark Corps of Discovery.
    I'd like to start by addressing just a few of the many reasons we 
believe that the 177,000 acres of public land listed in S2723 are 
worthy of federal wilderness designation.
    The existing wilderness areas around Mount Hood are some of the 
most visited public lands in Oregon. Oregonians, and our guests from 
around the world continue to seek out the dispersed recreational 
experience that wilderness offers, but are finding it increasingly 
challenging to do so. According to the United States Forest Service, 
the existing Mount Hood wilderness areas are attracting twice as many 
visitors than previously thought. Millions of Americans use and enjoy 
wilderness Mr. Chairman and they are saying so with their feet and 
their travel dollars.
    For wilderness beneficiaries are not just hardy backpackers and 
mountain climbers. But wilderness vistas are also enjoyed by thousands 
of motorists on Highways 26 and 35. Duffers and golf pros playing the 
Three Nines golf course marvel at the surrounding forests of the Salmon 
Huckleberry Wilderness area. In fact, the Salmon Huckleberry Wilderness 
was protected 20 years ago by Senator Hatfield in the Oregon Wilderness 
of 1984. But as great as that bill was, it omitted some astounding 
wilderness-quality forests. Fortunately Mr. Chairman, you and the 
Senate now have the ability to fulfill that vision.
    I will now address each of the wilderness additions proposed in 
S2723, starting with:

                SALMON-HUCKLEBERRY WILDERNESS ADDITIONS

    Building on Senator Hatfield's legacy, S2723 proposes to protect 
some of the most important salmon and trout streams in the Mount Hood 
National Forest. Fed by countless high cascade lakes, Roaring River 
flows through the largest intact forest on the Mount Hood, the Roaring 
River roadless area. Wildlife in the area include bald eagle, osprey, 
pileated woodpecker, badger, mink and the elusive fisher. The lower 
segments of Roaring River provide winter range habitat for Roosevelt 
elk and black tailed deer and are home to coho salmon, spring chinook 
salmon, winter and summer steelhead, resident cutthroat trout, and 
coastal rainbow trout. The nearby Alder Creek addition shelters some of 
the drinking water supply for the residents of Sandy, Oregon, while the 
Eagle Creek additions contribute drinking water to the cities of West 
Linn, Lake Oswego and Oregon City.

                    MOUNT HOOD WILDERNESS ADDITIONS

    Few landscapes in Oregon offer the range of outdoor recreational 
opportunities as Mount Hood. From the developed alpine ski areas of 
Timberline, Multorpor and Mount Hood Meadows to the historic 
backcountry trails of the Tilly Jane roadless area, Mount Hood is 
literally Oregon's showcase destination. Much like the Birds of Prey 
National Conservation Area in Idaho Mr. Chairman, roadless areas like 
Bonney Butte are famous for the raptors they host each fall. During the 
months of September and October up to 4,500 migrant hawks, as well as 
Golden Eagles can be seen from the top of Bonney Butte. I have it on 
good authority from a friend of mine who hunts the area that the lower 
White River roadless area is one of the best places in Oregon for wild 
turkey hunting. The Lost Lake Roadless area on the North side of Mount 
Hood has been immortalized by Oregon's renowned photographer Ray 
Atkeson and contains the largest old-growth trees in the legislation.

            BADGER CREEK WILDERNESS ADDITIONS (17,410 ACRES)

    The Fifteenmile Creek roadless area includes the healthiest stand 
of old-growth Ponderosa pine on the entire Mount Hood National Forest, 
and has been identified as a Key Salmon Stronghold in the Interior 
Columbia Basin Ecosystem Management Project (ICBEMP) research. The old-
growth forests surrounding Boulder Lake shelter the elusive wolverine 
as well as trophy-class elk. Protecting these Lower Badger Creek 
roadless areas as wilderness will provide these magnificent creatures 
with migratory corridors that facilitate foraging and population 
dispersal. This is especially important as elk are particularly 
sensitive to roads and vehicular traffic, as has been demonstrated in 
recent studies conducted by Forest Service and Oregon Department of 
Fish and Wildlife scientists. (see http://www.fs.fed.us/pnw/lagrande/
starkey--na/PDFs--Preprints/ms-04--Rowland.pdf)

                 MARK O. HATFIELD WILDERNESS ADDITIONS

    199 years ago next month, Lewis and Clark, after traversing what 
would become the state of Idaho, first glimpsed the Columbia River 
Gorge and the roadless areas of the Mark O. Hatfield wilderness 
additions. Clark's description of Mount Hood was not poetic, but 
acknowledged its immense size and now familiar ``rugid'' shape. The 
uplands of the Columbia River Gorge were too high for Lewis and Clark 
to see, but they did observe what is believed to be the highest 
concentration of waterfalls in North America. McCall Point, named after 
Oregon's governor Tom McCall offers breathtaking views and a stunning 
array of over 200 species of wildflowers during the spring and summer. 
While these lands enjoy some administrative safeguards under the 
Columbia Gorge National Scenic Area management plan, only 
congressionally-backed wilderness designation will guarantee their 
protection for future generations.
    Mr. Chairman, I'd like to close by thanking Senator Wyden for 
bringing this bill before the committee. Like all legislation, there 
are elements of the bill such as Titles V and VIII that we feel can be 
improved and we look forward to working with Senator Wyden, Senator 
Smith and all of the stakeholders to do so. But we are not interested 
in letting the perfect become the enemy of the good. Protecting these 
lands and the plant and animal communities that they shelter is not 
just a good idea, it is a great one. And by protecting those 
communities, you will enrich the living human communities as well. That 
is why I believe the cities of Sandy and Portland and over 50 
businesses surrounding the mountain support this legislation.
    In closing, I'd like to quote President Lyndon Johnson. President 
Johnson, who 40 years ago this month signed the wilderness act said 
upon signing the legislation ``If future generations are to remember us 
with gratitude rather than contempt, we must leave them more than the 
miracles of technology. We must leave them a glimpse of the world as it 
was in the beginning, not just after we got through with it.''
    Mr. Chairman, members of the committee, wilderness is that glimpse 
of the world and like President Johnson's quote, future generations of 
Americans will remember well those who protect it.
    Thank you.

    Senator Smith. Both Senator Wyden and I will each need to 
leave--I have to preside shortly, and I think you have a 
commitment, as well, Senator. I was going to turn the gavel 
over to you. But, with that, do you have any questions?
    Senator Wyden. I'm just going to be very brief.
    Senator Smith. Why don't you ask them, and I'll submit mine 
in writing.
    Senator Wyden. Thank you all. You all have been very 
constructive. And I want to be really quick on this. Just a 
quick comment.
    First, with respect to you, Mr. Spadaro, I think you heard 
Mr. Rey say that you can use mechanized tools to deal with fire 
in wilderness areas. I think we've got that corrected for the 
record. That is a specific section of the rules, and I'll give 
it to you so you will see it. Mr. Rey specifically agreed with 
that point, and I don't want to belabor it.
    The question I have for you is, my understanding is that 
your mill gets about 1 percent of your timber from public 
lands. Is that correct?
    Mr. Spadaro. Federal public lands.
    Senator Wyden. That is what we're talking about, of course, 
with respect to the Mount Hood Wilderness Area, is, we're 
talking about Federal lands. I guess my question to you is, Is 
your concern about the legislation more philosophical than 
anything else, that this is going to be, sort of, one step 
today and then another step tomorrow and the like? Because, I 
think you know, I spent an enormous amount of time on the 
forest-health issue, and I would like to think that Senator 
Feinstein and I were a pretty big factor in getting the thing 
passed, so I don't disagree with you at all about the forest 
health. But when somebody tells me 1 percent of their timber 
comes from public lands, I want to get a sense of what it 
really means to you, in fact I would understand if you said, 
``We're really concerned that you're going to come back 
tomorrow and it's going to be another 3 percent; and the next 
day, 6 percent; and the next day, 9 percent.''
    Mr. Spadaro. I could have been more clear on that. One 
percent is the current level. Historically, our sustainable 
yield off our fee ownership has been provided 25 percent; the 
other 75 percent did come from Federal forestlands. Currently, 
as I've said, now that it is mostly private, State-owned 
public, and Hood River County forestry, and Forest Service 
accounts for less than 1 percent. If we are going to continue 
our employment at its current level, we need the Mount Hood 
National Forest to contribute its part to the equation. The 
Mount Hood was, under the Clinton Forest Plan, to have 
delivered for sale 60 million board-feet annually. And it is, I 
believe--in the Mountain Monitoring Report, it was somewhere on 
the order of between 10 and 12 million feet was sold in the 
most recent year. So for us to continue all of our operations 
and employ the 319 employees that we do, we do need--and it is 
a very specific--and we need the Mount Hood. It is not just a 
philosophical--although I do absolutely have that philosophical 
concern.
    Senator Wyden. Well, I won't, as I say, extend this, 
because the time is short. I think the reality is, is people 
are not going to increase logging up on Federal lands on Mount 
Hood. It's just not going to happen.
    Your testimony, for example, about the value of a multiple-
use approach to forestry, I couldn't agree with that more. That 
is why, in the Forest Health Bill and also in the County 
Payments Bill--two pieces of legislation we spent a lot of time 
on--I fought passionately, and have the welts on my back to 
show for it, to get that through. But, with all due respect, my 
judgment is, we're just not going to increase logging on 
Federal lands in the Mount Hood Wilderness Area.
    I want to ask our friends--Mr. DiStefano, one quick 
question for you. I think you know we have worked hard to try 
to bring people together on the mountain-bike issue, and I was 
impressed with the passion that everybody had to the question 
during the course of the hearing. One of the issues we found is 
that the forest managers are challenged by the fact that it 
seems some folks want to forge their own trails and not use 
existing ones. What can be done to get more mountain bikers to 
use the established trails?
    Mr. DiStefano. I appreciate the question, because it is an 
image that dogs mountain bikers. Much like any activity or 
sport, when you have new people who come to the activity that 
don't understand the courtesies and the protocol, they tend to 
become a little excited. And that is the case with some of our 
younger members of mountain-biking community.
    By allowing mountain biking on as many trails as is 
possible, will help to, I think, dissuade people from doing 
this. All too often, in instances such as this with the 
wilderness, some riders feel that this is a foregone 
conclusion, and they'll just go create their own trails as need 
to be to offset what they're about to lose. If we can teach 
them, as we've done through our clubs and our affiliates and 
our retail establishments, it's no different--for example, in 
the first time you play golf and you don't replace divots or 
you don't fix ball marks, somebody teaches you to do that for 
courtesy and sustainability. The same goes for mountain biking.
    Senator Wyden. We will work closely with you.
    Mayor Malone, just one point. My colleague mentioned the 
question of snowmobiling, and your testimony specifically 
states that even with the legislation, there are plenty of 
areas for snowmobiling. Is that something----
    Mayor Malone. I would say, as I understand it, the whole 
Mount Hood area, the national forest, is, what, one-point-some-
million acres. And this, combined with the others, is less than 
400,000. So there's still 600,000 acres, a lot of it on the 
mountain, that snowmobilers can still use for snowmobiling. I 
don't think this shuts them out. It shuts them out from this 
segment, but there are other areas up there for snowmobiling.
    Senator Wyden. So your overall evaluation is that there 
will be plenty of opportunities for snowmobiling, even with 
this legislation?
    Mayor Malone. Yes.
    Senator Wyden. One last question, very quickly. Mr. Ward, I 
think the environmental community isn't part of what we're 
going to continue to work with Mr. DiStefano about the 
environmental community has a fair number of concerns about the 
Hood-PDX Pilot Program, because there's a sense that, well, 
this is the beginning of the onslaught on wilderness. If you 
have the demonstration project, next step it will be to unravel 
the Wilderness Act. What are your thoughts or your concerns 
here on how we, sort of, bring everybody together? We thought 
that this demonstration project was about as close as we could 
get, and we still have everybody, kind of, pulling from one end 
or the other. Do you have any thoughts on how we continue to 
try and find common ground on this?
    Mr. Ward. Thank you for the question, Senator. Actually, I 
can tell you that my staff has been meeting with the 
International Mountain Biking Association, the Columbia Area 
Mountain Biking Advocates, and the Portland United Mountain 
Pedalers almost continuously for the past 8 months to try and 
identify areas where we can reduce the potential for conflict. 
And I think you are to be commended for separating out a number 
of trails that are important to the mountain-biking community. 
There are areas that we think are wilderness quality, but we 
recognize that we're not the only advocates out there.
    As far as the mountain-biking demonstration projects, we 
think that is an interesting way of meeting a lot of divergent 
needs on this, and we look forward to working both with you and 
Senator Smith and the mountain-biking community to refine it in 
such a way that it meets all our interests.
    Senator Wyden. I may offer some additional questions in 
writing, but all four of you have been constructive. Mr. 
Spadaro, I want it understood we will work with you closely, 
because we want to make sure that this is a plus for the 
economy. I think the mayor would say, ``Look, you do something 
like this, you're going to generate a lot of additional 
revenue.'' They're right at the foot of the mountain. I want 
each one of you to know that we will continue to work with you 
to try, with a delegation, to get a balanced bill. I thank you 
all for excellent testimony.
    Thank you, Mr. Chairman.
    Senator Smith. Thank you, Senator.
    And we thank all our panel. We appreciate it, and look 
forward to working with all of you on this bill.
    Our next panel is Mr. John Hiatt, Red Rock Audubon Society, 
Las Vegas, Nevada; Ms. Ellen Pillard, Nevada Sierra Club; Ms. 
Patricia Mulroy, also of Las Vegas, Nevada; and Mr. Spencer 
Hafen, Lincoln County, Nevada.
    If I can ask each of you--I have to preside over the Senate 
in 15 minutes--if I could get you each to do your testimony in 
3 minutes, we will submit all of your testimony for the record, 
and we will submit questions, as well. If Senator Craig shows 
up here, then you can go back to the longer schedule, if you 
wish.
    So why don't we start with Mr. Hiatt.

   STATEMENT OF JOHN HIATT, CONSERVATION CHAIRMAN, RED ROCK 
                 AUDUBON SOCIETY, LAS VEGAS, NV

    Mr. Hiatt. Thank you, Senator Smith and Senator Wyden, 
members of the committee and staff, we would like to thank you 
for the opportunity to testify today.
    My name is John Hiatt. I'm here today representing the 
Nevada Wilderness Coalition. On behalf of the Coalition, I 
would like to thank Senator Reid and Senator Ensign for their 
work that has gone into this legislation. Their process has 
been fair, and they've worked hard to listen to the concerns 
and recommendations from all interested parties.
    As you know, S. 2532 is a complex omnibus public-lands bill 
dealing with diverse issues in Lincoln County, Nevada. Many 
conservation organizations have strongly held concerns 
regarding various titles of the bill. It is my hope that 
members of the subcommittee will carefully review testimony 
submitted for the record by these organizations regarding the 
potentially significant environmental impacts of the non-
wilderness titles of the bill.
    My written testimony will address mainly the wilderness 
title. Incredible lands of Lincoln County stretch from Mojave 
Desert to the Great Basin. Cacti and Joshua trees and the rare 
gila monster can be found in southern Lincoln County, while 
northern stretches of the county contain aspen forests and 
ancient bristle-cone pines. These diverse mountains and valleys 
support more than a thousands species of plants and animals. 
Numerous rock-art sites and ancient artifacts can be found 
scattered throughout the mountain ranges of the county. The 
unique wilderness values of these areas will make worthy 
additions to the national wilderness preservation system.
    Although Lincoln County is very rural at this time, it is 
easy to overlook the current and potential threats to its wild 
character. For example, a major land development project known 
as Coyote Springs is slated to construct up to 100,000 
residential units. In a county of four- to five-thousand 
residents, this type of development will dramatically increase 
pressures to the region and permanently impact the county's 
rural character.
    Another very large and growing threat to the natural 
environmental of Lincoln County is irresponsible use of dirt 
bikes, all-terrain vehicles, and other off-road vehicles, most 
of which come from Las Vegas.
    In order to address these threats and protect the wild 
character of this region, the Nevada Wilderness Coalition has 
been involved with wilderness discussions regarding eastern 
Nevada for more than two decades. In recent years, our 
coalition has met regularly with local officials, ranchers, 
off-road enthusiasts, and other interested stakeholders. For 
the last 3 years, we've been mapping and working to evaluate 
the wilderness sources in Lincoln County, and, as a result of 
that, have a citizens' proposal. The coalition believes that 
the BLM's wilderness inventories were rushed and contain 
numerous flaws. For examples, agency's 6-month intensive 
inventory required BLM personnel in Nevada to survey more than 
88,000 acres per day, a windshield survey, at best.
    The citizens' proposal enjoys broad support in Nevada. For 
example, 50 renowned scientists have recently written Nevada's 
congressional delegation asking that they enact the citizens 
wilderness proposal for Nevada.
    As you know, S. 2532 would designate 14 wilderness areas, 
all of which are under the purview of the Bureau of Land 
Management, totaling roughly 770,000 acres. The bill would 
release roughly 246,000 acres, including four entire BLM WSAs 
that would be released in their entirety. We feel that those 
areas, the released areas, have been treated as wilderness for 
the last 20 years, de facto wilderness. They are somehow viewed 
as not qualified. They were more than qualified under the BLM 
rules at the time, and still existing. And these areas are 
valuable. They should not be dismissed out-of-hand.
    Additionally, we would like to see the Perennial Proposed 
Wilderness, a mosaic of canyons, peaks, ridge lines, and it 
contains very significant wildlife habitats and an array of 
archeologic resources, such as petroglyphs. This should be 
included. It is not. The Fish and Wildlife Service recommended 
wilderness designation in the Desert National Wildlife Range in 
1973. We believe this recommended wilderness should be included 
in the bill. It is not.
    On the subject of wilderness, I would like to quote my 
friend Jim Deacon, professor emeritus and UNLV, who said, 
``Whatever we do in terms of wilderness designation today, the 
future generations will look back and say it was too little.''
    I would like to briefly touch on the subject of utility 
corridors, because I think that is very important. The 
seemingly minor part of S. 2532 ultimately have a much greater 
impact on Lincoln County and eastern Nevada than any other 
portion of the bill. The purpose of utility corridors is to 
facilitate export of groundwater from Lincoln County to the 
metropolis of Las Vegas and Clark County. The near-term impact 
will very likely be the destruction of the agricultural 
community in Lincoln County. The approval of this title will 
create an instantaneous market, conversion of agricultural 
water rights to municipal water rights. The unintended social 
impacts of this part of the bill will greatly exceed the 
physical impacts. Neither Lincoln County nor any other rural 
county in Nevada has the financial resources to address the 
social and economic implications of the rural-to-urban water 
transfer that this legislation will facilitate.
    The proposed allocation of 45 percent of the proceeds of 
public-land sales to Lincoln County, as proposed in title 1 of 
the bill, will be too little, too late. Although never 
contemplated in the 1998 Southern Nevada Public Lands 
Management Act, use of funds from sale of land in Clark County 
to mitigate impacts on rural counties needs to be considered. 
After all, sale of public land in Clark County is the driving 
force for the need for water from Lincoln County.
    The coalition believes that more flexibility in the 
location of utility corridors is needed, should a NEPA analysis 
determine impacts through important resources, such as cultural 
sites or sensitive species. In Nevada, a lack of objective and 
independent water information is a barrier for rural counties 
to effectively participate in the Nevada water adjudication 
process.
    The Wilderness Coalition appreciates the inclusion of 
independent water study for White Pine County in the 
legislation, but we strongly believe the study should be 
expanded beyond White Pine County to examine the aquifer 
underlying Lincoln, Clark, and Nye Counties, as well.
    Thank you very much for the time to testify.
    [The prepared statement of Mr. Hiatt follows:]

   Prepared Statement of John Hiatt, Conservation Chairman, Red Rock 
     Audubon Society, on Behalf of the Nevada Wilderness Coalition

    Chairman Craig, Members of the Committee and staff, thank you for 
the opportunity to testify today. My name is John Hiatt. I am a 
volunteer for the Red Rock Audubon Society of Las Vegas holding the 
position of conservation Chairman. I am here today representing the 
Nevada Wilderness Coalition.
    The Nevada Wilderness Coalition is made up of the Nevada Wilderness 
Project, Friends of Nevada Wilderness, The Wilderness Society, Toiyabe 
Chapter of the Sierra Club, Red Rock Audubon Society, Campaign for 
America's Wilderness and Nevada Outdoor Recreation Association. In 
addition some fifty Nevada businesses have signed letters supporting 
the efforts of the Coalition. Collectively our organizations represent 
more than 7,000 Nevadans including members in Lincoln County and nearly 
one million citizens across the country. The Toiyabe Chapter of the 
Sierra Club will be providing additional testimony.
    On behalf of the Coalition, I would like to thank Senator Reid and 
Senator Ensign and their staff members for the hard work that has gone 
into this legislation. Their process has been fair, and they have 
worked hard to listen to the concerns and recommendations of all 
interested parties.
    As you know, S. 2532 is a complex, omnibus public lands bill 
dealing with diverse issues in Lincoln County, Nevada. Many 
conservation organizations have strongly held concerns regarding 
various titles of the bill. It is my hope that Members of the 
Subcommittee will carefully review testimony submitted for the record 
by these organizations regarding the potentially significant 
environmental impacts of the non-Wilderness titles of the bill.
    While I will briefly address each title of the bill, my primary 
expertise is in the Wilderness title of the legislation; therefore I 
will focus the majority of my testimony on that title.

                          TITLE I--LAND SALES

    S. 2532 directs the auctions of two parcels (totaling approximately 
13,341 acres). The two parcels, of roughly 6,355 acres and 6,986 acres 
would be auctioned within 75 days of the bill's enactment. As you may 
know, the sale of these lands, authorized by the Lincoln County Land 
Act of 2000, has been postponed pending the completion of an 
Environmental Impact Statement (EIS). We do not support Congressional 
action that trumps a Federal District Court's decision requiring the 
need for more environmental review of these lands. Additionally, we 
feel that if this land is going to be sold, allowing the land to be 
auctioned in smaller parcels would maximize the value to the taxpayer 
and allow many more citizens the opportunity to own land in Nevada.
    S. 2532 authorizes the sale of up to 87,005 acres of federal land 
in areas adjacent to existing private property in Lincoln County. We 
understand that communities surrounded by public lands have limited 
ability to grow. The Nevada Wilderness Coalition does not oppose 
increased privatization of land in Lincoln County. However, the amount 
of public land slated for disposal under this bill is excessive. Much 
of the land identified for disposal appears to be for increased 
agricultural use rather than community expansion. With the water crisis 
facing Nevada and much of the West, facilitating the development of 
significantly more agricultural land in this arid region seems 
irresponsible. We find it ironic that Title III of this Bill, which is 
intended to facilitate export of water from Lincoln County to Clark 
County may foreclose future development options for that land, due to 
lack of water.
    We are also concerned with the Crestline parcel identified for 
sale. Lincoln County's landfill sits on private land located in the 
center of this public parcel. It is being openly discussed that the 
purpose for the sale of surrounding public lands is to facilitate a 
huge West-wide regional dump, bringing garbage in from California, 
Utah, and Arizona. We strongly recommend that the Crestline parcel be 
removed from the bill.
    The Secretary of Interior is authorized to withhold up to 10,000 
acres identified for sale in this bill if such sale would be 
inconsistent with the protection of habitat and cultural resources. We 
support inclusion of this provision, however it should be enlarged to 
prevent the auction of any land that is inconsistent with the 
protection of habitat or cultural resources and not be capped at 10,000 
acres.
    The disposition of proceeds from these annual auctions would differ 
dramatically from the compromise crafted during the Southern Nevada 
Public Lands Management Act (SNPLMA). Most problematic is the 45% of 
the proceeds to Lincoln County slated for economic development. We 
strongly prefer an allocation that would provide more resources for 
Wilderness management, development and implementation of a Lincoln 
County Multi-Species Habitat Conservation Plan, and habitat protection.
    The Nevada Wilderness Coalition has concerns about these lands 
potentially being sold at a deficit to the American taxpayer. The sale 
price of these lands should far exceed the administrative costs of 
preparing the lands for sale. If the sale price of these lands does not 
outweigh the administrative costs of preparing them for sale, the sale 
should not go forward.

                          TITLE II--WILDERNESS

Lincoln County's Wild Landscape
    In order to present the Subcommittee with a better understanding of 
Nevada's wild landscape and the Wilderness potential that it contains, 
I would like to begin by providing some background information. The 
incredible public lands in Lincoln County stretch from the Mojave 
Desert to the sagebrush sea of the Great Basin. Barrel Cacti and Joshua 
trees can be found in southern Lincoln County, while the northern 
stretches of the County contain aspen forests and ancient bristlecone 
pine. These diverse mountains and valleys support more than 1,000 
species of plants and animals, including desert tortoise, cougar, 
bighorn sheep, elk, mule deer, antelope, sage grouse, kit fox, bats, 
rare fish and a variety of songbirds and raptors.
    Numerous rock art sites and ancient artifacts can be found 
scattered throughout the County. While Nevada contains large amounts of 
wilderness-quality land, the Wilderness areas proposed in this bill 
contain wilderness values that are unique to Nevada and the West. These 
values are not currently represented in the National Wilderness 
Preservation System.
Threats to Lincoln County's Wilderness Quality Land
    Although Lincoln County is very rural at this time, it is easy to 
overlook the current and potential threats to its wild character.
    In the coming years, a major land development project known as 
Coyote Springs is slated to construct up to 185,000 residential homes 
and as many as ten golf courses. Coyote Springs, which straddles the 
Lincoln and Clark County boundary, is located in the heart of some of 
the wildest country in the region. The influx of tens of thousands of 
people combined with the requisite associated infrastructure will 
dramatically increase pressures on the open spaces of the region. In 
the absence of Wilderness protection for lands in proximity to Coyote 
Springs, neither the Bureau of Land Management nor the U.S. Fish and 
Wildlife Service has the resources to meet the anticipated challenges 
and environmental degradation that explosive population growth will 
inevitably bring about in this area.
    Another very large and growing threat to the natural environment of 
Lincoln County is the irresponsible use of dirt bikes, ATV's, and other 
off-road vehicles. While many dirt bike and off-road vehicle users make 
an effort to stay on existing trails, there are hundreds of instances 
where users have destroyed, damaged and fragmented habitat and cultural 
sites with irresponsible use. Attempts at public education have helped 
somewhat, however, the ultimate solution lies in legislated Wilderness 
with visible and enforceable boundaries, thereby protecting wild areas 
from this increasing threat.
Nevada Wilderness Coalition's Involvement in Lincoln County
    For many years, the Nevada Wilderness Coalition has been involved 
with wilderness discussions regarding Eastern Nevada. Members of our 
coalition participated in the original Bureau of Land Management 
wilderness studies in Lincoln County.
    In recent years, our coalition has met with local elected 
officials, ranchers, off-road enthusiasts, and other interested 
stakeholders on numerous occasions. We have also participated in field 
trips to the region with staff from the Nevada Congressional 
delegation, the Bureau of Land Management, staff from the House of 
Representatives Subcommittee on National Parks, Recreation and Public 
Lands, local officials and other interested citizens.
    We have participated as members of the Technical Review Team (TRT) 
created by the Lincoln County Coordinated Resources Management (CRM) 
Steering Committee, formed to bring concerned stakeholders together to 
discuss issues involving wilderness designation.
Citizens' Wilderness Proposal
    The Nevada Wilderness Coalition believes that the Bureau of Land 
Management's wilderness inventories of the late 1970's were faulty for 
numerous reasons. We have been working since that time to provide more 
accurate inventories of wilderness quality lands in Nevada.
    In 1979, during its eight-month Initial Wilderness Inventory, the 
Nevada Bureau of Land Management used ``existing information'' and 
``inventoried'' roughly 49 million acres and immediately dropped 32.9 
million acres from further consideration. This was a rushed process by 
any measure. The public was then given only 90 days to comment on the 
decision.
    The Bureau of Land Management then spent six months on 
``intensive'' on-the-ground surveys of the remaining 16.1 million 
acres. Assuming they worked seven days a week, this ``intensive'' 
inventory required Bureau of Land Management personnel to survey 88,462 
acres per day. After this intensive survey, which was cursory at best, 
the agency dropped 11.1 million acres from further consideration. Once 
again, the public was given only 90 days to comment on the decision.
    Using the latest technology and mapping methods, as well as modern 
science, the Nevada Wilderness Coalition is working to protect all 
Wilderness quality public land remaining in the State. As part of that 
effort, the Coalition developed a comprehensive proposal for Wilderness 
in Eastern Nevada.
    Because potential wilderness areas and the wildlife found within 
them regularly straddle administrative boundaries, the Coalition 
believes in creating Wilderness proposals based on ecological rather 
than administrative boundaries (i.e. county lines). Our Citizens' 
Wilderness Proposal for Lincoln County recommended Wilderness 
designation for over 2.5 million acres of public land within the Mojave 
Desert and Great Basin regions of Lincoln County.
    The process of creating a Citizens' Wilderness Proposal for Eastern 
Nevada involved conducting updated field inventories as well as 
researching current data provided by federal land managers, state 
offices, local citizens, and local governments. The field inventory 
process involved sending paid and volunteer field crews out to Eastern 
Nevada to photo document man-made impacts on the land and mark precise 
locations on a topographic map using global positioning system (GPS) 
data. To date, the field inventory process has yielded over 1,000 
photos taken during the fall and winter of 2000 and again during the 
fall, winter and spring of 2002-2003. The field inventory information 
was then compared with existing data from other sources in an effort to 
minimize potential conflicts with other uses of the proposed Wilderness 
areas and to respond to agency information and rationale that the 
Coalition felt was outdated and/or contradictory. Finally, based on 
updated fieldwork and additional research, Wilderness proposal area 
boundaries were delineated and descriptions and Wilderness rationale 
were documented.
    The Citizen's Proposal for Wilderness in Lincoln County includes a 
portion of the U.S. Fish and Wildlife Service-managed Desert National 
Wildlife Range and corresponds to the agency's Wilderness 
recommendations submitted to Congress in 1973. The Citizen's Proposal 
also includes all of the Bureau of Land Management managed Wilderness 
Study Areas (WSA) in the county. The Coalition advocates for the 
protection of entire WSAs, whether recommended or non-recommended by 
the BLM. Based on field inventories and extensive research, the 
Coalition asserts that each of these WSAs qualify as Wilderness and 
merits protection as such. In addition to the WSAs, the Coalition has 
included Bureau of Land Management-managed lands that were not given 
WSA status by the agency following its Intensive Wilderness Inventory 
of the 1979-1980. The Coalition has conducted updated field inventories 
of many non-WSA public lands within the last several years and has 
determined that many do qualify for Wilderness based on the criteria of 
the Wilderness Act. Many of these areas recommended for Wilderness 
designation in our Citizens' Proposal were originally dismissed by the 
BLM from further Wilderness study based on flawed criteria and 
rationale, which essentially resulted in the dismissal of significant 
wild desert landscapes throughout Nevada.
    The Citizens' Wilderness Proposal enjoys broad support in Nevada. 
Polls conducted by independent pollster Mason-Dixon Research confirm 
strong backing from Nevadans for major additions to the National 
Wilderness Preservation System in the state. Fifty renowned scientists 
have recently written Nevada's congressional delegation asking that 
they enact the Citizens' Wilderness Proposal for Eastern Nevada. Nearly 
fifty Nevada-based business owners have also recently written to the 
delegation to express appreciation for their work to designate 
Wilderness in eastern Nevada, and to urge their support for designating 
key areas in the Pahranagat Range as Wilderness.
Wilderness designations under S. 2532
    The Nevada Wilderness Coalition is grateful that the Nevada 
Congressional delegation is addressing Wilderness designation in 
Lincoln County. We appreciate their willingness to consider Wilderness 
recommendations from our Citizens' Wilderness Proposal.
    As you know, S. 2532 would designate 14 Wilderness areas, all of 
which are under the purview of the Bureau of Land Management, totaling 
roughly 770,000 acres. The bill would release roughly 246,000 acres 
from WSA status, including four Bureau of Land Management WSAs that are 
released in their entirety.
    Although it falls short of our expectations, S. 2532 would protect 
a significant amount of wilderness and make important additions to the 
National Wilderness Preservation System.
    Some highlights of the areas and resources that would receive 
Wilderness protection under S. 2532 include:

  <bullet> Designations within the Mormon, Meadow Valley, Delamar and 
        Clover Mountains WSAs. These four areas total about 476,000 
        acres. The ``Big Four'' and the nearby Desert National Wildlife 
        Range comprise an extensive block of relatively intact wild 
        landscapes.
  <bullet> The lofty limestone cliffs and the beautiful Whipple Cave of 
        the Far South Egans.
  <bullet> The dramatic Leviathan Cave and bristlecone pines found in 
        the Worthington Mountains.
  <bullet> Colorful volcanic tuff formations, and important riparian 
        areas, in the Fortification Range.
  <bullet> Large ponderosa pine forests in the Weepah Spring area and 
        Clover Mountains.
  <bullet> Dramatic stands of quaking aspen and Douglas fir in Parsnip 
        Peak.
  <bullet> Important wildlife habitat throughout these areas, for many 
        wildlife species including desert tortoise, elk, deer, bighorn 
        sheep, goshawks, golden eagles and many species of migrating 
        raptors.

    The bill also includes two Citizen-proposed areas: the stunning Big 
Rocks Wilderness, a popular recreation area; and the Mt. Irish 
Wilderness, with its rich archeological resources. These Citizen-
proposed areas were missed by the BLM during their inventory and never 
became WSAs.
Nevada Wilderness Coalition Concerns Regarding the Wilderness Title of 
        S. 2532
    Although the Coalition is very appreciative of the wilderness 
designated under S. 2532, we have some important concerns regarding 
this title. First, and foremost, we are troubled by the very large 
amount of land that is ``released'' from Wilderness Study Area status. 
The lands contained in these WSAs have been managed to protect their 
wilderness values for more than 20 years. Releasing these lands to 
potential development is a step backwards for conservation in Lincoln 
County. Many of the areas released from WSA status have no compelling 
rationale for their release.
    Of special concern are 80,000 acres identified for release within 
the Parsnip Peak and Table Mountain WSAs. All of Table Mountain WSA and 
a substantial portion of Parsnip Peak are to be released from WSA 
status under S. 2532. While the Nevada Wilderness Coalition believes 
that boundary modifications can be accommodated in these areas, it 
seems heavy handed to release so much acreage within a relatively small 
geographic area. It is also troubling that the amount of land 
designated as Wilderness in Parsnip Peak is less even than the amount 
of land that the BLM recommended.
    Several of the released portions of the southernmost WSAs are lower 
elevation areas that provide important habitat for the federally 
threatened Desert Tortoise and other imperiled species. We urge that 
these areas be designated as Wilderness.
    There are many deserving areas that do not receive protection 
under. S. 2532. We have provided detailed information on additional 
areas worthy of Wilderness designation in our Citizens' Wilderness 
Proposal. The areas not designated as Wilderness under this legislation 
that are most troubling to the Nevada Wilderness Coalition include the 
Pahranagat Range, and Wilderness-quality land within the Desert 
National Wildlife Range.
    The Desert Hills-Pahranagat Proposed Wilderness is a mosaic of 
canyons, peaks and ridgelines. It contains sensitive wildlife habitats 
and an array of archeological resources including the incredible 
petroglyphs in the area known as the ``Shooting Gallery.'' Wilderness 
designation for the area, will guarantee long-term protection to the 
area's rich Native American history.
    We feel strongly that S. 2532 should designate Wilderness within 
the Desert National Wildlife Range. The U.S. Fish and Wildlife Service 
recommended Wilderness designation in the Range in 1973. Congress did 
not enact these recommendations under the Clark County public lands 
bill of 2002. Wilderness designations within the Desert National 
Wildlife Range are clearly within the scope of this legislation and 
should be addressed at this time.
    The Coalition feels that Wilderness designations depicted on the 
map accompanying S. 2532 contain too many ``cherrystems.'' We recognize 
the occasional value of ``cherrystems'' to allow for wilderness 
boundaries to be brought to lower elevations and the access that they 
provide to wilderness areas. However, the abundance of and length of 
``cherrystems'' in Wilderness areas designated under S. 2532 are 
problematic. ``Cherrystems'' create management problems for managing 
agencies. They also fragment wildlife habitat, damage springs, increase 
the likelihood of vandalism to cultural resource sites and spread 
invasive plants.
    Numerous cherrystems go directly to springs or developed water 
sources (guzzlers). In order to protect and lessen harassment and 
impacts to wildlife, cherrystems should be pulled back at least 0.5 to 
1 mile from the water sources. Examples include Horse Springs in the 
Mormon Mountains, Riprap Springs and Lake Springs in the White Rock 
Range.
    Sec. 203 (b) of S. 2532 defines the boundary of the wilderness area 
along roads as a 100-foot setback from the edge of the road. We suggest 
that the boundary setback be consistent with the traditional boundaries 
used by Congress of a 300-foot setback from the centerline of a paved 
highway, a 100-foot setback from the centerline of a major dirt road, 
and a 30-foot setback from the centerline of a low standard dirt road / 
jeep trail.
    The Coalition believes that the wildlife management language for 
Wilderness in the bill is overly broad. Habitat modification in 
Wilderness areas is generally inappropriate. However, in some 
instances, habitat modification in Wilderness may be necessary to 
maintain wilderness character. Specifically, certain management 
activities may be necessary to restore wildlife populations, or to 
restore a more natural vegetative regime that has been suppressed by 
human-caused actions. We believe that the construction of new 
``guzzlers'' should be prioritized outside of Wilderness areas.
    The Nevada Wilderness Coalition believes that language should be 
added to the Wilderness title of S. 2532 reserving federal water rights 
for Wilderness areas designated by the bill. Furthermore, we hope that 
the Subcommittee will address the potential impacts to springs and 
other water resources within Wilderness Areas from potential drawdowns 
of contiguous aquifers outside of the Wilderness Areas.

                      TITLE III--UTILITY CORRIDORS

    The environmental community is united in its opposition to the 
inclusion of utility corridors and legislative issuance of water 
pipeline rights-of-way under S. 2532. Several other conservation 
organizations have submitted detailed testimony on this title, and we 
respectfully ask that the Subcommittee carefully review the concerns 
that they have raised.
    This seemingly minor part of S. 2532 will ultimately have a much 
greater impact on Lincoln County and Eastern Nevada than any other 
portion of the bill. The purpose of the utility corridor is to 
facilitate export of groundwater from Lincoln County to the metropolis 
of Las Vegas. The near-term impact will very likely be the destruction 
of the agricultural community in Lincoln County. The approval of this 
Title of S. 2532 will create an instantaneous market for conversion of 
agricultural water rights to municipal water rights, with a 
commensurate increase in value (price). The unintended social impacts 
of this part of S. 2532 will greatly exceed the physical impacts for at 
least 10-20 years.
    Neither Lincoln County nor any other rural Nevada county has the 
financial resources to address the social and economic implications of 
the rural to urban water transfer that this legislation will 
facilitate. The proposed allocation of 45% of the proceeds of public 
land sales to Lincoln County as proposed in Title I will be too little, 
too late. Although never contemplated in the 1998 Southern Nevada 
Public Lands Management Act (SNPLMA) use of some funds from sale of 
public land in Clark County to mitigate impacts on rural counties 
should be considered. Sale of public land in Clark County is the 
driving force behind the need for pipelines to bring Lincoln County 
water south to Las Vegas.
    We believe that the NEPA process should be used as a means to 
evaluate the other options available to Las Vegas to help meet the 
regions growing water needs and address drought. Water conservation 
measures must be explored in greater depth and implemented before rural 
water development moves forward.
    The Coalition believes that more flexibility in the location of 
utility corridors is needed should a NEPA analysis determine impacts to 
important resources such as cultural sites or sensitive species.
    In Nevada, a lack of objective and independent water information is 
a barrier for rural counties to effectively participate in the Nevada 
water adjudication process.
    The Nevada Wilderness Coalition appreciates the inclusion of an 
independent water study for White Pine County in the legislation. We 
strongly believe that the study should be expanded beyond White Pine 
County to examine the regional aquifer underlying Lincoln, Clark, and 
Nye counties as well. Furthermore, the study should examine potential 
impacts on wildlife, conservation units and ranching from water pumping 
and drawdowns. The study should not be limited to examining the 
quantity of water in White Pine County only.
    Given that Nevada is the driest state in the nation, critical 
examination and understanding of the ground water aquifer is essential 
prior to making long-term commitments to provide water to urban 
populations.

            TITLE IV--SILVER STATE OFF-HIGHWAY VEHICLE TRAIL

    The Nevada Wilderness Coalition supports designated routes for off-
road vehicle travel on Bureau of Land Management lands. We believe that 
the resource management plan and activity planning process provides the 
agency and the public the best opportunity to study and determine 
ecological, aesthetic, historic, cultural, economic, social, or health 
impacts due to recreational off-road vehicle use on public lands.
    Our strong preference is to require a plan before designating a 
route and to allow land managers the necessary flexibility after the 
plan is finalized to manage the route to protect other visitors, 
wildlife, and natural resources as President Nixon urged in his 1972 
Executive Order. By designating a specific, predetermined route, this 
legislation restricts the public's ability to participate in the route 
selection and excludes consideration of the cumulative effects. We urge 
you to include a provision that requires the agency consider public 
input and cumulative effects at the very outset.
    We believe the agency must complete a NEPA process that engages the 
public, scientific community including wildlife biologists, and all 
recreationists and visitors who enjoy the area as well as determine 
present and future cumulative impacts to the area.
    In his 1972 Executive Order--still in place today--President Nixon 
recognized the critical importance of regular and careful monitoring of 
off road vehicle use and enforcement of off road vehicle regulations 
and mandated that land management agencies must monitor the effect of 
off-road vehicles on land under their jurisdiction. Therefore, we 
strongly recommend BLM provide a regular (no less than every three 
years) monitoring report to Congress.
    The Coalition believes the proposed route as shown on the map of 
record does not adequately address wildlife impacts. In our discussions 
with the Nevada Division of Wildlife, it has become clear that the 
proposed route traverses important mule deer migration routes and could 
have an impact on springs, especially along the northeast portion of 
the route. We urge Senators Reid and Ensign to work with Bureau of Land 
Management staff to provide alternatives to avoid these important 
wildlife migration routes.
    The Coalition feels that language should be added to this title 
that makes clear that the trail can be used for ``touring'' but will 
not be open to competitive events, ``play areas,'' or race behavior.
    For the Silver State Trail to be designated and properly managed, 
BLM must be provided the financial resources to adequately educate the 
public about the route through maps, signage, and other information 
tools to keep users on the route. The Coalition appreciates the 
inclusion of legislative language in this title requiring signage along 
the route.
    In addition, adequate monitoring and enforcement provisions must be 
in place to enforce management decisions and protection of the area. 
Currently the Ely Field Office of the BLM does not have enough 
resources to adequately carry this out. For example, the Ely BLM office 
has one law enforcement officer for 12 million acres of public land. 
Therefore, Congress must provide adequate funding for management, 
monitoring and enforcement of the route.

               TITLE V--STATE AND COUNTY PARK CONVEYANCES

    S. 2532 identifies 14,330 acres of BLM managed public lands to be 
conveyed to Lincoln County for the conservation of natural resources or 
public parks. Although we do not object to Lincoln County managing open 
space or parks we have questions about the parcels they have selected. 
Lincoln County might have more flexibility by selecting land for parks 
through the Recreation and Public Purposes Act rather than this 
legislation.
    We also understand the desire of the State of Nevada to expand some 
of their state parks. We are concerned that there is barely money 
available to manage the state parks currently in the state park system. 
We hope that the State will make more funding available to cover the 
management costs if the Cathedral Gorge, Beaver Dam and Kershaw Ryan 
state parks are expanded.

                  TITLE VI--TRANSFERS OF JURISDICTION

    The purpose of this title is to facilitate the movement of a 
utility corridor from the east side to the west side of Highway 93.
    The Nevada Wilderness Coalition is generally supportive of 
consolidating utility rights-of-way to reduce the environmental impacts 
of separate parallel rights-of-way. That being said, we have been on 
record for several years opposing the proposed massive development in 
the Coyote Springs Valley. We are concerned that moving the right-of-
way to the west side of highway 93 will lead to an even larger 
development in Coyote Springs than initially proposed.
    There are major uncertainties regarding the impacts that this 
proposed development would have on the limited water resources in the 
region. Development of the Coyote Springs project will intensify 
pressures on the land resulting from tens of thousands of people moving 
into what is now a wild, undeveloped valley. We ask that Congress not 
facilitate the construction of this ill-conceived development by 
enacting this title. We remain hopeful that this land will be returned 
to public ownership using SNPLMA funds.

    Senator Smith. I have a problem. I can't stay here any 
longer. If you would like--we're trying to get Senator Craig 
back down here. We hope he will be here momentarily. And so 
if--I don't have any alternative, without getting in trouble by 
shutting down the Senate, to recess the meeting and then 
restart it very briefly. Do you have a comment or a question, 
Ms. Mulroy?
    Ms. Mulroy. Mr. Chairman, I would just like to say I'll 
stand on my written testimony. I don't need to say anything at 
this point.
    [The prepared statement of Ms. Mulroy follows:]

Prepared Statement of Patricia Mulroy, General Manager, Southern Nevada 
                            Water Authority

                                SUMMARY

    Mr. Chairman and members of the Subcommittee, thank you for the 
invitation to testify in support of this bill that is so vitally 
important to Southern Nevada. I appreciate the efforts of Senator Harry 
Reid and Senator John Ensign along with Nevada's House delegation Rep. 
Jim Gibbons, Rep. Shelley Berkley and Rep. Jon Porter for introducing 
this bill. The five-year drought affecting the Colorado River Basin is 
an unprecedented challenge for Southern Nevada. As early as January 
2005, and undoubtedly by January 2006, the continued lowering of Lake 
Mead will trigger a ``normal'' operating condition on the river. This 
means that the Lower Basin states of California, Arizona and Nevada 
will be restricted to basic allocations under the Colorado River 
Compact and that planned resources such as interim surplus water will 
not be available. Nevada will only have access to 300,000 acre-feet of 
water per year, already the smallest water allocation of the seven 
states using the Colorado River, at a time when its communities in 
Clark County continue to lead the nation in growth, attracting 
thousands of new residents each month. A ``normal'' operating condition 
will also result in a formal drought emergency within the Las Vegas 
metropolitan area, home to over 1.6 million people.
    If the drought persists and reservoir levels on the Colorado River 
continue to decline, further restrictions on Lower Basin use of 
Colorado River water are possible. To protect Nevada from worsening 
conditions on the river, and to insulate Southern Nevada from similar 
drought conditions in the future, the Southern Nevada Water Authority 
(SNWA) is taking steps to develop key elements of its long-term Water 
Resource Plan ahead of schedule. This includes accelerated development 
of in-state water resource projects in northern Clark, Lincoln and 
White Pine counties. Given the drought's effects to date, Southern 
Nevada may need a portion of these proposed in-state water resources as 
early as 2007.
    The proposed development of these in-state resources is intended to 
diversify the region's water supply, provide a supplement to Nevada's 
small 300,000 acre foot Colorado River water entitlement for additional 
supplies to meet future water demands. To develop its projects, the 
SNWA will have to meet the requirements of the Federal Land Policy and 
Management Act, National Environmental Policy Act, Endangered Species 
Act, and other applicable regulations. It will also need to complete 
the water permitting process required under the Nevada Revised 
Statutes, which have some of the most comprehensive water laws in the 
West.
    The Lincoln County Conservation, Recreation and Development Act of 
2004 (S. 2532) will help to expedite a solution to Southern Nevada's 
current water situation without compromising public involvement and 
environmental compliance. It designates utility corridors for possible 
development of groundwater resources in eastern Nevada and allows 
environmental reviews for the utility corridors and rights-of-way to 
occur simultaneously. Given the bill's designation of Wilderness Areas 
in Lincoln County, establishing utility corridors at this stage is 
critical to ensuring that the SNWA can pursue critical resource 
development outcomes upon which its future water planning decisions 
depend.
    To this end, the SNWA strongly supports passage of S. 2532 with two 
recommended changes. First, we ask that Section 211 be amended to allow 
the installation of high-altitude precipitation gages within the 
Wilderness Areas identified by the bill. These gages are needed to 
collect hydrologic data for studies of the groundwater basins of 
interest. Specific language for this recommended amendment is provided 
on Page 9 of this testimony. Second, we believe that the maps which 
depict where the rights of way corridors are to be located are in error 
along highways 93 and 95. We will be happy to work with the 
Subcommittee to address this mapping concern.

                         BACKGROUND INFORMATION

    For the past 20 years, Southern Nevada has been one of the fastest 
growing areas in the country. In response, the Southern Nevada Water 
Authority (SNWA) was formed in 1991 to coordinate regional water supply 
issues, promote conservation, acquire additional water resources and 
develop the treatment and transmission facilities needed to deliver 
water to the local community. The member agencies of the SNWA are the 
cities of Boulder City, Henderson, Las Vegas, and North Las Vegas; the 
Big Bend Water District; the Clark County Water Reclamation District; 
and the Las Vegas Valley Water District. The combined service areas for 
these agencies cover the greater metropolitan Las Vegas Valley, 
Laughlin and most of unincorporated Clark County.
    Southern Nevada attracts over 35 million visitors a year and 
approximately 6,000 new residents each month. For the past 10 years, 
annual population growth in the Las Vegas Valley has averaged 5.6 
percent, with total population increasing by almost 72 percent between 
1993 and 2003. Clark County is the second largest county in the 
contiguous United States, with a population of 1,641,529 residents as 
of July 2003. Growth is expected to continue at a rate of about 4.5 to 
5 percent per year for the next several years, translating into 
additional water demands that will, in turn, continue to impact the 
area's local and regional water systems.
    To meet the water demands for this community, the SNWA takes a 
portfolio approach to water resource planning, recognizing that 
supplies and demand are dependent on conditions that may change in 
unpredictable ways. The portfolio approach emphasizes the development 
of diverse water resources to offset the risks typically associated 
with any single resource option. Current and potential resources 
identified in the SNWA Water Resource Plan include a combination of 
Colorado River water resources and in-state water resources; 
specifically, Nevada's basic apportionment of Colorado River water; 
return-flow credits; interim surplus Colorado River water; unused 
Nevada apportionments; banked water in Arizona and the Las Vegas 
Valley; Las Vegas Valley groundwater rights; Las Vegas Valley shallow 
groundwater; Muddy River surface water rights; Virgin River surface 
water rights; groundwater rights and applications in Clark, Lincoln, 
Nye, and White Pine counties; and reclaimed non-Colorado River water, 
among others.
    The SNWA and Nevada Colorado River Commission have been very 
successful in efforts to maximize Southern Nevada's use of the Colorado 
River. These efforts include an off-stream storage agreement with the 
State of Arizona, which has yielded 110,000 acre-feet in storage 
credits for Nevada's future use, as well as support of Interim Surplus 
Guidelines in the Lower Colorado River Basin. The interim surplus 
concept allows Nevada and California to access additional Colorado 
River water, when available, until 2016. Unfortunately, due to the 
severity of the drought, these interim surplus resources cannot be 
depended upon.
    At the same time, Southern Nevada continues to stress conservation 
within the region, recognizing that increasingly efficient water use 
will have a direct impact on the amount of tangible water resources 
both needed and available in the future. This is being accomplished 
through one of the most aggressive water conservation programs in the 
western United States, including a rebate program that offers $1 per 
square foot to convert decorative lawns to xeric landscapes (now 
believed to be the largest urban conservation incentive program in the 
world). To date, the program has converted 33 million square feet of 
landscape at a cost of over $30 million. and is estimated to have 
reduced annual water demand by more than 1.8 billion gallons.
    However, the success of Southern Nevada's conservation program also 
leads to more inflexibility in customer demands. Because Southern 
Nevada does not have a significant agricultural base that can be 
utilized to augment municipal supplies during times of drought, the 
more efficient Southern Nevada becomes in its use of water the less 
flexibility it has to meet crises such as the current drought. Thus, 
the necessity of developing further diverse water supplies to protect 
against future droughts is of primary importance to the SNWA and its 
customers.
    For the past decade, Colorado River water and conservation have 
been the most cost-effective options to meet water demands in Southern 
Nevada. As part of its resource planning, the SNWA recognized that 
continued development of additional water resources would be necessary. 
Until recently, however, it was projected that these additional water 
resources would not be needed until 2016 or later. More short-term 
supplies such as banked groundwater and interim surplus, along with 
conservation, would be sufficient until Southern Nevada could develop 
other long-term resources in its portfolio. Unfortunately, the recent 
drought in the western United States has altered this picture 
significantly.

                              THE DROUGHT

    The Colorado River Basin is currently experiencing its worst 
drought in at least 100 years. Since 1999, the Basin has received only 
half of its average water inflows. In 2002, the most damaging year to 
date, the Basin received only 25% of normal runoff. As a result, Lake 
Mead and Lake Powell the two principal reservoirs in the Colorado River 
system, representing over 50 million acre-feet of capacity are now at 
less than 50% of their combined capacity. In other words, the river 
system has effectively lost one of its two major reservoirs. Lake Mead 
water levels have dropped by 95 feet and those declines are expected to 
continue, barring any additional action.
    As outlined in the Colorado River Interim Surplus Guidelines 
(Record of Decision, January 2001), the availability of interim surplus 
water is tied to Lake Mead water levels. Given conditions impacting 
those water levels today, it is unlikely that interim surplus water 
will be available to Nevada in 2005, and certainly not by 2006. While 
it remains unclear how long the drought in the Colorado River Basin 
will last, it is fair to conclude that interim surplus water will not 
be available for the foreseeable future beyond that. This has direct 
implications for the timing and development of additional long-term 
water resources in the SNWA water resource portfolio, particularly in-
state groundwater supplies in Clark, Lincoln and White Pine counties 
and surface water supplies from the Virgin and Muddy Rivers.
    Because of the drought, Southern Nevada needs to diversify its 
water supplies sooner rather than later. This means reducing the degree 
to which the area depends on the Colorado River in all its forms and 
developing additional water supplies that are long-term, reliable and 
not influenced by conditions in the Colorado River Basin. The SNWA 
Water Resource Plan provides for such diversification, principally 
through a variety of water resource options that involve in-state, non-
Colorado River water, including groundwater in Clark, Lincoln, and 
White Pine counties and surface water from the Virgin and Muddy Rivers.

                        IN-STATE WATER RESOURCES

    Throughout our negotiations with our sister Colorado River basin 
states, one question always comes up; when is Nevada going to develop 
its in-state resources to replace the interim supplies provided from 
the Colorado? Within Nevada, the non-Colorado River water resources 
that are potentially available to the SNWA include groundwater in the 
Three Lakes Valley, surface water from the Muddy and Virgin rivers, and 
groundwater in several valleys in northern Clark, Lincoln and White 
Pine counties. These resources are covered by existing water rights or 
pending applications held by the SNWA. The applications, in turn, had 
their origin with the Las Vegas Valley Water District, the largest 
municipal water purveyor in Nevada.
    In 1989, the District filed 147 applications for groundwater rights 
in 30 different valleys within central and eastern Nevada. The District 
also filed for one surface water right within the same general area. 
The 1991 Cooperative Agreement that created the SNWA specified that one 
of the conferred functions of the agency was to ``acquire the rights of 
[the District] under applications filed with the Nevada State Engineer 
to appropriate surface and groundwater in northern Clark, Lincoln, Nye 
and White Pine Counties; to perfect any or all of such applications as 
may be appropriate; and to develop and implement the Cooperative Water 
Project initiated by [the District], or any other project, for the use 
of such water in Clark County'' (Southern Nevada Water Authority, 1991, 
p. 10, Article 5.b).
    After the SNWA was formed in 1991, steps were taken to incorporate 
the District's potential in-state resources into the SNWA Water 
Resource Plan. The SNWA and District also worked with affected counties 
and other rural interests to negotiate equitable water-sharing 
arrangements that will apply if or when certain in-state resources are 
ever developed. For example, the SNWA and District entered into a 
comprehensive agreement with Lincoln County to determine the future 
disposition of pending District groundwater applications within that 
county's boundaries. The result of that agreement was the assignment of 
25 applications to Lincoln County for its own use.
    A summary of these agreements is provided in Attachment 1.* The 
agreements illustrate the level of commitment that SNWA has to rural 
communities in Nevada. As steps are taken to develop in-state 
resources, the agency will work closely with these communities and 
other stakeholders to ensure the surrounding environment is protected 
and rural ways of life preserved. The SNWA will also structure its 
proposed projects in ways that allow the communities of origin to have 
access to water supplies adequate to meet their short and long-term 
needs, while providing for the demands and operational needs of 
Southern Nevada at the same time.
---------------------------------------------------------------------------
    * The attachments have been retained in subcommittee files.
---------------------------------------------------------------------------
    Since the District filed its original water applications for in-
state resources in 1989, 27 have been voluntarily withdrawn and 25 have 
been reassigned or committed to rural parties. This is further evidence 
that Southern Nevada has taken conscious steps to retain only those 
applications deemed absolutely necessary to meet projected long-term 
water demands, while allowing for prospective fluctuations or 
limitations in pumping due to environmental or operational 
considerations.

                                S. 2532

    Development of its proposed in-state water resources will provide 
Southern Nevada with a long-term, reliable water supply that can meet 
near-term demands in the absence of interim surplus water, supplement 
existing Colorado River water supplies in times of drought, and meet 
projected increases to overall regional water demands in the future. 
Accessing this water will require several different projects and a 
significant commitment of time and effort by the SNWA, particularly 
given the need to accelerate timelines to accommodate the challenges 
created by the drought. The Lincoln County Conservation, Recreation and 
Development Act of 2004 (S. 2532) is a critical step to achieving this 
goal.
    In February 2004, the SNWA Board of Directors approved a concepts 
document that addressed general considerations for the development of 
in-state resources, including conceptual facility planning, project 
phasing, stakeholder interests and environmental protection (Southern 
Nevada Water Authority, 2004). That document outlined the need for 
three separate projects over time: the Three Lakes Valley Groundwater 
Development Project; Virgin River/Muddy River Surface Water Development 
Project; and Clark, Lincoln and White Pine Counties Groundwater 
Development Project.
    By designating utility corridors within Lincoln County for future 
SNWA water pipelines and allowing the environmental reviews for these 
utility corridors and rights-of-way to occur simultaneously, S. 2532 
will allow the SNWA to concentrate its staff and resources on the 
extensive technical and environmental work required for two of its 
proposed in-state water projects (Three Lakes Valley Project and Clark, 
Lincoln and White Pine Counties Project). Furthermore, since the 
majority of S. 2532 is devoted to the designation of Wilderness Areas 
in Lincoln County, the establishment of utility corridors at this stage 
ensures that the designation of the Wilderness Areas does not prevent 
the people of Lincoln and Clark counties from receiving basic utility 
services.
    Based upon the SNWA applications on file with the Nevada Division 
of Water Resources, the utility corridors designated by S. 2532 could 
potentially provide Southern Nevada with access of up to 200,000 acre-
feet of water per year. In conjunction with the SNWA water conservation 
program and the Las Vegas Valley's increasing reuse capability, these 
in-state resources could help reduce the region's dependency on 
Colorado River water by approximately one-third (from its current level 
of 90% of the regional water supply to about 60%). This will result in 
a more balanced supply of surface water and groundwater, allowing the 
SNWA greater operational flexibility during times of drought.
    S. 2532 does not eliminate any important environmental requirements 
for the SNWA. The SNWA intends to comply with the provisions of the 
National Environmental Policy Act of 1969 (NEPA); the Endangered 
Species Act (ESA) of 1973; the National Wildlife Refuge System 
Administration Act of 1966, as amended by the National Wildlife Refuge 
System Improvement Act of 1997; the Federal Land Policy & Management 
Act of 1976; and other applicable statutory requirements.
    In addition to any federal requirements, the SNWA will be required 
to comply with Nevada's comprehensive water-rights applications 
process. This process, which is controlled by the Nevada Division of 
Water Resources, Office of the State Engineer, pursuant to applicable 
laws in Chapters 533 and 534 of the Nevada Revised Statutes, helps 
ensure that the public interest is protected when the waters of the 
state are appropriated for any reason. It does this by determining 
whether the water supplies proposed for development are available to 
serve the public on a sustainable basis; this is often achieved through 
extensive monitoring or other requirements.

                        ENVIRONMENTAL COMMITMENT

    The SNWA has long embraced sustainable water resource development 
and is committed to seeking solutions that are protective of sensitive 
environmental resources. To this end, the SNWA routinely participates 
in research and conservation efforts that are not tied to any project-
specific compliance requirements. In the arena of regional 
environmental planning, the SNWA has participated in the development of 
the Clark County Multi-Species Habitat Conservation Plan since its 
inception, including the Springs Work Group, Muddy River Work Group, 
Low Elevation Plants Work Group and the Planning Work Group. The agency 
also has contributed to environmental initiatives including, but not 
limited to, the Southeastern Lincoln County Multiple Species Habitat 
Conservation Plan and Virgin River Habitat Conservation Program. In 
addition, the SNWA has worked closely with federal and state fishery 
managers to support many fish recovery teams, including those created 
for federally listed fishes in Pahranagat Valley, Meadow Valley Wash, 
Devil's Hole, White River, Railroad Valley, Muddy River and Virgin 
River.
    On a broader level, the SNWA is actively involved in the Lower 
Colorado River Multi-Species Conservation Program, including membership 
on the biological, program, compliance and adaptive management 
subcommittees. The SNWA has worked on issues related to the Colorado 
River Delta in Mexico and the Salton Sea, and participates in the Upper 
Colorado River Endangered Fish Recovery Program and Glen Canyon 
Adaptive Management Program, among others.
    The SNWA is progressive in the arena of environmental policy. In 
relation to local, regional, national and international issues, SNWA 
proactively advocates environmentally responsible practices on issues 
ranging from Endangered Species Act Committee initiatives to Colorado 
River Committee initiatives through its presence on the Western Urban 
Water Coalition. Like many agencies, the SNWA prepares and submits 
written comments on draft and final environmental and resource planning 
documents and comments on Environmental Impact Statements.
    Field research efforts include studies of the razorback sucker in 
Lake Mead, Virgin River fish research, sensitive and listed birds along 
the Virgin and Muddy Rivers, assisting federal and state agencies on 
research such as Moapa dace surveys and integrating biological efforts 
with hydrological studies related to spring snails and other biological 
indicators.
    The SNWA has invested substantial funding and thousands of staff 
hours in programs and activities directly related to environmental 
protection. The agency has funded more than $3 million of research 
related to federally endangered fish and nearly $1 million in research 
related to federally listed or sensitive bird species such as the 
southwestern willow flycatcher, Yuma clapper rail and yellow-billed 
cuckoo. Much of this research was not required by law or for project 
compliance, but was performed because it is central to the agency's 
environmental ethic. SNWA biologists support Nevada Department of 
Wildlife programs to conduct annual fish surveys and implement recovery 
actions such as augmenting wild populations by introducing hatchery-
reared endangered fish, eradicating competing non-native species and 
constructing fish barriers. The agency is equally committed to water 
quality and habitat protection. This is evidenced by development and 
implementation of the Las Vegas Wash Comprehensive Adaptive Management 
Plan, a multi-agency watershed management program coordinated by the 
SNWA that has garnered recognition by the Environmental Protection 
Agency and serves as a model for other communities.

                            NO OWENS VALLEY

    The SNWA recognizes that its proposed in-state water resource 
projects are of great interest to a wide range of stakeholders, 
including ranchers, rural community leaders, non-governmental 
environmental organizations and federal agencies with environmental 
missions. Some of these interested parties have expressed concern over 
potential impacts of proposed groundwater pumping activities asserting 
that pumping will draw down the water table, leading to another ``Owens 
Valley.''
    The City of Los Angeles carried out its surface water exportation 
project from the Owens Valley in California a century ago, in an era 
before the enactment of laws such as NEPA and ESA to protect the 
environment and ensure public participation. Today, Nevada water law is 
one of the most comprehensive in the West. The amount of groundwater 
ultimately permitted for development will not be determined by the 
SNWA, but rather by the Nevada Division of Water Resources, Office of 
the State Engineer. This office serves as the steward of Nevada's water 
resources, balancing the needs of water right holders, the environment 
and the public interest.
    Nevada law provides that as part of the water rights decision-
making process, the Nevada State Engineer must take into account 
whether an interbasin transfer is both environmentally sound and/or 
will unduly limit the future growth and development of a basin from 
which water is proposed to be exported. Given the myriad federal and 
state protections that exist today, it would be impossible for any 
public or private entity to effectuate a water export project in Nevada 
in a manner like Owens Valley. Between state water law and applicable 
environmental regulations, there is ample oversight to ensure that 
Southern Nevada's future water supplies do not come at the expense of 
other groundwater users or the environment. An ``Owens Valley'' cannot 
and will not occur in Nevada.

                   PRESERVING ENVIRONMENTAL RESOURCES

    The environmental community is especially focused on the potential 
implications of groundwater diversions for the habitat of federally 
listed fishes and other sensitive species. Having worked diligently to 
support research and conservation efforts related to sensitive species 
in the region, the SNWA shares a concern for the continued well-being 
of these species. As such, the SNWA supports implementing a 
comprehensive monitoring program to ensure these crucial habitat areas 
are not impacted and will continue to analyze available data related to 
these areas.
    Of interest to non-governmental environmental agencies is the issue 
of groundwater monitoring within the boundaries of the Desert National 
Wildlife Refuge. The SNWA is sensitive to these concerns, while 
recognizing the need for baseline data about hydrologic conditions 
within the area. The ability to monitor the water table will provide 
the SNWA with the data necessary to manage any proposed diversions and, 
conceptually, even divert water from other areas to the Desert National 
Wildlife Refuge if needed to support wildlife.
    To support wildlife, the SNWA could conceptually divert and convey 
water to areas deemed important by land and resource management 
agencies. For instance, the Nevada Department of Wildlife has a program 
in place to provide an additional source of water, which could readily 
be supported by SNWA water transmission infrastructure. In arid 
environments like the Great Basin and Mojave deserts, much of Nevada's 
wildlife is dependent on water for survival. Even a small amount of 
water can sustain a population of bighorn sheep (as is currently the 
case with an SNWA pipeline in the River Mountains). The in-state 
resource projects proposed by the SNWA have the potential to augment 
water supplies for wildlife. Actions of this nature could be identified 
during the NEPA process, involving state and federal agencies and other 
stakeholders during the public scoping process.
    Recognizing the value of accurate groundwater data, the U.S. Fish 
and Wildlife Service supports the placement of monitoring wells within 
the Desert National Wildlife Refuge area and is working with the SNWA 
to optimize siting of the monitoring network. Likewise, a thorough 
understanding of the region's groundwater flow system would enable the 
SNWA to support springs during periods of drought by potentially moving 
water from other, healthier aquifers and injecting it into the aquifer 
of concern. The SNWA has demonstrated its ability to manage the water 
table in this manner successfully, principally through its operation of 
the largest well-injection aquifer recharge program in the country 
within the Las Vegas Valley Groundwater Basin.
    Extensive biological and water resource monitoring will be 
conducted as water resource development activities occur. Monitoring 
will be used to adjust operational strategies, modify resources being 
developed and adjust enhancement activities of sensitive areas. 
Resource management and monitoring will ensure long-term viability of 
water resources for both environmental and domestic needs. The SNWA 
welcomes the opportunity to work with concerned parties to devise an 
appropriate monitoring and management plan for the development of in-
state groundwater supplies that prioritizes the conservation of 
environmental resources in the areas of interest. The SNWA views the 
NEPA and ESA processes as excellent opportunities for broad public 
participation.

                           PROPOSED AMENDMENT

    Given the importance of properly monitoring groundwater recharge 
and yields within the valleys potentially affected by proposed SNWA in-
state resource projects, the SNWA requests an amendment to S. 2532 to 
ensure precipitation monitoring gages can be installed within the 
Wilderness Areas identified by the bill.
    Currently, Section 211 of the bill (Climatological Data Collection) 
restricts the placement of hydrologic, meteorological or climatological 
collection devices in Wilderness Areas designated by the bill to those 
uses ``essential to flood warning, flood control, and water reservoir 
operation activities.'' The SNWA requests that this be amended by 
replacing the word ``essential'' with ``necessary,'' and adding ``and 
regional precipitation monitoring'' after the phrase ``water reservoir 
operation activities.''
    Accurate regional precipitation data is a critical component in 
determining the annual recharge to the regional groundwater basins. 
With more accurate precipitation data, water managers such as the SNWA 
and the Office of State Engineer can more precisely determine the 
quantity of groundwater that may be withdrawn from the regional 
aquifers on a perennial yield basis. The installation and operation of 
these precipitation stations will still need to go through a separate 
environmental compliance process, but are not anticipated to have any 
significant impact upon the designated Wilderness Areas.
    The SNWA appreciates the opportunity to express its support for 
this important bill. We look forward to working with federal, state and 
local interests to accomplish the goals of H.R. 4593, while meeting the 
long-term water needs of rural and Southern Nevada.

    Ms. Pillard. I would be willing to submit my written 
testimony to add to the record.
    [The prepared statement of Ms. Pillard follows:]

  Prepared Statement of Ellen Pillard, Chair of Sierra Club's Toiyabe 
                           Chapter in Nevada

    Good morning. I'm Ellen Pillard, chair of Sierra Club's Toiyabe 
Chapter in Nevada. Thank you for the opportunity to present our views 
on S. 2532, the Lincoln County Conservation, Recreation, and 
Development Act. Your consideration of our testimony is greatly 
appreciated. I also thank members of Nevada's Congressional delegation 
for their attention to these important issues.
    I am here today representing the 5500 members of the Toiyabe 
Chapter and the 750,000 national Sierra Club members. We are concerned 
citizens who believe strongly in the conservation of our natural 
resources. On behalf of those dedicated volunteers, many of whom are 
long-time community leaders and activists working to safeguard Nevada's 
environmental well-being, I offer the following comments.
    Sierra Club and its Toiyabe Chapter oppose the Lincoln County bill 
as currently written, and highlight those concerns below. Before 
outlining our recommendations, I would like to acknowledge that despite 
our opposition, common ground exists on several fronts and Sierra Club 
supports many of the goals encompassed in this legislation.
    For example, we agree there is a need to resolve wilderness issues, 
address problems related to ensuring adequate water supplies for 
sustainable development of southern Nevada and the states that depend 
upon the Colorado River, and tackle the difficulties in obtaining 
additional land for growth and economic opportunities for rural Nevada. 
Similarly, we want to enhance recreational opportunities in ways that 
encourage tourism to the area without damaging natural resources. 
However, we have concerns about some of the ways these issues are being 
approached in this legislation.
    We urge Congress to seek further public input prior to passing this 
Act. Our understanding is that only two public meetings were held in 
Lincoln County, Nevada prior to this bill's introduction. Sierra Club 
thanks the Senate Energy and Natural Resources Committee members for 
today's Congressional hearing, and we appreciate the opportunity to 
present our views. Still, we ask that the Committee and the bill's 
sponsors hold additional hearings both here in Washington, in Lincoln 
County, and in Las Vegas so that other county residents as well as Las 
Vegas area residents can share their perspectives.
    This legislation presents many problems in the methods to address 
the goals above. As written, the proposal fails to provide thorough 
environmental reviews in the manner required by federal law. S. 2532 
appears to shortchange long-established administrative and legal 
procedures for changes to public land management, particularly the 
application the National Environmental Policy Act (NEPA) of 1969. 
Enacted into law with strong bipartisan support, NEPA is a long-
standing procedure. The purpose of NEPA is to provide decision makers 
with detailed environmental assessments so that they can make informed 
decisions; and protect the role of public participation, oversight, and 
understanding of the environmental impacts that development will have 
on communities.
    Sierra Club believes that major federal actions affecting water, 
air quality, wildlife, and other key environmental resources receive 
full study prior to moving forward; and that a full range of options be 
explored to determine the most prudent course to take. In this 
legislation's proposed land sales, water pipeline development, sitting 
of utility rights of way and transfer of lands for the creation of 
parks, we are concerned that a full analysis of impacts may never 
occur.
    In the case of the water utility corridor NEPA is explicitly 
required. Without a full hydrological study the analysis will be 
incomplete. In other cases (by designating corridors on a map through 
legislation, for example), the agencies affected will not conduct full 
alternatives studies because they interpret an Act of Congress to be a 
direction to follow that exact corridor. Thus, while skirting of NEPA 
may be an unintentional consequence, the bill in several areas should 
clarify the need for full analysis under that landmark environmental 
statute and ensure the time and resources required to do that job well.
    Following are comments specific to each title of the bill.

                         TITLE I--LAND DISPOSAL

    Title I authorizes several land disposal sales. In total, nearly 
100,000 acres of public land in Lincoln County are earmarked in this 
bill for disposal.
    We agree that some public land in Lincoln County should be sold, 
and the proceeds used to support environmental and recreational 
enhancements in the County. However, the lands identified in the 
legislation must be studied and subjected to full public review of 
environmental values and potential impacts if developed. Many of the 
lands identified have not been carefully reviewed for habitat, water, 
and other values. Because in some cases endangered species habitat may 
be involved and there is no habitat conservation plan for Lincoln 
County, ensuring that none of this habitat be sold and developed is 
especially important. Only a full NEPA analysis can help determine 
whether lands that should be protected and not sold for development.
    While there is an option in the legislation for up to 10,000 acres 
to be withheld from sale by BLM (and swapped for other parcels) if they 
are found to have such values, this provision is an arbitrary number. 
All lands proposed for disposal must be evaluated and, if determined to 
be environmentally sensitive, withheld from sale.

                       TITLE II--WILDERNESS AREAS

    Sierra Club wishes to commend the delegation on a promising area of 
the bill Title II, which authorizes the designation of nearly 770,000 
additional wilderness acres in Nevada. These include places that Sierra 
Club activists have advocated for protection within the ``Big Four'' 
the Mormon, Meadow Valley, Delamar and Clover mountain ranges.
    We also support the bill's designation of two additional citizen-
proposed wilderness areas--Big Rocks and Mt. Irish. These areas were 
not included in the original BLM review of Lincoln County lands that 
qualify for wilderness, but we believe they qualify for designation.
    Unfortunately, other critical wilderness areas have been left out 
of the bill. Such areas include the archeologically significant 
``Shooting Gallery'' and other areas in the Pahranagat and Desert 
National Wildlife Ranges. We encourage modifications to the bill that 
would designate these special places as wilderness because they are as 
valuable and important as lands currently protected by wilderness law.
    In addition, some management considerations in this title are 
troubling, including excessive cherry stems.

                      TITLE III--UTILITY CORRIDORS

    As you know, Nevada is dealing with the effects of a severe 
drought. Thanks to actions taken by the Southern Nevada Water Authority 
(SNWA) to reduce demand, Nevada is currently using less than its 
allotment from the Colorado River; but the future is uncertain. The 
designation of hundreds of miles of utility corridors in this bill is 
designed to fast-track the plans of SNWA to develop water rights in 
rural Nevada and send significant amounts of water south to feed the 
growth in Las Vegas.
    This plan has several fundamental problems. The first is that 
little is known about the deep carbonate aquifer underlying several 
counties in Nevada as well as parts of Utah and California, from which 
water would theoretically be drawn. Rushing to develop billions of 
dollars of infrastructure without understanding flows in various parts 
of the aquifer, as well as the recharge rate in various locales, could 
be a massive waste of money. We commend the delegation for including 
language for a study of the aquifer underlying White Pine County. 
However, such a study will be incomplete and possibly very misleading 
unless the entire aquifer, including several other Nevada counties and 
parts of Utah and California, is carefully investigated by the U.S. 
Geological Survey. We urge you to expand the study to include review of 
the entire aquifer, and particularly its recharge rate. From the 
aquifer, we should only withdraw amounts of water that are sustainable 
replenished on an annual basis. If we mine groundwater, we are stealing 
resources from future generations who will be left literally high and 
dry if the aquifer is depleted.
    A second key flaw is the failure to carefully consider other 
options for diverting water from Lincoln County to Las Vegas and their 
relative costs. Las Vegas still uses more water per capita than any 
other major Western city. While SNWA has made a good start, much more 
could be captured through additional water conservation measures, and 
that potential should be thoroughly explored and developed before 
building out this massive pipeline and water withdrawal system. 
Application of such conservation measures should be one alternative in 
a full environmental impact statement addressing how to increase water 
available to southern Nevada as it grows.
    Third, the potential impacts on rural Nevada and its way of life 
need to be assessed. Will withdrawing water for export dry up existing 
wells? Will taking water destroy local springs and lakes? Will local 
ranchers go out of business because their wells have gone dry? Lincoln 
County residents, local Indian tribes, and those in other rural areas 
need answers to these questions.
    Questions also remain about whether water will be tapped from the 
Desert National Wildlife Refuge and in other places where game and 
endangered species need surface water. What will be the impacts of 
ground water pumping and exportation on the Great Basin National Park 
and Death Valley National Park; Pahranagat and Ash Meadow National 
Wildlife Refuges; and public lands as well as state parks and wildlife 
management areas in eastern Nevada? These questions must be answered 
before proceeding.
    Further, while a justification of the pressing need for other water 
options for southern Nevada, due to drought, can be credibly made 
(although there may also be better ways to address this crisis), the 
same is not true for Vidler Water Company, which is partnering with 
Lincoln County to develop and, presumably, export water from rural 
Nevada for a profit. Sierra Club does not see that there is any 
justification for a speeded-up process for development of water rights 
of way for Vidler and we would request that those areas be left out of 
the bill and requests for rights of way follow the normal process 
through the BLM.
    Finally, the legislation does not specify if and how much the 
entities will pay on an annual basis for the use of these rights of 
way, which is normal for ROWs on public land. That should be clarified.

            TITLE IV--SILVER STATE OFF-HIGHWAY VEHICLE TRAIL

    The proposed Off-Highway Vehicle (OHV) trail raises a number of 
concerns. Again, a full NEPA process that analyzes potential impacts 
from developing this major trail system would best address the need for 
further study of environmental, archaeological, sociological and other 
cumulative impacts of the proposed development. One issue of great 
concern is mule deer migration routes and the need to ensure they are 
not traversed by the trail.
    In addition to potential impacts from development and use of the 
trail, there may be significant increases in illegal, off-trail 
incursions into the desert similar to those experienced elsewhere in 
the West. The huge increase in use of off-highway vehicles on BLM lands 
system-wide has not been addressed by increases in enforcement 
personnel; on the contrary, personnel have been reduced while use in 
areas such as parts of the California desert have gotten completely out 
of control. We are encouraged by the inclusion of authorization of 
appropriations and hope this can be used to acquire funds to ensure 
adequate policing as well as monitoring and mitigation of impacts. 
Finally, we appreciate the inclusion of required signage along the 
trail, as we believe responsible use is to a large extent a matter of 
education.

               TITLE V--STATE AND COUNTY PARK CONVEYANCES

    The desire of the county and the state for increased parkland is 
understandable. However, neither entity has sufficient funds to manage 
existing lands, nor we have concerns about how these lands will be 
managed.

                  TITLE VI--TRANSFERS OF JURISDICTION

    Title VI of the bill moves the location of a utility corridor to 
facilitate development around Coyote Springs. The Club opposes the 
development of this property when the environmental impacts of this 
huge project on Coyote Springs Valley have not been thoroughly 
considered. Consequently, a study that examines how the right-of-way 
will impact the environment, wildlife habitat, and limited water 
resources is needed. Further, the utility right of way is expanded by 
the legislation to 1000 feet. Justification of such a wide corridor is 
needed. This right of way should follow the normal agency process, 
whereby such questions would be addressed.
    Since the Lincoln County bill was just introduced in late June of 
this year, the legislative language and details in this comprehensive 
bill were known only to a few. As more people consider the legislation 
there will be more comments. To promote citizen input, we close by 
referring back to our request for additional opportunities for public 
comment, such as field hearings.
    Thank you for consideration of our comments. As noted before, 
Sierra Club remains committed to working with the Nevada delegation and 
other members of Congress. Through our collective efforts, we hope to 
resolve the many and varied public lands issues in Nevada.

    Mr. Hafen. In the interest of time, I would, as well.
    [The prepared statement of Mr. Hafen follows:]

     Prepared Statement of Spencer W. Hafen, County Commissioner, 
                           Lincoln County, NV

    Chairman Craig, Honorable Members of the Committee and staff. I 
would like to thank you for the opportunity to testify to you today and 
to be a part of what could be a great turning point for the people of 
Lincoln County and the State of Nevada.
    My name is Spencer Hafen. I am the Chairman of the Lincoln County 
Commission. I am here today not only representing the Board of 
Commissioners, but the people of Lincoln County. I would first like to 
thank Senator Reid and Senator Ensign, Congressman Gibbons, Porter and 
Berkley for introducing this important piece of legislation. Not only 
would I like to thank my delegation, but their staff and the people of 
Lincoln County, who has put countless hours of time into making this 
bill what it is.
    I would like to give a little history of the great county in which 
I reside. It has been a county in the State of Nevada since 1866, being 
the 11th county created in the State. Lincoln County is comprised of 
10,635 square miles. The population of the county is a little over 
4,000 people. There is only one incorporated city, which has a 
population of about 1,000 and three unincorporated towns each averaging 
about 900 people. The remaining people live in small communities 
throughout the county. We live in a very large county, larger than the 
States, of Connecticut, Maryland, New Jersey, Rhode Island, 
Massachusetts, Vermont, Delaware, New Hampshire and Hawaii, 
individually. Although our county is larger than these states, the 
amount of private property within our county is less than 25% of the 
land that makes up the state of Rhode Island. Our county only has 2% 
private property out of the 10,635 square miles. The 98% left over is 
managed by the Federal or State Government in some form. We as a county 
struggle each year to balance a budget that is produced off of the 
revenues generated from only 2% of the land within our county. Although 
our county struggles with the lack of private property and economic 
development, it is rich in natural resources, history and the pride 
that makes this County Great! I would now like to address certain 
issues with the proposed legislation.

                         TITLE I--LAND DISPOSAL

    In this section of the bill it references to two separate Land 
Disposals. One being the land comprised within the Lincoln County Land 
Act of 2000, 13,373 Acres, and the second being approximately 87,005 
acres that is a result from this Act. I can't stress enough the 
importance of having the opportunity to grow and to have available land 
to do so. The 13,373 was a parcel of land in the very southeasterly 
corner of our county, it is no where near any other town in our county, 
but it is directly north of the City of Mesquite, which per its size is 
the fastest growing city in Nevada. It needs land, much like other 
parts of the state. It will continue to grow, and by having this land 
released and sold, per this act, will add tremendous economic increase 
to our tax base. The 87,005 acres are areas that have been identified 
by the county that will help the towns and city have land to grow. By 
adding this additional 87,005 acres to our tax base, it will not 
increase the private 3 property by 1% in the county. The only way to 
add to the county tax base is by having land made available to sale. 
One part of the title of this act is to ``provide for the high quality 
development in Lincoln County'', this is the only way that this can 
happen. We can not develop, if we have nothing to develop. Many people 
in the county are saddened at the beginning of each summer, not because 
they don't like the warm weather, but because their sons and daughters 
have graduated from high school and are leaving for college. Now this 
may not mean anything to most people, but in Lincoln County it means 
that the opportunity for those sons and daughters to go to college and 
be able to return home and find a job are almost non existent. We need 
land made available for economic development in our county.
    Now the second part of this title is Disposition of Proceeds. The 
money that will be generated from the sales of these parcels will 
greatly help the county and the state. It is proposed to help our 
education program, and to be used by the county for economic 
development, of the land that will be disposed of in addition to parks, 
trails and natural areas. I think it is important to make something 
clear about the possible amounts of monies that will be generated from 
the sale of these parcels. It is very important to remember that our 
county is not the ``Vegas Valley''. There will not be parcels sold at 
prices of 250,000 dollars an acre. It will not happen. The prices will 
be a much more moderate, possibly a couple of thousand dollars an acre. 
The important thing to remember is the economic development of the 
county. What it can do for the citizens that live here now, and their 
sons and daughters that may someday have an opportunity to come home.

                       TITLE II--WILDERNESS AREAS

    Wilderness Areas, one good thing that can be said about this part 
of the Act is that it is being acted upon. We are encouraged that 
through this bill the many wilderness study areas in our county will be 
resolved. Over the past several years, members of the Nevada 
Delegation, Lincoln County Commission, B.L.M., U.S. Fish and Wildlife, 
ranchers, miners, citizens from Lincoln County and environmental groups 
have worked diligently to come to a conclusion on what the best 
possible compromise should be. Do the people of the county agree on 
what we as residences are giving up when it comes to wilderness areas? 
No they don't. Does the board of County Commissioners all agree? No 
they don't, but the majority of the Commissioners and the people of the 
county see that compromise is needed to make this happen.
    We as County Commissioners realize the importance of addressing the 
issues that deal with wilderness areas. We see both sides of the issue. 
We see the need for preservation and conservation of many areas and 
habitat throughout our county. The other side of the issue that we see 
is the preservation and conservation of the lifestyles, and the people 
that reside in this great county. People have lived in this county long 
before it was made a county, they have toiled and sweat to make a 
living and raise their families off of the same land that some would 
like to see turned into an outdoor museum.
    I feel I would be unjust to some of the residence in the county if 
I did not relate some of the following concerns.
    Lincoln County has some of the best hunting and outdoor activities 
in the west. If someone wants to hunt for trophy elk, or deer, they 
come to Lincoln County. If you want to see some of the most diverse 
landscape in the state, come to Lincoln County. I mention this for two 
reasons. One, the ability to use the land: and two, the ability to see 
the land.
    There are some of the areas that have potential mining that if made 
part of the wilderness area would become unavailable. Please remember 
that a large part of the purpose of this bill is to provide opportunity 
for economic development within the county. If mining opportunities are 
taken out, it takes possible economic success away from the citizens of 
the county. We need to be able to use the land that is usable.
    The issue of being able to see the land: under the current 
conditions if I want my children to see some of the beautiful country 
that is part of a wilderness study area, I have the ability to drive to 
certain locations on existing roads and see that country. The important 
part is being able to drive on existing roads in the wilderness areas. 
There are many roads within the proposed areas that need to remain 
available. These roads do not need to detract or take away in any way 
from the conservation or beauty of the wilderness area. They will help 
in the maintenance, fire suppression, and management of the wilderness.
    We appreciate the effort and work of the people that provide 
facilities in wilderness study areas to help and protect our wildlife. 
We further are thankful for the language protecting the work that has 
been done, and any future work that may be done in protecting and 
enhancing our wildlife in certain areas of wilderness.
    Finally, it should be adhered to that no area should become 
wilderness without being properly studied and recommended for 
wilderness by the proper federal agencies. There have been many, many 
hours spent by members of the staff of the Nevada delegation, federal 
agencies, members of the Lincoln County Commission, and members of the 
public that have worked diligently on areas of wilderness that are 
deemed suitable or nonsuitable. I would hope that the areas that are 
deemed suitable and that are recommended will become wilderness areas, 
and the areas that are not deemed suitable will be left out.

                      TITLE III--UTILITY CORRIDORS

    Lincoln County has been working constructively with the Southern 
Nevada Water Authority in having a resolve to the ``battle'' that has 
taken place since the Las Vegas Valley Water District made a mass 
filling on water rights throughout Lincoln and White Pine Counties in 
the late 1980's. We have come to an agreement with the Southern Nevada 
Water Authority that benefits both Lincoln County and the Authority. 
Through this agreement the County has available water fillings that 
through Nevada water law procedures will benefit the county greatly in 
their plans for economic development. As I have mentioned in this 
testimony, Lincoln County is rich in Natural Resources. The ability to 
utilize and develop those resources depends on the planning and 
implementation of utility corridors. Over the past few years Lincoln 
County has been working very hard to try to develop some of their water 
resources. We have come along 5 way in the development of those 
resources. We now need Utility Corridors in place to provide a location 
to help move those resources to different locations throughout the 
county. As certain places have potential for growth, we need the 
ability to move resources to those areas. The designation of the 
Utility Corridors helps us to accomplish those plans and goals.
    We as a Board of County Commissioners support the relocation of the 
right-of-way and utility corridors as described in Sec. 302 of the Act. 
At the present time there is nothing built within the boundary of the 
existing right-of-way and utility corridor. There are existing 
utilities running along U.S. Highway No. 93, but they are either in the 
Nevada Department of Transportation right-of-way, or in a right-of-way 
belonging to the Lincoln County Power District. By moving this corridor 
it will allow the development of private property now in planning 
stages that in turn will help the Counties tax base.

            TITLE IV--SILVER STATE OFF-HIGHWAY VEHICLE TRAIL

    As I have mentioned prior in my testimony, Lincoln County has a 
diverse landscape that is breath taking to see and visit. One of the 
ways that we as the County will provide opportunity for people within 
our county and without it: will be the designation of the Silver State 
Off-Highway Vehicle (OHV) Trail.
    Members of the public and County have worked very hard to identify 
locations for this Trail system. It will utilize existing dirt roads in 
most instances, which will minimize the impacts on the land. This trail 
system will provide addition economic development to our current 
tourism base that we have through our State Park Systems throughout the 
county. The further development of County Parks and State Parks will 
further increase the economics of our county.
    In closing, I have heard Senator Reid say that this is probably the 
most complex land bill he has ever seen. It is very complex. It is 
unique. Though the passage of this Act; opportunities will be offered 
to the citizens of this great county that have never been offered 
before. It will give the young people of this county hope, that someday 
they will be able to return home and have opportunity for employment. 
It provides all those who love the outdoors places to go and enjoy 
them. It will provide Lincoln County with a future that will be strong 
and self supportive. Remember the purpose of this Act ``to establish 
wilderness areas, promote conservation, improve public land, and 
provide for the high quality development in Lincoln County, Nevada''. 
Remember who will be effected by the decisions you make, it won't be 
people who have no desire to ``see or use'' the land within Lincoln 
County, but the people who live and work the land within their County.
    Mr. Chairman, I once again thank you for this opportunity to take 
part in this historic and exciting piece of legislation.

    Senator Smith. Well, I have nothing to say but how sorry I 
am. I hate it when these kind of things happen. And, 
unfortunately, we're trying to finish up a bill down there that 
has got everybody on the floor working and trying to get done 
tonight. And so we appreciate your understanding, very, very 
much.
    Thank you, and we're adjourned.
    [Whereupon, at 5:55 p.m., the hearing was adjourned.]


                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

                                                      May 17, 2004.
Hon. Ron Wyden,
700 NE Multnomah, Suite 450 Portland, OR.
    Dear Senator Wyden: The Sandy City Council supports the proposed 
addition to the Mt. Hood Wilderness areas. This designation would 
provide increased protection for the Alder Creek watershed, which is 
the primary source of our city's drinking water. The City of Sandy also 
has a water right on the Salmon River that we will need within the next 
decade to meet the needs of our residents and businesses. Wilderness 
designation would also provide increased protection for the Salmon 
River watershed.
    Sandy is the ``gateway to Mt. Hood,'' and the preservation of this 
precious resource is critical to our residents and to our growing 
visitor-based economy. We urge your support for the wilderness 
designation, which will benefit the people of the Oregon and the nation 
for generations to come.
            Sincerely,
                    Linda Malone, Mayor; Gabe Achterman, Council 
                            Member; Bill O'Brion, Council Member; Tina 
                            Frostad, Council Member; Roberta Kennedy, 
                            Council Member; Dick Steiner, Council 
                            Member; and Don Allen, Council Member
                                 ______
                                 
                                BlueRibbon Coalition, Inc.,
                                       Oakley, CA, August 24, 2004.
FOIA Officer,
Mt. Hood National Forest, 16400 Champion Way, Sandy, OR.
Re: FOIA Request

    Dear FOIA Officer: As the western representative for the BlueRibbon 
Coalition (BRC), I became aware of several trails on the Mount Hood 
National Forest that have been recently closed to off-highway vehicles 
(OHVs).
    After seeing several of these closures during my ride on the 2004 
Black Dog Dual Sport Ride, I sent a letter on July 12 (see attached) to 
the Forest Supervisor asking for either the Forest Order or site-
specific NEPA document that closed Trail 450. I also asked for a copy 
of the current Forest Plan.
    On August 6, I sent a reminder letter (see attached) to the Forest 
Supervisor asking for an update and, at least, a copy of the Forest 
Plan. Because the requested public information has not been 
forthcoming, I hereby request the following information under the 
Freedom of Information Act (FOIA), 5 U.S.C. 552: You have 10 working 
days in which to acknowledge this request.
    1) Copy of Forest Order or site-specific NEPA document that 
permanently closed Trail 450 to OHVs.
    2) Copy of current Forest Plan
    3) Copies of Forest Orders or site-specific NEPA documents that 
have closed previously open OHV trails to said use in the last two 
years that are within an 8 mile radius of Trail 450.
    4) Copies of Forest Orders or site-specific NEPA documents that 
have closed previously open OHV trails to said use in the last two 
years that are in any of the ``proposed Wilderness areas'' as outlined 
in Senator Ron Wyden's Mount Hood Wilderness plan.
    5) Copies of correspondence (e.g. FAXes, letters, emails) between 
``environmental groups or wilderness organizations'' and the Mount Hood 
National Forest where the closure of OHV trails or restriction of OSV 
use is discussed within the boundaries of ``proposed Wilderness 
areas.''
    As a national 501(c)(3) nonprofit educational organization, I 
believe the requested information should be sent to the address below 
at no charge. Should a copying fee be imposed in excess of $50, please 
contact me. Information received will be used for the education of our 
members, media, Congress, and the general public about the management 
of our National Forest System lands.
            Sincerely,
                                                Don Amador,
                                            Western Representative.
                                 ______
                                 
                                   State of Nevada,
                                    Department of Wildlife,
                                       Reno, NV, September 7, 2004.
Hon. Larry Craig,
Chairman, Senate Subcommittee for Forest and Public Lands, U.S. Senate, 
        Hart Senate Office Building, Washington, DC.
    Honorable Chairman Craig: Honorable members of the Senate 
Subcommittee for Forest and Public Lands, thank you for the opportunity 
to present the Nevada Department of Wildlife position on the Proposed 
Lincoln County Conservation, Recreation, and Development Act of 2004 to 
the Subcommittee.
    Wildlife in the State of Nevada provide a valuable resource 
contributing nearly $700,000,000 per year in direct expenditures within 
the state and providing wildlife associated recreation experiences for 
over 650,000 citizens. Wildlife and wildlife habitat are experiencing 
great cumulative pressures related to development, other land uses on 
the public lands of Nevada and wildfire impacts. While the wilderness 
designation in this bill may be designed to protect wildlife habitat, 
this Legislation may have a great deal of negative impacts on wildlife 
and their habitat in other areas including the associated recreational 
activities described above. Transportation of water out of the areas 
designated as pipeline Rights of Ways (ROWs) could negatively affect 
springs and seeps over vast areas of the State and impact wildlife 
habitat forever. These effects could have serious impacts on State 
lands at the Kirch and Key Pittman Wildlife Management Areas as well.
    Our agency has reviewed the proposed legislation and would offer 
the following comment and recommendations:
    1. In review of the proposed Silver State Off Highway Vehicle (OHV) 
Trail, several areas have been identified where wildlife and/or 
wildlife habitats would be impacted by OHV use. These areas include 
impacts to wintering and migrating mule deer, seasonal impacts to 
pronghorn and sage grouse, and impacts to several other wildlife 
species as well as potential for degradation of important habitats, 
especially springs, seeps and riparian habitats. Rather than 
Legislative designation of the Silver State OHV Trail it is recommended 
that this legislation provide direction to the BLM to develop and 
designate the Trail, in cooperation and consultation with the Nevada 
Department of Wildlife, under a public process according to the 
National Environmental Policy Act (NEPA) that would avoid, minimize and 
mitigate for the impacts to wildlife and their habitats.
    2. As is the case with the OHV trail designation, the Nevada 
Department of Wildlife (NDOW) recommends that this legislation not 
designate specific Right of Ways (ROWs) for the Southern Nevada Water 
Authority and Lincoln County Water, but rather provide direction to BLM 
for the designation of ROWs through a NEPA public process where all 
local interests could be evaluated in order to develop alternatives 
that could eliminate, minimize and mitigate impacts to wildlife and 
important wildlife habitats as well as to other public land resources.
    3. Although great effort and significant cooperation among 
different interests has gone into the development of public access 
points and cherry-stem roads relative to the proposed wilderness 
designations, specific wildlife management issues have been identified 
that could be eliminated by the addition of 4 cherry-stem roads. These 
specific recommendations are found on the attached Wilderness Access 
map and include Hackberry Spring road in the Morman Mountain Proposed 
Wilderness; KS42/MV4 and Tri-Canyon access within the Meadow Valley 
Proposed Wilderness; and the Judy access within the Delamar Proposed 
Wilderness.
    4. Access issues for wildlife management action have been 
compromised by actions in Utah that limit the use of existing proposed 
cherry-stem routes into the White Rock Proposed Wilderness. It is 
recommended that language be added to the bill for direction to the 
Bureau of Land Management to provide or develop public access on public 
lands into the White Rock Proposed Wilderness.
    5. It is recommended that the 12 most easterly sections in the 
Pioche land disposal area, as depicted on the attached Lands Action 
map, be eliminated from consideration for disposal because the area is 
current occupied sage-grouse habitat (the sage-grouse is currently 
being considered by the U.S. Fish and Wildlife Service for listing 
under the Endangered Species Act). As an alternative it is recommended 
that the 12 sections north and west of Pioche be considered for 
disposal.
    6. Approximately 2 sections identified for disposal to the west of 
the Key Pittman Wildlife Management Area should also be left in public 
lands status to protect the Wildlife Management Area users and 
resources within the area including potential impacts on the State's 
ability to access the 486 acre feet of water rights that the State has 
at Crystal Springs. Crystal Spring and its outflow are also designated 
critical habitat for Hiko White River Springfish. Also potentially 
affected in broader scope is the hydrology associated with the Key 
Pittman Wildlife Management Area. As an alternative it is recommended 
that the 2 sections north and west of Panaca be considered for 
disposal.
    7. We would strongly urge that the public lands in the 7 sections 
along the west side of the Carp disposal area be left in public lands 
status as these lands are occupied desert bighorn habitat and likely 
habitat for two state protected fish species, the Meadow Valley Wash 
Desert Sucker and the Meadow Valley Wash Speckled Dace. An alternative 
would be an additional 7 sections west of Panaca be considered for 
disposal.
    8. It is recommended that the 5 sections identified for disposal 
for Lincoln County parks be left in public lands status as these lands 
are important mule deer habitat and that an additional 5 sections west 
of Panaca be considered for disposal.
    9. The bill would designate two areas as wildernesses that were 
never designated as Wilderness Study Areas. This action could set a 
serious precedent in Nevada and we would therefore recommend against 
these designations without the careful analyses, consideration of 
competing values, and full public review process that occurred during 
the Wilderness Study Area review process.
    Mr. Chairman, thank you for the opportunity to provide this 
information to the Subcommittee for consideration. We feel that these 
recommendations are prudent and will protect the State's precious 
wildlife resources while accomplishing the intent of the Lincoln County 
Conservation, Recreation and Development Act of 2004.
            Sincerely,
                                        Terry R. Crawforth,
                                                          Director.
                                 ______
                                 
                           Backcountry Hunters and Anglers,
                                Eagle Point, OR, September 9, 2004.
Hon. Ron Wyden,
U.S. Senate, 700 NE Multnomah St., Ste. 450, Portland, OR.
    Dear Senator Wyden: Backcountry Hunters and Anglers is a national 
hunting and angling organization based in Eagle Point, Oregon. We are 
honored and thrilled to have the opportunity to provide our support of 
your Wilderness proposal for Oregon: The Lewis and Clark-Mount Hood 
Wilderness Act of 2004. We request that this letter be formally entered 
into the September 14, 2004 Senate Energy and Natural Resources 
Committee hearing record as written testimony in support of this 
legislation.
    As hunters and anglers, we believe that expanding Wilderness area 
designation on Mt. Hood not only benefits our cherished activities and 
traditions, but all Oregonians and the nation. This proposal is also a 
critical link to our past and our Pacific Northwest heritage honoring 
the tremendous journey through our area by Lewis and Clark and the 
Corps of Discovery in 1805-1806. It is appropriate that this visionary 
proposal be designated in time for the bicentennial of that incredible 
expedition.
    We believe this legislation will help maintain and protect wildlife 
biodiversity, anadromous fish habitat and native vegetation. It will 
protect watershed forests which are critical to a stable source of 
clean water for our ever growing population. Wild and Scenic status for 
the streams included in the proposal will help stem the tide of over-
development and encroachment upon our cherished public roadless areas.
    The communities surrounding Mt. Hood know that hunters and anglers 
bring millions of dollars into the region through the purchase of 
licenses, equipment, lodging, fuel, meals and other ancillary items. We 
are a vital and integral part of the economy in many of these areas 
where the historical industries of timber production and manufacturing 
have diminished. By enlarging Wilderness designated areas, we, as 
conservation and ethically minded hunters and anglers, believe Oregon 
can, over time and with proper habitat protection, deliver world-class 
trophy bull elk and mule deer to the eastern flanks of Mt. Hood. 
Expanding hunting and angling opportunities will certainly result in 
heightened economic prosperity for the affected communities from the 
recreation and the pursuit of these animals.
    We strongly advocate for the passage of this legislation for the 
good of hunters, anglers, and all who enjoy and find physical and 
spiritual enrichment being in the outdoors far removed from the noise, 
stress, pollution and crowds of our hectic, everyday lives.
    Thank you for your efforts to save the natural places of Oregon.
            Sincerely
                                         Michelle Detwiler,
                                             Vice Chair, Treasurer.
                                 ______
                                 
                               Mount Hood Corridor,
                           Community Planning Organization,
                                    Welches, OR, September 9, 2004.
Senator Ron Wyden,
700 NE Multnomah, Suite 450, Portland, OR.
    Dear Senator Wyden: The Mount Hood Corridor Community Planning 
Organization (CPO), representing the areas of Zigzag, Welches and 
Brightwood, supports the ``Lewis and Clark Mount Hood Wilderness Act of 
2004''. Our organization is active in land use planning within 
Clackamas County and the State of Oregon. We also participate with the 
BLM and the U.S. Forest Service in management plans for the Sandy River 
Basin watershed.
    We recognize and commend your efforts to collect input through the 
public forum process. This has included input from several local 
groups. We believe this legislation will benefit local residents. The 
land additions identified in this bill not only improve existing 
wilderness opportunities and experiences, but will also benefit the 
local communities near these wilderness areas. Some of the natural 
sources for local domestic water systems will be included in this bill, 
and thus, better protected. Scenic views will be preserved, fishing and 
hunting opportunities will be enhanced, and the local tourist economy 
will be strengthened.
    We consider the ``Lewis and Clark Mount Hood Wilderness Act of 
2004'' to be a balanced and accommodating approach to existing 
recreational and resource uses in the Mount Hood area. We believe these 
wilderness lands are an enhancement to the quality of life, not only 
for local residents, but for all citizens.
            Sincerely,
                                                 Don Mench,
                                          Land Use Committee Chair.
                                 ______
                                 
                                  Lahontan Audubon Society,
                                       Reno, NV, September 9, 2004.
Hon. Larry Craig,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Dirksen Senate Office 
        Building, Washington, DC.
Hon. Daniel Akaka,
Ranking Member, Subcommittee on Public Lands and Forests, Committee on 
        Energy and Natural Resources, U.S. Senate, Dirksen Senate 
        Office Building, Washington, DC.
Re: Lincoln County Conservation, Recreation, and Development Act of 
2004.

    Dear Chairman Craig and Ranking Member Akaka: The Lahontan Audubon 
Society (LAS) directly represents approximately one thousand households 
in northern Nevada. As an environmental organization it is our 
responsibility to address issues concerning the environment and the 
people of the State of Nevada.
    LAS is concerned that the recently introduced legislation, S. 2532 
and H.R. 4593 ``Lincoln County Conservation, Recreation and Development 
Act of 2004'' will pose significant hardships on the environment of 
eastern Nevada and the people of the state. LAS is concerned that the 
process by which this legislation is occurring sets a frightening 
precedent. If allowed, this legislative process establishes that 
congress can circumvent federal policies established to protect the 
land and those who use it. All provisions in this bill, with the 
exception of land designated under the Wilderness Act, can be 
undertaken through standard administrative processes and do not require 
congressional authority. Creating legislation is both costly and time 
consuming. We should be parsimonious when drafting legislation and 
include only those provisions that need congressional authority not 
only to conform to established administrative processes but also to 
afford natural resources their due consideration.
    The following is a brief summary of our concerns with certain 
aspects of this bill.

                             LAND DISPOSAL

    LAS supports Lincoln County's right to pursue growth and generate 
revenues from land sales. However, LAS does not agree with the 
inclusion of specific parcels of land at this stage of legislation. 
Parcels should be determined only after the administratively required 
environmental processes have taken place and the Bureau of Land 
Management (BLM) determine them suitable for disposal. We are 
especially concerned about the parcels indicated on the map in the 
Hiko, Ash Springs and Alamo areas. These parcels surround a Wildlife 
Management Area and a National Wildlife Refuge, both of which provide 
important breeding and migration habitat for endangered birds and other 
wildlife. The LAS has recognized this area as exceptionally important.
    In June 2001, the Lahontan Audubon Society initiated the Nevada 
Important Bird Areas (IBA) Program. This international program is 
identifying globally, continentally and nationally recognized areas 
through the National Audubon Society and BirdLife International. An IBA 
is a site providing essential habitat to one or more species of 
breeding or non-breeding birds. This program recognizes that habitat 
loss and fragmentation are the most serious threats facing populations 
of birds across America and around the world. Unless we can slow the 
rapid destruction and degradation of habitat, populations of many birds 
may decline to dangerously low levels. Like Partners In Flight, a 
coalition of partners interested in bird conservation, the goal of the 
IBA Program is to ``keep common birds common.'' Nevada is proud to 
contribute to this global effort and since 2001 has recognized 29 IBA's 
throughout the state. This recognition contributes to the preservation, 
maintenance, and recovery of bird populations in Nevada in 
collaboration with private landowners, federal and state agencies, and 
NGO's responsible for the well being of birds and other wildlife and 
their habitats.
    The Pahranagat Valley Complex IBA encompasses two important 
features in Pahranagat Valley, the Pahranagat Valley National Wildlife 
Refuge on the south end of the complex and the Key-Pittman Wildlife 
Management Area to the north. Several privately held ranches separate 
these two publicly owned land parcels. These private lands likely 
contribute to the integrity of the site, and landowner cooperation and 
bird-friendly management practices are critical. The release of more 
land in this area may have adverse impacts on the already fragile 
wildlife community in the area. For example, Ash Springs and Crystal 
Springs are known breeding sites for the Endangered Yellow-billed 
Cuckoo, as well as endemic fish species. These areas need to go through 
rigorous environmental assessments to determine their suitability for 
disposal. For these reasons and numerous other examples that could be 
provided, we urge that this legislation not identify parcels for sale 
in this land bill.
    With regards to the 87,005 acres available for disposal in Lincoln 
County, the bill provides the Secretary exclusion rights of ``not more 
than 10,000 acres if the sale is deemed inconsistent with the 
protection of habitat and cultural resources.'' There should be no 
limit to the amount of land the Secretary may withhold from sale, so 
that appropriate protection can be applied to all areas where such 
protection is warranted.
    Nowhere in the Land Disposal section of this bill does it refer to 
compliance with the National Environmental Policy Act (NEPA). However, 
in the Utility Corridor section NEPA is mentioned. We are concerned 
that by establishing predetermined parcels in this legislation, 
environmental processes such as NEPA will be bypassed. We have to 
oppose any bill that does not mandate full compliance with all legally 
required environmental policies.
    This bill specifically provides for the sale of land that was 
previously identified for sale in the Lincoln County Land Act of 2000. 
These parcels are currently undergoing additional environmental review 
per a judicial order. Mandating the sale of these parcels within 75 
days of the enactment of this bill will circumvent environmental 
policies and ongoing judicial review process. This provision should be 
removed from the legislation.
    Congress is responsible for funding public land management programs 
as part of its normal budgeting process. We are concerned that due to 
the inability of congress to adequately fund these programs, revenue 
generated from public land sales is in essence an attempt to make up 
this deficit. We do not agree with this practice. It is imperative that 
there be funding available to support the activities and provisions 
mandated in this bill from other funding sources.

                               WILDERNESS

    LAS wishes to express its appreciation to Nevada's delegation for 
designating in this bill such a large amount of Wilderness in Lincoln 
County. We would like to point out two ranges in particular that are 
designated in this bill that appear to be a result of the hard work by 
citizen organizations in evaluating the suitability of Wilderness 
quality lands, Mt. Irish and Big Rocks. Many individuals have worked 
tirelessly over many years to determine areas suitable for Wilderness 
designation and we commend the delegates for recognizing their efforts. 
The Delamar Range and Fortification Range are two other areas indicated 
in the bill that are most definitely worthy of Wilderness designation 
and we appreciate their inclusion in this bill.
    Although this bill provides a great deal of Wilderness protection, 
we encourage the delegates to include the Pahranagat Range in the 
Wilderness designation. This particular range is home to exceptional 
and unique prehistoric rock art and needs federal protection to 
maintain the sites character and integrity. We also encourage the 
delegates to reconsider many of the boundaries to these Wilderness 
Areas to limit the number of cherry stem roads that may compromise the 
Wilderness qualities in these wonderful areas. And, we encourage the 
delegates to work closely with the Wilderness Coalition in reevaluating 
the Wilderness Study Area's designated for release in this bill as the 
Wilderness qualities have not changed and are still in need of 
protection.

                           UTILITY CORRIDORS

    The Lahontan Audubon Society has recognized two IBA's in Lincoln 
County, and five more just outside the county line are either 
recognized or are pending designation. All of these IBA's are closely 
tied to spring systems. Nevada, being the driest state in the Union, 
places a great value on its water sources, from both a human 
perspective and that of wildlife. Most wildlife in the state uses 
springs, wetlands and streams for some aspect of their life history. 
Not enough is known of the spring systems throughout the eastern 
portion of the state and how tightly linked groundwater and surface 
water features, such as springs and seeps may be. Although this bill 
requires a hydrologic study of ground water, it limits the study to 
White Pine County and does not provide the necessary funds to conduct 
the study. The entire aquifer needs to be studied in order to 
accurately assess the potential impacts of groundwater pumping. We 
encourage the delegates to provide funding for a complete study of the 
entire carbonate aquifer underlying White Pine, Nye, Lincoln, and Clark 
Counties, including parts of western Utah and eastern California.
    Establishment of utility corridors is a land use planning activity 
through the BLM. Like many provisions in this bill, mandating utility 
corridors prior to any environmental assessments, and a thorough 
knowledge of the hydrologic system including impact studies on 
groundwater pumping, appears unwise. Pressure to seek new sources of 
water from rural counties to support growth in the Las Vegas Valley is 
significantly increasing with no end in sight. And, despite the 
delegation's attempt at stressing the corridor and rights-of-way 
provisions are not meant to apply undue pressure on the State Water 
Engineer, it in fact does just that, undermining State jurisdiction 
over state waters.
    The utility corridors that are indicated on the map leading up 
Pahranagat Valley and Kane Springs Wash are of particular concern to 
LAS. As previously mentioned, Pahranagat Valley is an IBA and closely 
tied to water features. And, the utility corridor that is planned 
through Kane Springs Wash has its terminus in Meadow Valley Wash. The 
Meadow Valley Wash IBA is identified as that portion of the Wash from 
approximately the Lincoln/Clark County line at the southern end to just 
below the town of Caliente to the north. Wetlands and seeps ranging 
from tens to hundreds of acres are intermittent within the Wash. This 
combination of large area, north-south alignment, and wetland/water 
sites makes this wash system a significant wildlife habitat and 
migration corridor for riparian and desert species. The wash provides 
bird habitat for year-round residents, seasonal breeding birds, and 
migrants. Consequences of groundwater abstraction are poorly 
understood, but could include loss of all surface waters due to draw-
down and alteration of hydrological regimes. This is currently believed 
to be the single greatest threat to this and other IBAs in southern 
Nevada. Mandating utility corridors in this legislation may serve to 
only increase the potential risk of habitat loss at these critical 
sites.
    As a result of this legislation a valid Environmental Impact 
Statement may not be possible. The legislation dictates so many 
specific outcomes that an EIS could not reasonably evaluate viable 
alternatives required by NEPA. This bill mandates an EIS to be 
completed prior to BLM granting rights-of-way, but nonetheless mandates 
BLM to grant rights-of-way for utility corridors. Language in the bill 
should be changed to give BLM the flexibility to grant rights-of-way 
only in the event that results of hydrologic studies and environmental 
reviews determine that water exportation and construction of corridors 
will not negatively and adversely impact existing users and the 
environment. We believe private water companies and water districts 
should not be specifically mentioned in this bill so congress does not 
appear to facilitate and support the privatization and marketing of 
water.

                               OHV TRAIL

    We are supportive of an OHV trail, but only after it has gone 
through the required environmental evaluation processes prior to 
establishment. This bill designates a trail route prior to any 
environmental assessments. This, again, is a provision in which 
performs an end-run around current established process that would 
properly evaluate the need and assess the potential impacts. The bill 
could allow for an OHV trail and not designate a route on the map, 
allowing BLM to evaluate the most suitable route. The bill should also 
allow for the permanent closure of the trail, not just temporary 
closure, should there be unintended adverse impacts on resources 
associated with the trail. We recognize the need for land managers to 
address this rapidly expanding recreational use. By establishing a 
trail of this size without the proper funding for monitoring and 
enforcement, does not adequately address the issue and only increases 
opportunity for individuals to ``pioneer trails'' leading to 
unauthorized routes and destruction of habitat.

                         JURISDICTION TRANSFERS

    We are concerned about the need to transfer jurisdiction of 
particular parcels between BLM and the Fish and Wildlife Service, as 
there appears to be no justification provided in the bill. The parcels 
indicated on the map for transfer are critical habitat to a large 
population of Threatened Desert Tortoise. Transfer of jurisdiction and 
boundary changes to National Wildlife Refuges should be based on 
results of impact studies, and the ability of the agencies to properly 
manage the resource. Transfers should not be made for the convenience 
of private property owners that will only serve to expand growth in 
this fragile area.
    In conclusion the Lahontan Audubon Society believes this 
legislation does not provide adequate means of environmental 
protection, thereby placing birds and bird habitat at risk. We would 
appreciate the opportunity to work with the delegation in drafting new 
legislation that addresses these concerns and provides for the 
protection of environmental lands, wildlife and the people of the State 
of Nevada.
            Respectfully,
                                                Karen Kish,
                                      President, Board of Trustees.
                                 ______
                                 
                                   State of Nevada,
                           Board of Wildlife Commissioners,
                                      Reno, NV, September 11, 2004.
Hon. Larry Craig,
Chairman, Senate Subcommittee for Forest and Public Lands, U.S. Senate, 
        Hart Senate Office Building, Washington, DC.
    Dear Senator and Subcommittee Members: Honorable Chairman Craig, 
Honorable members of the Senate Subcommittee for Forest and Public 
Lands, thank you for the opportunity to present the Nevada Board of 
Wildlife Commissioners position on the Proposed Lincoln County 
Conservation, Recreation, and Development Act of 2004 to the 
Subcommittee.
    September 11, 2004 the Nevada Board of Wildlife Commissioners 
adopted a resolution on Proposed Lincoln County Conservation, 
Recreation, and Development Act of 2004 (attached).* This resolution 
provides recommendations relative to the proposed wilderness 
designations, cherry-stem roads to be open for public access, and 
wildlife management tools to be available for use within the designated 
wilderness areas. I am enclosing a copy of the resolution for your use 
and consideration.
---------------------------------------------------------------------------
    * Retained in committee files.
---------------------------------------------------------------------------
    I would like to express my appreciation for your consideration of 
the enclosed Nevada Board of Wildlife Commissioners Resolution in the 
upcoming hearing of September 14, 2004.
    We look forward to a successful conservation, recreation and 
development act that addresses not only the needs of the people of 
Nevada, but also provides for the use of critical management tools 
necessary for attainment and maintenance of healthy, natural ecosystems 
and associated fish and wildlife resources within areas designated as 
wilderness. We also hope that this legislation will provide the 
flexibility to address site specific fish and wildlife species needs 
with regard to the other proposed designations.
            Sincerely,
                                                Tommy Ford,
                                                          Chairman.
                                 ______
                                 
                                  Portland, OR, September 14, 2004.
Senator Ron Wyden,
700 NE Multnomah St., Suite 450, Portland, OR.
Re: Lewis & Clark Wilderness bill

    Dear Senator Wyden: I am writing as a constituent, a 
conservationist, and an avid mountain biker to support the Lewis & 
Clark Wilderness bill. I sincerely believe that without the level of 
protection that Wilderness protection provides, much of the forested 
areas of public land on Mt. Hood will be converted to dollars that will 
line the pockets of a few at a great loss to the rest of us.
    Although my favorite way of experiencing the forests of Oregon is 
by mountain bike, and I sincerely hope that boundary adjustments such 
as those initially suggested by ONRC will allow continued access to the 
most popular mountain biking trails, I believe that protection of our 
habitats, our watersheds, and our overall quality of life is much more 
important than any sport.
    You may not realize it, but many mountain bikers also belong to 
conservation groups such as the Sierra Club and The Nature Conservancy. 
For us, an ``environment versus recreation'' mindset simply doesn't 
make sense; if it comes to such a choice, protection of the environment 
should always prevail.
    I recently returned from my first visit to Crater Lake. The natural 
beauty there, and the number of people from all over the world who had 
come to see it, were reminders of why I choose to make my home in 
Oregon and how fortunate we all are to live in this state. We must 
never take our natural legacy for granted by allowing it to dissolve 
into clearcuts and condos. Please do your best to see that the Lewis & 
Clark Wilderness bill becomes a reality.
            Sincerely,
                                                      Bonnie Lynch.
                                 ______
                                 
                                                September 14, 2004.
Senator Ron Wyden,
U.S. Senate, Washington, DC.
    Dear Senator Wyden: The undersigned organizations strongly support 
the elements of your proposed Lewis and Clark Mount Hood Wilderness Act 
of 2004 that would designate for special protection both substantial 
acreage on and around Mount Hood and in the Columbia River Gorge as 
components of the National Wilderness Preservation System and portions 
of the Hood and Zigzag Rivers and Eagle Creek as components of the 
National Wild and Scenic Rivers System.
    The rationale for the legislation is well stated in the draft 
Findings section of the bill. This is a very historic area, from the 
arrival and settlement of Native American peoples, to the Lewis and 
Clark expedition, to pioneers reaching Oregon over the Oregon Trail. 
How very fitting that the legislation should be offered in one of the 
Bicentennial years of the Lewis and Clark expedition. It is also a very 
beautiful area, and wilderness and Wild and Scenic River status will 
protect and hopefully enhance the strong natural and recreation values 
to be found here.
    We are writing now to especially support the designation of 
portions of the Hood River, the Zigzag River, and Eagle Creek as Wild 
and Scenic Rivers. These segments were studied by the U.S. Forest 
Service and found to be free-flowing and possessing at least one 
``outstandingly remarkable value,'' such that the segments were deemed 
``eligible'' for congressional protection. The outstandingly remarkable 
values determined by the Forest Service ranged from geologic/hydrologic 
(Middle Fork Hood River), ecological/botanical (Middle Fork and portion 
of East Fork Hood River), historic/cultural (Zigzag River) and 
fisheries and wildlife (Eagle Creek) to a combination of recreation, 
geologic/hydrologic, wildlife and ecological/botanical values (another 
portion of East Fork Hood River). Little has changed in these areas 
since that time. These outstandingly remarkable values speak volumes 
about the beauty and richness of these areas.
    The analysis shows the breathtaking variety of regionally and 
nationally significant attributes of these rivers. These rivers are 
very special and deserve the same high level of protection as that of 
other Oregon rivers that are already part of the National Wild and 
Scenic Rivers System. We will very much appreciate your support to 
protect these free-flowing streams, as well as the associated roadless 
wildlands, for this and future generations.
            Sincerely,
                    David Moryc, Associate Director, American Rivers, 
                            Northwest Regional Office; Kevin Gorman, 
                            Executive Director, Friends of the Columbia 
                            Gorge; Joe Serres, Conservation 
                            Coordinator, Friends of Living Waters--
                            FLOW; Tom Wolf, Executive Director, Oregon 
                            Council Trout Unlimited; Bill Marlett, 
                            Executive Director, Oregon Natural Desert 
                            Association; Jay Ward, Conservation 
                            Director, Oregon Natural Resources Council; 
                            Rhett Lawrence, Environmental Advocate, 
                            Oregon Public Interest Research Group; Rolf 
                            Skar, Campaign Director, Siskiyou Project; 
                            Peter Lavigne, President, Rivers Foundation 
                            of the Americas; Dave Moskowitz, Cascadia 
                            Salmon Biodiversity Program Director, Wild 
                            Salmon Center; Sue Marshall, Executive 
                            Director, Tualatin Riverkeepers; Jeff 
                            Curtis, Western Conservation Director, 
                            Trout Unlimited; Penny Lind, Executive 
                            Director, Umpqua Watersheds; Rich Simms, 
                            President, Wild Steelhead Coalition; John 
                            Kober, Wildlife Program Manager, National 
                            Wildlife Federation; Joe Whitworth, 
                            Executive Director, Oregon Trout
                                 ______
                                 
                     The Confederated Tribes of the
                        Warm Springs Reservation of Oregon,
                              Warm Springs, OR, September 14, 2004.
Hon. Larry E. Craig, Chairman,
Hon. Ron Wyden, Ranking Member,
Committee on Energy and Natural Resources, Subcommittee on Public Lands 
        and Forests, Dirksen Senate Office Building, U.S. Senate, 
        Washington, DC.
    Dear Chairman Craig and Ranking Member Wyden: The Confederated 
Tribes of the Warm Springs Reservation of Oregon hereby submit the 
attached testimony to be formally entered into the Subcommittee's 
record of today's hearing on S. 2723, the Lewis and Clark Mt. Hood 
Wilderness Bill.
    Thank you very much.
            Sincerely,
                                                Ron Suppah,
                                           Tribal Council Chairman.
[Attachment.]

       Statement of the Confederated Tribes of the Warm Springs 
                         Reservation of Oregon

    Thank you for the opportunity to submit testimony regarding the 
Lewis and Clark Mount Hood Wilderness Bill. My name is Ron Suppah and I 
am Chairman of the Tribal Council of the Confederated Tribes of the 
Warm Springs Reservation of Oregon.
    The Warm Springs Reservation is comprised of 640,000 acres and is 
located in north-central Oregon. The Reservation is bordered by the 
Mount Hood National Forest to the west and the north, and by the 
Deschutes National Forest to the south. The Reservation also shares a 
20 mile border with the Mount Jefferson Wilderness Area in the 
Deschutes National Forest. A large portion of the Mount Hood National 
Forest is located upon lands ceded to the United States by the 
Confederated Tribes in the Treaty of June 25, 1855. The Confederated 
Tribes have important Treaty reserved hunting, fishing, gathering and 
pasturing rights on lands to be included within the proposed wilderness 
designation. In addition, all of the lands included in this bill are 
part of our aboriginal territory. As such, they contain cultural, 
religious, archeological and aesthetic values that are of great 
importance to us.
    The Warm Springs Reservation contains 350,000 acres of valuable 
timberland, which has long been vital to our tribal economy. Despite 
the Tribes' economic dependence on our timber resources, our forest 
management practices emphasize sustainability above all. This follows 
from long-held traditional tribal values emphasizing the necessity to 
preserve the land and its resources for future generations. This 
emphasis has earned the Confederated Tribes a Certification for 
Sustainability by the Forest Stewardship Council.
    As a timber tribe with a tradition of conservation and sustainable 
forest practices, we understand the need to balance a variety of 
interests in forest management. We believe we have achieved such a 
balance on our Reservation. We applaud the ongoing efforts of Oregon's 
Congressional delegation to balance multiple interests in Oregon's 
forests, while protecting our natural resources for future generations.
    The Lewis and Clark Mount Hood Wilderness Bill proposes the use of 
wilderness designation to achieve the admirable goal of protecting 
Oregon's old-growth forests. Although we have some very serious 
concerns about this proposal, we wish to be clear that we strongly 
support the purpose and intent of this bill. We are simply not 
convinced that wilderness designation is the appropriate protective 
tool to achieve this purpose, as it can lead to some unintended 
consequences such as substantial timber losses from fire and disease. 
We are also concerned that some of the specific provisions of this 
bill, such as the establishment of the National Urban Forest 
Commission, place too much emphasis on the role of this forest as a 
wilderness playground for urban dwellers. Our specific concerns are 
laid out below.

                       I. CONGRESSIONAL FINDINGS

    Section 2 of the Lewis and Clark Wilderness Bill contains a long 
statement of Congressional findings regarding the Mount Hood National 
Forest. The first four paragraphs of this narrative describe the 
drafter's understanding of the history of Native American use and 
occupation of the Forest. Although this section purports to describe 
the history of our ancestors, we were never contacted to clarify or 
approve any of the information presented here. More to the point, many 
of the statements are simply wrong, or contrary to tribal tradition and 
belief. We would like this history to be stricken entirely, or at least 
re-written with the aid of tribal cultural representatives.

                       II. DESTRUCTIVE WILDFIRES

    Both in our capacity as aboriginal inhabitants with a long-term 
interest in the National Forest, and in our capacity as adjacent 
landowners, we are gravely concerned about the risk of destructive 
wildfires. Although the Wilderness Act and this bill allow measures to 
be taken as necessary to control fire at the discretion of the 
Secretary, the reality of wilderness designation is that fire 
prevention and treatment are handled much less aggressively than they 
are elsewhere.
    We agree that fire has a proper place in the ecosystem. However, 
management practices over the past 100 years have led to such a large 
fuel buildup that we cannot simply take a hands off approach to 
wildfire management. Our people have always engaged in prescribed 
burning to support forest health, and we consider our efforts as a part 
of the natural ecology of the forest. We believe that controlled 
burning and thinning will help bring the ecosystem back into balance in 
a way that will enable it to sustain more natural processes. In fact, 
the Tribe is in the process of translating this belief into reality. We 
are actively working the U.S. Forest Service on removal of excess fuel 
from national forests adjoining the Reservation. This fuel, along with 
wood waste from the Confederated Tribes' mill and our own forest health 
activities will be used to generate new, renewable energy from a 
biomass facility.
    The loss of National Forest timber due to wildfire is a loss to all 
of the inhabitants of Oregon and to the wild creatures who depend on 
those forests for habitat. As wildlife habitat is lost through fire, 
particularly habitat for federally protected endangered or threatened 
species, the burden on existing forestland increases. Much of that 
burden will fall on nearby Reservation forests. Thus the balance we 
have struggled so hard to achieve in our forests is subject to 
additional pressure by the loss of nearby wild places.
    As adjacent landowners, we are concerned about the very real threat 
to our property and timberlands by out-of-control wildfires. As stated 
above, our Reservation is adjacent to the Mount Jefferson Wilderness 
Area. In 1996 the Jefferson Wilderness Fire began in this area and was 
initially treated in a non-aggressive manner. Eventually that fire 
spread onto the Reservation and burned approximately 3000 acres of 
tribal timberland. As more portions of the Mount Hood National Forest, 
located closer and closer to the Reservation, are designated as 
Wilderness lands, the risk of these uncontrollable wildfires spreading 
onto the Reservation increases.

                        III. INSECT AND DISEASE

    With regard to insect and disease management, we are primarily 
concerned about the possibility that these problems will spread onto 
the Reservation. We treat our timber in a conservative way to avoid 
these threats. We believe the timber on designated wilderness lands 
will not be treated, and these problems will spread quickly to adjacent 
and nearby timber lands, including those on the Reservation. As disease 
and infestation become more prevalent on the Reservation, we may have 
to treat our timber more aggressively. In addition, increased losses 
from these causes will put more pressure on our Reservation forests, 
and make it more difficult for us to balance the many interests in our 
forests.

                      IV. DISPLACED RECREATIONISTS

    We understand the primary purpose of wilderness designation is to 
preserve wild places and their unique attributes for future 
generations. However, we are concerned that there is a logical 
inconsistency between that purpose and some of the rationale behind 
this proposal. We have heard statements to the effect that creating 
more wilderness in the Mt. Hood National Forest will help support a 
tourism-based economy. The implication is that wilderness designation 
will attract more visitors to the National Forest. Obviously, 
increasing use by humans is not the best means of protecting the 
forest. The reality is, we fear, that increased wilderness lands will 
attract more recreationists to the National Forest, but leave them with 
fewer accessible areas or lead to excessive overuse.
    As the National Forest becomes more crowded, recreationists may 
seek less popular but equally pristine wild places to enjoy. Already, 
we face problems with trespassers utilizing closed areas of our 
Reservation for recreational use. We are concerned that increased 
wilderness lands may ultimately result in more trespasses on the 
Reservation, creating a substantial burden on our law enforcement 
personnel and on our Reservation natural resources.

                        V. TRIBAL TREATY RIGHTS

    We appreciate the inclusion of Section 904 in the Lewis and Clark 
Wilderness Bill expressly preserving Indian rights in the proposed 
wilderness area. However, we believe more protective language is 
necessary, expressly preserving specific types of Indian tribal rights 
in the Mt. Hood National Forest, such as:
          1. Treaty reserved hunting, fishing, gathering and pasturing 
        rights;
          2. The right to access National Forests lands, including 
        those under the wilderness designation, to exercise those 
        treaty rights; and
          3. The jurisdiction or authority of any Indian tribe with 
        regard to fish, wildlife, water or land or other natural 
        resource management.
    In addition, the preservation of tribal treaty rights in this 
document is meaningless if tribal members cannot exercise those rights 
in reality. We are concerned that wilderness designation may have a 
negative impact on the practical ability of tribal members to exercise 
their treaty rights in these areas. For example, past forest management 
practices have led to
          * * * * * * *
                                 ______
                                 
                                BlueRibbon Coalition, Inc.,
                                    Oakley, CA, September 14, 2004.
Hon. Larry Craig,
Chairman, Public Lands and Forests Subcommittee, Washington, DC.
Hon. Ron Wyden,
Ranking Member, Public Lands and Forests Subcommittee, Washington, DC.
Re: Testimony on S. 2723

    Dear Senators Craig and Wyden: Testimony--Statement by the 
BLUERIBBON COALITION on S. 2723 to designate certain public lands in 
the Mount Hood National Forest in State of Oregon as Wilderness. Please 
include this document in the official record.
    I am Don Amador the Western Representative for the BlueRibbon 
Coalition (BRC), based in Pocatello, Idaho. The BlueRibbon Coalition is 
a national recreation group that champions responsible use of public 
and private lands, and encourages individual environmental stewardship. 
It represents over 10,000 individual members and 1,100 organization and 
business members, for a combined total of over 600,000 recreationists 
nationwide. I am a native of the Pacific Northwest and grew up hunting, 
fishing in the ocean and streams, hiking in state parks, and riding my 
off-highway vehicle on public lands.
    Between 1994-2000, I was a commissioner and chairman for the Off-
Highway Motor Vehicle Recreation (OHMVR) Commission at California State 
Parks. I helped develop the current Memorandum of Understanding between 
BRC and the Washington Office of the USDA Forest Service. Recently on 
behalf of BRC, I partnered with a Forest in the Pacific Northwest 
Forest Plan (Mendocino National Forest) on a joint grant request to 
Tread Lightly! and their HUMMER HELPS program to fund the restoration 
of the North Fork Campground that was destroyed in the 2002 Trough 
Fire. I have been invited to speak on public land access issues by the 
Society of Environmental Journalists, Outdoor Writers Association of 
America, and the Western Outdoor Writers.
    BRC members work hard to promote a responsible land-use ethic and 
donate literally thousands of hours to maintain our existing trail and 
recreational facilities on lands managed by the FS and Bureau of Land 
Management. BRC also supports the intent of the original Wilderness Act 
of 1964 as, ``an area where the earth and its community of life are 
untrammeled by man, where man himself is a visitor who does not remain 
. . . an area of undeveloped Federal land retaining its primeval 
character and influence, without permanent improvements or human 
habitation, which is protected and managed so as to preserve its 
natural conditions . . .''
    Please accept this communique as the official position of BRC 
regarding the proposed designation of over 177,000 acres in the Lewis 
and Clark Mount Hood Wilderness plan--S. 2723--as federal Wilderness.
    BRC strongly opposes S. 2723 at this time based on the position 
statement of the newly formed Oregon Recreation Coalition (ORC), a 
collaboration of 27 Oregon-based access groups representing over 50,000 
recreationists. ORC states (see attached ORC position statement) over 
1,100 miles of legal roads and trails would be closed to motorized use. 
90 percent of one snowmobile trail system would be eliminated and 
another by 65 percent. Also, ORC presented a 4,600 signature petition 
to Senator Ron Wyden's office in opposition to S. 2723.
    BRC strongly opposes S. 2723 at this time because it has been 
unable to obtain critical information (see attached FOIA) regarding 
suspect trail closures on the Mount Hood National Forest including 
mapped areas of S. 2723. BRC is concerned there may have been pre-facto 
closures to legitimate motorized uses by agency staff in anticipation 
of this bill.
    BRC strongly opposes S. 2723 at this time because it uses many 
existing and legally maintained off-highway vehicle and mechanized 
roads as new Wilderness ``boundary markers.'' That has created a new 
and somewhat problematic management dilemma for the FS. These roads 
could be called ``quasi-cherry stems'' and appear to be in conflict 
with the ``3-mile'' setback rule. According to the Recreation 
Opportunity Spectrum (ROS), in order to have a wilderness recreation 
experience, an individual must be at least 3 miles from the nearest 
road or trail where motorized vehicles are in use.
    It is BRC's opinion that should proponents of S. 2723 want the 
support of the recreation community for the future designation of lands 
as Wilderness; they will have to mitigate any loss of motorized or 
mechanized access. These mitigations could include the following:
          1. The hard release of expired Wilderness Study Areas.
          2. Where appropriate, utilize BRC's Backcountry proposal 
        instead of Wilderness designation.
          3. Wilderness advocates support for new motorized trail 
        opportunities to replace closures.
          4. Consider reopening lands that are currently closed by 
        legislation or administrative decision to motorized recreation.
    As Congress, recreationists, and Wilderness advocates move into the 
21st Century, the aforementioned dynamics should be included in the 
Wilderness debate so that all parties are treated in a balanced 
fashion.
            Sincerely,
                                                Don Amador,
                                            Western Representative.
                                 ______
                                 
                                    Gog Wild Bicycle Tours,
                                      Bend, OR, September 20, 2004.
Senator Ron Wyden,
700 NE Multnomah, Portland, OR.
    Dear Senator Wyden: I am writing today to express my sincere 
appreciation for your efforts on S. 2723, the Lewis and Clark Mount 
Hood Wilderness Act of 2004. I wish to present comments on this bill 
for the consideration of the committee, and to lend some local 
expertise to the issue at hand, but first I would like to share a 
little of my background.
    During my childhood in Philadelphia, PA I had the pleasure and 
great fortune to travel nearby to areas like the Pocono Mountains and 
the Adirondack Mountains. When I made the conscious decision to attend 
college, I decided to study Forest Recreation Management at Oregon 
State University. This led me to work in Wilderness Management. I spent 
several summers working with the U.S. Forest Service as a Wilderness 
Inventory Specialist, and became acutely aware of the challenges facing 
Wilderness managers. I also gained an appreciation for helping others 
experience the outdoors working for a Nature Education Program.
    Another passion I picked up during college was mountain biking. 
There is something exhilarating about finding your way along trails 
which beg to be explored, and going further from home, and comfort, 
each time you head out. Mountain biking captivated me.
    The work I was doing in the Wilderness field brought me to Bend, 
Oregon where I currently live with my wife and three young children. In 
1995, the Bend/Fort Rock Ranger District was ahead of the curve on a 
management regime required by the Wilderness Act, known as Limits of 
Acceptable Change. The work I was doing for the Forest Service was 
crucial to the effective management of all Federal Wilderness Areas, 
but the funding became scarce, and I needed to find alternative 
employment.
    Living in Bend with no job led me into my current vocation. I was 
able to combine my passions of mountain biking, Wilderness appreciation 
and sharing the outdoors with others. I decided to start my own 
business conducting commercial mountain bike tours and fill a niche in 
the local and regional tourism industry. I have also been active for 
several years doing voluntary trail maintenance throughout Oregon, 
including the Mt. Hood National Forest.
    My company currently operates guided mountain bike tours on six 
National Forests, all in Oregon, including the Mt. Hood National 
Forest. The Special Use Permit under which my company operates 
currently allows our use of many trails within both the proposed new 
Wilderness areas and the Mt. Hood Pedaler's Demonstration Experiment 
(Title V). I have to say that when I was first told about this unique 
approach to resolving the bikes in Wilderness debate, I was elated. You 
have crafted something which, I think has great merit. The reservations 
I have about it mirror those of IMBA, and could be summarized by 
saying, ``the devil is in the details.'' My primary concerns are these:

  <bullet> There is not enough proposed land within this new 
        designation. I worry that mountain bikers everywhere are going 
        to be drawn to these areas simply from the standpoint that they 
        are ``Wilderness for mountain bikers'' and this unintended rise 
        in popularity will adversely impact the few trails therein.
  <bullet> The further restriction of legal mountain bike use confines 
        the same number of users (and Outfitter/Guides) to smaller 
        areas, therefore increasing social conflicts.
  <bullet> Because of the concentration of use, the range of 
        recreational opportunities will be greatly reduced for mountain 
        bikers. While we will still have the Semi-Urban to Rural riding 
        opportunities, the primitive and semi-primitive opportunities, 
        at least in the Mt. Hood National Forest will be reduced.
  <bullet> It is primarily this last opportunity that Outfitter/Guides 
        enable the general public to experience. Outfitter/guides 
        fulfill an important public need, something which will be 
        challenging to fulfill in the Mt. Hood National Forest.

    Having stated these concerns, I wish to extend not only my 
heartfelt thanks that Senator Wyden has introduced such bold 
legislation, but to offer my help to the entire Oregon delegation to 
work to craft an agreeable solution. I applaud all those who have put 
in significant effort, including, but not limited to the Oregon 
Wilderness Coalition and the rest of my colleagues on the newly formed 
Oregon Mountain Bike Coalition. I am confident that these groups and 
others can work together to formulate a permanent and unique way to 
protect these beautiful areas.
    I know that the history of our great country has benefited from 
visionary public officials which took bold steps to protect the very 
thing that makes America unique. We have the present Wilderness 
Preservation System, and our National Parks System as legacies of their 
vision. I look forward to the day that we can look back and thank you 
for having the vision and the perseverance to protect Oregon's last 
pristine areas and the recognition that mountain biking is a 
legitimate, low impact human-powered way to experience the outdoors. 
Further, I fully endorse the comments submitted by Chris DeStephano, 
IMBA Board Member, in support of this bill and the comments and 
proposed changes to specific sections of the bill made by IMBA.
    Once people have had an experience in nature, they will be more 
motivated to preserve it. I am a self-described expert in funding these 
kinds of experiences and making them accessible to the public. If I can 
be of any more help, please let me know. If something unique like this 
were to pass, it would have to come out of Oregon. That is why we 
choose to live, work and play here.
            Sincerely,
                                               Woody Starr,
                                                             Owner.
                                 ______
                                 
                                Nevada Ad Hoc Water Network
                                      Reno, NV, September 23, 2004.
Hon. Larry E. Craig,
Member, Senate Energy and Natural Resources Committee, Washington, DC.
Re: S. 2532, Lincoln County Conservation, Recreation and Development 
Act of 2004

    Dear Senator Craig: S. 2532 has been introduced by the Nevada 
delegation and we are giving the bills our full attention because of 
the serious ramifications this legislation has on rural and urban 
Nevadans and eastern Nevada ecosystems and for future generations of 
Nevadans. The Lincoln County Conservation, Recreation, and Development 
Act of 2004 (bill) circumvents federal policies and national laws 
related to environmental protection and management of public lands, 
therefore undermining environmental and economic protections for rural 
and urban counties and Indian tribes. The bills provide tacit 
Congressional approval of the first steps in turning eastern Nevada 
into another Owens Valley with the potential for severe environmental 
and socio-economic harm.
    The breadth and depth of our concerns is reflected in the wide 
diversity of organizations and individuals who have signed-on to this 
letter--rural and urban residents, farmers and hunters, 
environmentalists and ranchers, wilderness and wildlife groups, 
scientists and state legislators.
    Beyond our general concerns, we wish to state our very serious 
questions about this bill, especially on Title III, Utility Corridors:
    1. RIGHTS-OF-WAY: Any language about rights-of-way is premature and 
unnecessary. There are existing administrative procedures to address 
the need for and locations of utility rights-of-way. The Bureau of Land 
Management (BLM) is currently writing a Resource Management Plan in 
which these proposals will be addressed. These federal laws and 
procedures provide for full and open public participation in these 
critical decisions on public lands and waters. We urge the delegation 
to drop all waivers of Federal Land Policy and Management Act (FLPMA) 
and National Environmental Policy Act (NEPA) requirements for this 
proposed action.
    2. EMERGENCY: There is an unspoken assumption in the bills that 
because of the drought, Las Vegas has an emergency need for water and 
waivers of normal administrative requirements. Eastern Nevada is also 
suffering impacts from this severe drought. We share Former Governor 
O'Callaghan's concerns in a 1990 editorial `. . . destroying the 
natural environment in neighboring counties to satisfy the added 
development of an ever-expanding man-made environment of Las Vegas.' 
Before the exportation project is expedited by Congressional 
legislation, there should be an independent study on the entire State's 
water needs and supply options.
    We have heard the arguments that 1.7 million residents in Las Vegas 
have a greater right to ground water in rural Nevada than the 3,700 
residents of Lincoln County. We quote from O'Callaghan's editorial, `I 
doubt very much if a majority of today's residents of Las Vegas and 
Clark County want to siphon away the water needed by others. There's 
nothing wrong with seeking additional water from surrounding areas. But 
this should be done judiciously and in cooperation with the residents 
of those rural areas.'
    3. EIS REQUIREMENT: While we appreciate the bill's mandate for an 
Environmental Impact Statement (EIS) to be completed before the BLM 
grants utility corridors to the beneficiaries, the bill also mandates 
the BLM to grant the rights-of-way for the utility corridors. We 
question whether the EIS will be simply perfunctory since Congress has 
already mandated the utility corridors. This would signify that the 
``no action'' alternative or any other alternatives will not he 
seriously studied in the EIS, thus negating the NEPA requirement for a 
full range of alternatives. We strongly urge a change in the language 
in section 301(b)(1) by substituting ``may'' instead of ``. . . shall'' 
in granting the rights-of-way. This may help clear up the apparent 
contradictory language in these bills. The decision on granting utility 
corridors should be based on the results of the hydrologic studies and 
environmental reviews of whether water is available for export without 
serious impacts on existing users and the environment.
    We also urge the inclusion of language in the bills requiring a 
rigorous analysis in the EIS of the need for the proposed water 
exportation project and water pipeline utility corridors. We find no 
such justification in the bill.
    4. REVERSION CLAUSE: In the event that the Nevada State Engineer 
denies part or all of the applications for ground water pumping and 
export, a provision should be added to the bills for reversion of the 
utility corridors within a certain time, perhaps five years.
    5. NEVADA STATE WATER LAW: We believe that the bills' proposal to 
grant water pipeline rights-of-way corridors to the Southern Nevada 
Water Authority and Lincoln County Water District and its contractor, 
Vidler Water Company, through legislation is premature and unwise. 
These bills pre-assume that the State Engineer will approve the 
applications and transfers and constitute undue federal pressure on the 
State Engineer, thereby undermining State jurisdiction over state 
waters.
    6. WATER AS A PRIVATE COMMODITY: We strongly object to the bills' 
water pipeline utility rights-of-way proposals. Congress should not 
facilitate and legitimize marketing water as a private commodity 
through Vidler Water Company's contract with the Lincoln County Water 
District. We strongly urge all provisions for utility corridors for 
Vidler Water Company and Lincoln County Water District be dropped from 
this federal legislation.
    7. HYDROLOGIC STUDY: While we appreciate the bill's requirement of 
a hydrologic study, the bill does not authorize funding for it, limits 
it to only White Pine County, and restricts the study to existing 
conditions and does not determine the impacts of ground water pumping 
on existing users and environmental water needs. The geographic scope 
is too limited because the carbonate aquifer underlies all of eastern 
Nevada and has at least six flow systems, none of which correspond with 
the White Pine County boundaries. Funding should be authorized for an 
expanded study. It should include the entire carbonate aquifer, not 
just the part in White Pine County: this would include White Pine, Nye, 
Lincoln, and Clark Counties, several counties in western Utah and Inyo 
County in eastern California. It should also be expanded to assess the 
estimated impacts of ground water pumping and export on existing users.
    This is by no means an exhaustive list nor a detailed list. We 
believe the bills violate the legislative intent of FLPMA and NEPA, are 
legally challengeable and set a dangerous precedent for circumventing 
existing environmental protection and public land management laws. We 
also think these bills are detrimental to the state and rural counties, 
especially Lincoln, White Pine and Nye in Nevada, several counties in 
Utah and Inyo County in California, further depriving them of economic 
opportunities because of the loss of rural water for exportation to 
southern Nevada. Huge amounts of additional water will further drive 
speculation and exponential growth threatening the quality of life of 
urban residents.
    Water and wildlife do not obey county or state boundaries. 
Piecemeal legislation often creates larger and more diverse problems. 
Additionally, several national parks and wildlife refuges in Nevada are 
threatened by water exportation through pipeline corridors to Las 
Vegas. These include Death Valley National Park, Lake Mead NRA, Great 
Basin National Park, Ash Meadows National Wildlife Refuge, Desert 
National Wildlife Refuge, Pahranagat National Wildlife Refuge. 
Therefore, the organizations which have signed this letter object to S. 
2532 and urge you to consider the issues and changes we have 
recommended.
            Sincerely,
                        Organizations: Michael Garrity, Alliance for 
                        the Wild Rockies; Katherine Rountree, Baker 
                        Business and Tourism Council; Daniel R. 
                        Patterson, Center for Biological Diversity; 
                        Peggy Maze Johnson, Citizen Alert; George 
                        Barnes, Death Valley Task Force; Merlin McColm, 
                        Elko County Conservation Association; Elyssa 
                        Rosen, Great Basin Mine Watch; Veronica Egan, 
                        Great Old Broads for Wilderness; Karen Kish, 
                        Lahontan Audubon Society; Tina Nappe, Lahontan 
                        Wetlands Coalition; Gale Dupree, Nevada 
                        Wildlife Federation; Sophie Sheppard, North 
                        West Great Basin Association; Bob Fulkerson, 
                        Progressive Leadership Alliance of Nevada; Hugh 
                        Jackson, Public Citizen; Susan Lynn, Public 
                        Resources Associates; Ellen Pillard, Toiyabe 
                        Chapter of Sierra Club; Elden Hughes, Desert 
                        Committee of the Sierra Club, California; Terry 
                        Steadman, Trout Unlimited, Great Basin Chapter; 
                        Dennis Ghiglieri, Truckee River Yacht Club; Jon 
                        Marvel, Western Watersheds Project, Idaho; 
                        Holly Wilson, White Pine Citizens for Proper 
                        Representation; Bethanie Walder, Wildlands CPR, 
                        Montana; Mike Prather, Owens Valley Committee; 
                        and Frances Spivey-Weber, Mono Lake Committee
                        Citizens: Assemblywoman Sheila Leslie 
                        Assemblywoman Peggy Pierce; Former 
                        Assemblywoman Marcia de Braga; Louis Benezet, 
                        Pioche; Lorell Bleak, Panaca; Jim and Ann 
                        Brauer, Indian Springs; Paul and Lori Brown, 
                        Las Vegas; Jim Deacon, Las Vegas; Lance and Jo 
                        Dean, Elko County; Don Duff, Baker; Joy Fiore, 
                        Sandy Valley; JoAnne Garrett, Baker; Jan 
                        Gilbert, Washoe Valley; Launa Hall, Las Vegas; 
                        Bevan Lister, Pioche; Farrel Lytle, Lincoln 
                        County; Pioche Manetta Lytle, Lincoln County, 
                        Pioche; James Martin, Reno; Alvin McLane, Reno; 
                        Kaye and James Medlin, Rachel; Ed Rothfuss, 
                        former Superintendent Death Valley National 
                        Park, Las Vegas; Don Shanks, Pioche; Keith 
                        Stever, Pioche; and Rose Strickland, Reno
                                 ______
                                 
                                                September 24, 2004.
Senator Larry Craig, Chair,
Senator Ron Wyden, Ranking Member,
Senate Energy & Natural Resources Committee, Subcommittee on Public 
        Lands and Forests, Dirksen Senate Office Building, Washington, 
        DC.
    Dear Chairman Craig and Ranking Member Wyden: On behalf of the 
undersigned Oregon bike and tourism industry, we write to offer 
comments on S. 2723, the Oregon Lewis and Clark Mount Hood Wilderness 
Act of 2004. We applaud Senator Wyden's efforts to protect areas in the 
Hood River region and preserve the land, in its natural state, for 
generations to enjoy. We support the goal of providing more 
opportunities for Oregonians to get outdoors and to help further 
instill the ethic of land protection.
    As you know, Wilderness designation prohibits bicycling. For this 
reason, bicyclists seek modifications of Wilderness proposals that will 
protect the land while continuing to allow this quiet, low-impact, 
muscle-powered recreation on significant trails. S. 2723, as written, 
could close to bicycling more than 200 miles of trails Oregonians have 
ridden for more than two decades. Mountain biking is an extremely 
popular sport in the state and we encourage the committee to amend the 
bill to accommodate trails for cyclists.
    We generally support the goal of S. 2723, to protect the Mount Hood 
area from development, road building, mining, commercial logging, and 
the other pressures from our rapidly expanding society. However, since 
mountain bicycling is extremely popular in the region, we cannot 
support Wilderness in many areas of the bill. We believe that formal 
Wilderness protection is only one tool to protect the land, and that 
there are many other ways to achieve the goal of land protection while 
allowing for continued bike access.
    It is important that Congress understands the impact Wilderness 
trail closures would have on Oregon tourism and bike related 
industries. Bike industry, bike shops, restaurants, gas stations, 
lodging establishments, and mountain bike touring companies will be 
among those affected when mountain bike access is restricted. We 
encourage Senator Wyden to continue working with the International 
Mountain Bicycling Association and their Oregon affiliated clubs to 
accommodate existing and future bicycle trail access. Once adjustments 
have been made, we hope Congress passes legislation which protects the 
land in perpetuity.
    Last year more than 39 million Americans participated in 
singletrack bicycling and almost 7 million consider themselves 
enthusiasts (Outdoor Industry Association). In Oregon, mountain biking 
is a popular sport with close to 400,000 people participating in 2003 
(Outdoor Industry Foundation).
    Oregon has a long history of innovative public policy solutions and 
unifying groups for a common goal. We encourage the Oregon delegation 
and the entire committee not to confine the debate to historical 
Wilderness definitions. We thank Senator Wyden for starting down this 
path by proposing the Mount Hood Pedalers Demonstration Experiment Area 
(Hood-PDX), which would manage 13,000 acres like Wilderness, while 
allowing for continued bicycle access. We hope Oregon will set a 
national model for protecting the land and accommodating existing bike 
use of this growing sport.
    At stake in S. 2723 are fabulous riding routes such as Larch 
Mountain, Bonney Butte, Frog Lake, Sandy River, Devils Peak, and 
Roaring River. These beautiful trails attract cyclists from around the 
state and around the nation. Cyclists spend money on lodging, food, 
gas, and at their local bike shops. They hire tour guides, buy cycling 
gear, and generally bolster the local economy.
    Thank you for the opportunity to submit comments on this precedent 
setting legislation. It is extremely important to the mountain bike 
community that Congress understands the role cycling plays to the 
economy, the health, and the quality of life of Oregonians. Please work 
to pass legislation that protects the land, but doesn't displace 
cyclists from trails they have ridden for years.
            Sincerely,
                                         Oregon Bicycling Industry.
                                 ______
                                 
     Statement of Hon. Jon Porter, U.S. Representative From Nevada
    Good morning, I would like to thank the Chairman and members of the 
Subcommittee for holding this hearing today on S. 2532, the Lincoln 
County Conservation, Recreation, and Development Act of 2004. I 
appreciate you allowing me to testify in support of this valuable 
legislation. I would also like to thank Senator Ensign and Senator Reid 
for introducing this legislation and for all of their hard work on this 
issue. I am proud to be a cosponsor of the House version of this 
legislation, HR 4593, which was introduced by Congressman Gibbons. 
During hearings by the House Committee on Resources Subcommittee on 
National Parks, Recreation, and Public lands I had the opportunity to 
offer testimony in support of HR 4593 in July of this year. This 
legislation represents an important compromise and enjoys strong 
bipartisan support from the entire Nevada Congressional delegation.
    The Lincoln County Conservation, Recreation, and Development Act of 
2004 is important legislation for Nevada. Representing Nevada's Third 
Congressional District and the people of Las Vegas, Henderson, Boulder 
City, Laughlin, Searchlight, and the Moapa Valley, I would like to 
focus on the additional resources this legislation will help bring to 
Southern Nevada. The area I represent in Congress is one of the fastest 
growing areas in the nation. The growth of Clark County has been 
significant, and is a tribute to the leadership of our elected and 
administrative officials, the hard work and dedication of local 
developers, and the economic success of the Las Vegas region.
    We have worked hard in Southern Nevada to ensure the organized, 
strategic and orchestrated growth of our community while still 
maintaining and preserving many of Nevada's environmental treasures and 
resources. This growth, while impressive, has created and placed new 
and increased pressures on our existing precious resources, such as 
infrastructure, education and water. In my 20 years in public office, I 
have seized opportunities to better manage this growth and the 
responsibilities and liabilities it brings. I see the Lincoln County 
Conservation, Recreation and Development Act as legislation that can 
benefit Southern Nevada, Lincoln County, and the state of Nevada as our 
economy and population continues to grow, specifically with the 
development of additional water resources.
    At a time when Clark County continues to lead the nation in growth 
with thousands of new residents each month, Nevada has access to the 
smallest water allocation of the seven states using the Colorado River. 
In response to the growth of Clark County, the Southern Nevada Water 
Authority (SNWA) was formed in 1991 to coordinate regional water supply 
issues, promote conservation, acquire additional water resources, and 
develop the treatment and transmission facilities needed to deliver 
water to the local community.
    The history of Southern Nevada is tied to water. The increases in 
population and demand have been rapid and large, and long term 
forecasts of growth and water demands have typically underestimated the 
actual results, often by large margins.
    In 1922, the Colorado River Compact defined the geographic areas of 
the upper and lower basins of the Colorado River. It also apportioned 
7.5 million acre-feet per year to the upper basin and the same amount 
to the lower basin, which includes Nevada. The 1928 Boulder Canyon 
Project Act authorized the apportionment of 300,000 acre-feet per year 
to Nevada, which at the time was viewed as a more than reasonable 
amount as no one foresaw the changes that would occur in the future. 
However, by 2002, Southern Nevada's population had increased to 1.6 
million people, most of whom reside in the Las Vegas Valley, and water 
use had increased to approximately 520,000 acre-feet, almost all of 
which was Colorado River Water. As a result, we must remain committed 
to maximizing the use of available Colorado River water while at the 
same time making use of existing in-state resources.
    As drought continues in the West and our state continues to grow, 
the development of in-state water resources grows increasingly 
important. This legislation will help with the proposed development of 
our in-state resources intended to diversify our water supply and 
supplement Nevada's water entitlement from the Colorado River. The 
Lincoln County Conservation, Recreation, and Development Act will help 
to expedite a solution to Southern Nevada's current water situation 
without compromising public involvement and environmental compliance.
    For the past decade, Colorado River water and conservation have 
been the most cost-effective options to meet demands in Southern 
Nevada. However, as we plan for the future, the continued development 
of additional water resources has become necessary. Development of in-
state water resources will provide Southern Nevada with a long-term, 
reliable water supply to meet the increased demands of a growing 
population and ensure supply during times of drought. Accessing these 
resources requires significant investment, and S. 2532 is an important 
step forward in achieving these goals.
    Once again I would like to thank the Chairman and members of the 
Subcommittee for allowing me to testify. I look forward to continuing 
to work closely with my fellow members of Nevada's Congressional 
Delegation, members of the House Resources Committee and Senate Energy 
and Natural Resources Committee, and distinguished community officials 
and leaders to examine this important legislation.
                                 ______
                                 
  Statement of Frederic C. Johnson III, President, Industrial Mineral 
 Developments, Inc., and Licensed Professional Geologist, Las Vegas, NV
    Honorable Mr. Chairman, thank you for this opportunity to offer 
some testimony and suggestions on this legislation. I am a licensed 
professional geologist with over 30 years of experience in the 
environmentally responsible development of mineral resources for the 
betterment of local, state and national economies though out the 
western states and especially in Nevada. I am primarily an Industrial 
Minerals geologist.

                                CONCERNS

    For the most part this legislation has many benefits for Lincoln 
County and long term benefits for Clark County, Nevada; however, I am 
not alone when I echo local residential concerns over the expansion of 
wilderness designations without proper studies that previous 
environmental laws NEPA and FLPMA mention to determine the effects of 
wilderness designation on the economic livelihoods of local residents.
    It is disconcerting that there is NO Minerals Section in this 
legislation. I strongly urge that proper mineral inventory be cited and 
that a minerals section be added to this legislation.
    Industrial minerals and materials are the building blocks of all 
society, and the access for exploration and development of these 
minerals is vital to the economic and socio-economic structure of local 
as well as state economies and cultures. It is a little known, but 
factual average that every human being in the United States uses over 
40,000 pounds of minerals each year of his or her lifetime.
    I am very concerned that insufficient to no mineral and mineral 
potential inventories have been done in several areas proposed for 
Wilderness inclusion. This could cause economic harm to the County of 
Lincoln, the State of Nevada, and the Country by prohibiting economic 
development, and draining energy to truck or move materials needed for 
growth from sources outside of the County or State when they may be 
available near sites of use.
    As noted, this legislation has many good points and is highly 
desired by many officials, but the Wilderness designations in areas 
recommended unsuitable for wilderness and in areas never inventoried 
for potential economic resources is woefully inadequate to protect 
Lincoln County's future. For this reason, and because I have learned 
through my 30 years of experience that flexibility is the key to 
success; my testimony on S. 2532 will be directed at the negative 
potential of this legislation to remove lands from the exploration for 
and the development of industrial mineral wealth. This wealth is there 
and is presently needed in neighboring Clark County and will be needed 
to develop the new Lincoln County lands given by this same legislation. 
Undiscovered and untapped mineral potentials in un-inventoried lands 
proposed for Wilderness in Lincoln County, Nevada can be locked away 
from future use and actually hurt the rural local economy. This 
potential mineral wealth is well suggested and indicated by records and 
documents of the Nevada Bureau of Mines (NMB). One example of this type 
of documentation is NMB Bulletin 73 on Geology and Mineral Deposits of 
Lincoln County, Nevada that was prepared in cooperation with the United 
States Geological Survey in 1970. One has only to look at the 
industrial mineral traffic that travels daily nearby this County on the 
nearby 1-15 Cana-Mex corridor to understand the importance of finding 
close by industrial minerals in mineral rich Lincoln County for growth 
and energy conservation. I know that there are many good things in this 
legislation for Lincoln County, but in the rush to get these gains for 
the County and for neighboring Clark County a large part of Lincoln 
County's future is being overlooked by disallowing the use of local 
minerals to supply local growing markets. The fact that there is no 
mention of minerals in the entire text of the legislation makes it very 
obvious to a resource professional that the mineral resource potential 
of the un-inventoried lands proposed for wilderness have either been 
overlooked, or have been thoroughly (probably unintentionally) 
misrepresented. I suggest some study of the lands proposed for mineral 
withdrawal before wilderness designation.

                                 WATER

    Another important concern is the language of the legislation that 
refers to water in the proposed wilderness areas. In Sec. 204.(d) Water 
Rights (1) Findings (D) ``the land designated as wilderness by this 
title is generally not suitable for use or development of new water 
resource facilities. What research is this statement based on? And how 
can something that will forever be impacted as Wilderness exclusion be 
generalized?
    The word ``Shall'' is always taken as a strong directive when 
issued from Congress to a managing agency and should only be used in 
direct short sentences that cannot be misconstrued by interior 
solicitors. There should be no room for interpretation in a ``shall'' 
directive. I suggest that the language in Sec. 204.(d)(3) NEVADA WATER 
LAW--be changed to state only that ``The Secretary shall follow the 
procedural and substantive requirements of the law of the State in 
order to obtain any water rights.'' Strike the ending clause about 
designated wilderness to disallow interpretation of intent. The intent 
is addressed in 204.(d)(2)(A). It seems that an ``otherwise'' noted in 
204.(d)(4)(B) would be 204.(d)(2)(B). Is this intended as such or are 
the two items in conflict with each other. It seems that the 
uncertainties here would direct and allow the United States to unfairly 
acquire and develop water and water rights in Wilderness areas. This 
would be unfair because who else would want the water rights that could 
not be developed in Wilderness areas? How would development for 
beneficial use as required by the State be done in adherence to the 
Wilderness Act of 1964. I know there is a rush to pass this act, but 
care should be taken to not exceed the 1964 Act with exceptions and 
leave this legislation up to legal judicial contest.

                       MINERALS AND ACCESS AGAIN

    Honorable Mr. Chairman, Honorable members of the Subcommittee, and 
Honorable members of the full Committee please consider the following 
list of concerns on minerals and access :

  <bullet> Only the BLM suitable WSA's and a few portions of 
        unsuitables were ever inventoried for mineral resources.
  <bullet> These BLM-U.S. Bureau of Mines inventories were done with 
        old technology and incomplete databases that could certainly be 
        enhanced with new mineral inventories done using our much 
        improved abilities to inventory mineral potential.
  <bullet> This legislation is lacking a tool to inventory lands that 
        were deemed unsuitable by BLM for Wilderness and those new 
        areas proposed for Wilderness in S. 2532.
  <bullet> Several new areas that were not even WSA's are being 
        proposed for Wilderness in this legislation with out any 
        inventory of minerals at all.
  <bullet> Some of the new areas such as the East Mormon Mountains are 
        laced with roads and prospects that obviously disqualify them 
        as Wilderness.
  <bullet> Present literature indicates high industrial mineral and 
        material potential in some of the new Non-WSA areas being 
        proposed for Wilderness.
  <bullet> The effects of the withdrawal of 750,000 acres of ACEC's 
        from mineral entry in the Clark County Bill of 2002 are driving 
        mineral exploration into neighboring Counties like Lincoln 
        County to look for future industrial use minerals.
  <bullet> Clark County presently has applications from 2 companies to 
        build a Cement plant to supply growth in southern Nevada.
  <bullet> The making of Cement has to have the use of the following 
        industrial minerals that are found nearby in Lincoln and Clark 
        Counties within withdrawn and proposed Wilderness lands: Iron, 
        Clays and ashes for pozzolan, Aluminum rich minerals (clays 
        found in Lincoln County near and in proposed un-inventoried 
        wilderness and proposed ACEC's, gypsum as a sulfate source 
        (Nearby Lincoln and Clark Counties), and special types of 
        silica and aggregate.
  <bullet> Other minerals such as Wollastonite (a Calcium Silicate) are 
        important in the making of glass are known to border and may 
        trend into some proposed wilderness areas designated in the 
        Lincoln County HR 4593 legislation.
  <bullet> A previously un-known potential for platinum and nickel 
        group metals is included in un-inventoried Wilderness 
        proposals.

    In short, the indiscriminate and unstudied removal of important 
mineral resources from use adjacent to developing areas such as Clark 
County and the proposed disposal areas in Lincoln County have profound 
un-intended consequences that should be weighed and adjusted for before 
passage of this legislation. Growth in Clark and Lincoln Counties will 
not stop; therefore, industrial minerals for growth will be needed. 
Resources need to be identified and left open for exploration and entry 
by those entrepreneurs who would take the risk to help the economic 
development of community. Intense restrictions on nearby identified 
resources drives development and jobs away from the areas of need and 
they fuel an ever spiraling Energy Crisis with increased transportation 
and fuel costs. The continuing and escalating removal of mineral lands 
from development not only hurts local people but it hurts our nation in 
a time of need by increasing our dependence on foreign materials and 
exporting our jobs into countries with less environmental conscience. 
The passage of this legislation without proper study of the 
consequences of proposed wilderness designation on Energy goes directly 
against the President's May, 2001 Energy Executive Order # 13212 that 
has the best interests of our Country in mind.
    I know that there is a strong push to get this legislation passed, 
but for all of the above reasons and the future of Lincoln County, I 
would respectfully ask that the Committees and Sub-committees look 
closely at inventorying the proposed new un-inventoried areas before 
designating them as wilderness. Let us do as it says on the House 
Natural Resources web-site title by using ``Science and Common Sense in 
Environmental Policies''.

                         SITE SPECIFIC COMMENTS

    Honorable Mr. Chairman, I offer the following comments on specific 
un-inventoried sites. Some of these areas were not Wilderness Study 
areas but were ``whole cloth'' (out of ``no inventory'' wilderness) and 
some of the areas proposed were originally recommended ``Unsuitable'' 
for wilderness. In fact the Nevada Division of Minerals has strongly 
advised against this type of ``out of nowhere'' wilderness. I 
respectfully think that all the areas that were not originally 
wilderness study areas should be held in abeyance until mineral 
inventories are done to insure that Lincoln County, the State, and the 
Country will not lose the economy and benefit of needed minerals for 
their future. I will supply maps and data to the Subcommittee for 
review via mail. I pulled the BLM claim files and will include them 
with maps and comments.
    This is not an inventory but a list of specific area concerns noted 
by review of mining claim data, reported mineral data, and maps and 
satellite and aerial photos of the mentioned areas. One way to conduct 
a quick inventory of known or once known minerals is to search the BLM 
Claim index of active, closed and void claims to denote areas that are 
and were of interest to exploration companies. Areas that show heavy 
claiming should be checked out by searching the BLM WSA database, by 
looking at mineral reports done by the Nevada Bureau of Minerals and 
USGS publications. This type of inventory with some on the ground 
proofing should be done to set boundaries on new areas and all areas 
going into wilderness, and until this is done boundaries should remain 
fluid. This would also hold true for inventories for environmental 
reasons. One must understand that for the last 25 years of Wilderness 
Study area listing, no mining companies wish to explore in these areas 
that cannot be developed; therefore, there has been no recent 
exploration.
    Note that the Claim data used includes new, active, and old un-
active claims because it is a proven fact that old mining areas many 
times are the target for new mining and exploration technology. And it 
is a know fact that the lack of known minerals does not mean the lack 
of minerals.
EAST MORMON MOUNTAINS (New ? No inventory, Active discovery area, Roads 
        and Mining digs seem to make area un-suitable.)
    The geology of the East Mormon mountains includes un-mineralized 
Paleozoic limestone at the center higher elevations with contacts above 
much older mineralized Pre-Cambrian metamorphic rocks on the lower 
flanks near the east and west (main Carp road) road accesses. On the 
east side of the range a very prominent fault contact is visible from 
photo and on the ground between the older intruded Pre-Cambrian 
mineralized section and the Paleozoic limestone that makes up the 
center of the range (See maps). Tschanz and Pampeyan (1970) noted the 
mineralization in Nev. Bur. Of Mines and Geology Bull. 73 and later, 
NBMG Report 45 by Tingley (1989) expanded on mineralization in the East 
Mormons with USGS assays (See report).

  <bullet> Mineralized areas and prospects on both the east and west 
        sides of this newly proposed wilderness are accessed by RS 2477 
        roads (see maps)
  <bullet> Mineralization occurs in older Pre-Cambrian rocks as heavy 
        ultra mafic rocks that can have several industrial uses, as 
        high grade disseminated tungsten (sheelite) and precious metals 
        mineralization as noted by the Nevada Bureau of Minerals and 
        the U.S. Geological Survey.
  <bullet> The east central portion of the range has been heavily 
        prospected, roaded, and even has some old 1940's housing 
        structures.
  <bullet> This portion of the range is obviously not Wilderness 
        characteristic.
  <bullet> There are at least 2 companies that are working toward 
        mineral extraction permits in this range. Exploration has been 
        going on for over a year because this was on of the mineralized 
        areas that was not in a Wilderness Study area, and now it is 
        proposed for Wilderness.
  <bullet> I have some claims in the range and have been prospecting 
        them for over a year.
  <bullet> How is one to know where to prospect and expend effort and 
        money toward mineral development when there is no announcement 
        that the area is to be included in Wilderness. This is 
        certainly unfair to business.
  <bullet> Roads are evident into the area from the western portion of 
        the range toward from the west to east.
  <bullet> After removal of so much area in Clark County from mineral 
        development including decorative rock, some companies moved 
        into Southern Lincoln County where there were no Wilderness 
        Study areas, and the East Mormons is one of those areas.
  <bullet> Please look at the maps and USGS photos I have included with 
        this testimony and re-consider putting this obviously 
        unsuitable area in Wilderness.
WEST MORMON MOUNTAINS (Partially Suitable Edges need some adjustment)
    The core of this area was recommended as suitable for wilderness; 
however there are several access roads (RS 2477 roads) into the range 
that should be cherry-stemmed. In addition there are several mineral 
deposits that I'm sure have received some study by the U.S. Bureau of 
Mines and U.S. Geologic Survey. These areas and the areas that are 
mineralized that were and are under claim should be the bordered as the 
cherry at the end of the stem (road). A Vermiculite deposit (noted in 
the Nev. Bureau of Mines Bulletin 73) is located on the west side of 
the range and potential Iron deposits to the North at the end of a 
cherry-stemmed road are examples of important minerals that need 
attention. Lower BLM recommended unsuitable areas in this range were 
because of the access roads that should disqualify these portions from 
wilderness. See the list of claims by Township and Range with penciled 
comments.
MEADOW VALLEY RANGE (Central Core Suitable, Edges recommended 
        unsuitable, some un-suitable taken in proposal needs review and 
        adjustment)
    A very important and pure Gypsum Deposit is located and claimed 
above the railroad in T 10S R 66E. A portion of this deposit is not in 
the proposal, but the inclusion of more BLM un-suitable area than was 
originally inventoried by BLM is including some of the claims and not 
leaving room for mining of this deposit. The boundary in this area 
needs adjustment. Large companies have expressed interest in this 
deposit. There are also some deposits of Perlite with active claims in 
the northern part of the range near the proposed wilderness boundary.
    I have also included the claim research for this range (see data).
CLOVER MOUNTAINS (Central Core Suitable, Some edges recommended 
        unsuitable, some areas taken in proposal need review and 
        adjustment)
    This range is highly mineralized in part and has some active claims 
that may be enclosed on the Northwest edge of the range around the 
known gold bearing areas. I strongly recommend looking closely at the 
BLM data (U.S. Bureau of Mines, and USGS) data to insure that areas 
with road access to mines and prospects are cherry-stemmed and cherries 
are put around potentials if possible to allow room for mining. The 
Clovers have Iron, Hi-Aluminum Clays, Calcium silicate, and gold. A 
sizeable deposit of Wollastonite (Calcium Silicate), an important 
industrial mineral in making glass and other ceramics, is located along 
the Southeast border of the proposed wilderness and it is unknown if 
there is a continuation of this mineralization into the proposed 
wilderness. I have included the claim research for the proposed area by 
Township and Range from the BLM files. There are some interior roads 
that will need cherry-stemming. I have personally driven to several 
mineralized areas along the edges of the Clover Mountains proposed 
wilderness.
DELAMAR MOUNTAINS (BLM Recommended Unsuitable)
    This range was originally recommend un-suitable by the BLM. The 
claim research shows very few claims in the portion of the range 
proposed for wilderness. There are some roads that should be cherry-
stemmed (more roads than noted on the maps are seen on photos) and some 
are important access to wildlife conservation projects. Actual 
amendments to the Wilderness Act of 1964 would have to be done to allow 
vehicular access to the wildlife projects. If any data is available to 
support BLM's unsuitable determination, it should be reviewed. Claim 
data and maps are included with these comments.
MOUNT IRISH (New) was not a WSA (Northeast portion needs review of 
        data)
    Aside from the road access that should be cherry-stemmed, the South 
and Northwest portions of this proposed area have and have had no 
claims (see data). However, there is some evidence that mineralization 
is in the Northeast portion of the proposed area. This is another area 
that was not even a wilderness study area. See Claim data enclosed and 
maps.
BIG ROCKS (Another New Non-WSA area)
    This area proposed for wilderness is not a WSA. Claim research 
indicates some past claims by a gold mining company. These claims are 
old and there is no indication of intense mineralization in this area. 
For proper inventory, this area would need a field check by a 
geologist. See Claim data enclosed.
FORTIFICATION RANGE (BLM Recommended Unsuitable)
    Claim research of this area shows claims outside the proposed area 
but not in it. Old BLM data should be consulted for their inventory to 
insure that something that make the area non-suitable is not 
overlooked. Claim data enclosed.
    I think this claim inventory approach should be taken in the other 
areas proposed for wilderness inclusion to understand where the 
potentials may be.
    Thank you for this opportunity to testify and supply some data on 
the important wilderness portion of the Lincoln County Legislation.
                              suggestions
    I respectfully submit that the un-inventoried areas can be 
researched by literature and maps in a rapid fashion (use the Lincoln 
County Report and others). Actual ground truthing would be necessary in 
only a few areas, and of course not everything will be found. I believe 
that a caveat needs to allow flexible boundaries in un-inventoried 
wilderness for later found resources that can be developed with 
mitigation to other resource concerns and boundary changes that allow 
no net loss of stated Wilderness acreages. A very good way to preserve 
unknown potential and still get wilderness is to follow the desires of 
the County and cherry-stem all roads. Each road went to its destination 
with a purpose and all old mining areas had an RS2477 road access. In 
this case, identify the ``cherry'' (mining area) that the stem was for 
and put it into the cherry stemmed area to allow development if the 
resource meets all the other tests for viability. A lot of this can be 
done with maps and reports and I would gladly help this effort to 
preserve the AREAS of CRITICAL MINERAL and ENERGY CONCERN in Lincoln 
County. Provisions in S. 2532 should be made so that if large resources 
are found along the borders of instated Wilderness and they can be 
responsibly developed, then managing agencies can shift the boundaries 
by give and take with no net loss of wilderness acreage. The RS 2477 
issue has not been resolved and it would not be wise to put any County 
Roads in Wilderness without cherry-stemming (RS2477 Oversight Hearings 
in the Resources Committee, June 28, 2004). In fact a special paragraph 
protecting the County's RS2477 access right should be crafted for 
inclusion in this legislation.
    Finally, I sincerely believe that few of the people of Lincoln 
County actually understand the positive and potentially negative 
ramifications of this legislation. If more time was given for press to 
get information to the people and for their continued testimony, then 
the final product may reflect a wider public view with more good ideas. 
The recent ``town hall'' type meeting with our delegation in Panaca was 
a good example of the unfortunately un-informed public. When Hon. 
Senator Reid answered Honorable Commissioner Tommy Rowes' statement 
that he felt that Lincoln County had been compromised with the 
expansion of the Wilderness; Hon. Senator Reid replied that without 
compromise we might as well not even have a Bill. This statement 
brought cheers from the majority of the people at the meeting, 
prompting the thought that if they only understood?
    Again I would like to express my sincere thanks for this 
opportunity to join in the legislative process in this greatest Country 
of all where any individual under the law has the right and obligation 
to join in the legislative process so that we may always remain a 
government ``by the people''.
                                 ______
                                 
    Statement of Christopher Krupp, Western Land Exchange Project, 
                              Seattle, WA

    My name is Christopher Krupp, and I am the staff attorney of the 
Western Land Exchange Project, a non-profit organization monitoring 
federal land sales and exchanges and working for long-term substantive 
reform in federal land disposal policy. I submit this testimony to urge 
you to oppose S. 2532, the Lincoln County (Nevada) Conservation, 
Recreation, and Development Act of 2004 and request that this be 
entered into the record.
    Title I of the bill would order the sale of more than 100,000 acres 
of public land in Lincoln County. There is no sound basis for a public 
land sale of this magnitude anywhere, much less in a county with fewer 
than 4,000 people. Worse, the bill defies the normal practice of 
returning the proceeds from public land sales to the Treasury's general 
fund. Instead, it directs that 45 percent of the proceeds be paid 
directly to Lincoln County for use for economic development. This is a 
terrible precedent to set, and it is easy to imagine many county 
governments seeking similar bills for themselves in the next Congress. 
The press has already reported that Elko County, two counties to the 
north of Lincoln County, is busy preparing a draft of a bill similar to 
S. 2532 for its own wants. I do not wish to discount the significance 
of many counties' current budget difficulties, but Federal lands are 
for the benefit all Americans, and not to serve as a quick source of 
cash for local governments experiencing budget shortfalls.
    Title I also contradicts an earlier Act of Congress and overturns a 
recent federal court order. The Lincoln County Land Act of 2000 
(``LCLA''), P.L. 106-298, directed the Secretary of the Interior to 
sell 13,500 acres of land to the highest bidder, but only after 
complying with the National Environmental Policy Act (``NEPA''). The 
Western Land Exchange Project, the Center for Biological Diversity and 
the Committee for the High Desert sued the Bureau of Land Management 
when it neglected to comply with NEPA. The United States District Court 
for the District of Nevada found for the plaintiffs and ordered the 
Bureau to re-do its environmental analysis before trying to sell land 
under the authority of the LCLA. But Title I explicitly instructs the 
Interior Secretary to disregard the LCLA and implicitly directs her to 
pay no heed to the federal court order when selling the 13,500 acres 
within 75 days of the bill's passage.
    S. 2532's Title III is another big giveaway of public assets to 
local interests. It would establish almost 450 miles of utility 
corridors for two water providers, as well as require the Secretary to 
grant no-fee rights of way to the two providers, both inside and 
outside the corridor. The Federal Land Policy and Management Act of 
1976 (``FLPMA'') established procedures for designating utility 
corridors and authorizing/leasing rights-of-way across public lands. 
This bill would sidestep those long-standing procedures for the 100% 
post-consumer content benefit of the two water providers, one of which 
is a for-profit joint venture between Lincoln County and a corporation 
to market and sell water outside Lincoln County.
    Title III would also further sprawl in the desert, as the utility 
corridors and rights-of-way are for a pipeline to take water from rural 
Nevada to Las Vegas. With this bill, sprawl in the Las Vegas Valley 
will become a vicious cycle, with additional water supplies furthering 
additional development demanding additional water supplies.
    Title III wants to have it both ways regarding environmental 
analysis, in that it requires an environmental study but then prohibits 
consideration of the study when it comes time to authorize projects. On 
one hand, Title III orders the Interior Secretary to comply with NEPA 
before she grants any rights-of-way. But it also gives the Secretary no 
discretion to contemplate the results of the NEPA analysis--that is, 
she has no choice but to grant the rights-of-way, no matter what NEPA 
analysis shows the impacts to be. If the bill sponsors are sincerely 
concerned about the environmental impacts of the utility corridors and 
rights-of-way upon a fragile desert, a more thoughtful approach would 
be to grant the Secretary the discretion to decide whether or not to 
grant the rights-of-way.
    In addition to the sale of 100,000 acres of public land under Title 
I, Title V of S. 2532 would grant, for free, more than 13,000 acres of 
public land to Lincoln County and the State of Nevada to use either as 
open space parks or to conserve natural resources. I have visited 
Lincoln County and I cannot fathom the slightest need for additional 
open space. Nor can I conceive any benefit to turning responsibility 
for conserving natural resources over to the State and County for the 
lands in question.
    Title VI would relocate an unoccupied transmission corridor from 
undeveloped private land to public land formerly part of a Wilderness 
Study Area and currently within the Desert National Wildlife Refuge. 
Title VI directs an arcane method for calculating the market value of 
the transmission corridor on private land. The valuation method would 
greatly understate the current market value of the transmission 
corridor, resulting in a windfall for the private landowner.
    In summary, I urge you to oppose S. 2532. The bill places local 
Nevada interests well above the interest of the American public. It 
also disregards long-standing law in establishing utility corridors and 
rights-of-way, and unnecessarily overturns a federal court order 
directing the Bureau of Land Management to consider a broad range of 
environmental impacts before disposing of public land. Thank you for 
your consideration.
                                 ______
                                 
  Statement of Gregory H. Aplet, Ph.D., Senior Forest Scientist, The 
                           Wilderness Society

    As a forester and an ecologist with over 25 years experience in 
this field, I appreciate the opportunity to submit testimony in 
opposition to the National Reforestation Act of 2004. Throughout my 
research career, I have studied the recovery of vegetation from 
disturbance and published dozens of articles and chapters on 
disturbance ecology and its implications for forest management. I have 
concluded that S. 2709 would not enhance sound management of federal 
forestland.
    I am submitting this brief testimony to ensure that three simple 
truths about reforestation become part of the hearing record: 1) that 
artificial reforestation following natural disturbance is largely 
unnecessary, 2) that artificial reforestation short-circuits natural 
recovery processes, and 3) that reforestation leads to uniform, simple 
forest stands, with high fire risk and little wildlife or conservation 
value.

ARTIFICIAL REFORESTATION IS UNNECESSARY TO THE RECOVERY OF FORESTS FROM 
                              DISTURBANCE

    Fire, windstorms, insect outbreaks, and other disturbances of 
forest ecosystems have been part of the dynamics of forests for as long 
as there have been forests. As a result, the species that occupy those 
forests have developed adaptations to those disturbances that allow 
forests to recover--without any help from humans. Windblown seeds, 
serotinous cones that open after fire, and sprouting from underground 
structures are familiar adaptations to fire. It may take a little 
while, but forests generally grow back after disturbance.
    As a result, artificial reforestation is generally unnecessary to 
recover a forest following natural disturbance. Instead, reforestation 
is conducted for the purpose of shortening the recovery period and 
accelerating the period during which wood can be grown in a fully 
stocked timber stand. While there are land owners, particularly 
commercial timber companies, who benefit from accelerating timber 
growth, public lands are managed under a multiple use mandate, where 
timber is but one value produced from the forest. Reforestation is an 
intensive timber management practice that should be reserved for where 
fiber production is the main objective.

              REFORESTATION SHORTCIRCUITS NATURAL RECOVERY

    As mentioned, the purpose of reforestation is to shorten the period 
of time during which non-forest vegetation occupies the post-
disturbance environment. In many cases, however, that post-disturbance 
vegetation is very important to the ecosystem. Many species are adapted 
to open, post-fire conditions and many more benefit from the pulse of 
grasses, wildflowers, etc. that flourish following fire. Meadows and 
shrublands form important wildlife habitat for species that also occupy 
the forest. It has been reported that in our zeal to eliminate fire and 
quickly reforest following clearcutting, we have virtually eliminated 
post-disturbance vegetation from the landscape. According to Dr. Jerry 
Franklin, ``naturally recovering--unsalvaged and unplanted disturbed 
habitat is currently the scarcest type of successional habitat in the 
Pacific Northwest, much rarer than old-growth habitat.''
    In addition to eliminating an important forest structural stage, 
reforestation with timber species may also interfere with the recovery 
of forest fertility. Post-fire species such as lupine and alder add 
nitrogen to the soil that can remain available for tree growth for 
decades or more. Reforestation usually involves commercial tree 
species, such as Douglas-fir, that do not fix nitrogen. Accelerating 
Douglas-fir forest development shortens the period of time over which 
soil fertility increases, leading to long-term reductions in soil 
fertility.

REFORESTATION RESULTS IN UNIFORM FORESTS OF LOW CONSERVATION VALUE AND 
                          INCREASED FIRE RISK.

    As an intensive management practice, reforestation generally aims 
to produce uniform, ``fully-stocked'' stands of trees that will yield 
maximum wood volume over time. Such stands have even spacing and a 
uniform, closed canopy that allows little light to penetrate and 
support understory plant growth. The uniformity is exacerbated by 
salvage logging that removes the post-disturbance ``legacy'' of snags 
and down logs. As Franklin and others \1\ noted,
---------------------------------------------------------------------------
    \1\ Franklin, J.F., Spies, T.A., Van Pelt, R., Carey, A.B., 
Thornburgh, D.A., Berg, D.R., Lindenmayer, D.B., Harmon, M.E., Keeton, 
W. S., Shaw, D.C., Bible, K., and J. Chen. 2002. Disturbances and 
structural development of natural forest ecosystems with silvicultural 
implications, using Douglas-fir forests as an example. Forest Ecology 
and Management 155:399-423.

          The diversity of structures, importance of spatial pattern, 
        richness of developmental processes, long time periods 
        essential, and especially, the complex contribution of 
        disturbances to stand development processes typically receive 
        little attention in traditional silviculture . . . Management 
        goals have been to minimize variability in tree size and 
        condition and create spatially homogenous, fully stocked 
        stands. These traditional regimes are not based upon models of 
        natural stand disturbance and development, as they are 
---------------------------------------------------------------------------
        currently understood.

    Forests recovering naturally from disturbance are not as dense or 
uniform, allowing more light to reach the forest floor and support 
other species, and they maintain abundant coarse wood legacies, 
enhancing the diversity of the recovering stand.
    In addition to producing stands of low conservation value, the 
resulting dense, uniform stands have been shown to present a fire 
hazard. Researchers in California have found the dense, uniform 
conditions of artificially regenerated forests to be ideal conditions 
for unnaturally hot fires.\2\ In the Southwest, research has shown that 
post-fire plantations have either failed entirely or come back in 
moderate to ``excessively high'' densities,\3\ precisely the opposite 
result of the intent of current restoration efforts in the region aimed 
at establishing low-density forests. These high-density stands carry 
high-intensity crown fires, rather than the cool underburns that are 
the objective of management.
---------------------------------------------------------------------------
    \2\ Weatherspoon, C.P. and C.N. Skinner. 1995. An assessment of 
factors associated with damage to tree crowns from the 1987 wildfire in 
northern California. Forest Science 41:430-451.
    \3\ Dr. Melissa Savage, personal communication.
---------------------------------------------------------------------------
    In summary, because forests are generally well adapted to recover 
from disturbance, artificial reforestation is unnecessary to ensure the 
long-term survival of forests. Reforestation instead leads to 
conditions that accelerate timber production, increase fire danger, and 
harm biological diversity and long-term forest health. Artificial 
reforestation is an appropriate practice in commercial timber 
plantations where foresters, as Aldo Leopold observed, ``are content to 
grow trees like cabbages,'' but it is not to be encouraged under the 
multiple-use mandate of the national forests. At a time in which so 
much attention is being placed on fire risk on public lands, it is 
ironic to see legislation introduced that may exacerbate fire risk on 
federal lands.
                                 ______
                                 
Statement of Dr. Dominick A. DellaSala, Director, World Wildlife Fund's 
                        Klamath-Siskiyou Program

    As a forest ecologist with over 20 years experience in forest 
ecosystems, including fire and forest health, I am submitting this 
testimony in opposition to S. 2709, the ``National Reforestation Act of 
2004.'' I request that my statement be included in the hearing record.
    I have been involved in numerous studies related to forest 
ecosystem health and recovery of forests following wildland fires 
throughout the West. Moreover, I have published dozens of peer-reviewed 
articles on fire ecology, including serving as a guest editor for the 
journal Conservation Biology, which recently published a special 
feature on Western fires. In support of my testimony, I am attaching a 
summary of this special feature and concerns expressed by scientists 
regarding the need for ecologically based restoration of landscapes 
following large wildland fires.
    I have four primary concerns about S. 2709: (1) proposed 
reforestation measures in moderate and high fire intensity landscapes 
will inhibit natural post-fire recovery processes vital to ecosystem 
health, fire resiliency, and biodiversity; (2) reliance on salvage 
logging will cause significant damage to post-fire recovery processes; 
(3) conversion of naturally recovering landscapes to tree plantations 
will come at the expense of biodiversity and fire resilient properties 
of forests; and (4) funds directed to forestry schools will not address 
broader ecosystem recovery needs following natural disturbances. Below 
I discuss these concerns in detail.

AGGRESSIVE INTERVENTION IS ECOLOGICALLY RISKY IN LANDSCAPES RECOVERING 
                FROM FIRES OF MODERATE TO HIGH INTENSITY

    For millennia fire has been a key ecological process essential to 
the health and productivity of forests and rangelands across much of 
the Western United States. Forests are uniquely adapted and resilient 
to large fire events, even those that burn under high intensities. 
Studies from Yellowstone National Park \1\ to the Biscuit fire area in 
southwest Oregon \2\ reveal a surprisingly quick rate of recovery even 
after the most intense fires. For instance, scientists \3\ recently 
performed Geographic Information Systems (GIS) mapping and satellite 
imagery interpretation of the Biscuit burn area. Based on this study, 
more than 90% of burned patches were within 660 feet of unburned areas 
that provide natural seed banks for recovery following fire. In 
addition, for the past 2 years, I have been documenting recovery 
processes on-the-ground within the Biscuit area observing recovery of 
rare plants, hardwood trees, and resprouting of conifer seedlings after 
this large fire event. These processes are being facilitated by the 
interaction of burned and unburned patches in the surroundings. My 
observations agree with other scientists that have documented similar 
natural recovery processes at work following the Yellowstone fires of 
1988.\4\ In both areas, recovery following large and intense fires was 
readily apparent within a few years and scientists cautioned about 
replanting burned areas since this would inhibit natural recovery 
processes from restoring healthy landscapes following fires.
---------------------------------------------------------------------------
    \1\ Turner, M.G., W.H. Romme, and D.B. Tinker. 2003. Surprises and 
lessons from the 1988 Yellowstone fires. Frontiers in Ecology and 
Environment 1(7):351-358.
    \2\ Odion, D.C. E.E. Frost, J.R. Strittholt, H. Jiang, D.A. 
DellaSala, and M.A. Moritz. 2004. Patterns of fire severity and forest 
conditions in the western Klamath Mountains, California. Conservation 
Biology 18(4):927-936.
    \3\ Strittholt, J.R., and H. Rustigan. 2004. Ecological issues 
underlying proposals to conduct salvage logging in areas burned by the 
Biscuit Fire.
    \4\ Turner, M.G., W.H. Romme, and D.B. Tinker. 2003. Surprises and 
lessons from the 1988 Yellowstone foes. Frontiers in Ecology and 
Environment 1(7):351-358.
---------------------------------------------------------------------------
    Many scientists concerned about impacts to native plant communities 
and erosion control effectiveness also have questioned the need for 
aggressive post-fire seeding (e.g., with grasses). While large, high-
severity wildfires remove vegetation and expose mineral soils, less 
than half of 62 studies reviewed by fire scientists \5\ have shown 
reduced sediment movement after seeding. Due to competition of seeded 
grasses, seeding often inhibits native plant recovery. Even ``weed 
free'' straw bale used for mulching and erosion control is known to 
contribute to the spread of noxious weeds from contaminated bales. I 
have personally witnessed these problems in the Biscuit fire area and 
other recovering landscapes in southwest Oregon (e.g., Quartz Creek 
fire area) where noxious weeds were sprouting from ``weed free'' straw 
bales. These problems exemplify the need to proceed with caution 
regarding reseeding and mulching of recovering landscapes because such 
activities can cause permanent damage to native plant communities 
already in recovery following fire events.
---------------------------------------------------------------------------
    \5\ Beyers, J. 2004. Postfire seeding for erosion control: 
effectiveness and impacts on native plant communities. Conservation 
Biology 18(4):947-956.
---------------------------------------------------------------------------
    The above concerns are the main reason why several scientists 
recently developed the attached wildlands fire restoration summary of 
the special fire issue published in the August edition of Conservation 
Biology. These scientists cautioned about ecological damages from 
aggressive reforestation and reseeding, particularly when monitoring 
indicates proximity of nearby seed sources is sufficient to allow for 
natural recovery. Any replanting should use native seed mixtures and 
target areas where ecological risks are relatively low such as sites 
already degraded by logging (e.g., plantations), areas damaged by fire 
fighting activities, and areas where infestations of exotic species are 
being spread along roads warranting the need to experiment with disease 
resistant strains. This is especially the case for both late-
successional reserves and unmanaged naturally regenerating forests 
following fires. In particular, the system of reserves under the 
Northwest Forest Plan was designed with the intent of allowing natural 
recovery processes to proceed unimpaired. Late-successional reserves, 
for example, were located with sufficient redundancy and within close 
proximity of one another to facilitate dispersal from unburned to 
burned areas of native seed sources. Aggressive reforestation would 
disrupt these processes and is inconsistent with the intent of late-
successional reserves. While natural processes can take over a century 
to develop older forest characteristics, the successional processes 
following disturbance events like fire, insects, and storms are vital 
to recovering ecosystem processes. Moreover, recent studies \6\ on 
disturbance processes indicate that serious ecological consequences 
result from compounded perturbations within the normative recovery time 
of disturbed areas--meaning that over-harvesting, invasion by weeds, 
and disease organisms exacerbate ecological impacts and overwhelm the 
restorative capacity of ecosystems before they can recover.
---------------------------------------------------------------------------
    \6\ Paine, R.T., M.J. Tegner, and E.A. Johnson. 1998. Compounded 
perturbations yield ecological surprises. Ecosystems 1998 (1):535-545.
---------------------------------------------------------------------------
          SALVAGE LOGGING DAMAGES POST-FIRE RECOVERY PROCESSES

    Nearly two-dozen articles have been published on the impacts of 
salvage logging, including a recent article in Science by Dr. Jerry 
Franklin (University of Washington), Dr. Robert Beschta (Oregon State 
University), and several colleagues.\7\ These studies indicate that 
salvage logging is virtually always damaging to soils, streams, and 
plant and animal life, and must not be considered a ``restorative 
action'' for post-fire landscapes. According to Dr. Jerry Franklin, 
``salvage logging of large snags and down boles does not contribute to 
recovery of late-successional forest habitat; in fact, the only 
activity more antithetical to the recovery process would be removal of 
surviving green trees from burned sites.'' Other scientists \8\ 
indicate that the removal of up to 25% of the standing volume of timber 
following fires can result in a significant pulse of sediment to 
streams, damaging macro-invertebrates and salmon spawning areas. These 
effects are exacerbated by logging of large trees (dead and alive) 
particularly on steep slopes and fragile soils following moderate to 
high severity fires.
---------------------------------------------------------------------------
    \7\ Lindenmayer, D.B., D.R. Foster, J.F. Franklin, M.L. Hunter, 
R.F. Noss, F.A. Schmiegelow, and D. Perry. 2004. Salvage harvesting 
policies after natural disturbance. Science 303:1303.
    \8\ Minshall, G.W. 2003. Response of stream benthic 
macroinvertebrates to fire. Forest Ecology and Management 178:155-161.
---------------------------------------------------------------------------
    In particular, large snags and logs of decay-resistant species, 
such as Douglas-fir and cedars, are critical as early and late-
successional wildlife habitat and are needed for sustaining key 
ecological processes associated with nutrient, hydrologic, and energy 
cycles.\9\ This is precisely why scientists recommend that forest 
managers maintain post-fire ``legacies,'' including large live and dead 
standing and downed trees. These structural components ``lifeboat'' the 
forest through recovery stages by providing critical nutrients, shading 
for seedling establishment, source populations for recolonization, and 
habitat for wildlife. These important forest structures often take 100-
200 years to become established and are most characteristic of old-
growth forests and recently burned natural forests recovering from 
fire. Fires, insect outbreaks, and storms are the recurring processes 
from which these important components are derived and therefore the 
retention of such forest legacies is vital to post-fire recovery 
processes.
---------------------------------------------------------------------------
    \9\ Franklin, J.F., and J. Agee. 2003. Scientific issues and 
national forest fire policy: forging a science-based national forest 
fire policy. Issues in Science and Technology 20(1):59-66.
---------------------------------------------------------------------------
TREE PLANTING CONVERTS NATURALLY RECOVERING LANDSCAPES INTO FIRE PRONE 
                AND BIOLOGICALLY IMPOVERISHED TREE FARMS

    Over 35 years of research in the Pacific Northwest indicates that 
tree plantations, which have replaced millions of acres of biologically 
complex natural forests throughout the region, lack the structural 
complexity and diversity of native forests.\10\ Moreover, decades of 
logging has converted such forests to monoculture tree farms, at the 
expense of fish and wildlife habitat and the resilience of native 
forests to fire. As an example, recent studies of logging in the 
Klamath Mountains of southwest Oregon and northern California indicate 
that logging levels have averaged about 50,000 acres each year since 
1972.\11\ In addition, over this same time period, logged landscapes 
have been replanted with densely stocked trees (monocultures) spaced 
tightly together and lacking the resilience of the original forests. 
Evidence from studies in California's Marbled Mountains indicates that 
tree plantations experienced twice as much severe fire as multi-aged 
(old) forests over a period of fires dating back to the 1970s. In 
addition, burn severities in these studies were found to increase when 
previously burned areas were salvage logged and replanted with conifers 
because such areas had higher fuel loads caused by logging slash left 
behind from logging operations and the tight spacing of planted 
conifers. The combination of high fuel levels and densely stocked and 
fire prone conifers predisposes plantations to high severity fires that 
race through these areas consuming their fine, combustible fuels. As 
such, scientists have cautioned against large-scale conversion of 
naturally recovering areas to tree plantations as this would set into 
motion a risky wildfire-logging-wildfire feedback loop that could lead 
to the return of severe fires in the future. Despite this, the Forest 
Service is proposing thousands of acres of tree planting and salvage 
logging in response to the Biscuit fire, setting into motion this 
destructive wildfire-logging-wildfire feedback cycle.
---------------------------------------------------------------------------
    \10\ Lindenmayer, D.B., and J.F. Franklin. 2002. Conserving forest 
biodiversity: a comprehensive multiscaled approach. Island Press, 
Washington D.C.
    \11\ Staus, N.L., J.R. Strittholt, D.A. DellaSala, and R. Robinson. 
2002. Rate and pattern of forest disturbance in the Klamath-Siskiyou 
ecoregion, U.S.A. Landscape Ecology 17:455-470.
---------------------------------------------------------------------------
    I would like to further note that large burned areas like the 
Biscuit are not a fuel hazard as most of the combustible fuels (needles 
and branches) were consumed in the Biscuit fire and the remaining large 
standing and dead trees are the very legacies that the forest depends 
on for its recovery. Salvage logging these trees will increase fuel 
hazards by removing the least flammable (tree bole) portion of burned 
trees and leaving behind fine fuels (branches and needles) for fires to 
spread rapidly. When coupled with conifer planting, such measures prime 
the ``fire pump'' for severe fire at the expense of fire resilience and 
biodiversity properties inherent in the naturally recovering landscape.

   DIRECT FUNDS TO STUDY AND PROTECT NATURALLY RECOVERING LANDSCAPES

    Our nation has some of the best forestry programs in the world. 
Forestry schools and land grant colleges, in particular, conduct 
important research on forest management and reforestation. However, the 
restoration of post-fire landscapes is much broader than planting trees 
to ``enhance reforestation.'' Ecosystem recovery requires a more 
comprehensive understanding of the natural recovery processes 
fundamental to forest ecosystem health. Unmanaged naturally recovering 
landscapes are even rarer than old-growth forests in the Pacific 
Northwest \12\ and scientists need a better understanding of how such 
forests recover following fire and their importance to threatened 
species such as the northern spotted owl. Such an understanding needs 
to be grounded in interdisciplinary studies that include hydrologists, 
botanists, soil scientists, wildlife and fisheries biologists, and 
other specializations. For these reasons, congressional funds should 
target studies of naturally recovering landscapes and their protection 
as fire Research Natural Areas rather than appropriate funds for 
damaging reforestation and logging activities.
---------------------------------------------------------------------------
    \12\ Franklin, J.F., and J. Agee. 2003. Scientific issues and 
national forest fire policy: forging a science-based national forest 
fire policy. Issues in Science and Technology 20(1):59-66.
---------------------------------------------------------------------------
                   NATURAL RECOVERY FOR NATURAL AREAS

    Large post-fire landscapes are an important laboratory for research 
into post-fire recovery processes of which we know very little. This is 
why places like the Biscuit area in southwest Oregon need to be allowed 
to recover on their own. This area in particular is known to contain 
exceptional levels of plant diversity, including many species found 
nowhere else in the world.\13\ Fire in this region has occurred for 
thousands of years, driving the area's unique ecology. The Siskiyou 
National Forest, in particular, contains the highest concentration of 
rare plants of any national forest in the nation; many of these plants 
depend on frequent fire of mixed severity. Large-scale salvage logging 
(372 million board feet) and conifer planting (over 19,000 acres) 
proposed for this recovering landscape are indicative of the problems 
in reforestation approaches emphasized in S. 2709.
---------------------------------------------------------------------------
    \13\ DellaSala, D.A. 2004. State of the Klamath Knot: how far have 
we come and where are we going. Pages 2-9, In: K.L. Mergenthaler, J.E. 
Williams, and K.S. Jules, editors. Proceedings of the Second Conference 
on Klamath-Siskiyou Ecology. Siskiyou Field Institute, Cave Junction, 
Oregon.
---------------------------------------------------------------------------
    As there was considerable interest in the Biscuit as part of the 
hearing on S. 2709, I am providing this weblink (http://
www.consbio.org/cbi/professional--services/biscuit/biscuit.htm) on the 
ecological consequences of salvage logging in this area. This report 
provides documentation of the significant ecological impacts of large-
scale salvage logging and conifer planting not addressed by forest 
engineers from Oregon State University's School of Forestry \14\ in 
their recommendations to the Forest Service advocating aggressive 
salvage logging and replanting on the Biscuit. In general, the report 
recommends that natural recovery processes be allowed to take place 
unimpeded in roadless areas and late-successional reserves (LSRs), with 
reforestation of existing tree plantations and salvage logging 
restricted to the ``matrix'' as specified in the Northwest Forest Plan.
---------------------------------------------------------------------------
    \14\ J. Sessions, R. Buckman, M. Newton, and J. Hamann. 2003. The 
Biscuit Fire: Management options for forest regeneration, fire and 
insect risk reduction and timber salvage. Corvallis, OR: Oregon State 
University, College of Forestry.
---------------------------------------------------------------------------
                               CONCLUSION

    S. 2709 will set back post-fire recovery processes on federal lands 
for decades through aggressive salvage logging, seeding, and conifer 
planting in areas recovering from wildlands fire. The cumulative 
impacts of these activities will push many post-fire landscapes beyond 
their capacity to recover, overwhelming natural recovery processes and 
putting ecosystems on a trajectory toward declining ecosystem health, 
increased fire danger, and loss of ecological complexity and 
biodiversity associated with post-fire recovering landscapes. Such 
impacts include damage to soils, hydrological processes, native plants, 
invasions by exotic weeds, removal of biological legacies, continued 
loss of unmanaged naturally recovering areas, and reduction in 
resiliency of forests to fire through conversion of native forests to 
tree farms. The National Reforestation Act of 2004 is inconsistent with 
the large body of scientific evidence on impacts of salvage logging and 
tree planting activities and the ecological importance of post-fire 
recovering areas.
                                 ______
                                 
           Statement of Richard Kednay, Friends of Tilly Jane

    The Tilly Jane Ski Trail provides direct snow season access to the 
1486 acre Cloud Cap/Tilly Jane Historic District and the North side of 
Mt. Hood. And I am thrilled that it is being considered for wilderness 
status.
    When the Cloud Cap Inn was built in the summer of 1889 it was 
intended to be for summer use only. But that first winter in February 
1890 Doug and Will Langille skied up the long and arduous wagon road on 
borne made skis. They reached the Inn on the second day to find a 
glorious winter scene with blue sky and water dripping from the eaves. 
They returned the next month with an 18 x 22 inch plate camera and 
winter ascents became popular.
    The Snowshoe Club was built in 1911 for winter use. And the Tilly 
Jane Guard Station, built in 1924, received winter use. Snow season 
access during the early 20th century was by the Polallie Ridge trail.
    Four Hood River men marked the Tilly Jane Ski Trail and the CCC 
built it in 1939 when they built the Tilly Jane Ski Cabin. At that time 
the CCC also thinned the 1889 wagon road for use as a ski descent. The 
Tilly Jane Ski Trail provided direct snow season access climbing 1900 
vertical feet in 2.7 miles with no switchbacks. Wide enough for ski 
descent it utilizes open ridgetop parkland much of the way.
    The direct snow season access led to this becoming the backcountry 
side of the mountain. On any given weekend one can see numbers of 
diverse groups on all variety of equipment.
    I have been skiing the trail for 30 years. Since 1995 have been the 
volunteer coordinator for scheduling use of the cabin and for work 
parties and wood hauling. No one group maintains the cabin. Those who 
use it can sign up for volunteer work and they do. This year volunteers 
purchased five cords of wood, hauled it to the cabin in carts, manually 
carried a new stove to the cabin, and repaired the old stove and 
installed it in another cabin. The Tilly Jane Ski Cabin will sleep 18 
or 20 in the second floor loft. Today as in the past, most use is by 
multiple small groups.
    During the 1970s, 80s and 90s, weekend use of the cabin was 
relatively constant. Use has increased in the last three or four years. 
Five cords of firewood will no longer last year round, weekends fill up 
sooner and scheduling is important to avoid overcrowding. Mount Hood 
clearly needs more wilderness for a growing population and a population 
with an appreciation for wilderness and backcountry.
    Thank you Senator Wyden.
                                 ______
                                 
  Statement of Dr. Jerry F. Franklin, Professor of Ecosystem Science, 
   College of Forest Resources, University of Washington, Seattle, WA

    There is an unfortunate tendency in forest resource management to 
adopt generic approaches to various management issues. For example, to 
adopt one policy with regards to fire suppression (suppress them), 
timber harvest (clearcut), and predators (kill them). This ``one size 
fits all'' approach to policy fails to respect and reflect either (a) 
the immense variability amongst forest types in ecology, disturbance 
regime, environment, and historical condition and (2) the diverse and 
changing societal goals for different regions. Such narrowly focused 
approaches to policy invariably lead to dysfunctional outcomes from 
both ecological and social perspectives.
    The proposed legislation follows the tradition of narrowly-focused 
resource policy. On the surface, it seems like a good policy--salvaging 
economic value and reestablishing forest cover as quickly as possible! 
And, if your goal is maximizing timber production, such an approach may 
be appropriate, assuming it is a good business investment. However, 
where management goals include maintenance of native biodiversity and 
ecological processes associated with natural ecosystem recovery, than a 
universal mandate for timber salvage and artificial reforestation is 
inappropriate. Local resource management objectives and ecological 
science should drive those decisions.
    I will address just two important ecological values--from among 
many--that are negatively impacted by a salvage-and-reforest policy: 
(1) the legacy of coarse woody debris (especially large snags and logs) 
and (2) availability of slowly regenerating, naturally disturbed areas 
needed to maintain regional biodiversity. In fact, naturally 
recovering--unsalvaged and unplanted--disturbed habitat is currently 
the scarcest type of successional habitat in the Pacific Northwest, 
much rarer than old-growth habitat, despite its importance; 
unfortunately, conditions in naturally disturbed and recovering habitat 
are not duplicated by clearcuts and plantations. In some cases, 
reforestation of fire-prone sites with fully stocked plantations is 
actively recreating the fuels that will feed the next unnatural stand 
replacement fire!
    Our scientific understanding of the processes of natural recovery 
of disturbed forest ecosystems and the values associated with such 
habitat conditions has increased dramatically during the last 20 years, 
as a result of research in many locations, including Yellowstone 
National Park and Mount St. Helens. Much of this new ecological science 
has not yet been fully assimilated into forestry philosophy and 
practices; however, it needs to be considered when developing policies 
and prescriptions for restoration of forests following major 
disturbances by fire, wind, insects, and other agents.

        LARGE SNAGS AND LOGS: IMPORTANT LEGACIES OF DISTURBANCE

    A first principle regarding forest disturbances is understanding 
that intense forest disturbances invariably leave behind significant 
legacies of organisms and organic structures (e.g., snags and logs)--
``biological legacies''--which are critically important to recovery of 
the forest ecosystem (Franklin et al. 2000). The concept of biological 
legacies emerged from research following the 1980 eruptions at Mount 
St. Helens. An incredible diversity of organisms and immense legacy of 
snags and logs survived these devastating events and contributed to the 
rapid redevelopment of the ecosystems within the so-called devastated 
zone in terms of both structural complexity and biological diversity.
    Essentially all natural disturbances leave behind immense legacies 
of snags, logs, and other woody debris. Such events kill trees but--
unlike clearcutting--rarely consume or remove much of the dead wood. 
Even an intense stand-replacement wildfire typically leaves behind 85 
to 95% of the biomass! An intense windstorm blows down trees but leaves 
behind essentially all of the organic matter!
    The types and amounts of the biological legacies that persist on 
impacted sites is actually the most important variables in assessing 
the true ecological impacts of a disturbance because of their critical 
roles in recovery. The most conspicuous and important of the biological 
legacies are the surviving live trees, standing dead trees (snags), and 
logs and other woody debris on the forest floor and in the streams. The 
living trees, snags, and logs play essential roles in lifeboating 
innumerable animal, plant, fungal, and microbial organisms by providing 
essential habitat (e.g., places to live and hide) and moderating the 
microclimate of the disturbed site. The old trees, snags, and logs also 
greatly enrich the structure of the young forest as it develops, 
increasing structural diversity and, consequently, the rate at which 
species that have been displaced--such as Northern Spotted Owls--can 
return to the site.
    So, how does this legacy of dead wood contribute to the recovery 
and ultimate functioning of the post-disturbance forest ecosystem? In 
earlier times we believed that once trees were dead they provided 
little value to the ecosystem or to recovery processes. In fact, they 
were often viewed as waste, a potential fire hazard, and an impediment 
to proper management. However, research during the last 30 years has 
shown the critical role that structures such as snags, logs and wood 
debris play in the functioning of forest and stream ecosystems 
including (Harmon et al. 1986; Maser et al. 1988):

  <bullet> Provision of wildlife habitat;
  <bullet> Long-term sources of energy and nutrients;
  <bullet> Sites for nitrogen fixation;
  <bullet> Seedbed for trees and shrubs; and
  <bullet> Creation of fish habitat.

    These and other functional roles of woody debris are well 
documented in the peer-reviewed reviews by Harmon et al. (1986) and 
Maser et al. (1988) and literally hundreds of articles published 
subsequently.
    Snags and logs provide critical habitat for the majority of higher 
(vertebrate) animals (birds, mammals, reptiles, amphibians, and fish) 
and, probably, lower (invertebrate) animals (e.g., insects), as well. 
In many western coniferous forests the overwhelming majority of higher 
animals make some use of snags, logs, and woody debris and for many 
groups of organisms--as diverse as woodpeckers and salamanders--woody 
structures are absolutely critical (see, e.g., Thomas 1979).
    The larger and the most decay resistant snags and logs are the most 
important ecologically. Larger snags and logs will serve a larger array 
of organisms and functions than smaller snags and logs and will persist 
for much longer than small snags and logs. For example, large snags are 
necessary for large cavity excavators, such as the Pileated Woodpecker 
and large logs are critical elements in creating stable aquatic 
habitat. Large snags and logs of decay-resistant species--such as 
cedars and Douglas-fir--will persist and fulfill habitat and other 
ecological functions for several centuries in terrestrial environments 
or even millennia, in the case of stream and river ecosystems.
    The levels of biological legacies--such as snags and logs--that 
need to be retained following a major disturbance very much depends 
upon the natural resource objectives for the property and the natural 
disturbance regime of the site. Where recovery of natural ecological 
functions (including redevelopment of late-successional forest) is a 
primary goal, removal of significant legacies of living trees, snags, 
and logs through timber salvage is inappropriate. This is particularly 
true in forest types and on forest sites where stand-replacement 
(``catastrophic'') disturbance regimes are characteristic, such as 
Pacific Coast Douglas-fir and Rocky Mountain lodgepole pine forests.
    It is sometimes argued that snags and logs are present in 
``excess'' of the needs of the site, in terms of ecosystem recovery, 
following a stand-replacement fire in old-growth forests. In fact, the 
large pulse of dead wood created by the disturbance is the only 
significant input of woody debris that the site is going to get for the 
next 75 to 150 years--i.e., the ecosystem has to ``live'' off of this 
pulse of woody debris until the forest matures to the point where it 
has again produced the large trees that can become the source of new 
large snags and logs (Maser et al. 1988).
    The scientific lessons regarding biological legacies and the 
importance of retaining snags, logs, and other woody debris are being 
applied in regular timber harvesting practices (i.e., variable 
retention harvesting) but have not yet been fully incorporated into 
restoration policy. Indeed, attitudes toward timber salvage appear to 
be one of the last bastions of traditional or old forestry thinking! Of 
course, timber salvage may be carried out for economic reasons. 
However, the practice of timber salvage will almost never produce any 
positive ecological benefit, as pointed out in a recent article in 
Science (Lindenmayer et al. 2004). Timber salvage should be viewed as a 
``tax'' on ecological recovery processes. Removal of large, decay 
resistant snags and logs is particularly negative because of impacts on 
long-term recovery and stand development processes--yet it is precisely 
these structures that are often the prime targets of salvage operations 
because of their economic value.
    It can be argued that post-fire fuels need to be reduced on sites 
that have been subjected to uncharacteristic stand-replacement fire as 
a result of uncharacteristic fuel accumulations; i.e., post-fire fuels 
are still in excess of levels characteristic of the site. This may be a 
situation where post-fire fuel treatments (including salvage) can be 
accepted from an ecological perspective. However, the focus should be 
on the fine and medium fuels that create the real hazard but, rather, 
salvage typically focuses upon the coarse 1000-hour fuels and often 
produce short- to mid-term increases in the critical ground fuels.

      IMPORTANCE OF SLOWLY-REGENERATING NATURALLY-DISTURBED AREAS

    Reestablishment of forest stands by natural regeneration of 
conifers following stand-replacement wildfires in the PNW often took 
decades, particularly on environmentally severe sites or where seed 
sources were limited. There were exceptions, such as where seedbanks 
survived in burned trees, as was probably the case with the 1902 fires 
in the PNW and is documented in the case of the 1993 Warner Creek Burn 
on the Willamette National Forest in Oregon. Generally, however, 
reestablishment of closed forests was a gradual process that exhibited 
much spatial heterogeneity--i.e., it was patchy!
    This early successional habitat, which included regenerating and 
surviving trees but was not dominated by them, sustained high levels of 
biological diversity and provided optimal conditions for key ecosystem 
processes. This early successional habitat also had its full compliment 
or legacy of snags, logs, and woody debris, which was a critical in 
providing for the high levels of species diversity.
    Many plant and animal species find this structurally complex, early 
successional forest habitat optimal. Total species diversity tends to 
be high as early successional species are added to species that have 
survived from the pre-disturbance forest. The ecosystem incorporates a 
diversity of life forms including herbs, shrubs, and open-grown 
hardwood and conifer trees. The high species diversity persists until 
the forest canopy closes at which point diversity drops to the lowest 
point in successional development. I would emphasize that many of these 
early successional species depend upon the structural legacies that 
survive the disturbance and that clearcuts are not equivalent to this 
unsalvaged, unplanted early successional habitat.
    Important ecological processes also go on during early succession 
prior to reestablishment of a closed forest canopy. One excellent 
example is that of additions to the nutrient capital of the site--an 
important consideration since significant nitrogen loss is 
characteristic of wildfires. Specifically, significant nitrogen 
fixation often occurs during the open (pre-forest-canopy closure) early 
successional stage because of the abundance of herbaceous and shrubby 
plants that can host nitrogen-fixing bacteria in their roots. These 
plants include legumes, such as lupines, and a variety of shrubs and 
small trees, including species of ceanothus and alder.
    Large, slowly regenerating disturbed areas may be particularly 
important as hotspots of regional biological diversity. For example, 
the blast zone at Mount St. Helens is proving to be a major hotspot (in 
terms of both species diversity and population densities) of several 
major animal groups, including birds, amphibians, and meso-predators 
(middle-sized animal predators). Some species may prove to be dependent 
on the presence of such large persistent partially open landscapes. 
Yet, amazingly, this condition--large disturbed areas that have been 
free of salvage and reforestation efforts--is probably the scarcest 
habitat condition in low to middle elevation forests in the Pacific 
Northwest. It is much rarer than old-growth habitat, in part because we 
have aggressively salvaged or planted (or both) most large disturbed 
areas during the 20th century, such as the Tillamook Burn.
    Aggressive reforestation that results in early and large-scale 
forest canopy closure obviously unnaturally truncates the structurally 
and biologically diverse early-successional conditions that 
characterize natural succession. Again, while this may good from a wood 
production standpoint it is undesirable from the standpoint of 
biological diversity and many important processes, including some 
associated with long-term productivity and watershed protection.
    Efforts to reestablish closed forests on sites that are 
characteristically subject to light to moderate intensity fire (regimes 
I through III) are particularly inappropriate. There are numerous 
examples in Oregon and California where federal agencies have salvaged 
and than established a dense (``fully-stocked'') plantation following 
an uncharacteristic stand-replacement fire--i.e., one that is the 
result of past fire suppression or other activities. Effectively, such 
practices create the conditions for the next uncharacteristic stand-
replacement fire! I do need to note, however, that some federal 
managers are recognizing this problem and reducing planting densities. 
It is critically important that any new laws or regulations increase 
their latitude to carry out tree planting using low densities and 
irregular patterns rather than restricting their options, i.e., ability 
to apply professional judgement.

                          CONCLUDING COMMENTS

    Salvage logging retards natural recovery processes following stand-
replacement disturbance events as measured by such variables as levels 
of native biota. Negative impacts are greatest when logging removes 
legacies of large snags and logs of decay-resistent species and 
surviving green trees of any type. Salvage logging modifies and slows 
the processes and organisms associated with redevelopment of late-
successional forest conditions.
    Policies that mandate rapid reestablishment of uniform, closed 
forest canopies over large areas will have negative ecological 
consequences for native biodiversity and ecosystem processes. 
Artificial reforestation can contribute to recovery processes by 
speeding reestablishment of desired trees and closed forest conditions, 
particularly in areas with little or no seed source. However, important 
ecosystem processes and many elements of native biodiversity are 
associated with the structurally complex, pre-canopy-closure early 
successional habitat. Consequently, aggressive reforestation efforts 
are inappropriate unless timber production is the primary management 
objective.
    Most existing old-growth forests appear to have developed with 
extended periods of tree establishment--i.e., forest canopy closure 
came slowly and with a full legacy of surviving trees, snags and logs. 
As a result, many of the existing old-growth stands do not appear to 
have experienced an intense closed-canopy competitive exclusion stage 
during their first 80 or 100 years of growth. Knowing this, federal 
agencies in the Pacific Northwest are carrying out major programs to 
drastically thin existing plantations within Late Successional Reserves 
so as to accelerate structural development. Although I do not agree, 
some foresters have even suggested that unless such ``unnaturally'' 
dense stands are thinned they will never develop into old growth. Given 
this circumstance, why would we institute a policy of aggressive 
reforestation programs on disturbed sites within Late Successional 
Reserves or other land designations where native biodiversity and 
natural ecological processes are the primary goal?
Literature cited:
    Franklin, Jerry F., David Lindenmayer, James A. MacMahon, Arthur 
McKee, John Magnuson, David A. Perry, Robert Waide, and David Foster. 
2000. Threads of continuity. Conservation Biology in Practice 1(1):8-
16.
    Harmon, Mark E., et al. 1986. Ecology of coarse woody debris in 
temperate ecosystems. Advances in Ecological Research 15: 133-302.
    Lindenmayer, D. B., et al. 2004. Salvage harvesting policies after 
natural disturbance. Science 303:1303.
    Maser, Chris, Robert F. Tarrant, James M. Trappe, and Jerry F. 
Franklin. 1988. From the forest to the sea: a story of fallen trees. 
153 p. USDA Forest Service General Technical Report PNW-GTR-229.
    Thomas, Jack Ward. 1979. Wildlife habitat in managed forests; the 
Blue Mountains of Oregon and Washington. 511 p. USDA Agricultural 
Handbook 553.
                                 ______
                                 
   Statement of Michael Lang, Conservation Director, Friends of the 
                             Columbia Gorge

    Friends of the Columbia Gorge supports the designation of 177,000 
acres of land within the Columbia River Gorge and the Mount Hood 
National Forest as Wilderness in the Lewis and Clark Mount Hood 
Wilderness Bill of 2004. The bill includes approximately 35,000 acres 
of the most scenic and ecologically significant lands within the 
Columbia River Gorge.
    The Columbia River Gorge is a national scenic treasure that 
deserves permanent protection so that our children and future 
generations can experience its natural scenic beauty. The Lewis and 
Clark Mount Hood Wilderness proposal includes National Forest lands 
between Larch Mountain in the western Gorge and Mount Defiance in the 
central Gorge. This 32-mile stretch of the Columbia Gorge has the most 
stunning scenery in the Gorge, the highest concentration of waterfalls 
in North America, the largest remaining old growth forests in the Gorge 
and abundant recreational opportunities with over 35 named trails. The 
Wilderness bill also includes 1,000 acres around Tom McCall Point, 
named after Oregon's visionary Governor. This area has over 200 species 
of wildflowers, including four species that are found nowhere else in 
the world (Columbia desert parsley, Thompson's waterleaf, Hood River 
milk vetch and Columbia Gorge broad-leaf lupine).
    While the Columbia Gorge is partially protected by the Columbia 
River Gorge National Scenic Area Act, the only way to ensure permanent 
protection for its remaining wild areas is through its designation as 
Wilderness and its addition to the Mark O. Hatfield Wilderness Area.
    The National Scenic Area Act requires the protection of scenic, 
natural, cultural and recreation resources from the adverse effects of 
logging, mining and development. The Act defines ``adversely affect'' 
as ``more than moderate adverse consequences for the scenic, cultural, 
recreation or natural resources.'' Due to this definition, the Act only 
protects the natural scenic beauty of the Gorge from ``more than 
moderate adverse consequences'' of logging and development and does not 
provide adequate protection for its remaining wild areas. 
Administrative interpretation of the National Scenic Area Act has 
resulted in guidelines for logging and development that would degrade 
this priceless part of our nation's natural scenic heritage.
    Friends of the Columbia Gorge supports Wilderness designation for 
all 177,000 acres of land identified in the Lewis and Clark Mount Hood 
Wilderness bill. In particular, all of the lands identified within the 
Columbia River Gorge are long overdue for protection under the 
Wilderness Act.
    Regarding Titles V and VIII of the bill, Friends shares some of the 
concerns expressed by the Oregon Natural Resources Council, the 
Wilderness Society, and other conservation organizations. We believe 
that the general purposes of these sections may be achieved by other 
means. For example, Title V can be rewritten to avoid setting any 
precedent of weakening the Wilderness Act. Title VIII's proposal for 
active forest management to thin overcrowded stands of ``plantation 
forests'' and to protect mature and old growth forests has some merit, 
but may be better addressed through the introduction of a separate 
bill.
    In closing, Friends expresses its gratitude to Senator Wyden for 
his leadership in protecting the Columbia River Gorge and Mount Hood 
and also to the subcommittee Chairman and the other members of the 
subcommittee for graciously agreeing to hold a public hearing on this 
important bill.
    About Friends of the Columbia Gorge: Friends is a nonprofit 
organization with members in over 3000 households dedicated to 
protecting and enhancing the scenic, natural, cultural and recreation 
resources of the Columbia River Gorge. Our membership includes hundreds 
of citizens who reside within the six counties within the Columbia 
River Gorge.
                                 ______
                                 
              Statement of Erin Barnholdt, Trout Unlimited

    Representing almost 3,000 members in Oregon and 130,000 nation 
wide, Trout Unlimited respectfully submits the following written 
testimony for your consideration regarding S. 2723. Trout Unlimited is 
a cold water fisheries conservation group whose mission is to conserve, 
protect and restore North America's trout and salmon fisheries and 
their watersheds. TU accomplishes this mission on local, state and 
national levels with an extensive and dedicated volunteer network.
    In the Northwest, salmon represent a timeless legacy of ecological 
and cultural diversity from Native Americans to the Lewis and Clark 
Expedition to today's sport and commercial fishermen. Salmon represent 
an intact and functioning cycle of healthy rivers and forests. The 
waters of several spectacular rivers flow from the flanks of Mt. Hood, 
including the Sandy, Salmon, Mount Hood and Zigzag rivers, as well as 
key tributaries of the Clackamas River.
    All these rivers benefit from designated wilderness and unprotected 
roadless areas that help maintain high-quality water and habitat to 
sustain thriving fisheries. Coho and chinook salmon and steelhead use 
many of the streams for spawning and rearing habitat. Coastal cutthroat 
trout, bull trout, and native redband trout are all found in the 
forested waters that flow from Mount Hood. The Clackamas, Sandy and 
Hood rivers support popular and lucrative recreational fisheries.
    Elk and other wildlife also depend on Mount Hood roadless lands for 
habitat. Elk hunting generates over $800,000 annually for nearby 
communities. In addition to fish and wildlife habitat and recreation 
opportunities, Mt. Hood's roadless watersheds provide superb drinking 
water for several towns and cities including Portland.
    In 2004, we celebrate the 40th anniversary of the Wilderness Act, 
the 20th anniversary of the Oregon Wilderness Act of 1984 and the 
bicentennial anniversary of the Lewis and Clark Expedition. In honor of 
these achievements and what it has brought to Oregon, it is especially 
fitting to honor Oregon with the Wilderness and Wild and Scenic River 
designations proposed in this Act. TU also urges you to include Copper 
Salmon and Soda Mountain as additional wilderness areas in S. 2723. 
Wilderness celebrates Oregon's history by preserving it for the future.
    Trout Unlimited fully supports Titles I and II of S. 2723. However, 
we would like to see these titles as a stand alone bill. We believe the 
preservation of these intact wild lands and rivers by way of Wilderness 
and Wild and Scenic designations are reason enough for the bill. As 
mentioned in the introduction, Mt. Hood and the rivers that flow from 
it offer some of the best habitat for threatened and endangered salmon 
and trout. Below are highlights of areas S. 2723 proposes for 
Wilderness or Wild and Scenic designations:
Fifteenmile Creek
    With eleven miles of proposed Wild River, it is the eastern-most 
limit for winter run Columbia River Steelhead and has been identified 
as a Key Salmon Stronghold in the Interior Columbia Basin Ecosystem 
Management Project (ICBEMP) research.
Roaring River
    The largest unprotected roadless area on the Mt. Hood National 
Forest, this pristine watershed encompasses 27,000 acres and abuts the 
popular Salmon-Huckleberry Wilderness southwest of Mt. Hood. The 
crystal clear waters of the Roaring River tumble steeply down to the 
Clackamas River, one of the Northwest's most popular steelhead rivers. 
The lower three miles of the Roaring River provide spawning habitat for 
late winter steelhead, as well as late-run winter coho and spring 
Chinook. This coho population has been identified as the last self-
sustaining wild run left in the Columbia River Basin. The upper 
watershed supports redband trout. Excellent remote fishing is found by 
those willing to descend the steep canyon.
Salmon River Meadows
    The headwaters of the popular Salmon River flow from this high-
elevation 8,000-acre roadless area which flanks the eastern edge of the 
Salmon-Huckleberry Wilderness Area. The upper Salmon River holds 
resident coastal cutthroat and native redband trout.
Copper Salmon
    Towering rainforests of Douglas fir, western hemlock and Port 
Orford cedar help produce clean cold water for a wide array of fish 
including chinook, coho, chum, steelhead, coastal cutthroat and native 
rainbows. The Elk River is believed by many fish biologists to have the 
most productive salmon fishery left in the Lower 48.
Soda Mountain
    Southern Oregon's Siskiyou region is renowned for unparalleled 
biological diversity, its spectacular wild rivers and its prolific 
salmon and steelhead runs. Because of its unique geological history, 
this rugged landscape functions as an ecological bridge for several 
Northwest ecosystems and supports one of the most divers plant 
communities in the world.
    As prime habitat continues to decline on more developed lands, the 
reliance on these unprotected areas grows. Research focused on areas 
where the contribution of wilderness is highly visible has found the 
protection of watersheds to be the most visible to communities.\1\ Not 
only does the protection of these rivers and their watersheds help 
maintain pristine, intact habitat for fish and wildlife, it is highly 
visible to our communities who rely on them for clean drinking water, 
recreation and solace.
---------------------------------------------------------------------------
    \1\ Green, Dana, reporter at Ravallia Republic, MT, What are the 
benefits of wilderness?: Experts seek to quantify economic aspects. 
September 16, 2004.
---------------------------------------------------------------------------
    We commend the Senator and staff on their work towards meeting the 
numerous and varying needs of the Mt. Hood and Columbia River Gorge 
areas. Our main concerns lie within Titles V and VIII. We believe the 
language and the nature of these titles should be dealt with in 
separate legislation. However, in the event that the bill includes 
these titles, Trout Unlimited respectfully requests that the following 
changes be made in the bill.

                    TITLE V MOUNTAIN BIKING PROJECT

    While both mountain bikers and conservation groups seek protection 
for rugged and pristine natural areas, our goals differ when it comes 
to maintenance. TU believes the difference is enough to warrant 
separate designations. If mountain bikes are allowed in an area 
designated Wilderness in one place, but not in the other, we fear the 
inconsistency of rules within Wilderness areas will create confusion 
for the users and lead to a lack of respect for the area and the 
designation. Two areas where we see different designations working 
together and creating a welcome place for mountain bikes, while 
ensuring protection and preservation of natural qualities, are the Opal 
Creek Scenic Recreation Area in Oregon and the proposed Virginia Ridge 
and Valley Scenic Areas (H.R. 4202.IH). We believe that the Hood-PDX 
Project would be best served under a National Scenic Area designation.
    National Scenic Areas are established for the purposes of:
          (1) ensuring the protection and preservation of scenic 
        quality, water quality, natural characteristics, and water 
        resources;
          (2) protecting wildlife and fish habitat,
          (3) protecting areas that may develop characteristics of old-
        growth forests; and
          (4) providing a variety of recreation opportunities, 
        consistent with the preceding paragraphs.
Management
    We ask that this area be designated as a National Scenic Area 
allowing for Wilderness designation in 3-10 years of the project 
starting (as stated in S. 2723). We feel the NSA designation more 
accurately supports the multiple uses and the need for preservation 
that this unique area holds.
    Where the proposed eleven miles of Wild River and the Hood-PDX 
designations overlap in Fifteenmile Creek, TU believes the management 
must comply with Wild and Scenic River rules: rivers must remain free 
flowing and in natural condition without impoundment, diversion, 
straightening, rip-rapping or other modification.
Funding
    Funding for this area should have a separate source, in part paid 
by user fees from mountain bikers. Fees derived from other developed 
recreational activities (i.e. skiing and trail passes) should not be 
used to fund this project.
Monitoring
    In order to accurately access the effects of mountain biking on the 
Hood-PDX area ecology and the surrounding communities and economies:

  <bullet> The monitoring should take place in all four seasons to 
        accurately track the effects of the trails during spring 
        runoff, summer heat, etc.
  <bullet> Monitors must be hired specifically for this job. They 
        should not be current Forest Service employees.
  <bullet> Mountain bikers should be encouraged to engage in 
        restoration projects.
           title vi transportation and communication systems
    Trout Unlimited requests that highways be defined as ``paved'' and 
their maintenance allowed within standard setbacks. Any major federal 
project, regardless of the source of its recommendation, should not be 
allowed to circumvent the National Environmental Policy Act (NEPA) 
analysis and the applicable rules under the National Forest Management 
Act and other applicable laws and regulations.

                        TITLE VII LAND EXCHANGE

    Trout Unlimited requests that the Clackamas County Land Exchange be 
carried out using NEPA procedures and that full and fair market value 
appraisals be conducted according to federal law. We request that 
appropriate procedures be followed to ensure the American public of an 
equal value exchange that is in the public interest.

             TITLE VIII MOUNT HOOD NATIONAL FOREST THINNING

    Trout Unlimited has significant concerns with the commercial 
logging as defined in this title. We are concerned that the timber 
goals laid out are based on the achievement of timber harvest (acreage) 
as opposed to targeting areas most in need of thinning along the wild-
urban interfaces such as the perimeters of Parkdale, Hood River, 
Welches and Zig Zag, Oregon. We request that all logging keep to 
designated Matrix land according to the standards and guidelines of the 
Northwest Forest Plan. We also urge that appropriate stream buffers be 
maintained when logging adjunct to steams and rivers.
    We applaud the Senator's efforts to recognize the call for the 
protection of mature and old growth forests. Protection of older 
forests explained in this section should be broadened to include trees 
and stands over 80 years of age. Forests over 80 years old are not the 
appropriate target of efforts to restore forest health.
    Trout Unlimited applauds Senator Wyden for recognizing the 
remarkable wildlife and recreational qualities of Mt. Hood and its 
surrounding rivers and forests. We believe these areas are truly unique 
and deserving of protection. We are available to provide assistance and 
on-the-ground expertise to effect the changes we seek and we very much 
look forward to supporting the resulting legislation.
                                 ______
                                 
        Statement of Robert Freimark, Senior Policy Analyst for 
                         The Wilderness Society

    On behalf of The Wilderness Society and our 200,000 members, I wish 
to convey The Society's views regarding S. 2723, the Lewis and Clark 
Mount Hood Wilderness Act, which Senator Ron Wyden introduced on July 
22, 2004.
    First, The Wilderness Society greatly appreciates the efforts by 
Senator Wyden to develop legislation that preserves an outstanding part 
of Oregon's wilderness heritage. Senator Wyden and his staff have 
devoted much time and energy to engage local elected officials, 
business leaders, recreational users, and environmental organizations 
in developing a comprehensive and balanced legislative proposal. We 
also commend Representatives Earl Blumenauer and Greg Walden for 
convening the Mount Hood Summit in June to obtain public input on the 
best ways to protect this area.
    The Wilderness Society strongly supports Senator Wyden's proposal 
to designate 177,000 acres of wilderness additions to the Mark O. 
Hatfield, Badger Creek, and Salmon-Huckleberry wilderness areas in the 
Mount Hood National Forest. The proposed additions encompass some of 
the finest unprotected forests, streams, lakes, meadows, and scenic 
features in the National Forest. We are pleased that the proposal 
includes areas such as Fifteen Mile Creek, Lost Lake and the 
surrounding old-growth forests; the historic back country trails of the 
Tilly Jane area; the scenic forests and meadows around Twin Lakes, 
Boulder Lake, and Mirror Lake; the headwaters of the Hood River; and 
the rugged and beautiful Roaring River, a tributary of the Clackamas. 
Adding these marvelous lands and waters as wilderness areas to the 
National Wilderness Preservation System will provide a magnificent 
natural legacy for present and future generations of Oregon residents 
and visitors.
    However, The Wilderness Society has significant concerns with Title 
V, which would establish a novel Mountain Biking Pilot Project. Section 
501 directs the Secretary of Agriculture to designate the Mount Hood 
Pedaler's Demonstration Experiment Area on the south side of Mount Hood 
and around Creek and Larch Mountain. Section 502 requires the 
Experiment Area to be managed in accordance the Wilderness Act, except 
that mountain bikes are allowed to operate on designated trails and 
chainsaws can be used to maintain existing trails. Section 505 states 
that if Congress does not act within 10 years, the mountain biking area 
will automatically be designated as wilderness.
    Our basic concern with Title V is that it dilutes the National 
Wilderness Preservation System by creating a new subcategory of 
wilderness areas. Since the Wilderness Act became law 40 years ago, 
wilderness areas have been places where motorized equipment and 
mechanical means of transportation (other than wheelchairs) do not 
intrude. While Title V would not technically amend the Wilderness Act, 
it would carve out a major exception to the Act specifically tailored 
to accommodate mountain bikes.
    In our view, this is an unnecessarily controversial way to address 
the need to allow continued mountain biking use in the area. As an 
alternative, we would suggest using a special land use designation that 
specifically allows mountain bikes, protects the area's natural 
environment, and does not blur the well-established management 
standards of designated wilderness areas. Two examples of such special 
designations are the Opal Creek Scenic Recreation Area in Oregon, and 
the proposed Virginia Ridge and Valley Scenic Areas (H.R. 4202.IH).
    While we support the active forest management activities in areas 
outside of the proposed wilderness described in Title VIII, we believe 
such legislation should not be intertwined with a wilderness 
designation bill. We especially appreciate the bill's call for 
protecting mature and old growth forests. We commend Senator Wyden's 
strong, constant efforts to permanently protect the northwest's old 
growth forests.
    Finally, we want to thank Senator Wyden for demonstrating such 
strong leadership in his efforts to permanently protect the public 
lands surrounding Mt. Hood and the Columbia River Gorge through 
wilderness designation. We appreciate the time, energy, and expertise 
Senator Wyden and his staff bring to these complex issues. We look 
forward to working through our concerns with this worthwhile 
legislation and ensuring this legislation has the strong support of The 
Wilderness Society.
                                 ______
                                 
Statement of Dr. Dominick A. DellaSala, Director, World Wildlife Fund's 
                        Klamath-Siskiyou Program

    As a forest ecologist with over 20 years experience in forest 
ecosystems throughout the Pacific Northwest and elsewhere, I am 
submitting this testimony in support of the protective measures of S. 
2723, the ``Lewis and Clark Mount Hood Wilderness Act of 2004.'' I 
request that the Committee include my statement in the hearing record.
    World Wildlife Fund is acting as a special science advisor to the 
Oregon Wild Forest Coalition whose members represent thousands of 
Oregonians in support of designation of public lands in Oregon as 
wilderness. We are especially pleased that Senator Wyden chose the 
bicentennial commemoration of the historic Lewis and Clark expedition 
to protect an outstanding part of Oregon's cultural and biological 
inheritance.
    My testimony addresses the scientific and economic foundations for 
wilderness designations in Oregon as well as restorative actions 
related to thinning and fire management within the Mt. Hood National 
Forest and its surroundings. Moreover, I urge this Committee to include 
two additional proposed wilderness areas in S. 2723: Copper-Salmon and 
Soda Mountain.

           SCIENTIFIC AND ECONOMIC FOUNDATION FOR WILDERNESS

    Oregon has protected just 5% of its land base in national parks, 
monuments, and wilderness areas.\1\ The rest of Oregon's lands are open 
to logging, mining, grazing, and off-road vehicles that have impacted 
the region's forests and watersheds. The addition of wilderness to 
Oregon's protected areas system is vital to the ecological health and 
economic sustainability of Oregon's communities. A recent economic 
study indicated that of 410 counties across the West, including rural 
and metro counties in Oregon, those counties with greater amounts of 
wilderness and roadless lands had more robust levels of economic growth 
in jobs and personal income.\2\ Thus, Oregon communities are benefiting 
from wilderness protections and the quality of life amenities these 
areas provide, which are serving as a ``magnet'' for new businesses 
wishing to set up shop in our state because of its great outdoors.
---------------------------------------------------------------------------
    \1\ DellaSala, D.A., N.L. Staus, J.R. Strittholt, A. Hackman, and 
A. Iacobelli. 2001. An updated protected areas database for the United 
States and Canada. Natural Areas Journal 21:124-135.
    \2\ Southwick Associates. 2000. Historical economic performance of 
Oregon and western counties associated with roadless and wilderness 
areas. Unpublished report available on http://www.worldwildlife.org/ 
klamathsiskiyou/WPbibliography.html
---------------------------------------------------------------------------
    In addition to the scenic, recreational, and spiritual values that 
wilderness areas provide, these areas, because of their undeveloped 
character, are vital to the recovery of threatened and endangered 
species and their roadless quality provides refugia for big game and 
salmon important to regional economies. In fact, according to recent 
studies of roadless areas, such undeveloped lands act as biological 
``strongholds'' for many species sensitive to road building and 
logging.\3\ Thus, if we are going to protect examples of Oregon's 
cultural and biological inheritance, wilderness is vital to preserving 
a portion of the landscape that was around at the time of Lewis and 
Clark and the early Native peoples of the region.
---------------------------------------------------------------------------
    \3\ Strittholt, J.R., and D.A. DellaSala. 2001. Importance of 
roadless areas in biodiversity conservation in forested ecosystems: a 
case study--Klamath-Siskiyou ecoregion, U.S.A. Conservation Biology 
Vol. 15(6):1742-1754. DeVelice, R.L., and J.R. Martin. 2001. Assessing 
the extent to which roadless areas complement the conservation of 
biological diversity. Ecological Applications 11(4):1008-1018. Loucks, 
C., N. Brown, A. Loucks, and K. Cesareo. 2003. USDA Forest Service 
roadless areas: potential biodiversity conservation reserves. 
Conservation Ecology 7 (2).
---------------------------------------------------------------------------
                         SODA MOUNTAIN ADDITION

    The 23,000-acre Soda Mountain wildlands, located at the southern 
end of the Cascade Range in the 53,000 acre Cascade-Siskiyou National 
Monument, is a key biological crossroads at the convergence of three 
ecoregions, including the world-class Klamath-Siskiyou ecoregion.\4\ It 
is home to a nationally outstanding diversity of butterfly species and 
more than 300 other animal species, including many fish and mollusks 
found nowhere else in the world. Strong local and national support for 
conservation of the Soda Mountain area helped convince President 
Clinton to designate the area as the Cascade-Siskiyou National Monument 
in 2000. However, loopholes in the Monument's proclamation leave the 
backcountry vulnerable to off-road vehicles, grazing, and logging that 
can degrade wilderness values.
---------------------------------------------------------------------------
    \4\ DellaSala, D.A., S.B. Reid, T.J. Frest, J.R. Strittholt, and 
D.M. Olson. 1999. A global perspective on the biodiversity of the 
Klamath-Siskiyou ecoregion. Natural Areas Journal 19:300-319.
---------------------------------------------------------------------------
    According to computer mapping studies performed by scientists,\5\ 
the Cascade-Siskiyou National Monument and proposed Soda Mountain 
Wilderness area are one of the few remaining relatively intact areas 
within a 300 square mile area surrounding the monument. Since 1972, 
logging in this area has averaged about 1,500 clearcuts (average size 
of 30 acres per clearcut) each year, with three times the rate of 
logging on private lands. Logging and road building have fragmented all 
but a few areas within the region with the exception of the Soda 
Mountain proposed wilderness. Thus, the addition of Soda Mountain to S. 
2723 would protect a vital land bridge joining the Cascades to the 
globally significant Siskiyous that would allow for the dispersal of 
numerous fish and wildlife species, including the federally threatened 
northern spotted owl.
---------------------------------------------------------------------------
    \5\ Odion, D.C., and E.J. Frost (ed.). 2002. Protecting objects of 
scientific interest in the Cascade-Siskiyou National Monument: status, 
threats, and management recommendations Unpublished report available on 
http://www.worldwildlife.org/klamathsiskiyou/NationalMonument.html
---------------------------------------------------------------------------
                   COPPER-SALMON WILDERNESS PROPOSAL

    The 11,000-acre Copper Salmon area lies within the Siskiyou 
National Forest in southwest Oregon and protects the North Fork of the 
Elk River, which a U.S. Forest Service fisheries biologist identified 
as the most productive fishery, for a river of its size, in the lower 
48 states. The area includes the largest low-elevation old-growth 
temperate rainforest outside of Alaska, along with healthy stands of 
ancient Port-Orford cedar.
    The Elk River drainage within the proposed wilderness area is a key 
watershed along the western extension of the Klamath-Siskiyou 
ecoregion, which is among the most diverse temperate forest regions in 
the world. The area is home to the threatened marbled murrelet, a 
coastal seabird that nests in old-growth rainforest close to the 
coastline. Scientists have recognized the Elk River drainage as a key 
connectivity corridor joining adjacent intact areas such as the Grassy 
Knob Roadless Area and Grassy Knob Wilderness and linking the coastline 
with the Wild and Scenic Elk River corridor. The Copper-Salmon proposed 
wilderness area is vital for the integrity of this corridor and the 
associated movements of threatened coho and murrelet that use intact 
mature and old-growth forests.
    WWF believes that there is a unique opportunity to build on 
community support for this strategically important wilderness proposal. 
The communities of Port Orford and Northern Curry have endorsed the 
proposed Copper-Salmon Wilderness and the Wild Rivers Coast Initiative. 
These communities recognize that Copper-Salmon would provide additional 
recreational opportunities through its proximity to Cape Blanco State 
Park and Humburg State Park along the coast and is key to the 
ecological integrity of the Wild Rivers Coast.

          THINNING PROVISIONS ON THE MT. HOOD NATIONAL FOREST

    WWF supports the direction that S. 2723 provides to forest managers 
regarding restoration of previously logged, even-aged plantations and 
its emphasis on returning degraded areas to a natural healthy 
condition. We are particularly pleased with the emphasis on pre-
commercial thinning in Westside matrix plantations. In addition, we 
support the scientific principles established for Eastside thinning for 
forest health, particularly the emphasis on retaining all large and old 
trees; removing smaller trees; and ensuring recruitment of forest cover 
by retaining representative trees in all size cohorts.
    We would, however, like the Committee to consider greater 
specificity for retention of ecologically important trees, particularly 
by focusing on large fire-resistant trees (generally trees exceeding 21 
inches diameter-at-breast height) and those that function as 
``biological legacies.'' \6\ Biological legacies include large snags 
and logs that are critical as early and late-successional wildlife 
habitat and are needed for sustaining key ecological processes 
associated with nutrient, hydrologic, and energy cycles. These 
important forest structures often take 100-200 years to become 
established and are most characteristic of old-growth forests and 
recently burned natural forests recovering from fire.
---------------------------------------------------------------------------
    \6\ Franklin, J.F., and J. Agee. 2003. Scientific issues and 
national forest fire policy: forging a science-based national forest 
fire policy. Issues in Science and Technology 20(1):59-66.
---------------------------------------------------------------------------
    In addition, we believe that thinning should emphasize 
prescriptions that produce variable densities and spacing of trees to 
increase structural diversity in plantations and prevent uniformity of 
stand structure. New research in the Pacific Northwest indicates that 
variable density thinning is preferred to uniform thinning in producing 
structural complexity in young, even-aged plantations.\7\ Finally, 
while we support the need for managing fuel levels within the urban-
wildlands interface, the use of shaded fuel breaks has produced mixed 
results. In particular, shaded fuel breaks require periodic treatments 
to maintain them as the increase in solar radiation following opening 
forest canopies can result in soil desiccation and increased response 
of understory plants that could elevate fuel levels within fuel breaks.
---------------------------------------------------------------------------
    \7\ Franklin, J.F. University of Washington. Personal 
communication.
---------------------------------------------------------------------------
                              CONCLUSIONS

    I would like to thank Senator Wyden for bringing this bill before 
the Committee. WWF is supportive of the protective measures of S. 2723 
as they address the ecological, recreational, and economic values 
important to Oregonians concerned about protecting a vital link to our 
natural inheritance present at the time of the Lewis and Clark 
expedition. We hope this Committee will consider making improvements to 
the bill that include the additions of Copper-Salmon and Soda Mountain 
as these areas enjoy broad local public support, as well as the 
suggested changes to restoration and fire management principles 
surrounding the Mt. Hood National Forest.
                                 ______
                                 
 Statement of Ken Maddox, Chair, Cooper Spur Wild and Free Coalition, 
                              Mt. Hood, OR

    My name is Ken Maddox. I am currently the Chair of the Cooper Spur 
Wild and Free Coalition, a group of more than 15 organizations who have 
interests in protecting and enhancing the Cooper Spur area of Mount 
Hood on the northeast flank of the Mountain. Our Coalition is 
particularly dedicated to encouraging traditional use of the area for 
non-commercial recreation, for scenic beauty, and for contributions to 
Oregon's heritage.
    We believe the forward-looking wilderness proposal that you are 
considering is directly responsive to the needs and desires of 
Oregonians. Last year in testimony to the Oregon's Hood River County 
Planning Commission, more than 85% of local residents who testified in 
person and in writing, were in favor of protections for the Cooper Spur 
area. Their reasons varied from wildlife to water, from scenery to 
recreation, from quality of life to history, but they all shared the 
same wish: to see the Mountain protected from excessive development and 
exploitation.
    At the Mount Hood Summits of 2003 and 2004, co-sponsored by 
Congressmen Blumenauer and Walden, those same views were expressed. In 
public testimony people said again and again that protecting Mount 
Hood, the favorite icon of our State, was critical.
    In November 2003, 62% of Hood River County voters endorsed a ballot 
measure intended to protect rural forestlands from large development. 
Among the issues in that campaign were (1) the protection of the 
Crystal Springs watershed, which extends into the area of Cooper Spur 
proposed for wilderness, and (2) limits on excessive commercial 
development in the Cooper Spur area. Wilderness protection is 
consistent with the directly expressed wishes of Oregon citizens.
    Moreover, the extension of wilderness coincides with the findings 
of the U.S. Forest Service, who in official documents, including the 
Mt. Hood Land and Resource Management Plan (LRMP) found that the need 
for dispersed recreation offered by wilderness is growing much faster 
than existing areas can accommodate. An expansion of wilderness is 
necessary to meet the demand for it.
    While the Coalition's focus is, as described above, the Cooper Spur 
area of Mount Hood, and as a Coalition we strongly support increased 
protection for that area, I believe that equally strong support exists 
for the other portions of the proposed wilderness expansions. 
Wilderness creates a benefit for the Mountain as a whole. So too, 
wilderness protections in the Columbia Gorge area are advisable and 
critical to provide for the needs of a growing population in Oregon. 
But not only is the population growing; so also are a deep 
understanding of the value of wilderness, and the desire and need for 
it.
    Several of our members have concerns with provisions of the Act 
that deal with other matters than wilderness protection. I believe the 
ideal solution would be legislation that dealt directly with wilderness 
protection in one bill and dealt with other matters--such as the 
sections mandating acreage targets for logging projects and special 
provisions for mountain biking areas that use the wilderness act as the 
foundation for protection--in other bills.
    Moreover, because the forests on Mt. Hood's northeast side are 
healthy and relatively remote, they are not priority areas for 
treatment. The Coalition believes that non-commercial projects, such as 
those suggested by Title VIII of the draft legislation, should focus on 
priority areas near homes and communities. In our view, the draft 
legislation's distinction between east and west side forests is not 
helpful. The Cooper Spur area is on Mt. Hood's northeastern flank, and 
nonetheless deserves the same protections afforded to west side 
forests.
    I have also read the testimony of Mark Rey, Undersecretary of the 
Department of Agriculture, and applaud his stated interest in extending 
wilderness protection. However, I am disappointed to see his statement 
regarding Cooper Spur, because it shows how at odds he and the Forest 
Service are with the sentiments of local residents, the overwhelming 
majority of Oregonians, and the Forest Service's own Mt. Hood National 
Forest Land and Resource Management Plan. The Cooper Spur area has been 
a small family ski area of 50 acres in size for many decades. The 
undeveloped part of the permit area provides a unique historic 
backcountry experience.
    Mr. Rey suggests that wilderness is OK so long as wilderness does 
not interfere with any other potential use. Mr. Rey cites a need for 
developed recreation. However, the Forest Service's own Management Plan 
states that the supply of developed recreation far exceeds the demand, 
while the supply of wilderness style backcountry recreation is far 
outstripped by demand. In addition, the undeveloped portion of the ski 
permit area is part of the Crystal Springs Zone of Contribution, which 
provides drinking water for a large percent of Hood River County's 
population. Mr. Rey's position is self-limiting, overly nuanced, and 
out of touch with the needs and desires of Oregonians who enjoy this 
special place and live productive lives in the Hood River Valley below.
    Nearly 200 years ago Lewis and Clark explored country that was then 
nearly all wilderness. About 100 years ago, the centennial celebrations 
of that exploration were being planned and held at the same time that 
the nation began to set aside significant parts of our public lands for 
public benefit and enjoyment. Those lands are a legacy to us today, and 
we can honor and further that legacy with the kind of bold proposal 
made for wilderness protection.
    I encourage the Congress to make extension of wilderness areas 
around Mount Hood and in the Columbia Gorge a reality, and to make the 
wilderness proposal a law of the United States. There will be few 
chances to do a better thing for those who follow us.
                                 ______
                                 
Statement of Dave Compton, on Behalf of Middle Fork Irrigation District

    MFID and its patrons throughout the Hood River Valley stand to be 
profoundly affected by proposed S. 2723, the Lewis and Clark Mount Hood 
Wilderness Act of 2004 (the ``Bill''), and the amendment to the Wild 
and Scenic Rivers Act (``WSR Act'') contained within Title II of the 
Bill.
    Section 903 of the Bill states that it will not affect the 
``ability of Middle Fork Irrigation District to operate in a similar 
manner as the District operated on the day before the date of enactment 
of this Act.'' While the Bill is well-intentioned, the word ``operate'' 
is far too narrow. This restrictive wording resembles nonconforming use 
language in certain statutes, and it could be interpreted as 
effectively freezing the MFID's operations to the day before the Act, 
preventing needed changes and upgrades to the District, not only for 
its operations, but also for the recovery of Bull Trout, an effort in 
which the District is intimately involved.
    The District non-disturbance concept in Section 903 should be far 
more expansive. The Bill should not relegate MFID merely to the status 
of some permitted but non-conforming use. It should encompass any 
necessary future changes in MFID's water use and hydropower system. 
Their viability is vital to the health of the District, and the 
thousands of acres of Hood River Valley agriculture dependent upon 
MFID.
    MFID is a progressive District and is making continual changes to 
improve its operations, and to further conform and integrate those 
operations into the species and habitat needs of the basin. MFID's 
operations are moreover now undergoing an ESA consultation that may 
recommend or require certain changes in those operations. The present 
Section 903 of the Bill could impair the District's ability to craft 
creative solutions to any species or habitat issues identified in the 
consultation.
    Section 903 should specifically include the USFS permit relating to 
MFID, and any future changes-necessary or desirable thereto, as part of 
the non-disturbance language of Section 903.
    As to Section 201 of the Bill, it is appropriate that Wild and 
Scenic Rivers should be adopted through the process of the WSR Act, 
based on the intrinsic merits of the river and after serious study of 
the river, and not merely because the river happens to flow through the 
(proposed) wilderness area.
    Section 201 of the Bill, amending Section 3(a) of the WSR Act to 
include ``the 4.7 mile segment of the Middle Fork Hood River from the 
confluence of the Clear and Coe Branches to the Mount Hood National 
Forest boundary, as a scenic river'' will create inevitable conflicts 
with Section 903 of the Bill, and serious concerns for MFID. For 
example:
    How will the Wild And Scenic River and all corridor lands 
designations affect the functioning of the District, including its 
hydropower operations? Will those operations be deemed to affect or 
even impair the wild and scenic river? This is not addressed. The 
reconciliation of the existing District diversions, including its hydro 
system, and changes to them, with the provisions of the WSR Act is a 
serious unresolved issue in the Bill.
    Is it clear under the Bill that MFID will be free to enter into and 
amend hydropower contracts, or change or expand its hydropower 
operations if necessary? It seems unlikely under this Bill.
    Given a Wild and Scenic River designation, will the District be 
able to transfer, modify or supplement its water rights? This is 
essential for any District, but is unclear under the Bill.
    May MFID clean, maintain reconstruct, and screen diversions on the 
Wild and Scenic rivers under the present Bill? It is not clear.
    May MFID install fish passage where needed, or re-rout diversions, 
some of which changes are likely very beneficial to listed species and 
water quality? The Bill is not clear about these vital needs of MFID.
    How will the Bill affect access by the District and its vehicles 
for maintenance, repairs, access to diversions, to gauges, and other 
equipment? Again this is not clear, but it will undoubtedly present a 
problem under the current language.
    Will there be deemed to be an implied federal reservation of water 
rights for these Wild and Scenic rivers or for other purposes of the 
wilderness? Any. such reservation should be expressly disclaimed.
    If the State of Oregon follows suit and designates the same 
portions of the rivers, as well, as wild and scenic rivers, water use 
changes will be effectively paralyzed under the State law. How will the 
Bill address that?
    These are only some of the issues that come to mind by the language 
of the Bill. We recommend that there be a clear exemption in the Bill 
that protects not only current operations of MFID but flexibly allows 
all current and future changes the District may need to make (through 
its own initiative, as may be recommended in a Biological Opinion, as 
provided under its USFS permit, or as required by law) to its 
irrigation and hydropower systems for storage, diversion, and 
conveyance, and all access, maintenance and repair needs associated 
with such uses. Such exemption should carve these functions and spaces 
out from both the Bill and the WSR Act amendment within it.
                                 ______
                                 
              Statement of the Oregon Recreation Coalition

    The Oregon Recreation Coalition supports Wilderness designation 
only in areas that meet the characteristics identified in the 1964 
Wilderness Act and where evidence of human activity does not exist and 
has not existed.
    The Lewis and Clark Mt. Hood Wilderness proposal, S. 2723, does not 
meet the above standard. The Oregon Recreation therefore opposes the 
proposal as written. This proposal would add in excess of 177,000 acres 
of Wilderness to the Mt. Hood Forest in about 15 different segments. 
The bill proposes bringing Wilderness boundaries up to the edge of many 
travel ways. Such placement of boundaries sets the Forest Service up 
for dealing with perceptions of conflict between Wilderness advocates 
and the users of the Wilderness locked roads and trails. Other travel 
ways have been ``penciled out'' in the plan. The proposal calls for an 
existing power line to be buried because a visible power line in a 
Wilderness Area is an ``incongruent presence.'' The power line burial 
would be accomplished at a cost of $3,200,000.00. There is evidence of 
logging across much of the landscape.
    Recreation groups report at least 1100 miles of trails and roads 
would be eliminated or compromised by the proposal, not to mention the 
acres and miles of play areas currently open to over snow machines in 
the winter. The Forest Service is unable to confirm this figure because 
they do not have a comprehensive trails inventory. The Forest Service's 
own proposal to establish a designated route system for roads, trails 
and areas for OHV and Over Snow Vehicles is presently out for comment. 
A wise move would be to let them do their job, develop a comprehensive 
inventory and then decide to increase or decrease the system.
    Recreationists support healthy forests. Many areas of the Mt. Hood 
Forest were logged about 60 years ago. Regrowth and underbrush in these 
areas have not been managed to the degree necessary to create a healthy 
forest. The risk of loss to wild fire is great. Evidence of dead and 
dying trees can be seen across the landscape. The East and South sides 
of the Forest do not receive enough moisture to support continued 
healthy growth of existing vegetation. Active management of these 
Forests is a must to reduce wild fire risk and intensity and to 
maintain a healthy forest. Wilderness designation does not support 
active management.
    Recreationists support local economies. One of the recreational 
pursuits seriously impacted by this Wilderness proposal is 
snowmobiling. Snowmobiling is a growing sport. With recent 
technological advances effecting sound and fuel efficiency it is seen 
as a healthy, family winter activity. Snowmobiling generates jobs and 
income wherever facilities and trails are available.
    Recent studies reveal that 9% of every dollar spent by snowmobilers 
ends up in government treasuries through various taxes paid. Across the 
Snow Belt in the United States and Canada last year snowmobilers 
generated over $25 billion worth of economic activity. This proposal 
reduces one snowmobile trail system on the Mt. Hood Forest by 90% and 
another by about 65%.
    In addition to reducing the snowmobile trail systems, the proposal 
reduces expansion potential of developed ski areas, in one case from 
1500 acres to 50 acres. Down hill and cross country skiing are promoted 
as clean, healthy, growing family activities that promote physical 
health during an otherwise sedentary wintertime. Of every dollar spent 
by a skier, 80 cents supports the local economy.
    These reductions in actual activity areas and in potential growth 
areas are included in the Wilderness proposal.
    1. Despite recognition that the metropolitan center that qualifies 
Mt. Hood National Forest as an urban forest is growing and will require 
more rather than less opportunity for winter recreation;
    2. Despite recognition that smaller communities are suffering 
financial hardships resulting from drastic reductions in income with 
the phasing out of mining and timber harvest activities; and
    3. Despite the fact that in most places adequate protections for 
the land are already in place. Existing protections include an existing 
180,000 acres of Wilderness on the Mt. Hood Forest. There are currently 
many Wild and Scenic River miles on the Mt. Hood Forest. Other 
protections include the Northwest Forest Plan, the Forest Services own 
management plan, the Endangered Species Act and the Clean Water Act.
    If more protection is needed for some of the special areas, 
consideration should be given to a less restrictive designation such as 
Back Country Recreation. This designation, proposed by Blue Ribbon 
Coalition, allows the Forest Service to actively manage the land while 
continuing to preserve the back country character of the landscape.
                                 ______
                                 
              Statement of the Oregon Chapter Sierra Club

    Representing nearly 23,000 Oregonians, the Oregon Chapter Sierra 
Club (``Oregon Chapter'') submits the following written testimony for 
your consideration regarding S. 2723, the Lewis and Clark Mount Hood 
Wilderness Act of 2004. The Oregon Chapter has sought additional 
protection for Mt. Hood and the Columbia Gorge for some time and we 
applaud Senator Wyden for introducing legislation that we hope will 
provide protection for wild lands along the route taken by Meriwether 
Lewis, William Clark and the entire crew of the Corps of Discovery.
    Wild lands in Oregon are shrinking as we speak. Large-scale 
commercial logging, off road vehicles and development continue to 
threaten the integrity of our forests, the watersheds and natural 
ecosystems they contain, and their loss harms the outdoor enthusiast 
who yearns for places to escape the every day stresses of modern 
civilization.
    This year we celebrate the 40th year anniversary of the Wilderness 
Act, the 20th year anniversary of the Oregon Wilderness Act of 1984, 
and the 200th year anniversary of Lewis' and Clark's traversing this 
great nation. In light of this history, we see the protection of tens 
of thousands of acres on Mt. Hood and in the Columbia Gorge as an 
especially fitting honor to bestow upon these Oregon icons. Given the 
ever-increasing value of scarce water resources, the Oregon Chapter 
also appreciates the recognition of the scenic, wild and recreational 
value of nearly 48 miles of rivers that would forever be protected. 
Overwhelming numbers of Oregonians are in favor of these protections.
    While Titles I and II are very attractive, the Oregon Chapter does 
not support S. 2723 as currently written. Nonetheless, we have been 
working and will continue to work with Senator Wyden to address our 
concerns over provisions in the remaining Titles that are either 
unrelated to the wilderness and wild and scenic rivers acts or are 
provisions that create exceptions to the laws and regulations that 
pertain to these acts. We are encouraged by the forward progress that 
Senator Wyden has made with this bill and in that vein the Oregon 
Chapter respectfully urges that the following changes be made to enable 
our support. These comments are provided as they appear within the 
bill.
    The wilderness additions in Title I are set forth in a map that 
outlines numerous roads. These roads fragment the acreage designated as 
wilderness. The Oregon Chapter requests that additional road closures 
be authorized and funded to increase the Forest Service's ability to 
comply with its duty to manage them as provided in Section 2(c) of the 
Wilderness Act. The Oregon Chapter is particularly concerned about the 
impact of roads around the roadless areas that are smaller than the 
5,000-acre benchmark contemplated by the Act. While the Oregon Chapter 
recognizes the existence of important wilderness quality areas smaller 
than 5,000 acres, we call on the Committee to respond to the need in 
this forest to close roads.
    Knowledgeable community leaders and panelists at both of the Mt. 
Hood Summits that were held at Timberline Lodge in 2003 and 2004 echoed 
this call. Gail Achterman, from the Oregon Institute for Natural 
Resources, called for the closure of additional roads to protect 
watershed health and integrity. The Oregonian has also reported on the 
backlog of road closures and the management nightmare the excess of 
unused roads causes. Senator Wyden has obviously thought of the 
importance of funding key components of the legislation. With active 
funding for road rehabilitation and additional road closures the Forest 
Service will have the funds to achieve the mandate for these lands. 
Therefore, we strongly encourage the inclusion of funding for 
decommissioning, reconstruction, and restoration of all roads closed 
throughout the Mt. Hood National Forest in the bill. This will help 
create jobs as well as improve the natural function of the ecosystems.
    The proposal also excludes previously logged areas resulting in 
some odd shapes and squares. In some places, the exclusion of these 
lands has pushed the proposed wilderness into narrow swaths and 
peninsulas. The idea that only pristine areas could be added to the 
National Wilderness Preservation System was set aside long ago, as 
evidenced by the Eastern Wilderness Areas Act and many others that 
followed soon thereafter. The Oregon Chapter suggests that wilderness 
boundaries include all public lands within a perimeter that goes to the 
nearest permanent road or development. That way, when the trees grow 
back, whether naturally or with help from targeted restoration 
projects, those forests will increase the overall integrity of many of 
the superb wilderness additions in this legislation.
    We understand the reasons for protecting areas while allowing 
mountain bikers to enjoy and explore them. The Sierra Club has many 
members nationwide and a great number enjoy this human-powered pursuit. 
We urge Congress to consider an appropriate designation that provides 
protection akin to wilderness yet also provides a way for the mountain 
bikers to continue to use their favorite trails. We support the use of 
a designation such as given the Opal Creek Scenic Recreation Area here 
in Oregon and the proposed Virginia Ridge and Valley Scenic Areas (H.R. 
4202.IH) as alternative designations that can best achieve these goals. 
Our recent conversations with leaders in Oregon's mountain biking 
community suggest that we can reach common ground on using an 
appropriately crafted alternative designation. The current language 
concerns both our mountain biking constituents and wilderness advocates 
alike, with the mountain bikers fearing that the areas set aside for 
their use and enjoyment may revert to wilderness and bar their future 
use. We all agree that it is time to set aside any contention and set 
aside areas protected for bikes, not debate it again once the Forest 
Service issues a recommendation. The Oregon Chapter urges a solution 
using a special designation as the foundation to ensure permanent 
protection for an appropriate measure of wild lands in a way that 
permits mountain bikes. Many bikers are keenly aware of the need for 
best management practices for mountain bike trail maintenance. We would 
support the inclusion of those kinds of provisions, and look forward to 
continuing to work with the mountain bikers, Senator Wyden and this 
Committee on creating a replicable special designation allowing 
mountain bike use while preserving natural resource values. In the 
alternative, whether such a designation poses difficulties or not, 
Congress could simply preclude logging, mining, development, motorized 
vehicles, and other unwanted uses within specific boundaries without 
naming the area. That measure would address significant concerns from 
local bikers who are concerned about the overwhelming draw that can be 
created by excessive publicity for a special designation.
    The Oregon Chapter is concerned about a number of provisions that 
may exempt actions from, or change definitions in order to meet, 
provisions of the Wild & Scenic Rivers Act and the Wilderness Act. 
These exemptions are mostly evident in Title VI and IX, and we ask that 
they be removed. The existing regulations and rules stand on their own 
and the bill should be reconciled with these provisions. As written, 
these provisions may confuse the management guidelines on the ground 
from established Wilderness Act and Wild & Scenic Rivers Act guidance.
    The Oregon Chapter requests that highways be defined as ``paved'' 
and their maintenance allowed within standard setbacks. Any major 
federal project, regardless of the source of its recommendation, should 
not be allowed to circumvent the National Environmental Policy Act 
(NEPA) analysis and the applicable rules under the National Forest 
Management Act and other applicable laws and regulations.
    The Oregon Chapter requests that the Clackamas County Land Exchange 
discussed in Title VII be carried out using NEPA procedures and that 
full and fair market value appraisals be conducted according to federal 
law. We request that appropriate procedures be followed to ensure the 
American public of an equal value exchange that is in the public 
interest.
    The Oregon Chapter has significant concerns with the commercial 
logging provisions spelled out in Title VIII. The Sierra Club has been 
working to address fire protection and forest health issues for years, 
both promoting genuine community protection measures and opposing 
unsustainable old-growth logging dressed up as forest health projects. 
We have also been engaged in meaningful dialogue with concerned local 
citizens around Mt. Hood to reduce fire risks in priority areas around 
homes and communities. According to Jack Cohen, with the Forest 
Service's Fire Sciences Lab in Missoula, ``research indicates that the 
home and its immediate surroundings within 100 to 200 feet principally 
determine the home ignition potential during severe wildland fires.'' 
\1\
---------------------------------------------------------------------------
    \1\ Jack D. Cohen, Research Scientist/Manager, U.S. Forest Service 
Fire Lab, Wildland-Urban Fire--A different approach, http://
firelab.org/fbp/fbresearch/wui/pubs.htm
---------------------------------------------------------------------------
    While we are unable to support measures with the explicit goal of 
increasing commercial timber production on public lands, we appreciate 
Senator Wyden's interest in proactively treating plantations with pre-
commercial thinning. With a focus on ecological priorities and in areas 
nearest to communities this legislation could both protect forest 
health and create jobs in local communities.
    We are concerned that defining the success of the effort based on 
the achievement of acreage targets across the forest does not give the 
Forest Service the direction they need to prioritize areas most in need 
around the perimeters of communities such as Parkdale and Hood River, 
Oregon. Furthermore, the east side forests and communities of Mt. Hood 
deserve the same protections given to the forests and people in Hood 
land corridor communities such as Welches and Zig Zag. The people of 
Dufur simply should not receive less in terms of community protection 
efforts than that those who live in Rhododendron. We ask that this bill 
be amended to ensure parity for west and east side forest communities.
    We applaud the Senator's continued efforts to recognize the call 
for the protection of mature and old growth forests. Protection of 
older forests spelled out in Title VIII should be broadened to include 
trees and stands over 80 years of age. Forests over 80 years old are 
not the appropriate targets of efforts to restore forest health. The 
Senator is in sync with the people of Oregon as the result of his 
continued work to promote protections for old-growth forests, forests 
that the majority of Oregonians, both rural and urban, wish to protect.
    The Oregon Chapter commends Senator Wyden for opening this 
important and historic dialogue. We look forward to our continued work 
with him and the communities around Mt. Hood in the coming months. We 
are available to provide assistance and on-the-ground expertise to 
effect the changes we seek and we very much look forward to supporting 
the resulting legislation.
                                 ______
                                 
          Statement of the Oregon State Snowmobile Association

    The Oregon State Snowmobile Association supports Wilderness 
designation only in areas that meet the characteristics identified in 
the 1964 Wilderness Act and where evidence of human activity does not 
exist and has not existed. The areas identified in most of the 20 or so 
parcels proposed for addition to the Mt. Hood Wilderness areas contain 
roads, trails, highways, power lines, and evidence of logging 
activities.
    The Lewis and Clark Mt. Hood Wilderness proposal, S. 2723, does not 
meet the standards of the 1964 Wilderness Act. The Oregon State 
snowmobile Association therefore opposes the proposal as written. This 
proposal would add in excess of 177,000 acres of Wilderness to the Mt. 
Hood Forest in about 20 different segments. The bill proposes bringing 
Wilderness boundaries up to the edge of many travel ways. Such 
placement of boundaries sets the Forest Service up for dealing with 
perceptions of conflict between Wilderness advocates and the users of 
the Wilderness locked roads and trails. Snowmobilers have experienced 
the results of this perceived use conflict in other areas where 
Wilderness advocates object to the presence of motorized vehicles close 
to the Wilderness boundaries.
    Other travel ways have been ``penciled out'' in the plan. The 
proposal calls for an existing power line to be buried because a 
visible power line in a Wilderness Area is an ``incongruent presence.'' 
The power line burial would be accomplished at a cost of $3,200,000.00. 
Members of the Oregon State Snowmobile Association are taxpayers and as 
such object to the ever increasing burden being placed on them by such 
proposals.
    Recreation groups report at least 1100 miles of trails and roads 
would be eliminated or compromised by the proposal. Approximately 460 
miles of the compromised or eliminated roads and trails are currently 
designated Snowmobile trails. This does not include the acres and miles 
of play areas currently open to over snow machines in the winter that 
would no longer be available.
    The Oregon State Snowmobile Association supports healthy forests 
for several reasons; recreational enjoyment, economic health through 
harvest of trees and of by-products, safety and the health of forest 
dependant species. Many areas of the Mt. Hood Forest were logged about 
60 years ago. Regrowth and underbrush in these areas have not been 
managed to the degree necessary to create a healthy forest. The risk of 
loss by wild fire is significant, especially on the east and south 
sides of the Mountain. Evidence of dead and dying trees can be seen 
across the landscape. The east and south sides of the Forest do not 
receive enough moisture to support continued healthy growth of existing 
vegetation. Active management of these Forests is a must to reduce wild 
fire risk and intensity and to maintain a healthy forest. Wilderness 
designation does not support active management.
    The Oregon State Snowmobile Association supports local economies. 
One of the recreational pursuits seriously impacted by this Wilderness 
proposal is snowmobiling. Snowmobiling is a growing sport. With recent 
technological advances effecting sound and fuel efficiency, 
snowmobiling is seen as a healthy, family winter activity. Snowmobiling 
generates jobs and income wherever facilities and trails are available.
    S. 2723 references the Mt. Hood Forest Plan and claims that on the 
Mt. Hood Forest there is need for more Primitive recreation than 
currently exists and less Developed recreation than presently exists. 
Perhaps this data was developed prior to the addition of Wilderness 
acreage in 1984. The International Snowmobile Manufacturers Association 
reported on August 27, 2004, there has been a 43% growth in the number 
of registered snowmobiles over the last two decades.
    Recent studies reveal that 9% of every dollar spent by snowmobilers 
ends up in government treasuries through various taxes paid. Across the 
Snow Belt in the United States and Canada last year snowmobilers 
generated over $25 billion worth of economic activity. This Wilderness 
proposal reduces one snowmobile trail system on the Mt. Hood Forest by 
90% and another by about 65%. These reductions are being proposed:
          1. despite recognition that the metropolitan center that 
        qualifies Mt. Hood National Forest as an urban forest is 
        growing and will require more, rather than less opportunity for 
        winter recreation;
          2. despite recognition that smaller communities are suffering 
        financial hardships resulting from drastic reductions in income 
        with the phasing out of mining and timber harvest activities; 
        and
          3. despite the fact that in most places adequate protections 
        for the land are already in place. Existing protections include 
        an existing 180,000 acres of Wilderness on the Mt. Hood Forest. 
        There are currently many Wild and Scenic River miles on the Mt. 
        Hood Forest. Other protections include the Northwest Forest 
        Plan, the Forest Services own management plan, the Columbia 
        Gorge National Scenic Area, the Endangered Species Act and the 
        Clean Water Act.
    If more protection is needed for some of the special areas, 
consideration should be given to a less restrictive designation such as 
Back Country Recreation. This designation, proposed by Blue Ribbon 
Coalition, allows the Forest Service to actively manage the land while 
continuing to preserve the back country character of the landscape.
    The Oregon State Snowmobile Association represents many 
snowmobilers throughout the Pacific Northwest and the snow belt states 
as well as the 18,000 registered snowmobile owners in Oregon. Many of 
these people choose snowmobiling as their primary form of recreation 
and for some the snowmobile is their chosen method of transportation 
during the snow season.
    The wilderness proposal will not only affect Oregon snowmobilers it 
will affect all snowmobile enthusiasts who travel to this state to 
enjoy their sport. The economic impact to Oregon will be significant.
    When the snow is gone, ``snowmobilers leave no trace''.
                                 ______
                                 
                          RESOLUTION No. 36221

    Endorse the Lewis and Clark Mount Hood Wilderness proposal and 
support federal wilderness protections for the remaining roadless areas 
in the Mount Hood National Forest and Columbia River Gorge (Resolution)
    WHEREAS, the wild splendor of the Cascade Mountains and the 
Columbia River are well-known symbols of Oregon; and
    WHEREAS, in 1805 Captains Meriwether Lewis and William Clark during 
the Corps of Discovery Expedition noted both the Columbia Gorge and 
Mount Hood in their Journals; and
    WHEREAS, the forests and waters of the Mount Hood National Forest 
provide clean drinking water for millions of Oregonians; and
    WHEREAS, the roadless forests and wildlands that remain in Oregon, 
and in particular, the Mount Hood National Forest and Columbia Gorge, 
provide easily accessible outdoor recreation, including but not limited 
to backcountry hunting and fishing, horseback riding, mountain climbing 
and backpacking, skiing and snowshoeing, canoeing and kayaking, hiking, 
camping, wild berry picking, wilderness bird-watching and wildlife 
viewing and countless opportunities for Portland's residents and their 
families to participate in outdoor recreation activities; and
    WHEREAS, the citizens of the City of Portland use and enjoy these 
lands and have an interest in their maintenance in a pristine natural 
condition; and
    WHEREAS, the Wilderness Act of 1964 offers the most certain and 
inviolable protections for federal lands, and that the Mount Hood 
National Forest are federal lands;
    NOW, THEREFORE, BE IT RESOLVED, that in recognition of the current 
and future contributions of these lands to the economic and 
environmental vitality of the city and to the citizens of Portland, to 
the rest of the citizens of Oregon and the United States of America, 
the City of Portland hereby endorses the Lewis and Clark Mount Hood 
Wilderness proposal and supports federal wilderness protections for the 
remaining roadless areas in the Mount Hood National Forest and Columbia 
River Gorge.

Adopted by the Council: June 9, 2004

GARY BLACKMER, Auditor of the City of Portland


</pre></body></html>
